                   I nspe ctor Ge ne ral
                                      United States Department of Defense

                  o c t o b e r 1 , 2 0 1 2 TO m a r c h 3 1 , 2 0 1 3




                     Semiannual Report
                     to the Congress




                          Required by Public Law 95-452



I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely over-
          sight of the Department that: supports the warfighter; promotes
          accountability, integrity, and efficiency; advises the Secretary of
                     Defense and Congress; and informs the public.



                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting ex-
          cellence; a diverse organization, working together as one profes-
                     sional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                                                                      NERAL
                 	                                                        INSPECTOR GEDEFENSE
                                                                                   OF
                                                                      DEPARTMENT
                 	                                                                   TER DRIVE
                                                                      4800 MARK CEN         0-1500
                                                                               VIRG IA 2235
                                                                                   IN
                                                                   ALEXANDRIA,

                                                                                                                                                                     ual Report to
                                                                                                                              to r  G  eneral Semiann
                                                                                                    Defense       In  sp  ec                                          in accordance
                                                    es  en  t  th  e   D  epartment of                          ro  ug  h   M   ar ch  31, 2013, issued
                                           to pr                                    ctober 1, 2012,
                                                                                                            th
                      I am pleased                      rting period O
                                 s  fo r th  e  re  po                                         am   en  de d.
                      Congres                                             of 1978, as
                                             tor General Act                                                                                                        y groundbreak-
                       with the Inspec                                                                                            se  of 30 years, man
                                                                                                         . Ove   r  th  e co  ur                                      aste, and abuse
                                                                    ni  ve   rsary of DoD IG                                       r re ducing fraud, w
                       This year marks
                                                 th e  30  th   an                                      paved    th  e  w  ay   fo                                    e past 30 years,
                                                     on  s,  an  d   in  ve  stigations have                      ts   w  e  ha  ve  co mpleted over th
                                               ecti                                                        ojec
                       ing audits, insp                                            consider the pr                                    arkable.
                                 th e  D  ep  ar  tm   ent. When you                           D  ep ar  tm ent is truly rem
                        across                                            ad   e   on    th e
                        the positive im
                                               pact we have m                                                                                                          e reporting pe-
                                                                                                                   pr  oj ec  ts  co m  pleted during th
                                                                                        those significant
                                          rt ,  w  e hi  ghlight a few of                                                                                             t being valued or
                         In this   re po
                                                                                                                 hl  y  $8  92  .3 m  illion that was no
                         riod to include:                                             ty valued at roug                   ancial statemen
                                                                                                                                                    ts.
                                                           rnment proper                          stems or on fin                                                               veteran
                            •	 Id  en ti fy in  g  go  ve
                                                                   ac   co  un    ta bi  lit y sy                                 in g  to   be    a   service-disabled
                                                     e  A  rm    y                                             ls el y   cl ai m
                                tracked in th                                           ntractor for fa
                                             at  in g   a  prime DoD co                                                                                                 22A mishap of
                             •	 In  ve st ig
                                                           si  ne  ss .                                               n    B oa  rd    R ep  ort on the F-
                                 owned small           bu                                                          io
                                                                                          ident Investigat
                                     al ua  ti ng    th  e   Air Force Acc                        fiv e deficiencies.                                          d develop sustai
                                                                                                                                                                                    nable
                              •	 Ev                                           id  en  ti fy  in g                                     co  nd  iti on   s   an
                                                           2010, and                                                           care                                               ospital
                                  November 16,                                 on    eff  or  ts to  improve health                     aw  oo   d   N  at  io  nal Military H
                                                         . and coal        iti                                                       D
                               •	 Assessing U.S                                                            logistics at the
                                                          na  l  Se  cu  ri  ty   Forces medical
                                  Afghan Nat          io
                                                              nistan.                                                                                                              issuing
                                   in Kabul, Afgha                                                                                      og ra  m    in  cl ud   ing our role in
                                                                                                             er Protection Pr                                               budsman.
                                                               lig ht   th  e  D   oD Whistleblow                          w  hi st lebl ow   er protection om
                                                      hi  gh                                                     D   oD
Principal Deputy            In addition, we                                              pointment of a
Inspector General                    y an   d  pr  oc  ed  ures, and the ap                                                                                 on    in potential mon
                                                                                                                                                                                       etary
                             polic                                                                                                 tifie d  $1  .3  bi  lli                            nvic-
Lynne M. Halbrooks.
                                                                                ,  w e   issu  ed  64   reports and iden                  im  in  al  ch   ar  ge   s, 98 criminal co
                                                          rting period                                                           102   cr                                             t. The
                              During this repo                                    w  er  e th  e ba  sis for 56 arrests,                     re  tu  rn  ed    to    the governmen
                                                       investigations                                                                   on
                              benefits. DCIS                                                                 well as $1.6 billi                                            mmunity.
                                                             on  s,  an   d   95    debarments, as                     ic  an  d  m  em   be rs of the DoD co
                                                          si                                                       bl
                               tions, 98 suspen                                           acts from the pu
                                        H  ot  lin e  fie ld  ed 16,615 cont                                                                                    cl uding the Arm
                                                                                                                                                                                     y Audit
                               DoD                                                                                                       is  re  po   rt ,  in
                                                                                                                               d to th                                                 mand,
                                                                                   un  te  rp  ar ts who contribute                       y  C ri  m   in  al  In   vestigation Com
                                                          thank our           co                                               .S. Arm                                               Defense
                                I would like to                                 e,  A  ir  Fo  rc e A udit Agency, U                    ec  ia l  In  ve   st ig ations, and the
                                                         Audit Servic                                         rce Office of Sp
                                Agency, Naval                        st ig at  iv  e  Service, Air Fo
                                                             In  ve
                                 Naval Criminal                                                                                                                                        ees and
                                                            Agency.                                                                                                 DoD IG employ
                                 Contract Audit                                                                                    mplis   hm    en  ts  of    al l
                                                                                                                                                                                      artment,
                                                                                    m  y   ap  pr ec ia tion for the acco                  dr  es  s  effi  ci en   cies in the Dep
                                                              t to expres        s                                                  to ad                                                orting
                                  In closing, I wan                               t  co  m   m  un  ity . As we continue                   s fo  r th   ei r  co  m    mitment to supp
                                  the entire defens
                                                               e oversigh                                       ent and Congres
                                                              ai n  lik  e  to  th   ank the Departm
                                   I would once ag
                                                            r office.
                                   the work of ou




                                                                                                                       ooks
                                                                                                       Lynne M. Halbr
                                                                                                                   eput y
                                       				                                                            Principal D
                                       				
STATISTICAL HIGHLIGHTS

SUMMARY OF AUDIT ACTIVITIES
  Reports Issued 	                                                                                   50
  Monetary Benefits
  	       Recommendations Made on Funds Put to Better Use	                                   $1 billion
      	   Achieved Monetary Benefits (Funds Put to Better Use)	                          $932.8 million

SUMMARY OF DEFENSE CRIMINAL INVESTIGATIVE SERVICE ACTIVITIES
  Total Returned to the U.S. Government1	                                                   $1.6 billion
  	       Recovered Government Property	                                                   $5.2 million
  	       Civil Judgments/Settlements	                                                   $898.6 million
  	       Criminal Fines, Penalties, Restitution and Forfeitures	                        $717.8 million
  	       Administrative Recoveries 	   2
                                                                                          $72.5 million
  Investigative Activities
  	Arrests	                                                                                          56
  	       Criminal Charges	                                                                        102
  	       Criminal Convictions	                                                                      98
  	Suspensions	                                                                                      98
  	Debarments	                                                                                       95

SUMMARY OF ADMINISTRATIVE INVESTIGATIONS
  Complaints Received	                                                                             695
  Complaints Closed	                                                                               534
  	       Senior Official	                                                                         256
  	       Whistleblower Reprisal	                                                                  278

SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES
  Existing and Proposed Regulations Reviewed	                                                      139
  Evaluation Reports Issued	                                                                          7
  Inspector General Subpoenas Issued	                                                              309
  Contractor Disclosures Received	                                                                   86
  Potential Monetary Benefits	                                                            $249 million

SUMMARY OF INTELLIGENCE AND SPECIAL PROGRAM ASSESSMENTS ACTIVITIES
  Reports Issued	                                                                                     4

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
  Assessment Reports Issued	                                                                          3

SUMMARY OF DEFENSE HOTLINE ACTIVITIES
  Contacts	16,615
  	       Cases Opened	                                                                           1,499
  	       Cases Closed	                                                                           1,050




1	 Includes investigations conducted jointly with other law enforcement organizations.
2	 Includes contractual agreements and military non-judicial punishment.

   ii SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                       CONTENTS
1. OVERVIEW
	        MISSION & ORGANIZATION...........................................................................................................................................2
                      MISSION................................................................................................................................................................2
                      ORGANIZATION.................................................................................................................................................3
	        EXECUTIVE SUMMARY.......................................................................................................................................................4
                      OVERVIEW............................................................................................................................................................4
                      PRIORITIES...........................................................................................................................................................4
                      CORE MISSION AREAS.....................................................................................................................................5
                      ENABLING MISSION AREAS .........................................................................................................................8
	        IG HIGHLIGHTS......................................................................................................................................................................8
                      WHISTLEBLOWER PROTECTION PROGRAM: PAST, PRESENT AND FUTURE..............................8
2. CORE MISSION AREAS
	AUDITS................................................................................................................................................................................... 12
                      ACQUISITION PROCESSES AND CONTRACT MANAGEMENT....................................................... 12
                      FINANCIAL MANAGEMENT........................................................................................................................ 21
                      JOINT WARFIGHTING AND READINESS................................................................................................ 29
                      INFORMATION ASSURANCE, SECURITY AND PRIVACY.................................................................. 31
                      EQUIPPING AND TRAINING IRAQI AND AFGHAN SECURITY FORCES ..................................... 32
	INVESTIGATIONS............................................................................................................................................................... 35
                      PROCUREMENT FRAUD............................................................................................................................... 35
                      PUBLIC CORRUPTION................................................................................................................................... 36
                      PRODUCT SUBSTITUTION.......................................................................................................................... 39
                      HEALTH CARE FRAUD................................................................................................................................... 40
                      ILLEGAL TECHNOLOGY TRANSFER......................................................................................................... 43
                      CYBER CRIME AND COMPUTER NETWORK INTRUSIONS ............................................................. 44
	INSPECTIONS...................................................................................................................................................................... 45
                      HEALTH AND SAFETY................................................................................................................................... 45
                      JOINT WARFIGHTING AND READINESS................................................................................................ 46
	        POLICY AND OVERSIGHT............................................................................................................................................... 47
                      AUDIT POLICY AND OVERSIGHT.............................................................................................................. 47
                      INVESTIGATIVE POLICY AND OVERSIGHT............................................................................................ 48
                      TECHNICAL ASSESSMENTS........................................................................................................................ 49
	        ADMINISTRATIVE INVESTIGATIONS........................................................................................................................... 50
                      WHISTLEBLOWER REPRISAL INVESTIGATIONS.................................................................................. 50
                      INVESTIGATIONS OF SENIOR OFFICIALS.............................................................................................. 53
3. ENABLING MISSION AREAS
	        CONGRESSIONAL TESTIMONY AND BRIEFINGS................................................................................................... 56
	        DOD HOTLINE..................................................................................................................................................................... 57
	        WHISTLEBLOWING AND TRANSPARENCY............................................................................................................... 59
	PROGRAMS.......................................................................................................................................................................... 60
	        OUTREACH ACTIVITIES................................................................................................................................................... 62
4. SERVICES
	        ARMY...................................................................................................................................................................................... 66
                      ARMY AUDIT AGENCY.................................................................................................................................. 66
                      ARMY CRIMINAL INVESTIGATION COMMAND.................................................................................. 78
	        NAVY....................................................................................................................................................................................... 85
                      NAVAL AUDIT SERVICE................................................................................................................................ 85
                      NAVAL CRIMINAL INVESTIGATIVE SERVICE......................................................................................... 91
	        AIR FORCE............................................................................................................................................................................ 97
                      AIR FORCE AUDIT AGENCY........................................................................................................................ 97
                      AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS..........................................................................102
5. APPENDICES
         A.	 AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED......................................................................106
         B.	 REPORTS CONTAINING POTENTIAL MONETARY BENEFITS......................................................................114
         C.	 FOLLOWUP ACTIVITIES...........................................................................................................................................115
         D.	 CONTRACT AUDIT REPORTS ISSUED.................................................................................................................117
         E.	 STATUS OF ACTION ON POST-AWARD CONTRACTS...................................................................................118
         F.	 STATUS OF REPORTS WITH ACTION PENDING..............................................................................................119
         G.	 CONTRACT AUDITS WITH SIGNIFICANT FINDINGS.....................................................................................125
         H.	 RESULTS OF PEER REVIEWS...................................................................................................................................129
         I.	 ACRONYMS..................................................................................................................................................................130

                                                                                                                                     OCTOBER 1, 2012 TO MARCH 31, 2013 iii
REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30 and October 31 of each
year prepare semiannual reports summarizing the activities of the office during the immediately preceding six-month periods ending
March 31 and September 30. The IG Act specifies reporting requirements for semiannual reports. The requirements are listed below and
indexed to the applicable pages.

REFERENCES          REQUIREMENTS                                                                                                      PAGE
Section 4(a)(2)     “review existing and proposed legislation and regulations...make recommendations...”                              N/A

Section 5(a)(1)     “description of significant problems, abuses, and deficiencies...”                                                12-54

Section 5(a)(2)     “description of recommendations for corrective action...with respect to significant problems, abuses, and         12-54
                    deficiencies...”

Section 5(a)(3)     “identification of each significant recommendation described in previous semiannual reports on which cor-         N/A
                    rective action has not been completed...”
Section 5(a)(4)     “a summary of matters referred to prosecutive authorities and the prosecution and convictions which have          12-54
                    resulted.”
Section 5(a)(5)     “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances where infor-     N/A
                    mation requested was refused or not provided”
Section 5(a)(6)     “a listing, subdivided according to subject matter, of each audit report, inspection report, and evaluation re-   106-113
                    port issued” showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)     “a summary of each particularly significant report...”                                                            12-54

Section 5(a)(8)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     115
                    the total dollar value of questioned costs...”
Section 5(a)(9)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     115
                    the dollar value of recommendations that funds be put to better use by management...”
Section 5(a)(10)    “a summary of each audit report, inspection report, and evaluation report issued before the commencement          115
                    of the reporting period for which no management decision has been made by the end of reporting period...”
Section 5(a)(11)    “a description and explanation of the reasons for any significant revised management decision...”                 N/A

Section 5(a)(12)    “information concerning any significant management decision with which the Inspector General is in                N/A
                    disagreement...”
Section 5(a)(13)    “information described under Section 05(b) of the Federal Financial Management Improvement Act of 1996...” N/A
                    (instances and reasons when an agency has not met target dates established in a remediation plan)
Section 5(a)(14)    “An Appendix containing the results of any peer review conducted by another Office of Inspector General           129
                    during the reporting period...”
Section 5(a)(15)    “A list of any outstanding recommendations from any peer review conducted by another Office of Inspector          N/A
                    General that have not been fully implemented, including a statement describing the status of the implemen-
                    tation and why implementation is not complete...”
Section 5(a)(16)    “Any peer reviews conducted by DoD IG of another IG Office during the reporting period, including a list of       129
                    any outstanding recommendations made from any previous peer review...that remain outstanding or have
                    not been fully implemented...”
Section 5(b)(2)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     116
                    the dollar value of disallowed costs...”
Section 5(b)(3)     “statistical tables showing the total number of audit, inspection, and evaluation reports and the dollar value    116
                    of recommendations that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)     “a statement with respect to audit reports on which management decisions have been made but final action          125-128
                    has not been taken, other than audit reports on which a management decision was made within the preced-
                    ing year...”
Section 8(f )(1)    “information concerning the number and types of contract audits...”                                               117
Section 5 note      “an annex on final completed contract audit reports...containing significant audit findings.”                     119-124


  iv SEMIANNUAL REPORT TO THE CONGRESS
           1


Overview
Mission


                                  Serving the Congress
                                  and the Department
                                  Department of Defense Inspector General is an
                                  independent, objective agency within the U.S.
                                  Department of Defense that was created by the
                                  Inspector General Act of 1978, as amended.
                                  DoD IG is dedicated to serving the warfighter
                                  and the taxpayer by conducting audits, investi-
                                  gations, inspections and assessments that result
                                  in improvements to the Department. DoD IG
                                  provides guidance and recommendations to the
                                  Department of Defense and the Congress.

                                  Mission
                                  Our mission is to provide independent, rel-
                                  evant and timely oversight of the Department of
                                  Defense that:
                                    •	 Supports the warfighter.
                                    •	 Promotes accountability, integrity and 	
                                       efficiency.
                                    •	 Advises the secretary of defense and 	
                                       Congress.
                                    •	 Informs the public.

                                  Vision
                                  Our vision is to be a model oversight organi-
                                  zation in the federal government by leading
                                  change, speaking truth and promoting excel-
                                  lence; a diverse organization, working together
                                  as one professional team, recognized as leaders
                                  in our field.

                                  Core Values
                                      •	 Integrity
                                      •	 Efficiency
                                      •	 Accountability
                                      •	 Excellence

                                  Goal 1
                                  Promote economy, efficiency and effectiveness.

                                  Goal 2
                                  Identify, deter and investigate fraud, waste and
                                  abuse.

                                  Goal 3
                                  Engage, enable and empower our people.

                                  Goal 4
                                  Achieve excellence through unity.

2 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Organization



                                                        Secretary of Defense



                                                          Inspector General




                                                                 Intelligence &
                                                 Administrative                                    Policy &            Special Plans &
      Auditing            Investigations                        Special Program
                                                 Investigations                                   Oversight              Operations
                                                                  Assessments




Auditing                                             Intelligence and Special
The Office of the Deputy Inspector General for       Program Assessments
Auditing conducts audits on all facets of DoD        The Office of the Deputy Inspector General for
operations. The work results in recommenda-          Intelligence and Special Program Assessments
tions for reducing costs; eliminating fraud, waste   provides oversight (audits, evaluations and in-
and abuse of authority; improving performance;       spections) across the full spectrum of programs,
strengthening internal controls; and achieving       policies, procedures and functions of the intelli-
compliance with laws, regulations and policy.        gence enterprise, special access programs, nucle-
                                                     ar enterprise and related security issues within
Investigations                                       DoD.
The Office of the Deputy Inspector General
for Investigations leads the Defense Criminal        Policy and Oversight
Investigative Service, which protects America's      The Office of the Deputy Inspector General for
warfighters by conducting criminal and civil         Policy and Oversight provides oversight and
investigations in support of crucial national de-    policy for audit and investigative activities,
fense priorities.                                    conducts engineering assessments of DoD pro-
                                                     grams, provides technical advice and support to
Administrative Investigations                        DoD IG projects and operates the DoD IG sub-
The Office of the Deputy Inspector General for       poena and contractor disclosure programs.
Administrative Investigations investigates and
oversees investigations of allegations regarding
the misconduct of senior DoD officials, both
                                                     Special Plans and Operations
                                                     The Office of the Deputy Inspector General for
civilian and military; restriction from commu-
                                                     Special Plans and Operations provides assess-
nicating with an IG or member of Congress;
                                                     ment oversight to facilitate informed decision
whistleblower reprisal against service members,
                                                     making by senior civilian and military leaders
defense contractor employees and DoD civilian
                                                     of DoD and Congress to accomplish priority na-
employees (appropriated and nonappropriated
                                                     tional security objectives.
fund); and improper command referrals of ser-
vicemembers for mental health evaluations.

                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 3
Executive Summary



                                    Overview                                             Administrative Investigations received a total of
                                                                                         695 complaints for the first half of FY 2013 and
                                    The Inspector General Act of 1978, as amended,       closed a total of 534 complaints. Of the 534 com-
                                    states that the inspector general is responsible     plaints closed, 216 were full investigations. The
                                    for conducting audits, investigations and inspec-    investigations involved whistleblower reprisal,
                                    tions and for recommending policies and pro-         restriction of service members from contacting
                                    cedures to promote economical, efficient and         an IG or member of Congress, procedurally im-
                                    effective use of agency resources and programs       proper mental health referrals and senior official
                                    that prevent fraud, waste, abuse and misman-         misconduct.
                                    agement. The IG Act also requires the inspector
                                    general to keep the Department and Congress          Intelligence and Special Program Assessments is-
                                    fully and currently informed about problems          sued four reports that addressed acquisition pro-
                                    and deficiencies in the Department’s operations      cesses and contract and financial management in
                                    and the need for corrective action.                  the intelligence enterprise and special programs.

                                    During this reporting period, DoD IG contin-         Policy and Oversight issued seven evaluation re-
                                    ued directing its resources toward those areas of    ports primarily addressing its oversight of audit
                                    greatest risk to the Department of Defense. We       and investigative issues in DoD agencies and an
                                    are dedicated to serving the warfighter and the      assessment of the Air Force Accident Investigation
                                    taxpayer by conducting audits, investigations        Board Report concerning a November 2010
                                    and inspections that result in improvements to       F-22A crash. Policy and Oversight also issued
                                    the Department. DoD IG provides guidance and         four Department-wide policies, coordinated on
                                    recommendations to the Department and infor-         139 existing and proposed DoD directives and
                                    mation to Congress. We summarize below the           instructions, issued 309 IG subpoenas and re-
                                    work of each component as of March 31, 2013.         ceived 86 contractor disclosures.

                                    Auditing issued 50 reports with 294 recommen-        Special Plans and Operations issued three as-
                                    dations identifying potential cost savings and       sessment reports with 34 recommendations
                                    funds that could be put to better use, ensuring      that addressed a range of issues, including U.S.
                                    the safety of service members; addressing im-        and coalition efforts to develop the command,
                                    provements in DoD operations, financial report-      control and coordination system within the
                                    ing and accountability; ensuring the Department      Afghan National Army. U.S. and coalition ef-
                                    complied with statutory mandates; and identify-      forts to improve health care conditions and
                                    ing new efficiencies. Of those reports, 30 percent   develop sustainable Afghan National Security
                                    addressed acquisition processes and contracting      Forces’ medical logistics at the Dawood National
                                    issues; 46 percent addressed financial manage-       Military Hospital in Kabul, Afghanistan, were
                                    ment issues; 6 percent addressed joint warfight-     also reviewed.
                                    ing and readiness issues; 8 percent addressed in-
                                    formation assurance, security and privacy issues;    As of March 31, 2013, the DoD IG workforce
                                    2 percent addressed health care; 6 percent ad-       totaled 1,578 employees, not including military
                                    dressed equipping and training Afghan National       personnel and contractors.
                                    Security Forces; and 2 percent addressed ethics
                                    program and federal government standards.

“DCIS opened 325                    Investigations-Defense Criminal Investigative
                                                                                         Priorities
                                                                                         As a Department-wide priority, the secretary of
cases, closed 357 cases             Service opened 325 cases, closed 357 cases and       defense identified the need to improve effective-
and has 1,620 ongoing               has 1,620 ongoing investigations. Cases resolved     ness and efficiencies in business operations to
                                    in this reporting period primarily addressed         sustain mission-essential activities. In support of
investigations.”                    criminal allegations of procurement fraud,           this focus, DoD IG uses its extensive oversight
                                    public corruption, product substitution, illegal     capabilities to promote economy, efficiency and
                                    transfer of technology and health care fraud.        effectiveness throughout the Department. DoD

  4 SEMIANNUAL REPORT TO THE CONGRESS
IG performs audits, investigations and assess-
ments to support the Department’s goals to:
                                                     Audits                                                             “We issued 64
                                                      •	 We identified government property (Army-                   reports identifying
  •	 Prevent and deter conflict.
                                                         owned inventory), valued at roughly                            $1.3 billion in
  •	 Prevail in today’s wars.
                                                         $892.3 million, that was not being valued                  potential monetary
  •	 Prepare to defeat adversaries and succeed in
                                                         or tracked in Army property accountabil-                             benefits."
     a wide range of contingencies.
                                                         ity systems or on the financial statements.
  •	 Preserve and enhance the all-volunteer force.
                                                         Our review of 21 high-dollar parts, valued
  •	 Reform and find further efficiencies in the
                                                         at $85.1 million, showed that 16 parts had
     business and support functions of the de-
                                                         excess Stryker inventory of $72.7 million
     fense enterprise.
                                                         that could be either disposed of ($58 mil-
                                                         lion) or potentially used on other contracts
We performed audits, inspections and assess-
                                                         ($14.7 million). Additionally, we found 170
ments of key programs and operations. We also
                                                         empty engine containers, valued at $1.1
consulted on a variety of Department initiatives
                                                         million, that the contractor determined
and issues. DoD IG is focusing work efforts on
                                                         could be used to store a different engine,
preventing and detecting fraud, waste and abuse
                                                         thereby reducing future requirements.
and improving efficiency and effectiveness in
                                                         Report No. DODIG-2013-025
critical areas for the Department such as:
                                                      •	 We identified that the NATO Training
  •	 Acquisition processes and contract
                                                         Mission – Afghanistan/Combined Security
     management.
                                                         Transition Command – Afghanistan and
  •	 Financial management.
                                                         G222 Program Management Office offi-
  •	 Joint warfighting and readiness.
                                                         cials had not effectively managed the G222
  •	 Information assurance, security and privacy.
                                                         program and had not determined the cost
  •	 Equipping and training Afghan National
                                                         or availability of spare parts to sustain the
     Security Forces.
                                                         aircraft. As a result, NTM-A/CSTC-A and
                                                         G222 PMO officials may have spent about
Our investigations resulted in criminal, civil and
                                                         $200 million in Afghanistan Security Forces
administrative actions. We report on the follow-
                                                         Funds on spare parts for an aircraft that
ing investigative priorities for crimes impacting
                                                         may not be sustainable. After DoD IG is-
the Department:
                                                         sued the draft report, the Air Force noti-
  •	 Procurement fraud.
                                                         fied the contractor that when the G222
  •	 Public corruption.
                                                         follow-on sustainment support contract
  •	 Product substitution.
                                                         expired in March 2013, no action would
  •	 Health care fraud.
                                                         be taken to issue a new delivery order,
  •	 Illegal technology transfer.
                                                         ending the G222 program. According to
  •	 Cyber crime and computer network
                                                         the Air Force, if the program continued
     intrusions.
                                                         through March 2022, as originally planned,
                                                         it would have required $830 million, in ad-
Core Mission Areas                                       dition to the nearly $200 million identified
                                                         in the report, in sustainment costs, to in-
We issued 64 reports identifying $1.3 billion in
                                                         clude a significant amount for spare parts.
potential monetary benefits. We achieved an ad-
                                                         Report No. DODIG-2013-040
ditional $932.8 million in financial savings based
                                                      •	 We identified that the Army chief informa-
on management completed corrective actions to
                                                         tion officer did not implement an effective
reports issued this year an in previous reporting
                                                         cyber security program for commercial
periods. In addition, DCIS investigations were
                                                         mobile devices. The Army CIO did not ap-
the basis for 56 arrests, 102 criminal charges, 98
                                                         propriately track commercial mobile de-
criminal convictions, 98 suspensions and 95 de-
                                                         vices and was unaware of more than 14,000
barments, as well as $1.6 billion returned to the
                                                         commercial mobile devices used through-
government.
                                                         out the Army. Additionally, the Army CIO
                                                         did not ensure that commands configured
                                                                                                         OCTOBER 1, 2012 TO MARCH 31, 2013 5
Executive Summary



“Critical information                    commercial mobile devices to protect                violation of the International Emergency
assurance controls                       stored information; required them to be             Economic Powers Act and the Iranian
                                         properly sanitized; controlled commercial           Transaction Regulations and U.S. export
were not appropriately
                                         mobile devices used as removable media;             laws. After her arrest, Yeh pleaded guilty
applied, which left                      and required training and use agreements            to conspiracy to violate the International
the Army networks                        specific to commercial mobile devices.              Emergency Economic Powers Act and the
vulnerable to cyber                      Critical information assurance controls             Iranian Transaction Regulations. She was
security attacks                         were not appropriately applied, which left          sentenced to two years confinement and
                                         the Army networks vulnerable to cyber se-           three years supervised release.
and leakage of
                                         curity attacks and leakage of sensitive data.
sensitive data.”                         Report No. DODIG-2013-060
                                                                                          Inspections
                                                                                           •	 We assessed U.S. and coalition efforts to
                                   Investigations                                             develop the command, control and coordi-
                                       •	 We investigated Silver Star Construction,           nation system within the Afghan National
                                          LLC, a prime DoD contractor, for falsely            Army. Extensive U.S. and coalition efforts
                                          claiming to be a service-disabled veteran-          have yielded a foundational C2 capability
                                          owned small business. As such, the com-             that is adequately resilient, coherent and ca-
                                          pany obtained more than $5 million in con-          pable of transitioning to Afghan lead in plans
                                          tracts set aside under the SDVOSB program           and operations by 2014. However, the capac-
                                          and procured them under the American                ity for sustained continuity of an effective
                                          Recovery and Reinvestment Act of 2009.              ANA C2 system was fragile and remained
                                          The owner, Warren Parker, was sentenced to          highly dependent upon International
                                          87 months in prison and ordered to forfeit          Security Assistance Force enablers includ-
                                          $6.8 million to be paid jointly and severally       ing intelligence, surveillance and reconnais-
                                          with other co-defendants.                           sance capabilities with an analysis capabil-
                                       •	 We investigated EMH Regional Medical                ity, counter-improvised explosive device
                                          Center and North Ohio Heart Center for              technology and mine clearance assets, (in-
                                          allegedly performing unnecessary cardiac            direct and aerial) fires capability, ground
                                          procedures on patients, to include TRICARE          and air mobility, and logistics sustainment.
                                          beneficiaries. The Department of Justice en-        Report No. DODIG-2013-058
                                          tered into civil settlement agreements with      •	 We assessed U.S. and coalition efforts to
                                          both companies. North Ohio Heart Center             improve health care conditions and develop
                                          and EMH Regional Medical Center agreed              sustainable Afghan National Security Forces
                                          to pay $541,870 and $3.8 million, respec-           medical logistics at the Dawood National
                                          tively, to settle allegations that they sub-        Military Hospital in Kabul, Afghanistan.
                                          mitted false claims to Medicare, Medicaid,          Since our last assessment in 2011, we found
                                          TRICARE and Federal Employees Health                development at NMH had advanced in the
                                          Benefits Programs. This was a qui tam case          areas of planning and mentoring, leader-
                                          and $682,859 of the settlement amount will          ship and management and logistics and
                                          go to the relator.                                  patient care, specifically with respect to
                                       •	 We investigated Susan Yeh, an employee              the establishment of a strategic plan to de-
                                          of a Taiwanese technology company, who              velop the ANSF health care system jointly
                                          attempted to purchase extra-high-per-               with Afghan ministries, and strengthened
                                          formance microwave pyramid absorbers,               personnel accountability and patient care
                                          ultra-broadband microwave absorbers and             procedures and increased inventory ac-
                                          multiline low pass filter networks from a           countability and control measures for medi-
                                          DoD contractor. Yeh tried to arrange to             cal supplies. However, significant challenges
                                          transship the items to Iran through the             remain, specifically in the assignment of ad-
                                          United Arab Emirates and Taiwan. The at-            ditional nursing personnel to patient wards
                                          tempted purchase and shipment was in                based on the demands for nursing services,

 6 SEMIANNUAL REPORT TO THE CONGRESS
   increasing the number of trained phar-               F-22A mishap of Nov. 16, 2010, for adher-
   macists assigned to the pharmacy and im-             ence to the procedures set forth in Air Force
   proving the distribution of medical equip-           Instruction 51-503, Aerospace Accident
   ment to ensure patient care areas with the           Investigations. We assessed whether the
   greatest need have the necessary equipment           board’s conclusions were supported by facts
   to provide safe and effective patient care.          consistent with the standards of proof es-
   Report No. DODIG-2013-053                            tablished by the instruction. The board’s
                                                        statement of opinion regarding the cause of
                                                        the mishap was not supported by the facts
Policy and Oversight                                    within the Accident Investigation Board
 •	 We performed a review of the Defense                report consistent with the clear and con-
    Finance and Accounting Service audit or-            vincing standard of proof established by
    ganization covering a one-year period that          the instruction. The report lacked detailed
    ended June 30, 2011, and identified signifi-        analysis of several areas, such as the emer-
    cant deficiencies in the DFAS audit organi-         gency oxygen system activation as well as
    zation’s compliance with its system of qual-        the physiological reactions to lack of oxy-
    ity control, including the failure to exercise      gen. Of the 109 references in the board’s
    sufficient professional judgment. DFAS was          summary of facts, 60 of those references
    issued a fail opinion on its audit organiza-        were either incorrect or did not direct the
    tion’s system of quality control. We con-           reader of the report to the information
    cluded that the DFAS audit organization did         cited in the paragraph. We recommended
    not comply with generally accepted govern-          that the judge advocate general of the Air
    ment auditing standards and their system            Force reevaluate the board’s report and take
    of quality control for audits for the review        appropriate action in light of the DoD IG
    period. We determined that the system of            findings regarding the board’s report state-
    quality control did not provide reasonable          ment of opinion and other deficiencies.
    assurance that DFAS audit personnel were            Report No. DODIG-2013-041
    following established guidance, policies,
    procedures and applicable audit standards.
    Report No. DODIG-2013-047                        Administrative
 •	 The evaluation of the Military Criminal
    Investigative Organizations’ sexual assault      Investigations
    investigation training focused on the types       •	 During the first half of FY 2013, the
    and effectiveness of training, as well as how        Department substantiated three of 55 (5
    they leverage their resources and expertise.         percent) investigations of whistleblower re-
    DoD IG found the training adequately sup-            prisal, six of 10 (60 percent) investigations
    ports the Department; however, initial base-         of improper mental health referrals and one
    line training was inconsistent between the           (100 percent) investigation of restricting a
    MCIOs, effectiveness of refresher training           member from contacting an IG or member
    was not measured and efforts to leverage re-         of Congress.
    sources and expertise for advanced training       •	 The Department substantiated 47 of 150
    varied. DoD IG recommended the MCIOs                 (31 percent) investigations of senior official
    form a working group to establish consis-            misconduct.
    tent initial baseline training, develop re-
    quirements for measuring the effectiveness
    of refresher training and capitalize on exist-
    ing efforts to leverage training resources and
    expertise for advanced training programs.
    Report No. DODIG-2013-043
 •	 We reviewed the Air Force Aircraft
    Accident Investigation Board report on the

                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 7
IG Highlights



                                   Enabling Mission Areas                                 DoD IG authority when DoD IG was established
                                                                                          by an amendment to the IG Act.

                                   DoD Hotline                                            The DoD Hotline is the primary means for
                                                                                          whistleblowers to report fraud, waste, misman-
                                   The DoD Hotline received 16,615 contacts from
                                   the public and members of the DoD community            agement, abuse of authority and threats to the
                                   during this reporting period. Of those contacts,       public health and safety involving DoD.
                                   7,014 (43 percent) were telephone calls. Based on
                                   these contacts, the hotline opened 1,499 cases and     Along with the establishment of inspectors gen-
                                   closed 1,050 cases.                                    eral to receive and investigate complaints of
                                                                                          fraud, waste and abuse, Congress also has en-
                                                                                          acted several laws to protect whistleblowers (see
                                   Congressional                                          chart on next page).

                                   Testimony & Briefings                                  DoD IG is responsible for issuing regulations
                                   During the reporting period, DoD IG had 65             implementing whistleblower laws. Specifically,
                                   meetings with members of Congress and their            DoD IG issues whistleblower protection pol-
                                   staffs on subjects including plans for the IG com-     icy and procedures pertaining to members of
                                   munity reviews required by the Reducing Over-          the armed forces and nonappropriated fund
                                   Classification Act, pending legislative taskings,      employees:
                                   ongoing assessments in Southwest Asia and an             •	 DoD Directive 7050.06, Military Whistle-
                                   audit of the cost and availability of G222 spare            blower Protection.
                                   parts. DoD IG received 123 new congressional             •	 DoD Instruction 1401.03, DoD Nonappro-
                                   inquiries and closed 94 cases, including a re-              priated Fund Instrumentality Employee
                                   port on noncompliant crime laboratory analyses              Whistleblower Protection.
                                   based on allegations that a forensic analyst at the
                                   USACIDC allegedly falsified critical test results
                                   and an audit on Antideficiency Act violations in       DoD Whistleblower Program
                                   military personnel accounts. New inquiries in-         Today
                                   volved issues such as discussions on proposed          Between 2009 and 2013, DoD IG increased
                                   legislative changes related to reprisal investiga-     resources dedicated to the Whistleblower
                                   tions, requests related to senior official investi-    Protection Program, established a Directorate of
                                   gations and concerns about the Department’s            Whistleblowing and Transparency and appoint-
                                   implementation of IG recommendations.                  ed a DoD whistleblower protection ombudsman.


                                   IG Highlights
                                                                                          The Whistleblower Protection Enhancement Act

IG Highlights                                                                             of 2012 requires each inspector general to des-
                                                                                          ignate a whistleblower protection ombudsman.
                                                                                          Within DoD IG, the director of whistleblowing
                                   Whistleblower                                          and transparency has been designated to serve
                                   Protection Program:                                    as the whistleblower protection ombudsman.
                                                                                          The role of the ombudsman is to educate DoD
                                   Past, Present and Future                               employees about the prohibitions on retaliation
                                   In April 1979 after allegations of $600 toilet seats   for protected disclosures and the rights and rem-
                                   and other reports of DoD procurement scan-             edies available to whistleblowers.
                                   dals, the secretary of defense authorized creation
                                   of the DoD Hotline to provide a mechanism for          DoD IG ensures that allegations of whistle-
                                   DoD military members, employees and contrac-           blower reprisal are resolved in an objective and
                                   tors to report fraud, waste and abuse. In 1982,        timely manner. DoD IG encourages personnel
                                   the secretary of defense placed the hotline under      to report fraud, waste and abuse to appropriate
                                                                                          authorities; provides mechanisms for addressing

 8 SEMIANNUAL REPORT TO THE CONGRESS
complaints of reprisal; and recommends rem-             History and Evolution of Whistleblower
edies for whistleblowers who encounter reprisal,
consistent with applicable laws, regulations and        Protection Program
policies. DoD IG has statutory responsibility to
investigate complaints of reprisal for making                                                                   DoD issued policy that “no adverse
disclosures protected by three federal statutes                                                                 action” is to be taken against any
                                                         Congress passes Title 10, U.S.C.,             1982     employee who reports question-
under Title 10 of the United States Code (1)             Section 1587, prohibiting reprisal                     able activities within the intelli-
U.S.C., Section 1034 for members of the armed            against employees of nonappro-                         gence community.
                                                         priated fund instrumentalities:        1983
forces, (2) U.S.C., Section 1587 for DoD non-            reprisals for whistleblowing.
appropriated fund employees and (3) U.S.C.,
Section 2409 for DoD contractor employees.
                                                                                                                Congress passes Title 10, U.S.C.,
DoD IG also investigates allegations of reprisal                                                                Section 2409, Contractor employ-
                                                                                                       1986
filed by DoD appropriated fund civilian em-              FY1989 NDAA provides “Military                         ees: protection from reprisal for
ployees in accordance with the IG Act, consis-           Whistleblower Protection” under        1988            disclosure of certain information.
tent with Title 5, U.S.C., Section 2302. Reprisal        Title 10, U.S.C., Section1034.
is a prohibited personnel practice under Title 5.
This latter authority is crucial to whistleblower
                                                                                                       1989     Congress passed the Whistleblower
protections for members of the intelligence com-                                                                Protection Act of 1989.
munity who cannot avail themselves of Office of          FY1993 NDAA prohibits use
Special Counsel and Merit Systems Protection             of referrals for mental health         1992
                                                         evaluations to retaliate against
Board protection. Whistleblower reprisal inves-                                                                 Congress amends Title 10, U.S.C.,
                                                         whistleblowers.
tigations have been the only recourse for mem-                                                                  Section 1034 to add protection
bers of the defense intelligence community who                                                         1994     for disclosures alleging violations
                                                                                                                of a law or regulation prohibiting
believe they have been retaliated against, espe-
                                                                                                                sexual harassment or unlawful
cially if retaliation is related to access to classi-                                                           discrimination.
fied information or a security clearance.
                                                         Congress amends Title 10, U.S.C.,
                                                         Section 1034 to protect disclosures
DoD IG predominantly receives allegations of             to any person or organization in       2004            Congress amends Title 10, U.S.C.,
reprisal through the DoD Hotline and members             the chain of command or others                         Section 2409 to a member, a
of Congress. However, in some instances, service         designated by regulations.                             representative of a committee of
and defense agency IGs refer allegations to DoD                                                        2008     Congress, an IG, the Government
IG if the service member is serving in a joint as-                                                              Accountability Office and a DoD
                                                                                                                employee responsible for contract
signment or other special circumstances exist.                                                                  oversight or management.
DoD IG conducts complaint analysis of each               The DoD updates Defense Federal
                                                         Acquisition Regulation to imple-       2009
case to determine whether the whistleblower has
                                                         ment 2008 amendment to Title 10,
set forth a “prima facie” allegation of reprisal. If     U.S.C., Section 2409.
so, DoD IG has the discretion to either conduct                                                                 FY2012 NDAA amends Title 10,
an investigation or forward it to the service IG                                                                U.S.C., Section 1034 to protect
for investigation.                                                                                              disclosures of a threat by another
                                                                                                                member of the armed forces or
                                                         •	 Congress passes the
Although the service and defense agency IGs                 Whistleblower Protection
                                                                                                       2011     employee of the federal govern-
                                                                                                                ment of intent to kill or cause
may also independently receive and investigate              Enhancement Act of 2012 with                        serious bodily injury to members
reprisal allegations, Title 10, U.S.C., Section 1034        provisions for a whistleblower                      of the armed forces or civilians or
                                                            protection ombudsman.               2012
charges DoD IG with a critical oversight role to                                                                damage to military, federal or civil-
                                                         •	 President Obama issues                              ian property.
approve any decision made by a service IG that              Presidential Policy Directive 19,
investigation of military whistleblower reprisal            Protecting Whistleblowers with
is not warranted and to approve the results of              Access to Classified Information.
                                                                                                                FY2013 NDAA extends contrac-
all military whistleblower reprisal investigations                                                     2013     tor whistleblower protection to
conducted by service IGs. This requires extensive                                                               subcontractors.
collaboration with the service IG counterparts to


                                                                                                              OCTOBER 1, 2012 TO MARCH 31, 2013 9
IG Highlights



                                    ensure each allegation of whistleblower reprisal        •	 Employees of subcontractors.
                                    receives a thorough and independent review.             •	 Disclosures that are made to management
                                                                                               officials of the contractor.
“DoD IG is dedicated to             The Way Forward                                         •	 Abuses of authority that undermine perfor-
                                    During this reporting period, the president and            mance of a contract.
educating, training and
                                    Congress issued policy and amended statutes to          •	 Reprisal actions taken at the request of con-
conducting outreach                                                                            tracting agency.
                                    expand and enhance whistleblower protections
with service and                    in three areas:                                         •	 A violation of a law, rule or regulation [prior
defense agency IGs and                                                                         language only included violation of a law]
their staffs on how to              Presidential Policy Directive 19, Protecting               related to a DoD contract or grant.
                                    Whistleblowers with Access to Classified                •	 An employee who initiates or provides evi-
investigate allegations
                                    Information.                                               dence of contractor or subcontractor mis-
of whistleblower                                                                               conduct in any judicial or administrative
                                    The directive ensures that employees serving in
reprisal... ”                       the intelligence community or who are eligible             proceeding relating to waste, fraud or abuse
                                    for access to classified information can effective-        on a DoD contract or grant.
                                    ly report waste, fraud and abuse while protecting
                                    classified national security information.             The amendment revises the standard for bur-
                                                                                          den of proof in investigations, stipulates that
                                    Whistleblower Protection Enhancement Act of           whistleblower rights may not be waived by an
                                    2012                                                  agreement and establishes a three-year statute
                                    The Act amended Title 5, U.S.C., Section 2302 to      of limitations for filing complaints. The changes
                                    expand the whistleblower protections afforded         followed testimony by the deputy inspector gen-
                                    to appropriated fund civilian employees in mul-       eral for administrative investigations on Dec. 6,
                                    tiple respects. For example, under the Act, dis-      2011, before the Subcommittee on Contracting
                                    closures may now qualify for protection even if       Oversight of the Senate Committee on
                                    the whistleblower was not the first to report the     Homeland Security and Governmental Affairs at
                                    misconduct and even if the disclosure was con-        a hearing titled, "Whistleblower Protections for
                                    nected to the whistleblower’s job duties—two          Government Contractors."
                                    common scenarios that previously caused com-
                                    plaints to fail.                                      DoD IG is dedicated to educating, training and
                                                                                          conducting outreach with service and defense
                                    In October 2012, DoD IG established an infor-         agency IGs and their staffs on how to investigate
                                    mal working group to support implementation           allegations of whistleblower reprisal, including
                                    of the directive throughout the defense intelli-      the joint IG training courses and whistleblower
                                    gence community.                                      reprisal outreach initiatives, among others.

                                    Enhanced Protections for Contractor Employees
                                    Congress amended Title 10, U.S.C., Section 2409
                                    to extend coverage and protection to:




 10 SEMIANNUAL REPORT TO THE CONGRESS
                     2


Core Mission Areas
Core Mission Areas



                                    The following are highlights of DoD IG audit         Acquisition, Technology and Logistics has de-
Audits                              work during the reporting period. DoD IG per-
                                    formed audits in the following categories:
                                                                                         fined instances where DoD awarded contracts
                                                                                         using competitive procedures, where only a
                                      •	 Acquisition processes and contract              single bid was received, as ineffective competi-
                                         management.                                     tion. For this audit, DoD IG determined whether
                                      •	 Financial management.                           DoD followed applicable guidance when award-
                                      •	 Joint warfighting and readiness.                ing competitive contracts after receiving a single
                                      •	 Information assurance, security and privacy.    offer. Specifically, DoD IG reviewed 107 con-
                                      •	 Equipping and training Afghan security          tracts valued at almost $1.4 billion, 47 contract
                                         forces.                                         modifications valued at $461.3 million and 83
                                                                                         Broad Agency Agreement and Small Business
                                                                                         Innovation Research contracts valued at $96.3
                                    Acquisition Processes &                              million to determine whether the services fol-
                                    Contract Management                                  lowed single-bid guidance.
                                                                                         Findings: The services did not follow applicable
                                    The Department faces many challenges as it
                                    attempts to restructure the force needed to ex-      single-bid guidance when awarding approxi-
                                    ecute the national security strategy while main-     mately $656.1 million in contracts and did not
                                    taining readiness and reducing infrastructure,       verify that modifications were only made with-
                                    modernizing aging equipment, introducing new         in the three-year limitation from base contract
                                    technologies, preserving the industrial base and     award. The services did not always follow single-
                                    ensuring our technological superiority over our      bid guidance because the services’ competition
                                    enemies. Since 2010, DoD has been working to         advocates did not adequately monitor their
                                    strengthen its buying efforts, improve industry      commands’ implementation of the guidance to
                                    productivity and provide an affordable, value-       verify proper application. Additionally, the ser-
                                    added military capability to the warfighter. The     vices did not develop adequate plans to increase
                                    Better Buying Power initiative encompasses a set     competition because Defense Procurement and
                                    of fundamental acquisition principles to achieve     Acquisition Policy did not provide effective
                                    greater efficiencies through affordability, cost     oversight of the plans. Also, the competition
                                    control, elimination of unproductive processes       advocates did not develop specific steps to im-
                                    and bureaucracy and promotion of competition.        prove competition rates in their plans or develop
                                                                                         specific steps to prevent all contract modifica-
                                    The Department continues to face persistent and      tions from exceeding the three-year limitation
                                    significant challenges in acquiring goods and        on awarding contract modifications without first
                                    services, including those in support of contin-      re-competing them. Also, the services did not
                                    gency operations in Southwest Asia. During this      correctly code all the contracts in the Federal
                                    reporting period, DoD IG continued to identify       Procurement Data System-Next Generation da-
                                    weaknesses in obtaining adequate competition         tabase because the services’ competition advo-
                                    for contracts, defining contract requirements,       cates did not establish an adequate review pro-
                                    overseeing contract performance, obtaining fair      cess to verify that contracting officers correctly
                                    and reasonable prices, interagency contracting       inputted the type of contract. Finally, DPAP al-
                                    and contract payments.                               lowed the single-bid guidance to expire because
                                                                                         DPAP did not incorporate the single-bid guid-
“The services have                  Improvement Needed With DoD Single-Bid               ance requirements into policy within 180 days.
not realized potential              Program to Increase Effective Competition for        DPAP also did not classify 83 Broad Agency
cost savings associated             Contracts                                            Agreement and Small Business Innovations
                                    Overview: According to the Office of Federal         Research contracts as having effective competi-
with increased                                                                           tion, because DPAP incorrectly identified them
                                    Procurement Policy, competitions that receive
competition and re-                                                                      in the DoD effective competition report. As a
                                    only one bid in response to a solicitation deprive
competing $390.9                    agencies of the ability to compare alternatives      result, the services have not realized potential
million in contract                 and determine a fair and reasonable price. The       cost savings associated with increased compe-
modifications ...”                  Office of the Under Secretary of Defense for         tition for 31 of the 78 single-bid contracts and

 12 SEMIANNUAL REPORT TO THE CONGRESS
with re-competing 39 of the 47 contract modifi-     not approve the justification and approval for
cations reviewed. The services have not realized    one contract until 462 days after it was awarded
potential cost savings associated with increased    because of funding and organizational changes.
competition and re-competing $390.9 million in      For the other contract, ACC-APG contracting
contract modifications. DoD also cannot accu-       personnel could not produce evidence that a
rately assess the percentage of improvements in     justification and approval was completed or that
DoD achieving effective competition.                market research was adequately documented.
Result: DoD IG recommended that the DPAP            Additionally, ACC-APG contracting personnel
director review the services’ competition re-       did not include one or both of the statements re-
ports, direct the services’ competition advo-       quired by the FAR in nine contract synopses of a
cates to develop a plan related to the length of    noncompetitive award to ensure that interested
contract modifications and modify the DoD           sources were aware of actions they can take to
effective competition report. Additionally, the     compete for the contract award.
services’ competition advocates should develop      Result: DoD IG recommended that the ACC-
procedures to adequately monitor their com-         APG executive director issue guidance establish-
mands’ implementation of the single-bid guid-       ing the number of days in which a justification
ance, develop steps to increase competition in      and approval must be approved within when a
their competition plans and three-year period of    contract is awarded or require the contracting
performance plans and monitor their contract-       officer to document the reason(s) for the delay.
ing officers’ Federal Procurement Data System-      DoD IG also recommended the ACC-APG ex-
Next Generation input.                              ecutive director issue a memorandum empha-
Report No. DODIG-2013-002                           sizing the importance of completing a justifi-
                                                    cation and approval in accordance with FAR
Army        Contracting     Command–Aberdeen        6.303, adequately performing and documenting                  “ACC-APG personnel
Proving      Ground       Contracting    Center’s   market research in accordance with FAR part                      adequately justified
Management of Noncompetitive Awards Was             10, including the statements required by FAR                        contracts as sole
Generally Justified                                 5.207 and reviewing the performance of the con-                 source for 28 of the
Overview: Full and open competition is the          tracting officer who awarded a noncompetitive                     30 noncompetitive
preferred method for federal agencies to award      contract to determine whether administrative
                                                                                                                   contracts reviewed.”
contracts. Contracting officers may use pro-        action is warranted. The Army agreed with the
cedures other than full and open competition        recommendations.
under certain circumstances. However, each          Report No. DODIG-2013-003
contract awarded without providing for full
and open competition must conform to poli-          Better Processes Needed to Appropriately Justify
cies and requirements in the Federal Acquisition    and Document NAVSUP WSS, Philadelphia Site
Regulation. DoD IG determined whether DoD           Sole-Source Awards
noncompetitive contract awards were prop-           Overview: Title 10, U.S.C., Section 2304 requires
erly justified as sole source at the Army Con       contracting officers to promote and provide for
tracting Command–Aberdeen Proving Ground            full and open competition when soliciting offers
Contracting Center. DoD IG reviewed 30 non-         and awarding contracts. Promoting competition
competitive contracts with a combined obligated     in federal contracting presents the opportunity
value of about $529.2 million that ACC-APG          for significant cost savings. In addition, competi-
contracting personnel awarded in FYs 2009 and       tive contracts can help improve contractor per-
2010.                                               formance, prevent fraud and promote account-
Findings: ACC-APG personnel adequately jus-         ability. Contracting officers may use procedures
tified contracts as sole source for 28 of the 30    other than full and open competition under
noncompetitive contracts reviewed. However,         certain circumstances. However, each contract
contracting personnel did not provide adequate      awarded without providing for full and open
justification for the noncompetitive award of two   competition must conform to policies and pro-
contracts with an obligated value of about $29      cedures in the Federal Acquisition Regulation.
million. ACC-APG contracting personnel did

                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 13
Core Mission Areas



“DLA Troop Support                   Findings: Naval Supply Systems Command                Defense Logistics Agency Could Improve Its
Construction and                     Weapons System Support-Philadelphia con-              Oversight of the Maintenance, Repair, and
                                     tracting personnel obtained approval from the         Operations Prime Vendor Contract for Korea
Equipment contract
                                     appropriate personnel in the time frames re-          Overview: At the request of the chairman, House
management                           quired for 31 of 32 justification and approvals for   of Representatives Subcommittee on National
personnel did not have               other than full and open competition. However,        Security and Foreign Affairs, Committee on
adequate purchase                    personnel did not properly justify the award of       Oversight and Government Reform, DoD IG de-
review and approval                  13 sole-source contracts because personnel did        termined whether the maintenance, repair and
procedures in place.”                not:                                                  operations prime vendor contractor received
                                        •	 Explain why there was only one capable          volume discount savings or rebates for items
                                           source.                                         associated with the contract and whether the
                                        •	 Address all content requirements within 31      prime vendor credited these savings and rebates
                                           of the 32 justification and approvals because   to DoD. The Defense Logistics Agency changed
                                           personnel relied on a standardized justifica-   its business practices and entered into long-
                                           tion and approval template and omitted re-      term prime vendor sustainment contracts with
                                           quired information.                             various suppliers to provide materials needed
                                        •	 Obtain legal reviews before approval of 23      to support the maintenance, repair and opera-
                                           of the 32 justification and approvals because   tions for DoD facilities. Under the prime vendor
                                           internal guidance improperly limited when       concept, a single commercial distributor serves
                                           they were required.                             as the major provider of products or services to
                                        •	 Adequately document the market research         various federal customers within a geographi-
                                           conducted or the results for 29 of 32 con-      cal region at discounted commercial prices.
                                           tracts because technical personnel did not      The maintenance, repair and operations prime
                                           document the steps taken when reviewing         vendor contracts are primarily long-term, fixed-
DoD IG reviewed NAVSUP sole-source         internal and external databases and con-        price contracts with economic price adjustment
contracts.                                 tracting personnel relied on the sole-source    or indefinite-delivery/indefinite-quantity deliv-
                                           determinations provided.                        ery orders and generally, including options, span
                                        •	 Follow some synopsis requirements for the       five years. The DoD prime vendor program pro-
                                           27 proposed contracts that required a syn-      vides items quickly and meets customers’ needs
                                           opsis because contracting personnel were        at discounted commercial prices, which helps
                                           unaware of a few of the requirements.           reduce DoD’s overall maintenance supply costs.
                                     As a result, improper sole-source awards could        Findings: The prime vendor obtained volume
                                     occur. Personnel could not make informed deci-        discounts through price competition on items
                                     sions that the proposed contractors were the sole     purchased for DoD and credited those discounts
                                     source. Also, interested sources were not aware       to DoD. However, the prime vendor did not seek
                                     of future contracting opportunities.                  rebates related to the contract purchases and re-
                                     Result: DoD IG recommended the Naval Supply           turned those rebates it received in error. DLA
                                     Systems Command commander update justifi-             Troop Support Construction and Equipment
                                     cation and approval training and templates and        Directorate contract management personnel did
                                     require personnel to fully address justification      not consistently monitor airfreight charges and
                                     and approval content requirements to adequately       fixed markup fees that the prime vendor charged
                                     justify noncompetitive contracts. Additionally,       to DoD for purchases made under the contract.
                                     DoD IG recommended requiring personnel to             Specifically, DLA Troop Support Construction
                                     include adequate documentation of market re-          and Equipment Directorate contract manage-
                                     search in the contract files to support that only     ment personnel did not review and approve
                                     one source can meet government requirements           delivery orders with airfreight charges or verify
                                     for a given procurement. Command comments             that delivery orders with fixed-fee markup pric-
                                     were responsive.                                      ing complied with the maximum contractually
                                     Report No. DODIG-2013-034                             established markup rate. DLA Troop Support
                                                                                           Construction and Equipment Directorate con-
                                                                                           tract management personnel did not have ad-

 14 SEMIANNUAL REPORT TO THE CONGRESS
equate purchase review and approval procedures         perform adequate surveillance on 18 task orders
in place. The prime vendor charged questionable        valued at $100.2 million. Contracting officers
costs of $200,224 for purchases the prime ven-         and CORs did not understand quality assurance
dor made between May 10, 2010, and Aug. 1,             surveillance plan requirements; the contracting
2011. The total amount of questioned costs may         officers misinterpreted the internal contract ad-
be greater if all the delivery orders that occurred    ministration policy; and the CORs relied on un-
on the seven-year contract were reviewed.              authorized NAVFAC personnel to perform sur-
Result: Among other recommendations, DoD               veillance functions, including reviewing invoices
IG recommended that the DLA Troop Support              which included unsupported other direct costs,
director establish procedures to identify, analyze     totaling $556,590. As a result, Specialty Center
and determine if the delivery orders that include      Acquisition, NAVFAC did not have assurance
airfreight and fixed markup fees are allowable.        that the contracted services were received.
The DLA Troop Support director agreed with             Result: DoD IG recommended the Specialty
the recommendations.                                   Center Acquisition, NAVFAC director verify
Report No. DODIG-2013-006                              that all contractors under a MAC receive the
                                                       Request for Task Order Proposal, even if the
Award and Administration of Multiple Award             request is amended to incorporate changes and
Contracts at Naval Facilities Engineering              verify that the independent government cost es-
Command Specialty Centers Need Improvement             timates and fair and reasonable price determi-
Overview: Multiple award contracts are a group         nations are adequately supported. Additionally,
of indefinite-delivery/indefinite-quantity con-        Specialty Center Acquisition, NAVFAC direc-
tracts used by DoD customers to obtain services.       tor should coordinate with the Naval Facilities
Specifically, all indefinite-delivery/indefinite-      Engineering Service Center commander to re-
quantity contractors with contracts in the group       quire that contracting officers appoint a COR for
are to be given fair opportunity to compete for        each task order and require CORs to document
award of a task order. MACs enable the govern-         surveillance performed and report progress to
ment to procure services more quickly using            the contracting officer. Management agreed with
streamlined acquisition procedures while taking        the recommendations.
advantage of competition to obtain optimum             Report No. DODIG-2013-007
prices.
Findings: Contracting officials at Specialty           Contracting Improvements Still Needed in                        “DoD contracting
Center Acquisition, NAVFAC generally pro-              DoD’s FY 2011 Purchases Made Through the                        officials generally
vided contractors a fair opportunity to compete        Department of Veteran Affairs                              complied with policies
for task orders awarded under MAC. However,            Overview: Interagency acquisition is how an
contracting officials limited competition for          agency obtains needed supplies or services                        and procedures
two task orders by not sending the solicitation        through another agency’s contract, the acqui-                        when issuing
or amended solicitation to all contractors under       sition assistance of another agency or both.                   direct interagency
the MAC, because they believed they had the            Interagency acquisitions are commonly con-                   acquisitions through
authority to exclude contractors from receiving        ducted through indefinite-delivery contracts,                   Veterans Affairs.”
the solicitation. In addition, contracting officials   such as task and delivery-order contracts. The in-
did not adequately determine price reasonable-         definite-delivery contracts used most frequently
ness on six task orders awarded, which had only        to support interagency acquisitions are federal
one proposal valued at $45.6 million and nine          supply schedules, government-wide acquisition
modifications with price increases valued at $3.8      contracts and multiagency contracts. The two
million, because they relied on unsupported, in-       types of interagency acquisitions are direct and
dependent government cost estimates to make            assisted. In a direct interagency acquisition, the
their determinations. As a result, NAVFAC did          requesting agency places an order against the
not have assurance that the services acquired          servicing agency’s indefinite-delivery contract.
resulted in fair and reasonable prices for DoD.        The servicing agency manages the indefinite-
Contracting officer representatives at Naval           delivery contract but does not participate in the
Facilities Engineering Service Center did not          placement of an order. In an assisted acquisi-

                                                                                                            OCTOBER 1, 2012 TO MARCH 31, 2013 15
Core Mission Areas



                                   tion, the servicing agency and requesting agency      the U.S. Army Medical Research Acquisition
                                   enter into an interagency agreement where the         Activity contracting officer should seek a refund
                                   servicing agency performs acquisition activities      of $44,952 for products not delivered.
                                   on the requesting agency’s behalf. The servicing      Report No. DODIG-2013-028
                                   agency is responsible for awarding contracts,
                                   task orders or delivery orders and for appointing     DoD Does Not Have Visibility Over the Use of
                                   contracting officer representatives.                  Funds Provided to the Department of Energy
                                   Findings: DoD contracting officials generally         Overview: DoD IG determined whether the
                                   complied with policies and procedures when            memorandum of agreement and corrective ac-
                                   issuing direct interagency acquisitions through       tion plan between DoD and the Department of
                                   Veterans Affairs. Specifically, DoD contracting       Energy addressed the findings in DoD IG re-
                                   officers defined requirements and used funds          port D-2011-021, titled , “More DoD Oversight
                                   appropriately when awarding contract orders on        Needed for Purchases Made Through the
                                   all 20 direct interagency acquisitions, competed      Department of Energy,” dated Dec. 3, 2010. DoD
                                   five orders, justified 13 sole-source orders and      IG also determined whether DoD personnel
                                   documented receipt of products for 18 orders.         complied with the roles and responsibilities out-
                                   However, DoD contracting officers did not de-         lined in the MOA.
                                   obligate unused funds of $293,625 for one order       Findings: To address conditions identified in
                                   and obtain a refund of $44,952 on another order       the previous audit report, Defense Procurement
                                   for products not delivered, because the contract-     and Acquisition Policy and DOE officials agreed
                                   ing officer (1) did not track funds and items de-     to corrective actions in the MOA and corrective
                                   livered properly, (2) did not determine whether       action plan. However, DPAP officials did not
                                   the prices paid for 131 open market products          fully implement or verify compliance with the
                                   (products not on vendors VA federal supply            MOA and corrective action plan. Specifically,
                                   schedules) valued at $5.3 million on five orders      DPAP officials did not develop a standardized
                                   were fair and reasonable, because they relied         reporting system to allow DoD officials to track
                                   on information in vendor quotes and pricelists        funds provided to DOE, to issue guidance that
                                   without verifying that the products were on the       required technical project managers performing
                                   vendors VA federal supply schedules, (3) did not      oversight to meet standard contracting officer
                                   request price reductions for six orders valued at     representative training requirements, or for-
                                   $2.7 million, because the vendor did not provide      mally collaborate or meet quarterly with DOE.
                                   discounts in the past or contracting officials were   These conditions occurred because DPAP offi-
                                   not aware that they were required to seek price       cials did not place a high priority on implement-
                                   reductions and (4) did not support best procure-      ing the terms of the MOA and corrective action
                                   ment-approach determinations for four orders          plan. As a result, DoD did not have visibility of
                                   valued at $9.1 million. As a result, DoD might        approximately $7.3 billion in funds provided to
                                   not have always received the best value when          DOE from FY 2010 through FY 2012. DoD IG
                                   using VA for direct interagency acquisitions.         also determined that Air Force and Office of the
                                   Result: DoD IG recommended the U.S. Army              Under Secretary of Defense (Comptroller)/Chief
                                   Medical Research Acquisition Activity director,       Financial Officer officials did not perform a re-
                                   the North Atlantic Regional Contracting Office        view of a potential Antideficiency Act violation,
                                   director, the Naval Medical Logistics Command         as recommended in DoD IG report D-2011-021.
                                   commander, the Contracting Squadron direc-            Result: DoD IG recommended that the director,
                                   tor of contracting, 502 Contracting Squadron          DPAP:
                                   commander and the 802 Contracting Squadron               •	 Direct DoD components to perform a re-
                                   commander provide refresher training to their               view to determine whether they are com-
                                   contracting officers, ensuring the training fo-             plying with the MOA and defense policies
                                   cuses on the problems identified in the re-                 issued as a result of the MOA.
                                   port. Additionally, the North Atlantic Regional          •	 Coordinate with the USD(C) to develop a
                                   Contract Office contracting officer needed to de-           method for gathering data for DoD-related
                                   obligate funds in the amount of $293,625, and               projects with DOE.

16 SEMIANNUAL REPORT TO THE CONGRESS
  •	 Implement the remaining action items in          Findings: The Office of the Under Secretary
     the corrective action plan.                      of Defense for Acquisition, Technology and
  •	 Establish a quality control process to en-       Logistics officials did not establish a working
     force the requirement for DoD components         group or develop and implement procedures to
     to provide monthly obligation reports for        recover organizational clothing and individual
     funds provided to DOE and maintain them          equipment from civilians and contractor em-
     in an auditable system.                          ployees. Instead, Office of the Assistant Secretary
DoD IG recommended that the USD(C):                   of Defense for Logistics and Materiel Readiness
  •	 Require DoD components to use a standard         officials discussed the prior report recommen-
     funding document number and ensure the           dations during existing working group meet-
     first six positions are the DoD activity ad-     ings and agreed that the Army would serve as
     dress code for the funding agency.               the lead agent and develop and implement cor-
  •	 Require DoD components to provide the            rective actions. However, neither the discussion
     USD(C) with copies of all funding docu-          nor the decision to delegate the responsibility to
     ments sent to DOE.                               the Army was documented. In addition, Defense
  •	 Instruct the Air Force to initiate a review of   Procurement and Acquisition Policy officials
     the potential Antideficiency Act violation.      did not review contracting policies for neces-
The DPAP director and the USD(C) generally            sary changes. This occurred because Defense
agreed with the recommendations.                      Procurement and Acquisition Policy officials
Report No. DODIG-2013-046                             were waiting for the results from the working
                                                      group before changing contracting policies.
Recovering Organizational Clothing and                Army officials from Army G-4, Army Materiel                      “DoD IG identified
Individual Equipment From Civilians and               Command, and the central issue facilities at Fort                approximately $20
Contractor Employees Remains a Challenge              Benning and Camp Atterbury implemented
Overview: Central issue facilities dispense orga-     some controls to mitigate risks associated with
                                                                                                                    million in unreturned
nizational clothing and individual equipment to       recovery of organizational clothing and individ-             items issued to civilian
civilians and contractor employees from all ser-      ual equipment. Despite these efforts to improve                      and contractor
vices and defense agencies. Civilians and con-        controls, many challenges related to the recovery                      employees...”
tractor employees receive organizational cloth-       of organizational clothing and individual equip-
ing and individual equipment at the central issue     ment from civilians and contractor employees
facilities based on their mission and theater of      still existed and resulted in increased costs to re-
deployment. At a minimum, the central issue fa-       place unreturned items, as well as potential loss
cilities provide equipment, such as duffel bags,      of funds from uncollected debt. DoD IG iden-
body armor, helmets and chemical biological           tified approximately $20 million in unreturned
masks. Additional items issued to civilians and       items issued to civilian and contractor employ-
some contractor employees (such as linguists          ees who deployed from Fort Benning and Camp
and law enforcement officials) include cloth-         Atterbury between October 2006 and May 2012.
ing, safety glasses and sleeping bags. On average,    Improved procedures to recover organizational
civilians receive items valued at about $5,300,       clothing and individual equipment from em-
and contractor employees receive items valued         ployees should reduce costs for replacing unre-
at about $3,400. DoD IG determined whether            turned items and decrease the potential loss of
the Office of the Under Secretary of Defense for      funds from uncollected debt.
Acquisition, Technology and Logistics estab-          Result: DoD IG recommended that the under
lished a working group and developed and im-          secretary of defense for acquisition, technology
plemented procedures to recover organizational        and logistics, implement corrective actions to
clothing and individual equipment from civil-         address the recommendations in report D-2010-
ians and contractor employees, as recommended         069 and develop a time-phased plan with mea-
in DoD IG report D-2010-069, titled, “Central         surable goals and metrics regarding the imple-
Issue Facility at Fort Benning and Related Army       mentation of recommendations in that report.
Policies,” dated June 21, 2010.                       Management agreed with the recommendations.
                                                      Report No. DODIG-2013-050

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 17
Core Mission Areas



“U.S. Transportation                Quality Controls for the Rotary Wing Transport      surveillance plan requirements established for
Command was                         Contracts Performed in Afghanistan Need             CORs to verify that contractors complied with
                                    Improvement                                         contractual requirements for transport services
established in 1987
                                    Overview: U.S. Transportation Command               worth approximately $1.5 billion as of September
and is the single                   was established in 1987 and is the single man-      2012. The inadequate controls increased the risk
manager of the                      ager of the U.S. global defense transportation      that the government would pay for services not
U.S. global defense                 system. USTRANSCOM coordinates people               rendered.
transportation system.”             and transportation assets to allow the United       Result: DoD IG recommended that the contract-
                                    States to project and sustain forces, when and      ing officer require CORs to provide their surveil-
                                    where they are needed, for as long as neces-        lance files to the contracting officer when com-
                                    sary. USTRANSCOM also coordinates missions          pleting their tours of duty, assess the adequacy
                                    worldwide using both military and commercial        of surveillance measures used by the CORs in
                                    sea, air and land transportation resources in re-   Afghanistan, create and implement standard op-
                                    sponse to DoD’s warfighting commanders’ needs       erating procedures to establish the methodology
                                    across the full spectrum of support, ranging        for monitoring and validating fuel purchases,
                                    from humanitarian operations to military con-       update and revise the quality assurance surveil-
                                    tingencies. Since FY 2009, USTRANSCOM con-          lance plans to include all contract terms requir-
                                    tracting officials awarded indefinite-delivery/     ing surveillance and the method of surveillance,
                                    indefinite-quantity contracts in support of the     and perform a resource analysis to determine
                                    Afghanistan Rotary Wing Transport Program.          the number of CORs needed in Afghanistan.
                                    The contractors provide medium, heavy and           Report No. DODIG-2013-037
                                    super heavy lift helicopters to support rotary
                                    wing transport of supplies, U.S. mail and passen-   U.S. Army Corps of Engineers Needs to Improve
                                    gers throughout Afghanistan.                        Contract Oversight of Military Construction
                                    Findings: USTRANSCOM did not establish ad-          Projects at Bagram Airfield, Afghanistan
                                    equate surveillance controls for the 28 task or-    Overview: The U.S. Army Corps of Engineers
                                    ders supporting the transportation of supplies,     mission is to provide vital public engineering
                                    mail and passengers in Afghanistan. Specifically,   services to strengthen our Nation’s security, en-
                                    the USTRANSCOM contracting officer did not          ergize the economy and reduce risks from disas-
                                    perform periodic reviews of the contracting of-     ters. USACE is the Army’s construction agent
                                    ficer representatives’ files or request the COR     for the design or construction execution respon-
                                    files be sent when the CORs completed their         sibilities associated with military construction
                                    tours of duty. The contracting officer did not      program facilities and is the lead construction
                                    perform the reviews or request the COR files be-    agent supporting the U.S. Central Command
                                    cause the COR file documentation was located        area of responsibility, including Afghanistan.
                                    in an austere location, and the contracting offi-   As the lead construction agent, USACE is re-
                                    cer wanted to leave the documentation onsite to     sponsible for performing oversight of MILCON
                                    maintain continuity among the COR rotations.        contractors and conducting contract admin-
                                    Additionally, the contracting officer did not es-   istration. USACE Afghanistan Engineering
                                    tablish effective surveillance elements and meth-   District-North, located in Kabul, Afghanistan,
                                    odologies necessary for CORs to determine that      administers construction projects at Bagram
                                    services met contract requirements when the         Airfield, Afghanistan.
                                    contracting officer developed quality assurance     Findings: USACE Afghanistan Engineering
                                    surveillance plans for each of the contracts. The   District-North quality assurance personnel did
                                    contracting officer stated that this occurred be-   not properly monitor contractor performance
                                    cause of unintentionally omitting the required      and fulfill quality assurance responsibilities for
                                    surveillance elements from quality assurance        the four military construction projects reviewed
                                    surveillance plans. As a result, the contract-      at Bagram Airfield, which were valued at $49.6
                                    ing officer did not perform oversight to verify     million. Specifically, QA personnel did not de-
                                    whether the CORs performed effective contract       velop supplemental project QA plans, approve
                                    surveillance and did not have quality assurance     contractors’ quality control plans before contrac-

 18 SEMIANNUAL REPORT TO THE CONGRESS
tors began construction, maintain documenta-         and environmental management, execution and
tion of QA personnel surveillance activities, fol-   technical services that optimize the Air Force
low responsibilities in the contracting officer’s    and joint capabilities through sustainable instal-
designation memoranda and request technical          lations. According to AFCEE, they have provided
specialists to perform technical inspections. In     construction services in Afghanistan since 2006
addition, QA personnel relied on the Logistics       and have executed more than 160 task orders
Civil Augmentation Program contractor to per-        valued at $2.3 billion for its customers, such as
form infrequent technical inspections and relied     the Combined Security Transition Command-
on their own experience to identify construction     Afghanistan and U.S. Forces-Afghanistan. DoD              DoD IG reviewed military construction
deficiencies. These conditions occurred because      IG determined whether the AFCEE provided                  projects in Afghanistan.
USACE Afghanistan Engineering District-North         effective oversight of construction projects in
officials did not provide sufficient oversight       Afghanistan.
of QA personnel. For example, QA personnel           Findings: AFCEE Contingency Construction
stated they were not aware of their responsibili-    Division officials did not provide effective
ties because USACE Afghanistan Engineering           oversight of military construction projects in
District-North officials did not provide enough      Afghanistan. Specifically, AFCEE officials did
guidance or training to QA personnel operat-         not develop a formal process to monitor, assess
ing in a contingency environment. Further, QA        and document the quality of work performed by
personnel stated they were either unaware of,        contractor personnel for four projects valued at
did not see a need for, did not have time to fol-    $36.9 million. AFCEE officials stated that this
low, or did not have proper personnel to follow      occurred because they relied completely on the
QA guidance. As a result, USACE did not have         technical expertise of their contractor personnel.
reasonable assurance that contractors’ quality       In addition, AFCEE officials stated the Federal
control programs were effective and the four         Acquisition Regulation requirement for a qual-
MILCON projects met or would meet contract           ity assurance surveillance plan did not apply to
requirements.                                        architect-engineer services contracts. As a result,
Result: Among other recommendations, DoD             AFCEE’s process for developing and reviewing
IG recommended that the USACE Afghanistan            contract requirements design was not adequate
Engineering District-North commander verify          to prevent (1) conflicting electrical standards
that project engineers develop supplemental          from being cited in one contract’s statement of
project QA plans and approve contractor qual-        work and statement of requirement and (2) in-
ity control plans before contractors begin con-      correct fire protection standards from being
struction; direct contracting officers to verify     cited in two contracts’ statements of requirement
the performance of requirements in their des-        used during construction. In addition, AECOM
ignation memoranda; access the availability of       Technical Services, Inc. personnel at Camps
technical specialists and verify the use of tech-    Bastion and Leatherneck did not identify signifi-
nical specialists to support the conduct of tech-    cant deficient work performed. The deficiencies
nical inspections; and conduct training for QA       led to serious increased hazards to the life and
personnel on QA surveillance requirements in a       safety of coalition forces who occupy two of the
contingency environment. USACE agreed with           four facilities reviewed at Camps Bastion and
recommendations.                                     Leatherneck and contributed to more than a six-
Report No. DODIG-2013-024                            month delay in government acceptance of one
                                                     facility. DoD IG notified AFCEE officials of those
Inadequate Contract Oversight of Military            deficiencies during a site visit to Afghanistan in
Construction Projects in Afghanistan Resulted        May 2012 and again during meetings held in
in Increased Hazards to Life and Safety of           June 2012. According to Air Force Civil Engineer
Coalition Forces                                     Center officials, all electrical deficiencies were
Overview: The Air Force Center for Engineering       corrected as of October 2012. In addition, Air
and the Environment was a field operating agen-      Force Civil Engineer Center officials stated that
cy for the Air Force Civil Engineer. AFCEE’s         additional strobe lights were installed in one
mission was to provide integrated engineering        facility and the fire department conducted its

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 19
Core Mission Areas



                                       official fire alarm and functionality test on that    did not apply to task or delivery orders when the
                                       same date and found no issues. AFCEE officials        basic contract was issued before the rule or did
                                       also stated that they planned to install additional   not document actions taken to conform to the
                                       egress doors on the second floor of one facility;     rule. As a result, Air Force contracting person-
                                       however, they did not plan to install a fire sup-     nel may increase the Air Force’s risk because cost
                                       pression system in either facility.                   reimbursable contracts provide less incentive for
                                       Result: The Air Force Civil Engineer Center           contractors to control costs. DoD IG identified
                                       director should (1) develop quality assurance         internal control weaknesses for implementing
DoD IG identified electrical hazards   surveillance plans for the Title I, Title II, and     the interim rule changes regarding the use of
during a site visit in Afghanistan.    Global Engineering, Integration and Technical         cost-reimbursable contracts.
                                       Assistance contract task orders and (2) develop       Result: DoD IG recommended that the deputy
                                       procedures to verify contracting officer repre-       assistant secretary of the Air Force (contract-
                                       sentatives conduct and document appropriate           ing) emphasize the FAR revisions to contracting
                                       surveillance of contractors as called for in the      personnel, consider issuing more hybrid con-
                                       quality assurance surveillance plan to ensure         tracts, establish better communication chan-
                                       that work performed is carried out in accor-          nels to identify areas to transition to firm-fixed-
                                       dance with the task order requirements. The U.S.      price contracts and require contracting officers
                                       Forces-Afghanistan commander and the AFCEE            to document instances where they maintained
                                       director should assess the life and safety hazards    oversight functions. Additionally, DoD IG
                                       identified and determine the appropriate actions      recommended that the Defense Procurement
                                       needed to correct the electrical hazards and fire     and Acquisition Policy director initiate a pro-
                                       safety and emergency egress deficiencies.             cess to reduce the potential contradiction be-
                                       Report No. DODIG-2013-052                             tween Defense Federal Acquisition Regulation
                                                                                             Supplement 242.75 and FAR revisions. DoD IG
                                       Air Force Needs Better Processes to                   recommended that the Warner Robins Air Force
                                       Appropriately Justify and Manage Cost-                Sustainment Center director of contracting ad-
                                       Reimbursable Contracts                                just templates to include approval above the con-
                                       Overview: Section 864 of the FY 2009 National         tracting officer. Management generally agreed
                                       Defense Authorization Act, Regulation on the          with the recommendations.
                                       Use of Cost Reimbursement Contracts, requires         Report No. DODIG-2012-059
                                       Federal Acquisition Regulation revisions re-
                                       garding the documentation of decisions and ap-        TRICARE Managed Care Support Contractor
                                       provals necessary before issuance of other than       Program Integrity Units Met Contract
                                       firm-fixed-price contracts. Federal Acquisition       Requirements
                                       Circular 2005-50 issued March 16, 2011, imple-        Overview: The Program Integrity Office at
                                       mented the required revisions on an interim           TRICARE Management Activity manages
                                       basis. DoD IG determined whether Air Force            anti-fraud and abuse activities to protect ben-
                                       complied with interim FAR revisions on the use        efit dollars and safeguard eligible beneficiaries.
                                       of cost-reimbursable contracts. This was a first in   The office’s responsibilities include developing
                                       a series of reports as DoD IG plans to issue (1)      and executing anti-fraud/abuse policies and
                                       separate reports for each service, (2) one report     procedures; monitoring and providing over-
                                       to include the Missile Defense Agency and the         sight of contractor program integrity activities;
                                       Defense Microelectronics Activity and (3) one         and developing cases for criminal fraud/abuse
                                       summary report.                                       prosecutions and civil lawsuits. TMA Program
                                       Findings: Of the 156 contracts reviewed, valued       Integrity Office personnel are responsible for
                                       at about $10.5 billion, Air Force contracting per-    performing site visits to the managed care sup-
                                       sonnel did not consistently implement the in-         port contractors, who administer purchased care
                                       terim rule for 75 contracts, valued at about $8.8     medical services for TMA. During these visits,
                                       billion. Air Force contracting personnel issued       the managed care support contractor program
                                       contracts that did not follow the interim rule be-    integrity units are assessed against the contract
                                       cause they were unaware of the rule, assumed it       requirements.

 20 SEMIANNUAL REPORT TO THE CONGRESS
Findings/Result: DoD IG determined that the          Improvements       Needed      in     Managing
managed care support contractors had dedi-           Maintenance Contracts in Korea for Air Force
cated program integrity functions that met the       Aircraft
TRICARE operations manual and government             Overview: DoD IG determined whether Air
contractual requirements for preventing and de-      Force aircraft maintenance contracts in Korea
tecting fraud.                                       were effectively administered. During FYs 2010
Report No. DODIG-2013-029                            and 2011, the Defense Contract Management
                                                     Agency-Korea administered six contracts awar­
Defense Advanced Research Projects Agency’s          ded to Korean Air Lines in support of depot
Ethics Program Met Federal Government                maintenance for Air Force A-10, F-15, F-16 and
Standards                                            HH-60 aircraft. The contractor billed $45.7 mil-
Overview: DoD IG determined whether                  lion for maintenance services during FYs 2010
Defense Advanced Research Projects Agency’s          and 2011.
ethics policies and program implementation           Findings/Result: The report is FOUO.
were consistent with federal government con-         Report No. DODIG-2013-049                              DoD IG reviewed AF aircraft
flict-of-interest mitigation standards and wheth-                                                           maintenance contracts in Korea.
er DARPA personnel were properly trained and         Audit of the F-35 Lightning II Autonomic
following their policies.                            Logistics Information System
Findings/Result: The DARPA ethics policies and       Overview: The overall objective of the audit was
program implementation were consistent with          to evaluate the management of the Autonomic
federal government conflict-of-interest mitiga-      Logistics Information System. DoD IG also per-
tion standards, and the DARPA personnel DoD          formed follow-up on recommendations made in
IG selected for review were properly trained and     DoD IG report 07-INTEL-05, titled, “Audit of
followed DARPA policies. In the last three years,    Controls Over Protecting and Releasing Special
DARPA officials issued standard ethics guidance      Program Information to the Joint Strike Fighter
and operating procedures that implemented eth-       Foreign Partners,” dated Feb. 9, 2007.
ics laws and regulations. The only DARPA ethics      Findings/Result: This report is classified.
rule change was to the broad agency announce-        Report No. DODIG-2013-031
ment process and the recusal rules interpretation
for employees covered by the Intergovernmental
Personnel Act. DARPA’s ethics program appro-         Financial Management
priately mitigated the potential for conflicts-of-   The Department cannot yet produce financial
interest. In addition, DARPA’s ethics training       statements that are auditable, and manage-
followed federal government ethics rules and         ment cannot yet provide sufficient assurance
regulations. For its annual training, the DARPA      of effective internal controls. The Financial
deputy designated agency ethics official used the    Improvement and Audit Readiness initiative
ethics training material developed each year by      is guiding the Department’s effort to improve
the DoD Standards of Conduct Office. Finally,        financial management and achieve audit readi-
DoD IG determined that the program manage-           ness for key financial statements by 2014 and
ment and contract award process participation        for all statements by 2017. It is important that
of the DARPA employees who formerly worked           the Department is committed to improving its
for BAE Systems or its subsidiary, AlphaTech,        financial management efforts to ensure it is a
did not create a conflict-of-interest between the    good steward of the taxpayer dollars and can
two entities. In addition, DARPA did not award       successfully meet national security objectives.
BAE Systems contracts as a result of undue in-       DoD IG continues to focus its oversight efforts
fluence from former BAE employees in DARPA’s         on three aspects of the Department’s efforts for
Information Innovation Office.                       achieving auditability including financial re-
Report No. DODIG-2013-039                            porting, audit readiness efforts and development
                                                     and implementation of the Department’s enter-
                                                     prise resource planning systems. During this re-
                                                     porting period DoD IG issued various financial

                                                                                                        OCTOBER 1, 2012 TO MARCH 31, 2013 21
Core Mission Areas



                                   statement opinions including the Department          Support System-Army, General Fund Enterprise
                                   of Defense principal financial statements. This      Business System, Integrated Personnel and Pay
                                   year, the same 13 material weaknesses still exist    System-Army and Logistics Modernization
                                   from the previous year:                              Program. For this audit, DoD IG determined
                                      •	 Financial management systems.                  whether the strategy and its implementation
                                      •	 Fund balance with treasury.                    provided adequate governance and program
                                      •	 Accounts receivable.                           management of enterprise resource planning
                                      •	 Inventory.                                     systems.
                                      •	 Operating materials and supplies.              Findings: Army OBT officials developed and im-
                                      •	 General property, plant and equipment.         plemented a strategy that was not comprehensive
                                      •	 Government property in possession of           enough for adequate governance and manage-
                                         contractors.                                   ment of its enterprise resource planning systems.
                                      •	 Accounts payable.                              The strategy did not include specific implemen-
                                      •	 Environmental liabilities.                     tation milestones and performance measures
                                      •	 Statement of net cost.                         for accomplishing the stated goals, including a
                                      •	 Intragovernmental eliminations.                plan for using ERP capabilities. Nor did it clearly
                                      •	 Accounting entries.                            define the Army Enterprise Systems Integration
                                      •	 Reconciliation of net cost of operations to    Program’s ERP integration role or milestones.
                                         budget.                                        This occurred because OBT officials focused
                                   Other financial oversight focused on DoD de-         on near-term milestones but did not develop a
                                   velopment and implementation of ERP systems,         comprehensive plan outlining milestones and
                                   examinations of existence and completeness of        performance measures for all planning periods.
                                   assets, controls over cash and other monetary        In addition, their strategy did not focus on elim-
                                   assets, DoD efforts to correct the causes of         inating legacy system interfaces and incorporat-
                                   Antideficiency Act violations concerning mili-       ing additional functionalities into the enterprise
                                   tary personnel accounts and compliance with          resource planning systems. Finally, OBT officials
                                   Improper Payments Elimination and Recovery           did not decide on the scope and future of the
                                   Act requirements.                                    Army Enterprise Systems Integration Program.
                                                                                        Although OBT officials included 25 implemen-
                                   Army Business Systems Information Technology         tation tasks in the strategy, with due dates of May
                                   Strategy Needs Improvement                           2011 and August 2011, the Army did not com-
                                   Overview: For more than two decades, Congress        plete 16 of these tasks as of March 2012. This oc-
                                   has asked DoD to improve its systems of account-     curred because OBT officials did not adequately
                                   ing, financial management and internal controls      monitor the development and completion of the
                                   to produce reliable financial information and        implementation tasks. Without a comprehensive
                                   to deter fraud, waste and abuse of government        strategy guiding the successful implementa-
                                   resources. Enterprise resource planning systems      tion of its enterprise resource planning systems,
                                   are commercial software packages containing          with an estimated life-cycle cost of $10.1 billion,
                                   functional modules that integrate all the infor-     Army management may not have the timely, ac-
                                   mation flowing through an entity. Individual         curate and complete information it needs for de-
                                   modules contain the business processes needed        cision-making. In addition, the Army risks not
                                   to complete their intended function. The Army        being able to achieve an auditable Statement of
                                   Office of Business Transformation is assisting       Budgetary Resources by FY 2014 or accomplish
                                   the Army in transforming its business opera-         its goal of full financial statement audit readiness
                                   tions to more effectively and efficiently use na-    by FY 2017.
                                   tional resources. The Army Business Systems          Result: DoD IG recommended that the OBT
                                   Information Technology Strategy serves as the        director coordinate with Army comptroller of-
                                   Army’s roadmap for compiling and detailing           ficials to schedule ERP audits. In addition, the
                                   their enterprise architecture. The strategy focus-   director should:
                                   es on the Army’s four core enterprise resource          •	 Issue an updated strategy to include a plan
                                   planning systems including the Global Combat               outlining specific milestones and perfor-

22 SEMIANNUAL REPORT TO THE CONGRESS
     mance measures that the Army is to use to       prise resource planning system that was incapa-
     govern and manage ERP implementations           ble of providing standardized data for an audit-
     and to help achieve the strategy’s goals.       able DoD Statement of Budgetary Resources by
  •	 Implement controls to monitor the develop-      FY 2014. In addition, DLA missed opportunities
     ment and completion of the strategy imple-      to reduce the more than $30 million that it pays
     mentation tasks and milestones.                 DFAS annually to perform accounting functions
Report No. DODIG-2013-045                            by enhancing EBS functionality.
                                                     Result: DoD IG recommended the deputy chief
Enterprise Business System Was Not Configured        management officer and deputy chief financial                     “...DLA missed
to Implement the U.S. Government Standard            officer restrict funding until EBS program man-           opportunities to reduce
General Ledger at the Transaction Level              agers demonstrate that EBS contains all SFIS                  the more than $30
Overview: In FY 2007, Defense Logistics Agency       requirements. After DLA certifies SFIS compli-
officials combined business system moderniza-        ance, DLA should conduct a one-time validation
                                                                                                                   million that it pays
tion, which included order fulfillment, supply       to document that EBS program managers cor-                      DFAS annually to
and demand planning, procurement, technical          rectly implemented all SFIS requirements and                 perform accounting
quality and financial capabilities with the cus-     then validate EBS after each subsequent SFIS              functions by enhancing
tomer service management and product data            update. Additionally, DoD managers should                      EBS functionality.”
management initiatives to develop the enter-         extend the validation processes to all DoD ERP
prise business system core system. EBS became        systems and publish a definitive listing of busi-
the enterprise resource planning system solution     ness rules needed for FY 2014 financial report-
supporting DLA nonenergy commodity activi-           ing. DoD IG recommended that the DLA direc-
ties. EBS serves as DLA’s general ledger system      tor develop a plan of action and milestones to
of record for both general fund and working          implement the most recent SFIS requirements,
capital fund operations. The Defense Finance         an alternate chart of accounts and the function-
and Accounting Service uses EBS financial data       ality to internally crosswalk to the new alternate
to produce DLA financial statements, including       chart of accounts. The director should also de-
the Statement of Budgetary Resources. During         velop procedures to update EBS for changes in
FY 2012, DLA processed a majority of the more        the DoD standard chart of accounts. Comments
than $53.9 billion in DoD budgetary authority        from the DoD deputy chief management officer,
using EBS.                                           deputy chief financial officer and the DLA depu-
Findings: EBS program managers did not con-          ty director were generally responsive.
figure the system to report U.S. Government          Report No. DODIG-2013-057
Standard General Ledger financial data using
the Standard Financial Information Structure         Accountability Was Missing for Government
data standards. Specifically, they did not prop-     Property Procured on the Army’s Services
erly implement 99 business rules, the SFIS post-     Contract for Logistics Support of Stryker
ing logic and 41 attributes; establish and update    Vehicles
EBS’s capability to record and report 241 DoD        Overview: DoD IG evaluated the effective-
reporting accounts; or establish EBS’s capability    ness of the contractor logistics support strategy
to generate trial balance data and report the data   for the Stryker family of vehicles. The Project
to financial systems. This occurred because DoD      Management Office for Stryker Brigade Combat
managers did not initially establish the stringent   Team entered into the contract with General
validation and certification procedures imple-       Dynamics Land Systems with a singular focus to
menting SFIS requirements correctly and DLA          achieve an operational readiness rate goal of 90
did not prioritize its funding to ensure that EBS    percent and actually achieved a readiness rate in
complied with the SFIS requirements. As a re-        excess of 96 percent. This report is the second
sult, DoD managers approved EBS funding and          in a series of three reports and addresses con-
did not require SFIS implementation before de-       trols over government property (Army-owned
veloping and deploying additional EBS capabili-      Stryker inventory).
ties. As of Sept. 30, 2012, DLA obligated more       Findings: PMO Stryker officials did not prop-
than $2 billion to develop and deploy an enter-      erly account for government property procured

                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 23
Core Mission Areas



                                        on the cost-reimbursable services contract for              requirements and aggressive potential reuti-
                                        logistics support of Stryker vehicles. DoD IG               lization and disposal reviews to meet the in-
                                        identified 19,365 different items of Stryker in-            tent of Public Law 111-84, National Defense
                                        ventory (spare and repair parts) being man-                 Authorization Act for FY 2010, Section 328,
                                        aged by General Dynamics Land Systems at a                  Improvement of Inventory Management
                                        government-owned, contractor-operated ware-                 Practices, Oct. 28, 2009.
                                        house. The inventory had not been assigned a           The review of 21 high-dollar parts, valued at
                                        value and recorded in appropriate Army prop-           $85.1 million, showed that 16 parts had excess
DoD IG evaluated contracts related to   erty accountability and financial accounting           Stryker inventory of $72.7 million that could be
the Stryker Infantry Carrier Vehicle.   systems. At request, General Dynamics Land             either disposed of ($58 million) or potentially
                                        Systems assigned a value to the Stryker inven-         used on other contracts ($14.7 million). General
                                        tory of about $892.3 million. Stryker inventory        Dynamics Land Systems initiated action to dis-
                                        was not properly accounted for because PMO             pose of different obsolete parts identified dur-
                                        Stryker inappropriately treated the inventory          ing our review. During our visit to the govern-
                                        as contractor-acquired property, while General         ment-owned, contractor-operated warehouse in
                                        Dynamics Land Systems considered the invento-          Auburn, Wash., DoD IG identified 170 empty
                                        ry as government property after it was delivered       engine containers, valued at $1.1 million, that
                                        to the government-owned, contractor-operated           were purchased to store an engine that was no
                                        warehouse. Consequently, neither PMO Stryker           longer being procured. General Dynamics Land
                                        nor General Dynamics Land Systems accounted            Systems determined that the empty containers
                                        for the Stryker inventory in appropriate prop-         could be used to store a newer engine, thereby
                                        erty management systems. Contractor-acquired           reducing future requirements.
                                        property business rules for cost-reimbursable          Result: Management comments were respon-
                                        contracts were generally designed to address           sive to the recommendations, and management
                                        “property acquired, fabricated or otherwise pro-       was taking action to address Stryker inventory
                                        vided by the contractor” that would eventually         acceptance, accountability and financial report-
                                        be delivered to the government as part of a high-      ing issues. Among other recommendations, the
                                        er-level end item, not as used by the Army on          Defense Procurement and Acquisition Policy
                                        its logistics services contract with no end-item       director working with the assistant secretary
                                        deliverable. While Stryker inventory consumed          of defense for logistics and materiel readiness,
                                        during the contract periods of performance for         agreed to issue guidance during the second
                                        the logistics services contract could possibly be      quarter of FY 2013 that clarifies (1) the proper
                                        considered contractor-acquired property, most          use of contractor-acquired property business
                                        of the inventory identified in this report was         rules specifically for logistics services contracts
                                        from prior contract periods and needed to be           with no end-item deliverables and (2) how to
                                        delivered and accepted by the Army as govern-          properly account for inventory on these con-
                                        ment property. As a result of incorrectly classi-      tracts that is not consumed during the contract
                                        fying Stryker inventory as contractor-acquired         period of performance. Additionally, the assis-
                                        property, PMO Stryker did not:                         tant secretary of the Army (acquisition, logistics,
                                           •	 Comply with multiple DoD and Army                and technology), with support from the assistant
                                              property regulations designed to provide         secretary of the Army (financial management
                                              good stewardship and fiduciary responsi-         and comptroller), established a multifunctional
                                              bility of government property, support the       support team to assist PMO Stryker in properly
                                              Army goal of creating auditable financial        valuing and recording Stryker inventory. The
                                              statements and correctly use the Army’s          Ground Combat Systems program executive of-
                                              system that is designed to integrate logistics   ficer agreed that the Stryker inventory should be
                                              and financial operations.                        delivered and accepted on a contract line item,
                                           •	 Implement a comprehensive inventory              properly valued, recorded in an Army property
                                              management improvement plan that ad-             accountability system, and stratified and clas-
                                              dressed over-forecasting, total asset visibil-   sified in the proper logistics and financial ac-
                                              ity, excess inventory, economic retention        counts. Also, Ground Combat Systems PEO will

 24 SEMIANNUAL REPORT TO THE CONGRESS
require the PMO Stryker to implement a com-          to future MILPERS ADA violations. Army and
prehensive inventory management improve-             Navy comptroller personnel did not assess the
ment plan that addresses overforecasting, total      adequacy of control procedures established for
asset visibility, excess inventory and economic      managing centrally managed allotments. This
retention requirements and aggressive potential      occurred because Army personnel did not recog-
reutilization and disposal reviews.                  nize this requirement before FY 2012, and Navy
Report No. DODIG-2013-025                            personnel did not understand that the MILPERS
                                                     accounts were covered by this requirement. As
DoD Generally Effective at Correcting Causes         a result, the Army and Navy had limited assur-
of Antideficiency Act Violations in Military         ance that controls will prevent future MILPERS
Personnel Accounts, But Vulnerabilities Remain       ADA violations, and they have not justified the
Overview: The Office of the Under Secretary          continued operation of MILPERS accounts as
of Defense (Comptroller)/Chief Financial             centrally managed allotments.
Officer submitted proposals for FYs 2012 and         Result: DoD IG recommended the under secre-
2013 to the House and Senate Appropriations          tary of defense (comptroller)/chief financial of-
Committees that requested the authority to ex-       ficer should require the military departments to
tend 2 percent of each military personnel ap-        report the status of all unimplemented corrective
propriation for obligation for an additional year.   actions, update the DoD Financial Management
USD(C)/CFO personnel stated in their proposal        Regulation to clarify the definition of centrally
that this would reduce the rate of military per-     managed allotments and require the military de-
sonnel Antideficiency Act violations by allow-       partments to provide written assurance of their
ing the military departments more flexibility for    annual review of centrally managed allotments
unidentified or underestimated requirements          to the USD(C)/CFO. Additionally, the assistant
that occurred after a MILPERS appropriation          secretaries of the Army, Navy and Air Force (fi-
was no longer available for new obligations. As      nancial management and comptroller) should
a result of interest in this request, Section 8109   establish procedures to document corrective
of the Consolidated Appropriations Act, 2012,        actions taken. The Navy should also identify all
required DoD IG to conduct a review of ADA           its centrally managed allotments and begin per-
violations and their causes in DoD MILPERS           forming and documenting annual reviews.
accounts.                                            Report No. DODIG-2013-027
Findings: The military departments were gen-
erally effective in implementing and sustaining      Deliveries and Payments for the Defense                      “... personnel in the
corrective actions for the nine MILPERS ADA          Advanced GPS Receivers Met Contract                     acquisition and logistics
violations, totaling $541.9 million, reported        Terms, but Property Accountability Needed                offices in each military
since Oct. 1, 2002. Specifically, the Office of      Improvements
the Under Secretary of Defense (Comptroller)/        Overview: The Defense Advanced GPS Receiver
                                                                                                                  department did not
Chief Financial Officer, DoD and the military        is a hand-held, dual-frequency, GPS device that                  properly account
department’s assistant secretaries for financial     provides guidance capabilities for vehicular,                 for 75,727 DAGRs,
management and comptroller personnel pro-            hand-held receiver, sensor and gun-laying ap-             which were valued at
vided adequate support to substantiate that 36       plications. The DAGR features an anti-spoofing                 $114.8 million...”
of 44 corrective actions were implemented and        module, simultaneous dual-frequency signal
sustained. However, in four of the nine viola-       reception and situational awareness. It also sup-
tions, Army and Navy Comptroller personnel           ports laser range finders and has a minimum of
could not demonstrate that they had completed        14 hours continuous battery life.
and sustained eight corrective actions, includ-      Findings: Rockwell Collins Inc. delivered
ing three actions still in process. This occurred    DAGRs in accordance with contract terms, and
because DoD had not established sufficient           the Defense Finance and Accounting Service
controls to ensure that required corrective ac-      correctly paid $27.1 million in DAGR contract
tions in MILPERS ADA violation reports were          transactions reviewed. As a result, the military
properly implemented, sustained and docu-            departments received the DAGRs needed to
mented. As a result, DoD remained vulnerable         meet mission requirements. However, person-

                                                                                                         OCTOBER 1, 2012 TO MARCH 31, 2013 25
Core Mission Areas



                                   nel in the acquisition and logistics offices in      Improvements to Controls Over Cash Are
                                   each military department did not properly ac-        Needed at the Army Disbursing Office at Soto
                                   count for 75,727 DAGRs, which were valued at         Cano Air Base, Honduras
                                   $114.8 million and stored in a Rockwell Collins      Overview: DoD reported $1.7 billion in cash
                                   Inc. warehouse. Those responsible for the DAGR       and other monetary assets on its DoD agency-
                                   inventory inappropriately relied on the Rockwell     wide consolidated balance sheet as of Sept. 30,
                                   Collins Inc. inventory system. Additionally, a       2011. The Army General Fund Cash and Other
                                   discrepancy of approximately 72,550 DAGRs ex-        Monetary Assets represented $1.4 billion (83.1
                                   isted between the number of DAGRs delivered          percent) of the DoD agency-wide cash and other
                                   by Rockwell Collins Inc. and the total number of     monetary assets amount, of which $18.7 million
                                   DAGRs reported by the military departments as        was attributable to Army disbursing offices out-
                                   deployed or stored outside the Rockwell Collins      side the continental United States that did not
                                   Inc. customer-owned property system. This oc-        previously have oversight by an Army financial
                                   curred because acquisition and logistics per-        management center. Army disbursing offices
                                   sonnel did not maintain appropriate account-         are located in Sinai, Egypt; Soto Cano Air Base,
                                   ability records. Each military department must       Honduras; and Riyadh, Saudi Arabia. As of Nov.
                                   properly manage its DAGR inventory to provide        2, 2011, the Honduras disbursing office cash bal-
                                   optimal support to the warfighter. In addition,      ance was about $1.2 million.
                                   the DoD accountability records must be easily        Findings: Controls at the Honduras disbursing
                                   retrievable and reconcilable to the number pro-      office were not adequate to safeguard, account
                                   duced. Furthermore, the procurement contract-        for, document and report cash. Specifically, the
                                   ing officer, Air Force, Space and Missile Systems    then-deputy disbursing officer did not avoid
                                   Center, Global Positioning Systems Directorate,      conflicts of interest and properly complete secu-
                                   inappropriately authorized $102.4 million in         rity container check sheets. The then and former
                                   performance-based payments on the DAGR               DDOs did not use acceptable storage containers
                                   contract. The contract did not meet Federal          to store cash, conduct semiannual security in-
                                   Acquisition Regulation requirements that would       spections, maintain records and report a major
                                   justify authorization of performance-based pay-      physical loss of funds. This occurred because
                                   ments. The procuring contracting officer used        deputy disbursing officer appointments were
                                   performance-based financing on this contract         rotated approximately every six months, and the
                                   because the previous contract contained per-         disbursing office did not have adequate standard
                                   formance-based payments and because of the           operating procedures in place. Moreover, the
                                   increased DoD emphasis on the use of this type       then-DDO stated he was not aware of the re-
                                   of financing for fixed-price contracts. The use of   quirements and was not trained to perform these
                                   performance-based payments cost the military         duties. The disbursing officer did not prepare the
                                   departments $49,788 in processing fees and cre-      report on foreign currency purchased and im-
                                   ated an unnecessary administrative burden.           properly revoked and appointed the DDO. This
                                   Result: DoD IG recommended the military              occurred because the disbursing officer did not
                                   departments record all DAGRs in government           have procedures in place to ensure that the re-
                                   property systems and initiate complete inventory     port was prepared and deputy disbursing officer
                                   reconciliation. In addition, the Air Force, Space    revocations and appointments were conducted
                                   and Missile Systems Center, Global Positioning       in a timely manner. The Joint Task Force-Bravo
                                   Systems Directorate chief of contracts should        commander did not properly complete physi-
                                   provide training for procuring contracting offi-     cal loss of funds investigations. The disbursing
                                   cers about when and how to use performance-          office staff stated that the lack of command in-
                                   based payments.                                      volvement in appointing investigating officers
                                   Report No. DODIG-2013-018                            and the inexperience of the DDOs and their six-
                                                                                        month rotation caused the problems with loss of
                                                                                        funds investigations. The Joint Task Force-Bravo
                                                                                        deputy commander also attributed the problems
                                                                                        with the investigations to the lack of continuity

26 SEMIANNUAL REPORT TO THE CONGRESS
of staff. The U.S. Army Financial Command di-         showing that DoD met five of the six require-
rector did not provide adequate oversight. The        ments of the Improper Payments Elimination
director stated that adequate oversight was pro-      and Recovery Act of 2010. Specifically, DoD
vided during staff assistance visits. However,        published an Agency Financial Report, con-
none of the visits corrected the control issues       ducted program specific risk assessments, pub-
identified in this report. As a result, the Army      lished improper payment estimates, published
increased its risk of loss due to error, theft and    corrective action plans and reported improper
fraud at the Honduras disbursing office.              pay rates of less than 10 percent. DoD did not
Result: Among other recommendations, DoD              meet the established reduction target for one of
IG recommended corrective actions in the areas        its eight payment programs, DFAS travel pay.
of separation of duties, training, staff assistance   USD(C)/CFO set an FY 2012 reduction target
visits and improved procedures, which should          for DFAS travel pay at 3.27 percent in the DoD
improve security of cash. Additionally, senior        FY 2011 Agency Financial Report. However, the
management should review the actions of offi-         actual improper payments reported in the DoD
cials responsible for providing oversight of the      FY 2012 Agency Financial Report for DFAS
Honduras disbursing office, conducting loss of        travel pay were 5 percent of total outlays, or
funds investigations and ensuring adequate pro-       $419.3 million. This occurred because autho-
cedures are in place.                                 rizing officials’ reviews of travel vouchers were
Report No. DODIG-2013-051                             not adequate to prevent improper payments. As
                                                      a result, improper payments increased in travel,
DoD Efforts to Meet the Requirements of the           and DoD did not achieve the improper payment                   “The guidance also
Improper Payments Elimination and Recovery            reductions intended in the Improper Payments                 encourages agencies’
Act in FY 2012                                        Elimination and Recovery Act of 2010 for DFAS                OIGs, as part of their
Overview: On July 22, 2010, the president             travel pay or fully comply with the Act in FY
                                                                                                                 reports, to include any
signed Public Law 111-204, Improper Payments          2012. The USD(C)/CFO made other program
Elimination and Recovery Act of 2010, which           improvements during FY 2012, including using                recommendations for
amended the Improper Payments Information             statistical samplings of contract and vendor pay-          actions to improve the
Act of 2002. The Office of Management and             ments, as well as reviewing additional military             agency’s performance
Budget issued Circular A-123, Appendix C,             health benefit programs that had previously                 in reducing improper
Requirements for Effective Measurement and            not been included in the Improper Payments
                                                                                                                              payments.”
Remediation of Improper Payments, parts I             Elimination and Recovery Act reviews. However,
and II, April 14, 2011, as guidance for agencies      other challenges remained, including $12.3 bil-
to implement the requirements of Improper             lion in outlays that were not reviewed for im-
Payments Elimination and Recovery Act of              proper payments but should have been. As a re-
2010. If an agency did not meet one or more           sult, the USD(C)/CFO did not provide accurate
of these requirements, it was not compliant           improper payment estimates.
with the Improper Payments Elimination and            Result: DoD IG recommended that the under
Recovery Act of 2010, which implemented guid-         secretary of defense (comptroller)/chief finan-
ance encouraging agencies’ offices of inspectors      cial officer work with military departments and
general to (1) evaluate, as part of its review of     defense agencies to (1) develop metrics and
these improper payment elements, the accuracy         quality assurance goals as well as programmatic
and completeness of agency reporting and (2)          corrective action plans for authorizing/certify-
evaluate agency performance in reducing and           ing officials who certify vouchers that result in
recapturing improper payments. The guidance           an improper payment, including holding those
also encourages agencies’ OIGs as part of their       officials financially liable where appropriate and
reports, to include any recommendations for ac-       (2) submit a remediation plan as required by the
tions to improve the agencies’ performance in         Improper Payments Elimination and Recovery
reducing improper payments.                           Act of 2010. Management comments were re-
Findings: The Office of the Under Secretary of        sponsive to the recommendations.
Defense (Comptroller)/Chief Financial Officer         Report No. DODIG-2013-054
published the FY 2012 Agency Financial Report

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 27
Core Mission Areas



                                        Defense Hotline Allegations Concerning                 of Defense (Acquisition, Technology and
                                        Contractor-Invoiced Travel for U.S. Army Corps         Logistics) requested this audit. DoD IG deter-
                                        of Engineers’ Contracts W912DY-10-D-0014               mined whether Department of Defense approv-
                                        and W912DY-10-D-0024                                   ing/billing officials adequately reviewed transac-
                                        Overview: A hotline complainant alleged that           tions that the Purchase Card On-Line System
                                        the contractor profited on travel costs, specifical-   referred for being at-risk of noncompliance with
                                        ly lodging costs, by negotiating firm-fixed-price      applicable laws and criteria. In addition, DoD IG
                                        task orders using maximum per diem rates for           determined whether DoD approving/billing of-
DoD IG reviewed at-risk purchase card   lodging but requiring employees to stay at ho-         ficials adequately reviewed cases in which they
transactions.                           tels charging far less than the maximum lodging        identified cards as lost or stolen.
                                        rates. The complainant alleged that this practice      Findings: Neither DoD IG nor Defense
                                        resulted in the contractor’s profiting on lodging      Procurement and Acquisition Policy could use
                                        costs, a process contrary to the contract terms        the Purchase Card On-Line System to assess
                                        of not allowing profit on travel costs. DoD IG         and determine whether DoD approving/billing
                                        determined whether the contractor’s invoiced           officials adequately reviewed 32,690 transac-
                                        travel expenditures were allowable, reasonable         tions that the system referred (during the period
                                        and allocable for task orders awarded against          January through June 2012) as being at-risk of
                                        the U.S. Army Corps of Engineers Worldwide             noncompliance with applicable laws and criteria,
                                        Environmental Remediation Services contracts.          including lost and stolen cards. This occurred
                                        DoD IG determined, specifically, whether the           because the automated system:
                                        contractor charged profit on travel costs, an ac-         •	 Did not contain sufficient capability to au-
                                        tion that the contracts prohibit.                            tomatically retrieve and match the case dis-
                                        Result: Federal Acquisition Regulation 31.205-               position reviews with the universe of the at-
                                        46, Travel Costs, allows a contractor to ne-                 risk government purchase card transactions.
                                        gotiate travel costs at maximum Joint Travel              •	 Was unable to archive case history file data
                                        Regulations per diem rates but does not restrict             that were maintained in a separate data
                                        the contractor from incurring less than that rate            warehouse.
                                        during the performance of the contract. Section        The automated system cannot be employed for
                                        A, paragraph 5, of contract W912DY-10-D-0014           oversight reviews, such as assessments of ap-
                                        states that travel costs are limited to maximum        proving/billing reviews and disposition of at-
                                        per diem rates by the Joint Travel Regulations         risk transactions.
                                        and that profit is not allowed on travel costs. The    Result: Because of the information DoD IG
                                        hotline complainant stated that this language          requested to conduct the audit, the Defense
                                        was inserted to stop the contractor from prof-         Procurement and Acquisition Policy became
                                        iting from travel costs. The contracting officer       aware the automated system lacked the capabil-
                                        explained that this language was not related to        ity to produce the data needed to complete the
                                        the contractor but was included in the solicita-       assessment of the approving/billing officials’
                                        tion to ensure that all contractors understood         reviews and initiated actions to improve the
                                        bidding requirements. DoD IG did not substan-          Purchase Card On-Line System. DoD IG did not
                                        tiate the allegation that the contractor improp-       make any recommendations.
                                        erly realized profit on lodging costs on the eight     Report No. DODIG-2013-061
                                        task orders awarded under contract W912DY-
                                        10-D-0014 and one task order awarded under             Audit of Hotline Allegations Involving Defense
                                        W912DY-10-D-0024.                                      Intelligence Mission Area
                                        Report No. DODIG-2013-056                              Overview: The overall objective was to examine
                                                                                               the allegations made in a hotline complaint in-
                                        Improvements Needed to the Purchase Card               volving the Defense Intelligence Mission Area,
                                        On-Line System                                         a program management office that addresses
                                        Overview: The director of program development          integration of the DoD intelligence community
                                        and implementation, Defense Procurement and            Information Technology Portfolio Management.
                                        Acquisition Policy, Office of the Under Secretary      Specifically, DoD IG examined whether Defense

28 SEMIANNUAL REPORT TO THE CONGRESS
Intelligence Mission Area funds were properly           tions in their efforts to address capacity gaps in
allocated and executed in accordance with the           such key functions as development of policy and
stated purpose.                                         strategy, ministerial organization, force devel-
Findings: DoD IG did not substantiate the ho-           opment, budgets, human resources (including                      “The DIRI program
tline allegations. However, DoD IG found that           professional defense and military education),                 seeks to enhance DoD
the Office of the Under Secretary of Defense for        logistics, civil-military relationships and inter-
Intelligence and the Defense Intelligence Agency        agency coordination. The DIRI program seeks
                                                                                                                        capacity to conduct
were not in compliance with DoD policies for            to enhance DoD capacity to conduct defense                        defense institution
information technology portfolio management.            institution building with a balanced, centralized,                   building with a
Result: The report provided a recommendation            expert and efficient approach that includes de-               balanced, centralized,
that would ensure information technology in-            liberate outreach to security cooperation provid-               expert and efficient
vestments are adequately managed and redun-             ers and decision-makers.
dancies and efficiencies are identified. The under      Findings: Office of the Deputy Assistant
                                                                                                                                approach...”
secretary of defense for intelligence comments          Secretary of Defense for Partnership Strategy
were not fully responsive to the recommenda-            and Stability Operations program officials ad-
tion. This report is FOUO.                              ministered the DIRI program since its incep-
Report No. DODIG-2013-004                               tion in 2009 without a defined and published
                                                        program mission and goals, program strategy
                                                        or performance measures. Furthermore, CCMR
Joint Warfighting and                                   program officials did not adequately implement
Readiness                                               procedures to establish a clear tracking process
                                                        for DIRI program engagements or document
DoD is determined to maintain a ready and ca-
pable force, even as it reduces its overall capac-      all DIRI program efforts. Specifically, CCMR
ity. As the drawdown continues in Afghanistan,          program officials did not prepare 24 event plans
the resetting of equipment and materials from           for the 175 DIRI program engagements held
ongoing operations is critical to ensure the op-        through August 2009 and April 2012. In addi-
erational readiness of the troops. It is also criti-    tion, 149 event plans and 173 engagement re-
cal to properly account for unneeded equipment          ports lacked approval. This occurred because
and materials by reusing or disposing of them.          the under secretary of defense for policy did
Additionally, the Department continues not only         not develop defense institution-building policy
to ensure support for the troops but also to as-        to guide the DIRI program or any other defense
sist in building partner nations security capacity.     institution-building-related efforts. Also, DASD
The nation’s security is inextricably tied to the ef-   PSO and CCMR program officials stated they
fectiveness of its efforts to help partners and al-     wanted flexibility to execute the DIRI program.
lies build their own security capacity. The value       As a result, DASD PSO program officials had an
of programs to build partner capacity extends           insufficient basis for determining the program’s
well beyond conflicts such as Afghanistan and           effectiveness in partnering with 17 countries or
Iraq. Conducting such efforts before conflicts          of its use of the $20.2 million provided to the pro-
become serious can help mitigate them or even           gram as of third quarter FY 2012. Furthermore,
prevent them in the first place. During this re-        without defined performance measures, DASD
porting period, DoD IG issued reports address-          PSO and CCMR program officials could not ac-
ing supply-support activities in Afghanistan and        count for the program’s results. Because CCMR
the Department’s management efforts associated          program officials did not adequately implement
with the Defense Institution Reform Initiative.         tracking and documentation procedures, a com-
                                                        plete record of what was accomplished during
Defense Institution Reform Initiative Program           DIRI program engagements and lessons-learned
Elements Need to Be Defined                             from those engagements were not easily acces-
Overview: The Defense Institution Reform                sible or disseminated. Lastly, the lack of defense
Initiative program is a global institutional ca-        institution-building policy allowed overlapping
pacity-building program that supports partner           missions in DoD’s defense institution-building-
nation Ministries of Defense and related institu-       related efforts. An emerging and growing pro-

                                                                                                               OCTOBER 1, 2012 TO MARCH 31, 2013 29
Core Mission Areas



                                    gram, DIRI needs written guidance to govern the        four of the seven SSAs exceeded the Army’s goal
                                    program and define how it fits with other U.S.         for the readiness driver fill rate. However, even
                                    security cooperation and defense institution-          though the SSAs provided the necessary support
                                    building efforts. In addition, corrective actions      to their customers, they could be managed more
                                    that officials take will help ensure the efficient     effectively to ensure that assets were accounted
                                    use of the approximately $12 million requested         for and properly safeguarded. Specifically, the
                                    for the DIRI program in FY 2013.                       SSAs DoD IG visited had recorded losses of
                                    Result: DoD IG recommended the under secre-            approximately $23.5 million from June 2010
                                    tary of defense for policy issue guidance that de-     through July 2011. Of the $23.5 million, about
                                    fines the DIRI program’s mission and goals, pro-       $10.3 million could not be adequately explained.
                                    gram strategy, and performance measures. The           The lack of accountability occurred because SSA
                                    under secretary of defense for policy should also      accountable officers did not conduct adequate
                                    issue guidance that defines defense institution        causative research or implement the use of com-
                                    building roles and responsibilities. The under sec-    mand inspection controls. Without adequate
                                    retary of defense for policy should also issue guid-   causative research, the SSA accountable official
                                    ance about implementing procedures that require        could not determine if the inventory discrep-
                                    the coordination of a defense institution-building     ancies were caused by system problems or if a
                                    program’s mission and goals, program strategy          financial liability investigation of property loss
                                    and performance measures with other security           was necessary. As a result, unless controls are
                                    cooperation activities. In addition, the center for    implemented to safeguard inventory, SSAs are at
                                    civil-military relations director should develop       an increased risk of continued loss, damage or
                                    and implement procedures to document all in-           theft of inventory.
                                    dividual DIRI program efforts, provide evidence        Result: DoD IG recommended the U.S. Forces-
                                    of review and approval of those documents, and         Afghanistan commander issue a policy memo-
                                    establish a clear tracking method for each effort.     randum requiring that:
                                    Report No. DODIG-2013-019                                 •	 SSA accountable officers conduct causative
                                                                                                 research on all qualifying Inventory adjust-
                                    Supply Support Activities in Afghanistan Could               ment reports. At a minimum, the causative
                                    Be Managed More Effectively to Improve                       research should include a complete review
                                    Inventory Accountability                                     of all transactions and supporting docu-
                                    Overview: Supply support activities in                       mentation to include identification, analyses
                                    Afghanistan are responsible for providing supply             and evaluation of the cause for the inven-
                                    support to help units maintain operational read-             tory discrepancy. If the causative research
                                    iness. As of June 2011, 19 SSAs were operating               showed that the inventory discrepancy re-
                                    throughout Afghanistan. As of June 2011, SSAs                sulted in an actual loss of property and can
DoD IG reviewed supply support
                                    in Afghanistan reported a cumulative total of                be related to the contractor’s performance,
activities in Afghanistan.          189,443 line items of inventory, valued at $596.1            the accountable officer should prepare a fi-
                                    million. DoD IG determined whether selected                  nancial liability investigation and take the
                                    supply support activities in Afghanistan effec-              appropriate actions.
                                    tively and efficiently supported their customers          •	 Responsible approval authorities review and
                                    and evaluated procedures for establishing autho-             approve all Inventory adjustment reports to
                                    rized stockage lists.                                        verify that causative research conducted by
                                    Findings: SSAs in Afghanistan generally pro-                 SSA accountable officers was conducted
                                    vided the necessary support to their customers,              in accordance with Army Regulation 735-
                                    maintained readiness status and implemented                  5, Policies and Procedures for Property
                                    procedures for establishing effective authorized             Accountability, Feb. 28, 2005.
                                    stockage lists. The seven SSAs DoD IG visited             •	 Sustainment brigades conduct command
                                    met the Army’s goal for the number of line items             inspections of SSAs in accordance with
                                    with a zero balance with dues-out and generally              Army policy.
                                    met the sustainment brigade’s established goal         Management agreed with the recommendations.
                                    for customer demand satisfaction. In addition,         Report No. DODIG-2013-026

 30 SEMIANNUAL REPORT TO THE CONGRESS
Counterintelligence Screening Needed to               appropriately track commercial mobile devices
Reduce Security Threat That Unscreened Local          and was unaware of more than 14,000 commer-
National Linguists Pose to U.S. Forces                cial mobile devices used throughout the Army.
Overview: DoD IG reviewed counterintelli-             Additionally, at the sites visited, CIO did not:
gence screening needed to reduce security threat         •	 Ensure that commands configured com-
that unscreened local national linguists pose to            mercial mobile devices to protect stored in-
U.S. forces.                                                formation. The chief information officers at
Findings/Result: The report is FOUO.                        the U.S. Military Academy and U.S. Army
Report No. DODIG-2013-030                                   Corps of Engineers Engineer Research and
                                                            Development Center did not use a mobile
                                                            device management application to config-
Information Assurance,                                      ure all commercial mobile devices to pro-
Security and Privacy                                        tect stored information.
                                                         •	 Require commercial mobile devices to
DoD IG oversight focuses on the Department’s
cyber security efforts including information                be properly sanitized. CIOs at USMA
security and assurance, operations and contin-              and USACE Engineer Research and
gency planning, information technology acqui-               Development Center did not have the ca-
sitions, vulnerability management and emerging              pability to remotely wipe data stored on
capabilities. During this reporting period, DoD             commercial mobile devices that were trans-
IG issued reports on tracking and security of               ferred, lost, stolen or damaged.
commercial mobile devices, security posture of           •	 Control commercial mobile devices used
critical infrastructure and industrial control sys-         as removable media. The CIOs at USMA
tems, and controls over wireless connections.               and USACE Engineer Research and
                                                            Development Center allowed users to store
Improvements Needed With Tracking and                       sensitive data on commercial mobile devic-                “Specifically, CIO
Configuring Army Commercial Mobile Devices                  es used as removable media.                           did not appropriately
Overview: With the rapid changes in informa-             •	 Require training and user agreements spe-
                                                            cific to commercial mobile devices. The                   track commercial
tion technology, the Army decided to adopt
                                                            CIOs at USMA and USACE Engineer                     mobile devices and was
newer technologies, starting with incorporating
commercial mobile devices into daily activities.            Research and Development Center did not             unaware of more than
As the Army adopted this newer technology, it               train commercial mobile device users and               14,000 commercial
began testing commercial mobile devices in the              require users to sign user agreements.                 mobile devices used
field and in administrative offices. In 2009, the     These actions occurred because the Army CIO
                                                      did not develop clear and comprehensive policy            throughout the Army.”
Army vice chief of staff directed the Army chief
information officer to begin procuring inexpen-       for commercial mobile devices purchased under
sive systems such as Apple iPhone and Google          pilot and nonpilot programs. In addition, the
Android commercial mobile devices instead             Army CIO inappropriately concluded that com-
of the traditional procurement of dedicated           mercial mobile devices were not connecting to
software and hardware. DoD IG determined              Army networks and storing sensitive informa-
whether the Army had an effective cyber secu-         tion. As a result, critical information assurance
rity program that identified and mitigated risks      controls were not appropriately applied, which
surrounding portable electronic devices and re-       left the Army networks more vulnerable to cyber
movable media. Specifically, at the sites visited,    security attacks and leakage of sensitive data.
DoD IG verified whether Army officials appro-         Result: The Army chief information officer
priately tracked, configured and sanitized por-       should develop clear and comprehensive policy
table electronic devices and determined whether       to include requirements for reporting and track-
the Army used authorized removable media on           ing all commercial mobile devices. In addition,
its network.                                          the Army chief information officer should extend
Findings: The Army CIO did not implement an           existing information assurance requirements to
effective cyber security program for commer-          the use of all commercial mobile devices.
cial mobile devices. Specifically, CIO did not        Report No. DODIG-2013-060

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 31
Core Mission Areas



                                     Better Reporting and Certification Processes           needed to train and equip ANSF and Afghan
                                     Can Improve Red Teams’ Effectiveness                   Local Police by providing funding to train, equip
                                     Overview: DoD IG assessed the effectiveness of         and sustain ANSF.
                                     the cyber red teams’ activities. Specifically, DoD
                                     IG determined whether the red teams followed           A top priority of DoD IG is to provide monitoring
                                     DoD and components’ standard operating pro-            and oversight of the acquisition and contracting
                                     cedures when evaluating or testing for vulner-         efforts associated with training, equipping and
                                     abilities, threats, infiltration controls or other     sustaining ANSF and Afghan Local Police. DoD
                                     services performed on components’ systems.             IG oversight addresses the management and ad-
                                     Findings/Result: This report is classified.            ministration of contracts for goods and services
                                     Report No. DODIG-2013-035                              that directly support efforts funded by Afghan
                                                                                            Security Forces Fund. During this reporting pe-
                                     Improvements are Needed to Strengthen the              riod, DoD IG reported on the efforts of acquir-
                                     Security Posture of USACE, Civil Works Critical        ing a medium airlift aircraft for the Afghan Air
                                     Infrastructure and Industrial Control Systems in       Force and the management of the Ministry of
                                     the Northwestern Division                              Defense Advisors program to assist in building
                                     Overview: DoD IG determined whether U.S.               a ministerial capacity in Afghanistan.
                                     Army Corps of Engineers, Civil Works person-
                                     nel in the Northwestern Division implemented           Critical Information Needed to Determine the
                                     effective procedures and security controls to          Cost and Availability of G222 Spare Parts
                                     protect information systems used to operate            Overview: Congress created the Afghanistan
                                     critical infrastructure against unauthorized ac-       Security Forces Fund in FY 2005 as an emer-
                                     cess from physical and cyber threats.                  gency supplemental appropriation for equip-
                                     Findings/Result: This report is FOUO.                  ment and services to support the Afghan
                                     Report No. DODIG-2013-036                              National Security Forces. From FY 2005 to
                                                                                            2012, Congress appropriated about $50.9 bil-
                                     Improvements Needed With Wireless Intrusion            lion to the Afghanistan Security Forces Fund.
                                     Detection Systems at the Defense Logistics             The U.S. government uses pseudo-foreign mili-
                                     Agency                                                 tary sales cases to procure items and services
                                     Overview: DoD IG determined whether Defense            such as the G222 to support the ANSF through
                                     Logistics Agency officials were using wireless in-     this fund. Foreign military sales cases for pur-
                                     trusion detection systems in their facilities to de-   chasing items with Afghanistan Security Forces
                                     tect unauthorized activity from wireless local area    Fund are “pseudo” because the United States is
                                     network devices. DoD IG also determined whether        not selling the items to foreign customers, but
                                     DLA officials took appropriate actions to prevent      instead, to DoD, which provides those items to
DoD IG reviewed wireless intrusion
detector systems.                    and mitigate unauthorized wireless connections.        the ANSF. In May 2007, NATO Training Mission
                                     Findings/Result: This report is FOUO.                  -Afghanistan/Combined Security Transition
                                     Report No. DODIG-2013-055                              Command-Afghanistan sent a memorandum
                                                                                            of request to the Air Force Security Assistance
                                                                                            and Cooperation Directorate to acquire a medi-
                                     Equipping and Training                                 um airlift aircraft for the Afghan Air Force. The
                                     Afghan Security Forces                                 medium airlift aircraft was required to perform
                                                                                            missions in a high-altitude/high-temperature
                                     A sufficient and sustainable Afghan National
                                     Security Force is necessary for Afghanistan’s          environment and to address three requirements:
                                     long-term stability and security. As the transfer-     presidential airlift, medical evacuation and proj-
                                     ring of security authority and responsibility shifts   ect combat capability. In October 2007, NTM-A/
                                     from International Security Assistance Force           CSTC-A requested the acquisition of the G222
                                     to the Afghan government by the end of 2014,           to perform these missions and as requested, the
                                     the training, equipping and mentoring efforts          G222 Program Management Office awarded a
                                     of ANSF is crucial. The Afghanistan Security           contract to Alenia North America.
                                     Forces Fund provides the resource foundation

32 SEMIANNUAL REPORT TO THE CONGRESS
Findings: G222 PMO officials have not de-            the NTM-A/CSTC-A commanding general must
termined the cost or availability of G222 spare      develop a long-term strategy if the G222 will
parts. This occurred because NTM-A/CSTC-A            continue to be used to meet the Afghan Air Force
and G222 PMO officials did not effectively man-      medium airlift requirement. Because of actions
age the G222 program. Specifically, NTM-A/           taken by the Air Force Mobility Programs, Air
CSTC-A and G222 PMO officials had not agreed         Force Life Cycle Management Center PEO after
on a course of action for the G222, and G222         draft report issuance, DoD IG acknowledges that
PMO officials had not prepared a sustainment         a sustainment plan is no longer necessary for the
plan that considered cost. As a result, NTM-A/       G222 program. Therefore, DoD IG recommend-                 DoD IG reviewed the cost of G222 spare
CSTC-A and G222 PMO officials may spend              ed the PEO direct G222 PMO officials not to ob-            parts.
about $200 million in Afghanistan Security           ligate any additional funds related to the about
Forces Funds on spare parts for an aircraft that     $200 million in Afghanistan Security Forces
does not meet operational requirements, may be       Funds. Additionally, DoD IG recommended that
cost-prohibitive to fly and does not have criti-     they do not expend funds previously obligated
cal spare parts to sustain it. This amount would     for spare parts until exhausting all available spare
be in addition to the $486.1 million that G222       parts inventory, cannibalizing spare parts from
PMO officials have already obligated for the pro-    other G222 aircraft, and when feasible, continu-
gram on two contracts. In addition, the aircraft     ing the practice of using other aircraft to meet
flew only 234.2 of the required 4,500 hours from     the medium airlift capability. G222 PMO officials
January to September 2012. In an Aug. 28, 2012,      should also develop an executable disposal plan
memorandum to NTM-A/CSTC-A and Air                   for the G222 and determine whether any spare
Force Life Cycle Management Center officials,        parts are needed to support the disposal plan.
DoD IG suggested they delay the procurement          Report No. DODIG-2013-040
of spare parts until they determined (1) whether
to replace or use the G222 in a limited capac-       Performance       Framework        and     Better
ity, (2) the service life of the G222, (3) the im-   Management of Resources Needed for the
pact of diminishing manufacturing sources and        Ministry of Defense Advisors Program
(4) the estimated sustainment costs. NTM-A/          Overview: In 2009, DoD developed the Ministry
CSTC-A and Air Force Life Cycle Management           of Defense Advisors pilot program to support a
Center officials agreed with our suggestions ex-     pool of civilians capable of building ministerial
cept for preparing a sustainment plan before         capacity in Afghanistan. DoD officials designed
obligating funds for the procurement of spare        the MoDA program to forge long-term relation-
parts. In December 2012, the Air Force Mobility      ships with a partner nation’s ministry of defense
Programs, Air Force Life Cycle Management            by matching senior civilians to partner-identified
Center program executive officer notified the        requirements. DoD civilians can forge long-term
contractor that they would not take action to        relationships under the auspices of the civilian
issue a new delivery order when the G222 fol-        expeditionary workforce, which allows civilians
low-on sustainment support contract expired          to deploy for as long as two years. The MoDA
in March 2013. The PEO also indicated the            program also provides temporary backfill fund-
Afghan Air Force would use an alternate aircraft     ing to the civilian’s parent organization to hire
to meet the long-term medium airlift require-        temporary replacements. DoD IG determined
ment. According to the PEO, if the program had       whether the program met its intended purpose;
continued through March 2022 as originally           specifically, DoD IG determined whether MoDA
planned, it would have required $830 million,        program goals, objectives and resources were
in addition to the about $200 million identified     managed effectively and efficiently.
in the report, in sustainment costs, to include a    Findings: MoDA program officials did not es-
significant amount for spare parts.                  tablish a performance management framework
Result: DoD IG recommended that the NTM-A/           to include goals, objectives and performance
CSTC-A commanding general and the assistant          indicators to assess progress and measure pro-
secretary of the Air Force (acquisition) determine   gram results. Instead, program officials relied
whether to continue to use the G222. In addition,    on NATO Training Mission-Afghanistan/U.S.

                                                                                                            OCTOBER 1, 2012 TO MARCH 31, 2013 33
Core Mission Areas



                                   Combined Security Transition Command-                reimbursed other DoD agencies for some of the
                                   Afghanistan officials to determine whether           deployed civilians’ costs, to include premium
                                   MoDAs were effectively building ministerial          pay, backfilling the vacant position and training
                                   capacity in the Afghanistan Ministry of Defense      costs. DoD IG determined whether MoDA pro-
                                   and Ministry of Interior. Also, program officials    gram officials established adequate controls over
                                   did not establish goals and objectives to deter-     the distribution of funds to other DoD agencies.
                                   mine whether an adequate number of MoDA              Findings: MoDA program officials did not de-
                                   positions were filled in a timely manner. This       velop adequate controls over the distribution of
                                   occurred because program and command offi-           funds to other DoD agencies for deployed civil-
                                   cials did not establish a cooperative agreement      ians’ premium pay, backfill and training costs.
                                   to identify roles and responsibilities and com-      Instead, program officials relied on other DoD
                                   municate and share information. Other contrib-       agencies to ensure $19.3 million in estimated
                                   uting factors cited by program officials included    costs for 118 military interdepartmental pur-
                                   an absence of DoD guidance on building min-          chase requests issued in FY 2010 to FY 2012
                                   isterial capacity and the tentative nature of a      were adjusted to the final payment amounts.
                                   pilot program creating uncertainty of its future.    MoDA program officials did not develop and
                                   Without a framework, program officials cannot        implement policies and procedures to obtain
                                   fully assess the effectiveness of the program in     actual-cost data, perform reconciliations and
                                   building ministerial capacity or hold individu-      adjust final payments made to DoD agencies. As
                                   als accountable for achieving program results. In    a result, for $3.6 million disbursed through 56
                                   addition, command officials may not have effec-      military interdepartmental purchase requests,
                                   tively and efficiently managed MoDA resources.       MoDA program officials:
                                   Specifically, officials were unable to justify the     •	 Potentially overpaid nine military interde-
                                   need for all 97 authorized MoDA positions and             partmental purchase requests by $124,195.
                                   placed five of 28 MoDAs interviewed into non-          •	 Potentially underpaid 13 military interde-
                                   advisory positions with Afghan officials. This            partmental purchase requests by $318,892.
                                   occurred because command officials did not           The remaining 34 military interdepartmental
                                   develop criteria to identify and validate MoDA       purchase requests did not require adjustment.
                                   positions. As a result, MoDAs may be unable to       Without taking corrective action, MoDA pro-
                                   fully exchange expertise and build long-term re-     gram officials risk augmenting MoDAs or other
                                   lationships with Afghan ministry officials.          DoD agencies’ appropriations, which could re-
                                   Result: Among other recommendations, DoD             sult in Antideficiency Act violations.
                                   IG recommended the deputy assistant secretary        Result: DoD IG recommended the deputy assis-
                                   of defense for partnership strategy and stability    tant secretary of defense for partnership strategy
                                   operations and command officials should work         and stability operations:
                                   together to establish a performance manage-            •	 Update policy and develop and implement
                                   ment framework and cooperative agreement                  procedures to obtain actual-cost data and
                                   and develop and implement criteria to identify            reconcile funds disbursed through military
                                   and validate MoDA positions.                              interdepartmental purchase requests for de-
                                   Report No. DODIG-2013-005                                 ployed advisors premium pay, backfill and
                                                                                             training costs.
                                   Policies and Procedures Needed to Reconcile            •	 Reconcile prior disbursements to actual
                                   Ministry of Defense Advisors Program                      costs and adjust the final payment amount,
                                   Disbursements to Other DoD Agencies                       as appropriate.
                                   Overview: Between FY 2010 and FY 2012,               Report No. DODIG-2013-062
                                   Ministry of Defense Advisors program officials




34 SEMIANNUAL REPORT TO THE CONGRESS
The following cases are highlights of investiga-      Bragg, N.C. As a stipulation of the contracts,
tions conducted by DCIS and its federal law en-
forcement partners during the reporting period.
                                                      Caddell represented that it would hire and men-
                                                      tor Mountain Chief Management Services, a
                                                                                                             Investigations
DCIS investigations are listed under the follow-      Native American-owned company, under the
ing categories:                                       Department of Defense’s Mentor-Protégé and
   •	 Procurement fraud.                              Indian Incentive Programs. Allegedly, Caddell
   •	 Public corruption.                              falsely represented in invoices and supporting
   •	 Product substitution.                           documents that it was mentoring Mountain
   •	 Health care fraud.                              Chief and that Mountain Chief was perform-
   •	 Illegal technology transfer.                    ing work on the construction projects. However,
   •	 Cyber crime and computer network                Mountain Chief did not receive mentoring ser-
      intrusions.                                     vices and did not perform the work for Caddell.
                                                      In effect the company was a pass-through entity
                                                      Caddell used to claim payments under the two
Procurement Fraud                                     programs.
Procurement fraud investigations continue to          Result: On Dec. 20, 2012, the Department of
comprise a major part of the DCIS case inven-         Justice entered into a nonprosecution agreement
tory. Of all forms of white-collar crime, procure-    with Caddell Construction. As part of the agree-
ment fraud is probably the least visible, yet the     ment, Caddell agreed to pay a monetary penalty
most costly. Procurement fraud includes, but is       of $2 million and to cooperate with Department
not limited to, cost or labor mischarging, defec-     of Justice for the two-year term of that agree-
tive pricing, price fixing, bid rigging, and defec-   ment. On March 25, 2013, the Department of
tive and counterfeit parts. The potential damage      Justice entered into a civil settlement agreement
resulting from procurement fraud extends well         with Caddell, in which Caddell agreed to pay
beyond financial losses. This crime poses a se-       $1.1 million to settle the allegations of fraud.
rious threat to the ability of the Department to
achieve its operational objectives and can have       DoD Contractor Falsely Certified as a Service-
a negative effect on the implementation of pro-       Disabled Veteran-Owned Small Business to
grams. DCIS places the highest priority on in-        Obtain DoD Contracts
vestigations impacting safety and operational         Overview: A joint investigation with GSA OIG,
readiness to protect the welfare of warfighters       SBA OIG and Veterans Affairs OIG disclosed
throughout the procurement process.                   that Silver Star Construction, LLC, a prime DoD
                                                      contractor, falsely certified it was a service-dis-
Caddell Construction Paid a $2 Million Fine and       abled veteran-owned small business to obtain
$1.1 Million to Settle Allegations of Fraud           set-aside contracts under the program valued
Overview: A joint investigation with the              in excess of $5 million and procured under the
Department of Labor OIG, General Services             American Recovery and Reinvestment Act of
Administration OIG and Small Business                 2009. A review of military records did reveal
Administration OIG determined that Caddell            that company owner, Warren Parker, served in
Construction Company, Inc., submitted alleg-          the Missouri National Guard from 1963 through
edly false claims to the government seeking           1968, but failed to confirm that Parker was
payment for work performed on the Edward              a service-disabled veteran. Records from the              DCIS investigated alleged false claims
Zorinsky Federal Building renovation project          Federal Data Procurement System revealed two
                                                                                                                involving the Zorinsky building.

in Omaha, Neb. The Zorinsky renovation proj-          service-disabled veteran-owned small business
ect was a $43 million contract issued through         DoD contracts obtained by Silver Star as a pri-
GSA. The U.S. Army Corps of Engineers pro-            mary contractor including one for $7,450 and
vided onsite project management during the            the other for $740,875.
renovation project and maintains office space         Result: Warren Parker previously pleaded guilty
in the Zorinsky Federal Building. Between 2003        to conspiracy to commit fraud against the United
and 2005, USACE contracted with Caddell to            States, major program fraud, wire fraud, con-
build barracks at Fort Campbell, Ky., and Fort        spiracy to commit money laundering and false

                                                                                                            OCTOBER 1, 2012 TO MARCH 31, 2013 35
Core Mission Areas



                                          statements. On Nov. 5, 2012, Warren Parker           manager, respectively, under a contract that
                                          was sentenced to 87 months of confinement and        Parsons held to support the Coalition Munitions
                                          three years of supervised release. A final order     Clearance Program operated by the USACE. The
                                          of forfeiture was also granted for $6.8 million to   Coalition Munitions Program sought to prevent
                                          be paid jointly and severally with any co-defen-     insurgents and other unfriendly groups from
                                          dants ordered to pay forfeiture judgments.           acquiring munitions that had been stockpiled,
                                                                                               abandoned or seized. Newell and Hunt admitted
                                          Nearly $3 Million Paid by NCR Corporation to         that from 2005 to 2007 they accepted more than
                                          Settle False Claims Allegations                      $1 million in kickbacks in return for steering
                                          Overview: A joint investigation with USACIDC,        contracts to specific subcontractors. Newell and
                                          Naval Criminal Investigative Service and the         Hunt also admitted to filing false federal income
                                          OIGs for Department of Energy, Department            tax returns by not disclosing kickback income.
                                          of Interior, Environmental Protection Agency,        Ahmed Sarchil Kazzaz previously pleaded guilty
                                          GSA, NASA and the Postal Service disclosed           for his role in the scheme. According to his plea
                                          that NCR Corporation allegedly provided im-          agreement, between March 2006 and June 2007,
                                          proper payments amounting to kickbacks to            Kazzaz agreed to pay kickbacks to Newell and
                                          Systems Integrators and other Alliance partners      Hunt. He obtained more than $23 million in
                                          in exchange for their recommendation of NCR          subcontracts providing materials and equipment
                                          products to government end users. Between            to Parsons.
                                          2001 and 2004, NCR, acting through its Teradata      Result: On Oct. 9, 2012, Newell was sentenced
                                          Division, allegedly entered into agreement with      to 27 months in prison, three years of supervised
                                          Accenture LLP where NCR paid Accenture il-           release and $1.2 million in restitution to be paid
                                          legal benefits for contracts and discounts on        jointly and severally between co-defendants
                                          equipment purchases. NCR is one of several           Hunt and Kazzaz. In addition, Newell was or-
                                          defendants named in the qui tam lawsuit under        dered to forfeit $861,027. On Oct. 10, 2012, Hunt
                                          investigation for violations of the Anti-Kickback    was sentenced to 15 months in prison and three
                                          Act and the False Claims Act. Several of the con-    years of supervised release. Along with the joint
                                          tracts affected were DoD contracts, including        and several restitution with Newell and Kazzaz,
                                          contracts with Defense Commissary Agency,            Hunt was further ordered to forfeit $236,472.
                                          Defense Information Systems Agency and U.S.          On Oct. 29, 2012, Kazzaz was sentenced to
                                          Transportation Command.                              15 months in prison, ordered to pay a fine of
                                          Result: On Dec. 28, 2012, the Department of          $15,000 and held jointly and severally liable for
                                          Justice entered into a civil settlement agreement    restitution to be paid to USACE. Kazzaz was
                                          with NCR Corporation, in which the company           also ordered to forfeit an additional $947,585.
                                          agreed to pay $2.8 million to settle the allega-     The combined forfeitures, fines, penalties and
                                          tions of false claims. The settlement amount in-     restitution for all three defendants amounted to
                                          cludes $572,994 paid to the relator of the qui tam   more than $3.2 million.
                                          suit.

                                          Two U.S. Contractor Employees Sentenced              Public Corruption
                                          for Kickback Conspiracy Related to Iraq              Corruption by public officials poses a fundamen-
                                          Reconstruction Efforts                               tal threat to our country’s national security and
                                          Overview: A joint investigation with the Special     overall safety and undermines the public trust in
                                          Inspector General for Iraq Reconstruction,           the government. Public corruption wastes bil-
                                          FBI and Internal Revenue Service-Criminal            lions of tax dollars and negatively affects DoD
                                          Investigation disclosed that two former em-          and the mission of the warfighter. DCIS com-
                                          ployees of the Parsons Company conspired with        bats this issue with the authority, resources and
                                          U.S. government subcontractors to receive kick-      expertise to conduct undercover operations,
DCIS investigated a kickback conspiracy
in Iraq.                                  backs in return for contracts. Gaines R. Newell      court-authorized electronic surveillance and fo-
                                          and Billy Joe Hunt were employed by Parsons in       rensic audits. Using these tools, DCIS holds ac-
                                          Iraq as program manager and deputy program           countable those who undermine the integrity of

36 SEMIANNUAL REPORT TO THE CONGRESS
the DoD acquisition system. The entire procure-       specific documents, including Transportation
ment system is based on the trust and integrity       Movement Requests, which authorized the use
of the public officials who oversee the purchase,     of trucks. Montes’s duties included receiving
quality, safety and security of the equipment and     Transportation Movement Requests from vari-
services our warfighters require to carry out the     ous contractors and reconciling any discrep-
mission.                                              ancies between the services described in the
                                                      Transportation Movement Requests and the ser-
Kentucky-Based Defense Contractors Pay                vices the contractors claimed in their invoices.
$6.2 Million to Resolve Allegations of False          On numerous occasions, Montes received and
Statements                                            reviewed Transportation Movement Requests
Overview: A DCIS investigation determined             and invoices for services allegedly provided by
that Commonwealth Technologies, LLC; Lusk             Afghanistan Trade Transportation that Montes
Mechanical Contractors, Inc. and its owners al-       knew were not performed. From approximately
legedly committed fraud by claiming to operate        May 2008 through December 2008, in return for
in an historically underutilized business zone        her knowingly handling the fraudulent trans-
and subsequently received approximately $61           portation movement requests and invoices,
million in set-aside HUBZone contracts from the       Afghanistan Trade Transportation paid Montes
Army. A contracting officer representative with       approximately $50,000.
the U.S. Army’s Network Enterprise Center at          Result: In a plea agreement Oct. 24, 2012,
Fort Knox, Ky., allegedly steered contracts related   Montes pleaded guilty to one count of receipt
to information technology work at Fort Knox           of bribes by a public official. On Jan. 31, 2013,
to HD Solutions, LLC, a subcontractor of Lusk         Montes was sentenced to nine months impris-
Mechanical Contractors, Inc.                          onment and 12 months supervised release. She
Result: On Dec. 5, 2012, the Department of            was also ordered to pay $50,000 restitution to
Justice entered into a civil settlement agreement     the Defense Finance and Accounting Service
with Lusk Mechanical Contractors, Inc. and            and was debarred from contracting with the U.S.
Commonwealth Technologies to settle allega-           government until October 2016.
tions of violating the civil False Claims Act. $3.7
million was payable by the defendants (within 15      Former U.S. Army Major Sentenced to 18
days). The remaining $2.5 million was seized Oct.     Months in Prison for Bribery Scheme Related to
22, 2008, from Lusk Mechanical Contractors, Inc.      DoD Contracts in Kuwait
bank accounts and was forfeited in accordance         Overview: A joint investigation with the
with the civil settlement agreement.                  USACIDC, IRS-CI, FBI and Special Inspector
                                                      General for Iraq Reconstruction disclosed that
Former KBR Employee Pleads Guilty to Bribery          former Army Major James Momon Jr. was in-
for Facilitating Theft by Trucking Contractor in      volved in a criminal conspiracy to accept cash
Afghanistan                                           bribes from multiple DoD contractors that sup-
Overview: A joint investigation with the              plied bottled water and other goods and ser-
USACIDC, FBI and Special Inspector General            vices to U.S. military bases in Kuwait. In return,
for Afghanistan Reconstruction disclosed that         Momon assisted the contractors in obtaining
former KBR employee, Diyana Montes, re-               contracts and blanket purchase agreements.
ceived bribes for her role in a scheme to fraud-      Momon agreed to accept approximately $5.8
ulently bill the Army for trucking services in        million from his co-conspirators as payment for          DCIS investigated fraudulent billing for
Afghanistan. From approximately April 2008            his actions, including $1.6 million in cash and          trucking services in Afghanistan.
through December 2008, Montes worked at               luxury items. Momon assumed contracting du-
Bagram Airfield, Afghanistan, where KBR               ties at Camp Arifjan, Kuwait, from former Army
provided services to the Army’s Movement              Major John C. Cockerham, who served as a con-
Control Branch that coordinated requests from         tracting official in Kuwait in 2004 and 2005. In
various U.S. military units for trucking ser-         February 2008, Cockerham, who solicited and
vices and assigned those requests to particular       received bribes from DoD contractors in ex-
contractors. Each trucking request generated          change for contracts and blanket purchase agree-

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 37
Core Mission Areas



                                    ments, pleaded guilty for his role in the conspir-   of a forfeiture money judgment and to forfeit ad-
                                    acy and was sentenced to 210 months in prison        ditional assets totaling $4.8 million. In addition,
                                    and ordered to pay $9 million in restitution.        Markus was sentenced to three years of super-
                                    Result: On Nov. 13, 2012, Momon was sentenced        vised release, fined $75,000 and ordered to co-
                                    to 18 months in prison, three years of supervised    operate with the IRS concerning the payment of
                                    release and ordered to pay $5.8 million in res-      taxes and penalties.
                                    titution, jointly and severally with previously
                                    sentenced co-defendants. To date, 19 individuals     California Army National Guard Orders $6.3
                                    have pleaded guilty or been convicted at trial in    Million in Recoupments From More Than 900
                                    the ongoing investigation of corrupt contracting     Guard Members
                                    at Camp Arifjan.                                     Overview: A joint investigation with the FBI
                                                                                         and USACIDC disclosed that Master Sergeant
                                    Former USACE Employee Sentenced to 13 Years          Toni L. Jaffe, California Army National Guard,
                                    for Multimillion-Dollar Bribery and Kickback         acted with numerous individuals assigned to CA
                                    Scheme                                               ARNG units throughout California to disburse
                                    Overview: A joint investigation with IRS-            approximately $20 million to officers and enlist-
                                    CI, Immigration and Customs Enforcement-             ed personnel who were not entitled to receive the
                                    Homeland       Security     Investigations   and     monetary awards and benefits. Jaffe, CA ARNG’s
                                    USACIDC determined that John Alfy Salama             incentives program manager, was responsible for
                                    Markus, a former USACE employee, accepted            the disbursement of approximately $300 million
                                    bribes and kickbacks while deployed to Tikrit,       in payments under various incentives programs
                                    Iraq. The bribery was in connection with more        for more than a decade. The programs involved
                                    than $50 million in USACE contracts awarded          funding set aside for enlistment, re-enlistment
                                    to foreign companies in Gulf Region North, Iraq.     and accession bonuses, as well as education as-
                                    From July 2007 to June 2008, Markus accepted         sistance, and tuition and student loan reim-
                                    at least $3.7 million in bribes and kickbacks in     bursement. DoD funded the programs affected
                                    connection with USACE contracts awarded to           by Jaffe’s misconduct
                                    multiple companies associated with two foreign       Result: Previously, Jaffe was sentenced to serve
                                    contractors. From September 2005 to July 2008,       30 months in federal prison and pay restitution
                                    Markus was assigned to Tikrit as a project engi-     to DoD of $15.2 million. On Jan. 28, 2013, the
                                    neer. While there, he and his co-worker, Onisem      CA ARNG reported that to date $6.3 million in
                                    Gomez, were involved in the review and award         administrative recoupments had been initiated
                                    process for USACE contracts in Gulf Region           involving more than 900 current and former CA
                                    North, Iraq, as well as the post-award admin-        ARNG members.
                                    istration, oversight and modification of such
“The implicated                     contracts. Markus admitted that he and his co-       DoD Contractors and Navy Employees
                                    worker provided favorable official action and        Sentenced to Pay More Than $3 Million for
defense contractors
                                    assistance to co-conspirators for the benefit of     Fraud Scheme at Naval Air Station North Island
paid more than $1                   their associated companies. This included ob-        Overview: A joint investigation with the FBI,
million in bribes... ”              taining and disseminating confidential bid and       NCIS, IRS-CI and GSA OIG uncovered a wide-
                                    internal USACE pricing information to indi-          spread bribery and corruption scheme operat-
                                    viduals seeking the award of USACE contracts         ing at the Naval Air Station North Island, Calif.
                                    to their companies, and approving lucrative pay-     The implicated defense contractors paid more
                                    ments for these companies. Markus opened or          than $1 million in bribes, including cash, retail
                                    established control over multiple foreign bank       gift cards, electronics and home remodeling in
                                    accounts in Jordan and Egypt to receive illegal      exchange for nearly $4 million in orders. The
                                    bribe and kickback payments that he took from        fraud involved contracts to provide goods and
                                    foreign contractors in connection with USACE         services to the Naval Air Systems Command E-2
                                    contracts.                                           Hawkeye/C-2 Greyhound Program. An anony-
                                    Result: On Feb. 12, 2013, Markus was sentenced       mous complaint alleged Jesse Denome, president
                                    to 156 months in prison. He agreed to the entry      of J.D. Machine Tech, Inc., and Kaiser Defense,

 38 SEMIANNUAL REPORT TO THE CONGRESS
LLC., paid Naval Air Station North Island em-        products, and substituted products that do not
ployees, Donald VanGundy, contracting officer,       conform with the requirements of the contract.
and Brian Delany, E2/C2 team lead, for work to       Nonconforming products disrupt readiness and
be directed to Denome’s businesses. VanGundy         waste economic resources. They also threaten
and Delany allegedly circumvented the bidding        the safety of military and government personnel
process to exclude competition, ignored non-         and other end-users. When substituted prod-
delivery of ordered items and certified receipt      ucts are deliberately provided to DoD, mission-
of items that were never delivered to Naval Air      critical processes and capabilities can be severely
Station North Island. Investigation revealed the     impacted until those products are removed from
scheme was more widespread and included the          the DoD supply chain. DCIS works with federal
receipt of bribes and gratuities by other E2/C2      law enforcement partners, supply centers and
employees. Evidence indicated other Navy em-         the defense industrial base to ensure that DoD
ployees circumvented the internal controls en-       contractors provide the correct parts and com-
abling the fraud scheme to proliferate and in-       ponents to meet DoD requirements. DCIS ac-
volve additional contractors.                        tively participates in the Defense Supply Center-
Result: On Oct. 12, 2012, Brian J. Delaney was       Columbus Counterfeit Material/Unauthorized
sentenced to 36 months probation and ordered         Product Substitution Team and partners at the
to pay $60,700; Michael K. Graven was sen-           national level with the Intellectual Property
tenced to 18 months confinement, 36 months           Rights Coordination Center, to focus on pre-
probation and ordered to pay $622,381; Paul A.       venting the proliferation of counterfeit parts.
Grubiss was sentenced to 18 months confine-          Pooling the member agencies’ resources allows
ment, 36 months probation and ordered to pay         for more effective detection and removal of in-
$300,200; David W. Lindsay was sentenced to 36       ferior goods that threaten the safety of America’s
months probation and ordered to pay $66,500;         soldiers, sailors, airmen and Marines.
Kiet P. Luc was sentenced to 30 months confine-
ment, 36 months probation and ordered to pay         Bowman Plating Company Fined $500,000 for
$718,748; John R. Newman was sentenced to            Providing Nonconforming Parts to the U.S.
18 months confinement, 36 months probation           Government
and ordered to pay $760,037; and Donald K.           Overview: A joint investigation with
VanGundy was sentenced to 41 months confine-         Department of Transportation OIG disclosed
ment, 36 months probation and ordered to pay         that Bowman Plating Company knowingly con-
$501,396. On March 4, 2013, DoD contractors          ducted substandard non-destructive testing,
Robert Ehnow, Joanne Loehr, and Centerline           had significant plating nonconformance issues
Industrial, Inc. (Loehr’s company), were con-        related to out-of-range solution analysis, and              DCIS investigated Bowman for
victed in federal court of conspiracy, bribery,      failed to notify government customers of the test           providing nonconforming parts.

wire fraud and money laundering. Sentencing is       failures. In June 2003, a Boeing Defense Systems
pending. On March 8, 2013, Naval Air Station         audit team discovered process control test fail-
North Island employee Kenneth Ramos was              ures at Bowman. Boeing suspended Bowman
sentenced to 30 consecutive weekends in cus-         for failing to notify its government customers.
tody followed by five years of supervised release    As part of Bowman’s corrective action, the com-
and ordered to pay $5,000 in restitution. To date,   pany promised to notify past Boeing customers
12 defendants have been convicted in this wide-      of test failures and to notify customers if any fail-
spread bribery and corruption scheme and the         ures occur in the future. A review of the Boeing
court has ordered approximately $3 million in        audit results from 2003 to 2007 showed Bowman
penalty assessments and restitutions.                did not notify customers of repeated salt spray
                                                     failures. In August 2003, the National Aerospace
                                                     and Defense Contractors Accreditation Program
Product Substitution                                 began audits of Bowman’s processes. NADCAP
DCIS supports DoD and its warfighting mis-           auditors identified major nonconformance is-
sion through timely, comprehensive investiga-        sues at Bowman related to out-of-range solution
tions of counterfeit, defective or substandard       analysis and failure to notify customers. A re-

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 39
Core Mission Areas



                                    view of laboratory tests performed for Bowman        previously had been debarred from federal con-
                                    disclosed that numerous tests failed after the       tracting for 10 years.
                                    2003 Boeing audit. Bowman’s quality manual in-
                                    cluded instructions and requirements concern-        Contractors Sentenced to Prison and Debarred
“... the owners of                  ing customer notification of nonconforming           for Supplying $3 Million in Nonconforming
Roth Fabricating, Inc.,             parts, as did the quality manuals for Bowman’s       Parts to DoD
                                    prime contractors.                                   Overview: A joint investigation with USACIDC
conspired to supply
                                    Result: On Oct. 29, 2012, Bowman Plating             disclosed that the owners of Roth Fabricating,
nonconforming parts to              Company was sentenced to three years proba-          Inc., conspired to supply nonconforming parts
DoD through Defense                 tion, a special assessment of $1,200, and a crimi-   to DoD through Defense Logistics Agency using
Logistics Agency using              nal fine of $500,000. In addition, Bowman was        purchase orders valued at $3.9 million. Shane M.
purchase orders valued              also directed to adopt and implement a Code of       S. Sarnac, president, and Simone L. Haas, vice
                                    Ethics and Corporate Compliance Program.             president, are co-owners of Roth Fabricating.
at $3.9 million.”
                                                                                         DLA-Land and Maritime issued purchase or-
                                    Married Couple Incarcerated, Debarred, and           ders to Roth Fabricating for the supply of vari-
                                    Ordered to Pay Nearly $1 Million for Providing       ous items including small arms storage racks,
                                    Nonconforming Parts to DoD                           ammunition box trays, boarding ladders and
                                    Overview: A joint investigation with USACIDC         other items associated with military vehicles.
                                    disclosed that Prime Procurement, LLC was            However, the items were found to be noncon-
                                    supplying substituted and non-conforming parts       forming. The parts were found to be defective
                                    to DoD. From April to May 2008, the Defense          for various reasons including, but not limited
                                    Logistics Agency-Land and Maritime awarded           to, incorrect dimensions, substituted materials,
                                    Prime five purchase orders totaling $18,219 for      missing welds and poor workmanship.
                                    fuel filter assemblies and fluid filter elements.    Result: Previously, Haas had been sentenced to
                                    These parts are critical application items used on   15 months imprisonment plus six months home
                                    amphibious transport docks, armored assault ve-      confinement and three years of supervised re-
                                    hicles and fire trucks. DLA-Land and Maritime        lease for conspiracy to commit wire fraud. Haas
                                    conducted inspections of these items and deter-      was also ordered to pay restitution in the amount
                                    mined the items were not original equipment          of $825,000. DLA debarred Haas from doing
                                    manufacturer parts as specified in the purchase      business with the government until Aug. 16,
                                    orders. As a result, the parts were suspended        2016. Haas had previously been debarred based
                                    from use. The investigation also revealed that the   on poor performance. On Dec. 19, 2012, Sarnac
                                    owners of Prime, Tommy Hudgens and Anna              was sentenced to 26 months imprisonment,
                                    Rebecca Hudgens, were previously debarred by         three years of supervised release and ordered to
                                    DLA for three years as of Nov. 15, 2007. To cir-     pay restitution of $825,000 (joint and severally
                                    cumvent the debarment, the Hudgens created           liable with the corporation and co-owner Haas)
                                    ten companies, including Prime, to do business       for conspiracy to commit wire fraud. The cor-
                                    with the DoD and the government. The couple          poration was sentenced to five years probation,
                                    created fictitious names as owners and operators     held joint and severally liable for the restitution
                                    for the companies and entered false information      and ordered to pay a $25,000 fine. Additionally,
                                    into the DoD Central Contractor Registration         on Feb. 20, 2013, DLA debarred Sarnac and Roth
                                    database.                                            Fabricating from doing business with the gov-
                                    Result: On Nov. 29, 2012, Tommy Hudgens was          ernment. Sarnac was debarred until March 15,
                                    sentenced to 27 months imprisonment, three           2018, and the corporation was debarred through
                                    years of supervised release and ordered to pay       Jan. 14, 2021.
                                    $983,782 in restitution. Anna Hudgens was
                                    sentenced to 21 months imprisonment, three
                                    years of supervised release and ordered to pay       Health Care Fraud
                                    $983,782 in restitution jointly and severally with   The rising costs associated with health care con-
                                    Tommy Hudgens. In addition, 12 individuals           tinue to be a national concern. DCIS has expe-
                                    and entities associated with this fraud scheme       rienced an increase in allegations of health care

 40 SEMIANNUAL REPORT TO THE CONGRESS
fraud and combatting this crime is one of our       the government, the relator was paid $84.1 mil-
top investigative priorities. Of particular con-    lion. On Oct. 2, 2012, Abbott was sentenced to
cern are allegations of potential harm to DoD       five years probation, a $500 million criminal
military members and their dependents. In ad-       fine and was ordered to pay $1.5 million to the
dition to patient harm, typical investigations      Virginia Medicaid Fraud Control Unit’s Program
scrutinize health care providers participating      Income Fund. In total, between civil and crimi-
in corruption or kickback schemes, overcharg-       nal fines and penalties, Abbot agreed to pay $1.5
ing for medical goods and services, marketing       billion to settle the allegations of fraud.
of drugs for uses not approved by the Food and
Drug Administration, and approving unauthor-        Medical Facilities Agree to More Than $3 Million
ized individuals to receive TRICARE health care     Settlement
benefits. DCIS continues to proactively target      Overview: A joint investigation with HHS OIG
health care fraud through coordination with         disclosed that between 2001 and 2006, EMH
other federal agencies and participation in fed-    Regional Medical Center and North Ohio Heart
eral and state task forces.                         Center allegedly performed unnecessary cardiac
                                                    procedures on patients. Specifically, the com-
Abbott Labs to Pay $1.5 Billion for Off-Label       panies performed unnecessary angioplasty and
Promotion of Depakote                               stent placement procedures on patients who
Overview: A joint investigation with the Offices    had heart disease but whose blood vessels were
of Inspector General for Department of Labor,       not sufficiently blocked to require the specified
Department of Veterans Affairs, Department          procedures. EMH Regional Medical Center is a
of Health and Human Services and Office of          non-profit community hospital system and the
Personnel Management, along with the FDA,           North Ohio Heart Center was an independent
IRS-CI and concerned state agencies, disclosed      physician group (during the relevant time pe-
that Abbott allegedly used kickbacks and other      riod) that practiced at EMH. From 2001 to 2006,
incentives to entice doctors and other medi-        EMH billed TRICARE for $697,000, while the
cal professionals to promote and prescribe          Heart Center billed TRICARE for $8,467. This
Depakote for non-FDA approved use. Depakote         was a qui tam suit.
was approved by the FDA for patients with epi-      Result: On Dec. 14, 2012, the Department of
leptic seizures, bipolar mania and migraines.       Justice entered into a civil settlement agreement
Abbott allegedly trained its sales force to pro-    with the Heart Center and EMH. Both agreed
mote Depakote to health care providers and em-      to pay the government $541,870 and $3.8 mil-
ployees of nursing homes as more advantageous       lion, respectively, to settle allegations that they
than other antipsychotic drugs for controlling      submitted false claims to Medicare, Medicaid,
agitation and aggression in elderly dementia pa-    TRICARE and Federal Employees Health
tients, to include some military retirees and de-   Benefits Programs. The relator will be paid
pendents. In addition, Abbott created programs      $682,859 of the settlement amount.
and materials to train the pharmacy providers’
consultant pharmacists about the off-label use      Boehringer Ingelheim to Pay $95 Million
of Depakote to encourage them to recommend          to Resolve Allegations of False Claims Act
the drug for the unapproved use. As a result,       Violations
TRICARE reimbursed pharmacies in excess of          Overview: A joint investigation with HHS
$9 million for use by covered patients.             OIG and VA OIG disclosed that Boehringer
Result: Previously Abbott pleaded guilty to one     Ingelheim allegedly promoted the sale and use of
count of introduction of misbranded drug into       Combivent and Atrovent at doses that exceeded
interstate commerce. At that time, Abbott agreed    those covered by federal health care programs.
to the criminal forfeiture of $198.5 million and    The investigation also determined Boehringer               DCIS investigated Boehringer for
                                                                                                               alleged false claims.
entered into a civil settlement agreement with      allegedly made unsubstantiated claims about the
the Department of Justice, agreeing to pay $560.8   efficacy of Aggrenox, including that it was supe-
million to the government and $239.1 million to     rior to a competitor’s drug, Plavix. It was also al-
state Medicaid programs. Of the monies paid to      leged that the company paid kickbacks to health

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 41
Core Mission Areas



                                        care professionals to induce them to prescribe       ers’ selection of Aranesp for treatment of kidney
                                        Aggrenox, Atrovent, Combivent and Micardis.          disease.
                                        Finally, it was alleged that Boehringer Ingelheim    Result: On Dec. 12, 2012, the Department of
                                        improperly marketed its drugs and caused false       Justice entered into a civil settlement agreement
                                        claims to be submitted to government health          with Amgen, in which the company agreed to
                                        care programs, including TRICARE. This was a         pay $612 million to settle the allegations of fraud
                                        qui tam suit.                                        and to enter into a corporate integrity agreement
                                        Result: On Oct. 25, 2012, the Department of          with HHS. On Dec. 13, 2012, the Department
                                        Justice entered into a civil settlement agreement    of Justice entered into a civil settlement agree-
                                        with Boeringer Ingelheim in which the company        ment with INN, in which INN agreed to pay $15
                                        agreed to pay $95 million to resolve civil allega-   million to settle allegations of fraud. On Dec. 18,
                                        tions under the False Claims Act. Of the $95 mil-    2012 Amgen pleaded guilty to introduction into
                                        lion settlement, TRICARE received $6 million         interstate commerce of a misbranded drug. On
                                        state Medicaid programs received $16.5 million,      Dec. 19, 2012, Amgen was ordered to pay a fine
                                        and the relator received $17 million. The remain-    of $136 million, $14 million in criminal forfei-
                                        ing $55.4 million was paid to the government.        tures and to sign a corporate integrity agreement
                                                                                             with HHS. TRICARE will receive approximately
“The investigation                      Amgen to Pay $762 Million and Integrated             $1.4 million from the two settlements.
disclosed claims of                     Nephrology Network to Pay $15 Million to
illegal kickbacks to                    Resolve Criminal Liability and Civil Allegations     $30 Million Settlement by Blackstone Medical to
                                        of False Claims                                      Resolve Allegations of False Claims
influence health care                   Overview: A joint investigation with the FBI,        Overview: A joint investigation with the FBI
providers’ selection of                 HHS OIG, OPM OIG and the FDA disclosed that          and HHS OIG disclosed that Blackstone Medical
Aranesp for treatment                   from Sept. 17, 2001, to Sept. 30, 2011, Amgen Inc.   Inc., a subsidiary of Orthofix, allegedly paid
of kidney disease.”                     knowingly promoted the sale and use of a variety     kickbacks to orthopedic surgeons to induce
                                        of drugs, mainly Aranesp, for indications, dosing    them to use Blackstone’s line of spinal implant
                                        intervals, amounts and regimens that were not        products. Blackstone allegedly provided false
                                        approved by the FDA. This included using the         consulting agreements, research grants, enter-
                                        drugs to treat chronic anemia as well as anemia      tainment, travel and other illegal incentives in
                                        caused by cancer, chronic disease, and myelo-        order to induce physicians and other health care
                                        dysplastic syndrome. Amgen allegedly violated        providers to use Blackstone surgical devices, im-
                                        the Anti-Kickback Statute and False Claims Act       plants and instrumentation products. This was a
                                        by improperly remunerating health care provid-       qui tam suit.
                                        ers for the purpose of influencing their selection   Result: On Oct. 29, 2012, the Department of
                                        and use of Amgen’s drugs, regardless of whether      Justice entered into a civil settlement agreement
                                        the product was administered, reimbursable by        with Blackstone, in which the company agreed
                                        federal health care programs or medically nec-       to pay $30 million to settle the allegations of
                                        essary. Additionally, Amgen allegedly inaccu-        fraud. TRICARE received $327,670 from the
                                        rately reported average sales prices, best prices    settlement and the qui tam relator received $8
                                        and average manufacturer’s prices for their          million.
                                        drugs. Amgen’s marketing materials indicated
                                        that Amgen’s misbranding of Aranesp was a core       PAR Pharmaceuticals to Pay $45 Million to
                                        business strategy to gain market share from its      Resolve Criminal and Civil Allegations of Drug
                                        competitors. Amgen formed an agreement with          Misbranding
                                        AmerisourceBergen Corporation subsidiary             Overview: A joint investigation with the HHS
                                        International Nephrology Network (renamed            OIG disclosed that PAR Pharmaceuticals Inc.
                                        Integrated Nephrology Network) to execute            promoted the sale and use of Megace ES to phy-
                                        an aggressive off-label marketing campaign of        sicians, long-term care facilities and other health
                                        Aranesp. The investigation disclosed claims of       care professionals for non-FDA approved uses.
DCIS investigated PAR Pharmaceuticals   illegal kickbacks to influence health care provid-   Specifically, the FDA approved Megace ES for
for off-label marketing.                                                                     treatment of unexplained weight loss in AIDS

 42 SEMIANNUAL REPORT TO THE CONGRESS
patients and certain cancer patients. In spite of       with its role in protecting America’s warfighters,
this limited medical indication, PAR allegedly          DCIS is an integral participant in the President’s
aggressively marketed Megace ES to long-term            Export Control Reform Initiative. DCIS is a
care facilities for off-label use without regard to     charter member of the Export Enforcement
the patients’ AIDS or cancer status, to include         Coordination Center, a multi-agency center es-
TRICARE beneficiaries. This was a qui tam suit.         tablished to serve as a focal point for the coordi-
Result: On Jan. 3, 2013, PAR pleaded guilty to in-      nation and enhancement of government export
troduction of a misbranded drug into interstate         enforcement efforts.
commerce and entered into a plea agreement to
pay a criminal fine of $18 million. On March 5,         DoD Contractor Pleaded Guilty to Illegally
2013, the Department of Justice entered into a          Attempting to Export U.S. Technology to Iran
civil settlement agreement with PAR, in which           Overview: A joint investigation with the U.S.
the company agreed to pay $22.5 million to set-         Immigration and Customs Enforcement dis-
tle the allegations of fraud. The TRICARE por-          closed that Gregory S. Colichio, an employee
tion of the recovery was $984,348 and $4.4 mil-         of Dal-Tech Devices Inc., doing business as
lion was paid to the relator of the qui tam suit.       Microwave Distributors, attempted to purchase
                                                        and illegally export four radio frequency coaxial
$10.1 Million Settlement by Morton Plant Mease          detectors to the Islamic Republic of Iran in viola-
Health Care and Affiliates to Resolve Allegations       tion of the International Emergency Economic
of False Claims                                         Powers Act. Colichio and Dal-Tech Devices
Overview: A joint investigation with the FBI            knowingly circumvented export controls and
and HHS OIG disclosed that Morton Plant                 willfully attempted to export the items from the
Mease Health Care Inc. and its affiliates allegedly     United States to Iran without the required au-
submitted false claims for services rendered to         thorization. The detectors are designated as con-
Medicare and TRICARE patients. Between July             trolled items on the U.S. Munitions List and are
1, 2006, and July 31, 2008, Morton Plant alleg-         not authorized for sale to Iran.                          DCIS investigated Morton Plant Mease
edly billed for certain interventional cardiac and      Result: On Nov. 14, 2012, Dal-Tech Devices en-            Health Care Inc. for alleged false claims.

vascular procedures as inpatient care when those        tered into a deferred prosecution agreement in
services should have been billed as less costly         which the company agreed to pay $10,000 to the
outpatient care or as observational status. There       Department of Treasury, Office of Foreign Asset
was a cost difference of approximately $5,000 for       Control. On Jan. 3, 2013, Colichio was sentenced
each claim submitted as inpatient care versus           to 24 months probation. Colichio had previously
outpatient care. This was a qui tam suit.               pleaded guilty to violating the International
Result: On Nov. 23, 2012, the Department of             Emergency Economic Powers Act by attempting
Justice entered into a civil settlement agreement       to transact commerce with Iran.
with Morton Plant Mease, in which the company
agreed to pay $10.1 million to settle the allega-       Taiwanese Technology Company Illegally
tions of fraud. The relators in the case will receive   Attempted to Use DoD Contractor to Transship
approximately $1.8 million of the settlement.           U.S. Technology to Iran Through the United
                                                        Arab Emirates
                                                        Overview: A joint investigation with the
Illegal Technology                                      ICE Homeland Security Investigations and
Transfer                                                Department of Commerce-Bureau of Industry
                                                        and Security disclosed that Susan Yeh, an em-
DCIS serves a vital role in national security
through investigations of theft and illegal ex-         ployee of a Taiwanese technology company, at-
port or diversion of strategic technologies and         tempted to purchase extra-high-performance
U.S. Munitions List items to banned nations,            microwave pyramid absorbers, ultra-broad-
criminal enterprises and terrorist organizations.       band microwave absorbers and multi-line low
This includes the illegal transfer or theft of de-      pass filter networks from a DoD contractor.
fense technology, weapon systems and other              Investigative efforts showed Yeh, acting as a
sensitive components and programs. Consistent           broker, was attempting to transship U.S. man-

                                                                                                              OCTOBER 1, 2012 TO MARCH 31, 2013 43
Core Mission Areas



                                          ufactured items to Iran through the United             that Cernaianu Manole Razvan, also known as
                                          Arab Emirates and Taiwan. The attempted                “Tinkode,” knowingly attacked the U.S. Armed
                                          purchase and shipment was in violation of the          Forces Information Services website, http://pen-
                                          International Emergency Economic Powers                tagon.afis.osd.mil. On Jan. 5, 2011, Razvan effec-
                                          Act and the Iranian Transaction Regulations.           tively took the website offline in a denial-of-ser-
                                          The investigation showed that the items Yeh re-        vice attack. The AFIS website is maintained and
                                          quested were on the U.S. Munitions List and on         hosted by the Offices of the Assistant Secretary
                                          the Commodity Control List, and the shipment           of Defense for Public Affairs. A denial-of-service
A DCIS investigation prevented U.S.       would violate U.S. Export Laws. On May 21,             attack is designed to overwhelm a computer or
technology from being exported to Iran.   2012, Yeh was arrested as she entered the United       information system with electronic requests for
                                          States.                                                information. The victim computer becomes un-
                                          Result: On Oct. 24, 2012, Yeh, after pleading          able to respond to legitimate user requests, and
                                          guilty to one count of conspiracy to violate the       may experience total system failure. The attacks
                                          International Emergency Economic Powers Act            can be network-based, wherein the victim com-
                                          and the Iranian Transaction Regulations, was           puter receives thousands of internet requests
                                          sentenced to two years confinement, followed by        every second, or they can be executed via mali-
                                          three years of supervised release.                     cious software that infects the victim computer
                                                                                                 and overwhelms its processors. These denial of
                                                                                                 service attacks not only render the affected sys-
                                          Cyber Crime and                                        tem ineffective, but also impose substantial costs
                                          Computer Network                                       due to lost productivity and the cost of response
                                                                                                 and remediation. In addition to the attack on
                                          Intrusions                                             the Pentagon, Razvan attacked computer serv-
                                          DCIS investigates cyber crime, including com-          ers owned by the U.S. Army, NASA and Oracle.
                                          puter network intrusions. DCIS also provides           Through coordination with the Department
                                          digital exploitation and forensics services in         of Justice Computer Crimes and Intellectual
                                          support of traditional investigations. The Cyber       Property Section and the Department of Justice
                                          Crime Program focuses primarily on the compro-         Office of International Affairs, DCIS and its
                                          mise and theft of sensitive defense data contained     partner agencies worked with the Romanian
                                          in government and DoD contractor information           Ministry of Administration and Interior and the
                                          systems. In addition, there is a particular focus on   Romanian National Police to resolve the case.
                                          instances where contract fraud by DoD informa-         Result: Previously Cernaianu Manole Razvan
                                          tion technology contractors has been a factor in       was convicted in Romanian court of unauthor-
                                          either the penetration of DoD networks or the          ized computer intrusion, altering of computer
                                          loss of DoD information. The DCIS Cyber Crime          data, unauthorized damages to a computer sys-
                                          Program assigns experienced agents fulltime to         tem and distributing software that can be used
                                          cyber-related investigations and the exploitation      to commit those crimes. On Sept. 26, 2012,
                                          of digital media seized as evidence during all in-     Razvan was sentenced in Romanian court to two
                                          vestigations. The program recently deployed a          years in prison, which was suspended, and four
                                          wide-area network examination cloud to improve         years probation. Razvan was also ordered to pay
                                          DCIS capabilities by allowing the collaborative        restitution to the following entities: $59,002 to
                                          review of digital media during investigations.         Oracle, $52,575 to NASA, $5,025 to U.S. Army,
                                                                                                 and $7,348 to DoD.
                                          Romanian Hacker Sentenced to Prison for
                                          Attack on Pentagon Website	
                                          Overview: A joint investigation with the
                                          USACIDC, FBI and NASA OIG determined




 44 SEMIANNUAL REPORT TO THE CONGRESS
The following cases are highlights of inspections,    commander and staffed by ANA medical per-
assessments and evaluations conducted by DoD
IG in the following categories:
                                                      sonnel. As of July 2012, there were approxi-
                                                      mately 260 patients hospitalized in the NMH.
                                                                                                                  Inspections
  •	 Health and safety.                               During the fall of 2010, DoD IG became aware
  •	 Joint warfighting and readiness.                 of potential problems with the accountability
                                                      and distribution of pharmaceuticals at the NMH
                                                      and within the ANA, and management issues
Health and Safety                                     specifically at the NMH. Accordingly, DoD IG
DoD IG has identified health care as one of the       conducted several audits and assessments of the
critical management and performance challeng-         ANSF health care system, which included visits
es facing the Department. The military health         to NMH in 2010 and 2011. This report is the
care system provides services to approximately        fourth in a series of reports focusing on the de-
9.5 million beneficiaries, including active duty      velopment of a sustainable medical logistics and
personnel and their families. Of special concern      health care capability in support of the ANSF.
is the proper care and support to the thousands       Findings: DoD IG found that development of
of soldiers, sailors, airmen and Marines wound-       NMH had advanced in the areas of planning and
ed due to combat actions in Operations Iraqi          mentoring, leadership and management, logis-
and Enduring Freedom.                                 tics and patient care, specifically with respect to:
                                                         •	 Establishment of a strategic plan to develop
Medical care required by military personnel is              the Afghan National Security Forces health
expected to increase in the next several years,             care system jointly with Afghan ministries
especially in the areas of rehabilitation and tran-         and ANSF.
sition care. It is critical for DoD IG to maintain       •	 Strengthened personnel accountability and
vigorous oversight of the health and safety chal-           patient care procedures.
lenges facing the Department, not only to en-            •	 Inventory accountability and control mea-
sure that wounded warriors receive high-quality             sures instituted for medical supplies.
health care but that DoD health care dollars are         •	 Improved patient care and nutrition.
spent wisely and prudently.                              •	 Medical mentors receiving pre-deployment
                                                            training.
DoD IG supports this priority by focusing its         Result: Significant challenges remain, which
oversight efforts on preventing and detecting         include:
fraud, waste and abuse, and improving efficien-          •	 Assignment of additional nursing personnel
cy and effectiveness of the programs affecting              to patient wards based on the demands for
the health and safety of service members and                nursing services.
employees.                                               •	 Increasing the number of trained pharma-
                                                            cists assigned to the pharmacy.
Oversight of U.S. Military and Coalition                 •	 Improving the distribution of medical
Efforts to Improve Healthcare Conditions and                equipment to ensure patient care areas with
to Develop Sustainable Afghanistan National                 the greatest need have the necessary equip-
Security Forces Medical Logistics at the Dawood             ment to provide safe and effective patient
National Military Hospital                                  care.
Overview: Built in the early 1970s by the Soviet         •	 Developing policies and procedures to en-
Union, the Dawood National Military Hospital                sure that the transfer and acceptance of
resides on a seven-acre medical campus that                 ANSF patients from U.S. and coalition hos-
encompasses the eight-story hospital, an out-               pitals is conducted properly.                        DoD IG audited Afghanistan National
patient complex, the Armed Forces Academy             Furthermore, DoD IG identified additional is-              Security Force health care system.
of Medical Sciences, a garrison support facility      sues which not only affect the NMH but the en-
and a logistics complex that includes a medical       tire ANSF health care system, including limited
warehouse. NMH is under the command of the            capability for medical equipment maintenance
Afghan National Army surgeon general and is           and repair, and the lack of a sustainable procure-
managed by an Afghan National Army Hospital

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 45
Core Mission Areas



                                   ment process for cleaning supplies, including        (plan, prepare, execute and assess) operations
                                   disinfectants.                                       that accomplish the mission.
                                   Report No. DODIG-2013-053                            Findings: Extensive U.S. and coalition efforts
                                                                                        to develop Afghan National Army C2 had pro-
                                                                                        duced a marginally sufficient capability that was
                                   Joint Warfighting and                                adequately resilient to provide minimal essential
                                   Readiness                                            support for transition to Afghan lead in plans
                                                                                        and operations by 2014. However, U.S. and co-
                                   DoD IG has identified joint warfighting and
                                   readiness, and training and equipping the Iraq       alition enablers would still be required to ensure
                                   and Afghan National Security Forces as criti-        momentum for and execution of the planned
                                   cal management and performance challenges            transition.
                                   facing the Department. While the Department          Result: While ANA C2 structures are emerging
                                   is continuing to equip the Iraq Security Forces      and developing it is hindered by a host of mul-
                                   through the Office of Security Cooperation-Iraq,     tifaceted challenges including limited command
                                   operating under Chief of Mission authority at        authority to remove ineffective senior officers;
                                   the U.S. Mission-Iraq, it is also engaged in the     logistical impediments that limit the ANA’s op-
                                   mission to train, equip and mentor the Afghan        erational independence; limited capacity for
                                   National Security Forces.                            both human capital and physical infrastructure
                                                                                        to integrate complex technology and automa-
                                   Between now and the completion of the sched-         tion; and a significant reliance on U.S. and co-
                                   uled drawdown of combat forces at the end of         alition enablers, such as aviation, signals, intel-
                                   2014, DoD will continue training, equipping,         ligence and engineering.
                                   partnering and mentoring the ANSF to enable          Report No. DODIG-2013-058
                                   it to assume the leading security operations role.
                                                                                        Assessment of Afghan National Security Forces
                                   Assessment of U.S. Government and Coalition          Metrics--Quarterly
                                   Efforts to Develop the Afghan National Army          Overview: DoD IG selected, summarized and
                                   Command, Control, and Coordination System            concisely presented six months of quantitative
                                   Overview: Command and control is the exercise        and qualitative metrics deemed indicative of
                                   of authority and direction by a commander over       progress toward the goal of developing a sustain-
                                   subordinate military forces in the accomplish-       able Afghan National Security Force for transi-
                                   ment of a mission. Through C2, commanders            tion to Afghan control by 2014. Reports will be
                                   assess the situation, make decisions, and direct     produced separately for the Afghan National
                                   actions. However, commanders cannot exer-            Police and the Afghan National Army.
                                   cise C2 alone; they must perform these actions       Findings: The fourth report, providing an over-
                                   through a C2 system including the arrangement        view of the development of the Afghan National
                                   of personnel, information management, proce-         Army, was released Feb. 20, 2013.
                                   dures, equipment and facilities. An effective C2     Result: This report is classified.
                                   system is essential for commanders to conduct        Report No. DODIG-2012-034.4




46 SEMIANNUAL REPORT TO THE CONGRESS
DoD IG provides policy, guidance and over-          had not implemented a risk-based audit plan-
sight to audit and investigations within DoD.
DoD IG also provides analysis and comments
                                                    ning process as recommended by the Defense
                                                    Business Board and that DCMA is not prepared
                                                                                                                  Policy And
on all proposed draft DoD policy issuances, as
well as conducts technical assessments of DoD
                                                    to perform contract cost analysis in place of a
                                                    DCAA audit and that DCMA cannot reliably
                                                                                                                   Oversight
programs and provides engineering support for       report performance. Additionally DPAP did not
other assessments.                                  demonstrate that DCMA has a probable chance
                                                    to replicate the $249.1 million in potential re-
                                                    turn on investment identified by DCAA and
Audit Policy and                                    that DPAP did not demonstrate why they chose
Oversight                                           to direct Department and taxpayer resources to
                                                    DCMA to perform a job DCMA was not pre-
DoD IG provides audit policy direction, guid-
ance and oversight for its auditing component;      pared to perform when DCAA had existing in-
the military departments’ audit organizations,      frastructure in place to get the job done.
the Defense Contract Audit Agency, other de-        Result: DoD IG recommended that DCAA
fense audit organizations and public account-       implement a risk based audit planning process
ing firms under the Single Audit Act. As such,      based upon achieving higher rates of return to
DoD IG provides guidance and oversight for          the taxpayer and other high risk factors and that
more than 6,700 DoD auditors in 22 DoD audit        DPAP re-instate the pre-Sept. 17, 2010, thresh-
organizations, which is nearly 40 percent of        olds for requesting DCAA audit as soon as prac-
all auditors in federal inspector general audit     tical until such time as a business case analysis
organizations.                                      can support a policy change. Additionally, DoD
                                                    IG recommended Defense Pricing reassess the
Actions to Align Defense Contract Management        decision to revise DoD procurement and acqui-
                                                                                                                     “The decision will
Agency and Defense Contract Audit Agency            sition policy and validate that the decision suf-
                                                    ficiently considers the potential return to DoD               cost the Department
Functions
                                                    and the taxpayers resulting for DCAA audits                  and taxpayers $249.1
Overview: DoD IG evaluated actions taken
by DoD officials to align the Defense Contract      and other factors, and that Defense Contract                million per year in lost
Management Agency and the Defense Contract          Management Agency proceed with scheduled                        potential return on
Audit Agency functions by increasing the dol-       corrective actions regarding case file documen-
                                                                                                               investment from DCAA
lar thresholds a contractor proposal must meet      tation and information system reliability.
                                                    Report No. DODIG-2013-015                                         contract audits. ”
before a contracting officer can request a DCAA
audit. DoD IG evaluated the factors DoD offi-
cials considered in making the decision as well     Quality Control Review of the Defense Finance
as controls established to ensure the change in     and Accounting Service Audit Organization
dollar thresholds adequately protects the inter-    Overview: Generally accepted government au-
ests of the Department and taxpayer.                diting standards require audit organizations per-
Findings: The Office of Defense Procurement         forming GAGAS-compliant audits to undergo
and Acquisition Policy did not perform a            an external quality review at least once every
business case analysis to support the deci-         three years. DoD IG performed a review of
sion to revise Defense Federal Acquisition          Defense Finance and Accounting Service audit
Regulation Supplement Procedures Guidance           organization covering a one-year period that
and Instructions 215.404-2(c). The decision will    ended June 30, 2011.
cost the Department and taxpayers $249.1 mil-       Findings: DoD IG identified significant defi-
lion per year in lost potential return on invest-   ciencies in the DFAS audit organization’s com-
ment from DCAA contract audits. Had DPAP            pliance with its system of quality control, includ-
evaluated rates of return across the DCAA audit     ing the failure to exercise sufficient professional
portfolio, DPAP could have achieved the same        judgment. DFAS was issued a fail opinion on its
results by redirecting DCAA resources from          audit organization’s system of quality control.
low-risk audits and services to higher risk areas   Federal audit organizations can receive a rating
of the portfolio. DoD IG also found that DCAA       of pass, pass with deficiencies or fail.

                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 47
Core Mission Areas



                                    Result: The DoD IG review concluded that the           profiles generated from retesting evidence found
                                    DFAS audit organization did not comply with            in an unsecured USACIL refrigerator years after
                                    GAGAS and their system of quality control for          Mills resigned, were deleted only due to the DoD
                                    audits for the review period that ended June 30,       IG continuing concerns about chain of custody
                                    2011. DoD IG determined that the system of             and controls of the evidence involved.
                                    quality control did not provide reasonable assur-      Result: The review found that each service de-
                                    ance that DFAS audit personnel were following          veloped separate, ad hoc processes for identify-
                                    established guidance, policies, procedures and         ing individuals and completing notifications.
                                    applicable audit standards. Thirteen recommen-         Standard policy or guidance would have ensured
                                    dations were made to correct the noted defi-           individuals were treated consistently across the
                                    ciencies. The DFAS concurred with 12 of the 13         services. As such, DoD IG recommended that
                                    recommendations.                                       the DoD general counsel develop and imple-
                                    Report No. DODIG-2013-047                              ment standard DoD guidance to govern post-
                                                                                           conviction notifications. In addition, DoD
                                                                                           IG recommended that the Army complete its
                                    Investigative Policy and                               planned courtesy notifications to the individu-
                                    Oversight                                              als DoD IG identified as punished in Army cases
                                                                                           involving Mills and meriting notification. This
                                    DoD IG evaluates the performance of and de-
                                    velops policy for the DoD criminal investigative       report is FOUO.
                                    and law enforcement community, as well as the          Report No. DODIG-2013-033 (FOUO)
                                    noncriminal investigative offices of DoD.
                                                                                           Evaluation of the Military Criminal Investigative
                                    Review of DoD Response to Noncompliant                 Organizations’ Sexual Assault Investigation
“DoD IG reviewed 482                                                                       Training
criminal investigations             Crime Laboratory Analyses
                                    Overview: At congressional request, DoD IG re-         Overview: DoD IG evaluated the military crim-
involving 676                       viewed misconduct allegations against Phillip R.       inal investigative organizations sexual assault
investigative subjects              Mills, a forensic analyst at the USACIDC, to de-       investigation training to determine whether it
or suspects, dating                 termine (1) whether suspects involved in crimi-        adequately supports the Department. The evalu-
                                    nal investigations in which Mills performed            ation focused on three questions (1) what sexual
back approximately                                                                         assault investigation training do the MCIOs pro-
20 years.”                          laboratory analyses were properly notified in ac-
                                    cordance with requirements and (2) if the FBI          vide?, (2) how do the MCIOs ensure that sexual
                                    was properly notified about nonconforming              assault investigation training is effective? and (3)
                                    tests, and data included in the Combined DNA           how do the MCIOs leverage their resources and
                                    Index System were verified or expunged, as ap-         expertise?
                                    propriate. DoD IG reviewed 482 criminal inves-         Findings: Each MCIO provides initial baseline,
                                    tigations involving 676 investigative subjects or      periodic refresher and advanced training in
                                    suspects, dating back approximately 20 years.          sexual assault investigation. The training is given
                                    Findings: DoD IG found that no law, rule or            to assigned criminal investigative personnel
                                    regulation specifically required the services to       who may conduct sexual assault investigations.
                                    notify individuals about possibly compromised          Between MCIOs the training hours devoted to
                                    DNA evidence developed in their cases. The             initial baseline training tasks varied. Further,
                                    Army did forward two USACIL notifications to           NCIS initial baseline training materials did not
                                    Army trial and defense counsel alerting them to        cover four required essential training subtasks.
                                    the issues and cases involved. Although stressing      All MCIO training academies measure the effec-
                                    the notifications met all requirements, the Army       tiveness of initial and advanced training courses,
                                    planned a courtesy letter notification to all possi-   and they use the results to adjust training content
                                    bly affected individuals in Army cases. The Navy       to increase effectiveness. Conversely, the MCIOs
                                    and Air Force notified or attempted to notify all      do not measure the effectiveness of periodic
                                    possibly affected individuals in their cases. The      refresher training. USACIDC has attempted to
                                    Army ultimately verified or expunged Mills-            consolidate MCIO advanced sexual assault in-
                                    related data from CODIS. However, seven DNA            vestigation training. USACIDC and NCIS share

 48 SEMIANNUAL REPORT TO THE CONGRESS
highly qualified subject matter experts to assist      Assessment of the USAF Accident Investigation
with training course development and delivery.         Board Report on the F-22A Mishap of November
Also, USACIDC assisted NCIS by instructing at          16, 2010
their advanced sexual assault investigation train-     Overview: DoD IG reviewed the Air Force
ing course.                                            Aircraft Accident Investigation Board report
Result: DoD IG recommended:                            on the F-22A mishap of Nov. 16, 2010, for ad-
  •	 The director, NCIS, ensure lesson materials       herence to the procedures set forth in Air
     for initial sexual assault investigation train-   Force Instruction 51-503, Aerospace Accident
     ing covers all essential training tasks.          Investigations. DoD IG assessed whether the                 DoD IG assessed the USAF board report
  •	 The director and commanders of the MCIOs          board’s conclusions were supported by facts con-            on the F-22 mishap.
     form a working group to review (1) initial        sistent with the standards of proof established by
     baseline sexual assault investigation train-      the instruction.
     ing programs to establish common criteria         Findings: The board’s statement of opinion re-
     and minimum requirements, (2) periodic            garding the cause of the mishap was not support-
     refresher sexual assault investigation train-     ed by the facts within the Accident Investigation
     ing programs to establish common criteria         board report consistent with the clear and con-
     and minimum requirements for measuring            vincing standard of proof established by the in-
     effectiveness and (3) advanced sexual as-         struction. The Board’s report contained the fol-
     sault investigation training programs to fur-     lowing deficiencies:
     ther capitalize on efforts to leverage training      •	 The report cited three causal factors (chan-
     resources and expertise.                                nelized attention, breakdown of visual scan
Report No. DODIG-2013-043                                    and unrecognized spatial disorientation)
                                                             as the cause of the F-22 mishap. However,
Criminal Investigative Policy                                these three factors are separate, distinct and
On Jan. 25, 2013, DoD IG issued a new DoD in-                conflicting. The board’s report did not clear-
struction that establishes policy, assigns respon-           ly explain their interrelationship and how it
sibilities and provides procedures for the inves-            is possible that all three factors concurrently
tigation of adult sexual assaults within the DoD.            caused the mishap. Failure to adequately ex-
DoD instruction 5505.18; Investigation of Adult              plain this interrelationship calls into ques-
Sexual Assault in the Department of Defense,                 tion the board’s statement of opinion re-
expands the roles and responsibilities of the mil-           garding the cause of the mishap.
itary criminal investigative organizations when           •	 The report’s determination that the mis-
conducting adult sexual assault investigations.              hap pilot’s mask was in the full up position
The issuance provides overarching investigative              throughout the mishap sequence was not
guidance and details advanced training require-              adequately supported by the summary of
ments for MCIO investigators. The issuance also              facts or by the analysis cited in the report’s
requires MCIOs to investigate all allegations of             enclosures. This determination directly af-
sexual assault and for the investigators to work             fected several conclusions of the board
in partnership with the sexual assault response              and precluded the analysis of other poten-
coordinator to ensure system accountability and              tial causes of the mishap. Failure to pro-
victims’ access to services.                                 vide adequate facts or analysis to support
                                                             this determination calls into question the
                                                             board’s finding. The report’s noncontribu-
Technical Assessments                                        tory portion of the human factors section
DoD IG performs expert technical assessments                 inadequately analyzed the human factors
that affect improvements in defense system ac-               listed, such as hypoxia, gravity-induced loss
quisition, operation and sustainment by proac-               of consciousness, and sudden incapacita-
tively addressing issues of concern to Congress,             tion, but did not contain any references
DoD and the public.                                          and/or supporting documentation. Without
                                                             detailed analysis and proper documenta-
                                                             tion, it is unclear how the board determined

                                                                                                               OCTOBER 1, 2012 TO MARCH 31, 2013 49
 Core Mission Areas



                                         that these factors did not contribute to the       •	 Expanded the outreach program and pro-
                                         mishap.                                               vided robust training to DoD IG and com-
                                      •	 The report lacked detailed analysis of sev-           ponent IG staff.
                                         eral areas, such as the Emergency Oxygen           •	 Collaborated and shared best practices
                                         System activation as well as the physiologi-          with other members of the inspector gen-
                                         cal reactions to lack of oxygen.                      eral and federal whistleblower protection
                                      •	 Of the 109 references in the board’s report           community.
                                         summary of facts, 60 of those references           •	 Filled several new positions focused on ad-
                                         were either incorrect or did not direct the           ministration, policy and outreach, and sev-
                                         reader of the report to the information cited         eral key investigative vacancies to address
                                         in the paragraph.                                     the ever-increasing number of whistleblow-
                                    Result: DoD IG recommended that the judge                  er reprisal complaints filed with DoD IG
                                    advocate general of the Air Force reevaluate               and the military services.
                                    the board’s report and take appropriate action
                                    in light of the DoD IG findings regarding the         During the reporting period, the department
                                    board’s report statement of opinion and other         received 458 complaints involving reprisal, re-
                                    deficiencies.                                         striction from communicating with a member
                                    Report No. DODIG-2013-041                             of Congress and inspector general, and proce-
                                                                                          durally improper mental health evaluation re-
                                    DoD IG administrative investigations consists of      ferrals. Of the 278 complaints closed, 199 were
Administrative                      the following areas:
                                      •	 DoD IG investigates allegations of whistle-
                                                                                          dismissed due to insufficient evidence to war-
                                                                                          rant an investigation, 13 were withdrawn and 66
Investigations                           blower reprisal filed by military members,
                                         appropriated fund and nonappropriated
                                                                                          were closed following full investigation. Of the
                                                                                          66 investigations closed, 10 involved procedur-
                                         fund civilian employees, defense contractor      ally improper mental health evaluation referrals
                                         employees; and improper command refer-           (six substantiated [60 percent]), one involved re-
                                         rals of service members for mental health        striction from communicating with a member of
                                         evaluations.                                     Congress and inspector general (substantiated)
                                      •	 DoD IG investigates and conducts oversight       and 55 involved whistleblower reprisal (three
                                         reviews of investigations conducted by the       substantiated [5 percent]).
                                         service/defense agency IGs into allegations
                                         of senior official misconduct.                   Substantiated        Whistleblower        Reprisal/
                                                                                          Restriction/Procedurally        Improper     MHE
                                                                                          Allegations
                                    Whistleblower Reprisal                                  •	 An Army Reserve officer serving as an in-
                                    Investigations                                             spector general disapproved a subordinate
                                                                                               IG’s previously approved request for a one-
                                    DoD IG is committed to maintaining the whis-
                                    tleblower protection program as a model for the            year tour extension and operational deploy-
                                    federal government by improving the timeliness             ment to Afghanistan after the subordinate
                                    and quality of reprisal investigations. During the         made a protected communication. The sub-
                                    reporting period, DoD IG implemented numer-                ordinate IG had complained of possible pro-
                                    ous enhancements to include:                               fessional misconduct and inadequate legal
                                       •	 Completed the revision of investigative re-          support by his supporting staff judge advo-
                                          port templates.                                      cate office. The legal officer was removed as
                                       •	 Renewed emphasis on the Council of                   an inspector general. Further corrective ac-
                                          the Inspectors General on Integrity and              tion is pending.
                                          Efficiency’s quality standards for investiga-     •	 An Air Force staff sergeant received a let-
                                          tions, to include incorporation of standards         ter of counseling from his supervisors in
                                          into oversight reviews.                              reprisal for complaining to his commander
                                                                                               about tobacco use in government build-
                                                                                               ings and vehicles, safety violations, and

 50 SEMIANNUAL REPORT TO THE CONGRESS
   poor military bearing Figure 2.1 Complaints Received During FY 2013
   and discipline. He also
   received a lowered en-                         25 (5%)                  9 (2%)
   listed performance re-                Mental Health Procedural Military Restriction
   port after reporting the                     18 (4%)                                        73 (16%)
   same violations to his                    NAFI Reprisal                                 Civilian Reprisal
   local equal opportunity
                                    50 (11%)
   and IG offices. His su-          Defense
   pervisors, a technical Contractor Reprisal
   sergeant and a master
   sergeant, each received
   letters of admonishment
   for their actions.
•	 An Army National
   Guard lieutenant colo-
   nel, who was the bat-
   talion commander, re-
   prised against a major
   under his command
   by issuing an adverse
   counseling and threat-
   ening him with action
   under the Uniform                                                        283 (62%)
   Code of Military Justice                                              Military Reprisal
   after the major alleged
   the lieutenant colonel                                 contact a chaplain or physician concerning
   was engaged in inappropriate relationships             an ongoing investigation. The group com-
   with soldiers he commanded. An indepen-                mander received a verbal counseling con-
   dent investigation substantiated the inap-             cerning the importance of not restricting
   propriate-relationship allegations against             service members from making protected
   the lieutenant colonel. Corrective action              communications.
   included removal from command, release              •	 Three naval officers reprised against a re-
   from active duty status and placement in the           serve lieutenant for making protected com-
   retired reserves.                                      munications when they issued multiple
•	 An Air National Guard colonel took three               unfavorable personnel actions including re-
   personnel actions against a Title 32 chief             moval, early demobilization and an adverse
   master sergeant in reprisal for his protect-           evaluation report. Actions taken by the
   ed communication (1) denied training, (2)              naval officers may have contributed to the
   terminated duty orders and (3) denied re-              lieutenant not being promoted and contrib-
   enlistment. The chief master sergeant made             uted to a requirement to meet a board of in-
   allegations to his chain of command that an            quiry. DoD IG recommended the secretary
   order to attend weekend drills while on ac-            of the Navy take action to remove the ad-
   tive duty orders was illegal. Corrective ac-           verse evaluation report and otherwise cor-
   tion pending.                                          rect the complainant’s file. DoD IG further
•	 An Air Force group commander attempted                 recommended the Navy consider taking
   to restrict two members of his unit from               appropriate action against the responsible
   contacting their congressional represen-               management officials. Corrective action is
   tatives or an IG when he issued a memo-                pending.
   randum to both, stating they could only



                                                                                                               OCTOBER 1, 2012 TO MARCH 31, 2013 51
Core Mission Areas



                                       Corrective Action Taken during First Half of FY                         wages and other damages after a DoD IG
                                       2013 on Military Whistleblower Cases Closed in                          investigation determined the employee was
                                       Previous Reporting Periods                                              terminated for making protected disclo-
                                         •	 An Air Force Reserve major general received                        sures to government personnel.
                                            a general officer letter of reprimand and was                   •	 An Army colonel received a general officer
                                            released from active duty status while being                       memorandum of reprimand, was relieved
                                            placed in the Individual Ready Reserve for                         of command and given a referred officer
                                            removing a colonel from position after the                         evaluation report for denying an in-place
                                            colonel testified in a commander-directed                          consecutive overseas tour and issuing a
                                            inquiry.                                                           lowered officer evaluation report rating to
                                         •	 An Air National Guard major general re-                            a subordinate who made allegations of mis-
                                            ceived a general officer letter of reprimand                       conduct by his commander to the chain of
                                            and was relieved of command for (1) re-                            command.
                                            moving a member of his unit from his po-                        •	 An Air National Guard lieutenant colonel
                                            sition and then forcing him to retire after                        was relieved for cause and retired for threat-
                                            the member filed a congressional complaint                         ening to court-martial and separate a mem-
                                            and (2) for separating a second member for                         ber from the Active Guard Reserve program
                                            filing several IG complaints.                                      because the member made protected com-
                                         •	 A government contractor was ordered by                             munications to senior leadership.
                                            the U.S. Army Corps of Engineers to pay
                                            an employee the sum of $59,633.26 for back

                       Figure 2.2 Complaints Closed During First Half of FY 2013

                                                            Reprisal, Restriction and Mental Health Procedural
                                                              Complaints Closed During First Half FY 2013
                                                                                                                                               Substantiation
                                                          Total Closed         Dismissed        Withdrawn       Investigated   Substantiated       Rate

                                 Type of Complaint                                                   Closed by DoD IG

                                     Civilian Reprisal          47                  43               1               3               0              0%
                                    Military Reprisal           65                  58               0               7               1              14%
                                 Defense Contractor
                                                                53                  49               1               3               0              0%
                                           Reprisal
                                       NAFI Reprisal            17                  12               2               3               0              0%
                                   Reprisal Subtotal           182                  162              4              16               1              6%
                          Mental Health Procedural              3                    2               0               1               1             100%
                                        DoD IG Total           185                  164              4              17               2              12%



                                    Type Complaint                                 Closed by Component IG with Oversight Review by DoD IG

                                    Military Reprisal           83                  35               9              39               2              5%
                                   Reprisal Subtotal            83                  35               9              39               2              5%
                                 Military Restriction           1                    0               0               1               1             100%
                          Mental Health Procedural              9                    0               0               9               5              56%
                                  Components Total              93                  35               9              49               8              16%
                                        Grand Totals           278                  199             13              66               10             15%




52 SEMIANNUAL REPORT TO THE CONGRESS
                                                                     Types of Substantiated Misconduct
Investigations of Senior                             Figure 2.3 Types of Substantiated Misconduct   (Total of 88 Allegations)
Officials                                                                      11 (12%)
                                                                                                                    14 (16%)
                                                                                                              Government Resources
To promote public confidence in the integrity                              Travel Violations
of DoD leadership, DoD IG conducts or pro-
vides oversight on all investigations into alleged
misconduct by senior DoD officials (brigadier
general/rear admiral and above, members of                                                                                                                       Trave
the senior executive service and senior political
                                                          19 (22%)
appointees). Misconduct allegations are non-              Personnel                                                                                              Perso
criminal in nature and typically involve ethics            Matters
or regulatory violations. Specialized units within
each military department office of inspector                                                                                                                     Perso
general conduct the majority of senior official
investigations. DoD IG investigates allegations
against the most senior DoD officials (three-star                                                                                                                Gover
and above general/flag officers and equivalents),                                                                                       44 (50%)
senior officials in the joint or defense intelli-                                                                                 Personal Misconduct/
                                                                                                                                    Ethical Violations
gence community and allegations not suitable
for assignment to service IGs. DoD IG conducts
                                                                                                       Total of Allegations: 88
oversight reviews of service/defense agency in-
vestigations of misconduct involving one- and        closed, 47 (31 percent) contained substantiated
two-star general/flag officers and equivalents.      allegations of misconduct.
During the reporting period, DoD IG processed
5,279 senior official name checks for general/flag   Examples of Substantiated Senior Official Cases
officers pending nomination, promotion, retire-      The following is a list of substantiated senior of-
ment and reassignment.                               ficial cases:
                                                        •	 A member of the senior executive service
DoD IG provides oversight of military depart-              misused his subordinates by having them
ment and agency IG investigations involving se-            perform personal services, improperly au-
nior DoD officials.                                        thorized the use of administrative leave for
                                                           employees to participate in a golf tourna-
During the reporting period, DoD IG conducted              ment and engaged in a prohibited personnel
several sensitive investigations that directly af-         practice by providing preferential treatment
fected the Department. In one instance, DoD IG             to a subordinate.
did not substantiate allegations of an inappro-         •	 An SES improperly arranged air travel on
priate relationship against a Marine command-              noncontract, city-pair carriers and mis-
ing general. In every instance, DoD IG expertly            used his public office for the private gain of
investigated the facts and circumstances of the            someone with whom he was affiliated in a
case and presented a timely and independent re-            nongovernmental capacity.
port of investigation to management officials for       •	 An SES engaged in unprofessional conduct
appropriate action.                                        in the workplace by discussing personal
                                                           medical issues with subordinates and spec-
The Department received 237 complaints of se-              ulating about a subordinate’s sexual orien-
nior official misconduct and closed 256. Of the            tation to a subordinate of the opposite sex;
256 complaints closed, 106 were dismissed due              misused government resources by directing
to lack of a credible allegation of misconduct             two contractor employees to plan, organize
and 150 were closed following investigation. Of            and execute two social events in the office;
the 150 investigations closed, 17 were closed by           misused public office for private gain by
DoD IG and 133 were closed by service IGs with             soliciting and accepting gifts from prohib-
oversight by DoD IG. Of the 150 investigations             ited sources; and failed to comply with the

                                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 53
Core Mission Areas



                                         ethical standards set forth in the Joint Ethics                   •	 An SES used her government travel charge
                                         Regulation by promising two subordinates a                           card for unauthorized personal use.
                                         position when next filled.


                                       Figure 2.4 Senior Official Complaints Closed During FY 2013

                                                                      Senior Official Complaints Closed in FY 2013
                                                                                                                                Substantiated   Substantiation
                                                                            Total Closed         Dismissed     Investigated        Cases            Rate

                                           Senior Official’s Affiliation                                     Closed by DoD IG

                                                                  Army            39                 35             4                0               0%
                                                                  Navy            12                 10             2                0               0%
                                                              Air Force           20                 17             3                0               0%
                                                         Marine Corps             5                   4             1                0               0%
                                            COCOM/Defense Agency                  47                 40             7                4              57%
                                                              Subtotal           123                 106           17                4              24%



                                           Senior Official’s Affiliation                 Closed by Component IG with Oversight Review by DoD IG

                                                                  Army            66                               66                22              33%
                                                                  Navy            16                               16                3               19%
                                                              Air Force           33                               33                9               27%
                                                                                                      0
                                                         Marine Corps             5                                 5                1               20%
                                            COCOM/Defense Agency                  13                               13                8               62%
                                                              Subtotal           133                               133               43              32%
                                                               TOTALS            256                 106           150               47              31%




54 SEMIANNUAL REPORT TO THE CONGRESS
                    3


Enabling Mission Areas
Enabling Mission Areas



                                                 Section 4(a) of the Inspector General Act of       ings with members of Congress and their staffs.
Congressional                                    1978, as amended, requires the inspector general
                                                 “to review existing and proposed legislation and
                                                                                                    Topics of discussion during those meetings
                                                                                                    included issues such as discussing the plan de-
Testimony                                        regulations relating to the programs and opera-
                                                 tions of [the Department of Defense]” and to
                                                                                                    veloped for the IG community reviews required
                                                                                                    by the Reducing Over-Classification Act, pend-
and Briefings                                    make recommendations “concerning the impact
                                                 of such legislation or regulations on the econo-
                                                                                                    ing legislative taskings, ongoing assessments in
                                                                                                    Southwest Asia and an audit on the cost and
                                                 my and efficiency in the administration of pro-    availability of G222 spare parts.
                                                 grams and operations administered or financed
                                                 by [the Department] or the prevention and de-      Congressional Requests
                                                 tection of fraud and abuse in such programs and    During this reporting period, DoD IG received
                                                 operations.” DoD IG provides information to        123 new congressional inquiries and closed
                                                 Congress by participating in congressional hear-   94, including a report on noncompliant crime
                                                 ings and briefings.                                laboratory analyses based on allegations that
                                                                                                    a forensic analyst at the U.S. Army Criminal
                                                 Hearings                                           Investigation Laboratory allegedly falsified criti-
                                                 Principal Deputy Inspector General Lynne           cal test results, an audit on Antideficiency Act
                                                 Halbrooks testified March 19, 2013, be-            violations in military personnel accounts, and
                                                 fore the House Oversight and Government            oversight of coalition efforts to improve health
                                                 Reform Committee at a hearing titled, “DoD         care conditions at the Dawood National Military
                                                 and DHS: Implementing Agency Watchdogs’            Hospital.
                                                 Recommendations Could Save Taxpayers
                                                 Billions.” The testimony focused on the status     New inquiries involved issues such as inqui-
                                                 of reports with pending action, which include      ries on proposed legislative changes related
Halbrooks testified before the House Oversight
and Government Reform Committee.                 recommendations that have not yet been imple-      to reprisal investigations, requests related to
                                                 mented, as well as opportunities to improve ef-    senior official investigations and concerns
                                                 ficiencies within the Department.                  about the Department’s implementation of IG
                                                                                                    recommendations.
                                                 Meetings with Congressional Members and Staff
                                                 During the reporting period, the inspector gen-
                                                 eral and representatives of DoD IG had 65 meet-




 56 SEMIANNUAL REPORT TO THE CONGRESS
The DoD Hotline is a confidential and reliable                                           $89,000. The unit administrator received a
vehicle for military service members, DoD civil-
ians, contractors and the public to report allega-
                                                                                         letter of admonishment.
                                                                                      •	 An anonymous complainant reported that
                                                                                                                                                                   DoD
tions of fraud, waste and abuse, threats to home-
land security and trafficking in persons related
                                                                                         during the construction of a building proj-
                                                                                         ect, the shop foreman directed employees
                                                                                                                                                                 Hotline
to programs and personnel under the purview of                                           to remove the ‘Made in China’ stamps of
the Department of Defense.                                                               groovelets and threadlets used for a water
                                                                                         system. The individual admitted to directing
Figure 3.1 Contacts received in FY 2013
                                                                                         the use of nonconforming parts in the sys-
 16,615 contacts received in FY 2013 to date                                             tem installed in the building. The individual
     4,561 cases in open status.                                                         was sentenced to five months incarceration
                                                                                         with two years supervised release, ordered
     1,803 cases opened.
                                                                                         to pay $22,917 in restitution, and fined
     22 cases received through congressional channels.
                                                                                         $2,000 and a special assessment of $200. The
     105 cases received through the GAO.                                                 individual was also debarred from govern-
                                                                                         ment contracting for 28 months.
                                                                                      •	 A government contractor, working for
Substantiated Allegations                                                                Lucent, engaged in fraudulent activities
   •	 A unit administrator used her position to                                          which included submitting false claims,
      manipulate the orders process and allow a                                          false test results and cost mischarging. The
      reservist to be called to active duty without                                      allegations were submitted to the DoD
      a valid need or authorization. When mem-                                           Hotline and resulted in a joint investigation.
      bers of the assigned unit were questioned,                                         The government and Lucent entered into a
      no one had knowledge of the individual                                             settlement agreement wherein Lucent, with
      ever being assigned to the unit or attending                                       no admission of guilt, agreed to pay the gov-
      drills. The reservist was court-martialed and                                      ernment $4,211,314. The government will
       Number of Hotline Contacts Compared to Cases
      sentenced to reduction in grade, received 45                                       pay the relator more than $758,000 as their
      days confinement and was fined more than                                           share of the settlement.

               Opened 1995 through 2012
Figure 3.2 Number of Hotline Contacts Compared to Cases Opened 1995 through 2012

      25000
                            Number of Hotline Contacts Compared to Cases
                                    Opened 1995 through 2012
      20000
                           25000



                           20000
                                                                                                                                                Contacts
      15000
                                                                                                                                     Contacts
                                                                                                                                     Contacts   Cases Opened
                           15000
                                                                                                                                     Cases Opened
                                                                                                                                     Cases Opened
      10000
                           10000


        5000                5000



                                0
             0
                                    95

                                         96

                                              97

                                                   98

                                                        99

                                                             00

                                                                  01

                                                                       02

                                                                            03

                                                                                 04

                                                                                      05

                                                                                           06

                                                                                                07

                                                                                                     08

                                                                                                          09

                                                                                                               10

                                                                                                                    11

                                                                                                                         12
                                 19

                                      19

                                           19

                                                19

                                                     19

                                                          20

                                                               20

                                                                    20

                                                                         20

                                                                              20

                                                                                   20

                                                                                        20

                                                                                             20

                                                                                                  20

                                                                                                       20

                                                                                                            20

                                                                                                                 20

                                                                                                                      20
                95

                     96

                           97

                                98

                                      99

                                             00

                                                     01

                                                            02

                                                                    03

                                                                         04

                                                                                05

                                                                                        06

                                                                                              07

                                                                                                       08

                                                                                                            09

                                                                                                                   10

                                                                                                                           11

                                                                                                                                12
              19

                   19

                         19

                              19

                                    19

                                           20

                                                   20

                                                          20

                                                                  20

                                                                       20

                                                                              20

                                                                                      20

                                                                                            20

                                                                                                     20

                                                                                                          20

                                                                                                                 20

                                                                                                                         20

                                                                                                                              20




                                                                                                                                                OCTOBER 1, 2012 TO MARCH 31, 2013 57
Enabling Mission Areas



The following charts describe DoD Hotline contacts. The contacts are
shown by subject, origin and type of allegations.
                                           Subjects by Type                                                                       Open Cases by Orig
Figure 3.3 Subject by Type                                                                Figure 3.4 Open Cases by Origin

                                                                                                                        651
                                                       16,825
                                                                                                                     Letter/Fax
                                                      Unknown
                                                                     98
                                                                   Retiree                            384    Military
    34,486                                                                                            GAO                                       1,326
    Military                                                                  27                                                               Internet
                                                                             NAF                   149
                                                                                                  Phone
                                                                                                             Government Civilian
                                                                                            43
                                                                              22,728       Walk-in           Contractor
                                                                             Contractor

                                                                                                             Retireee

                                                                                                             Unknown

                                                                                                             NAF

                                          27,201                                                                                       2,657
                                    Government Civilian                                                                                Email



                                         Allegations by Primary Type
Figure 3.5 Allegations by Primary Type


                         Travel Violations             136
                       Human Traﬃcking               17
                                  Security            97
                           Safety Matters             79
         Restricted from Whistleblowing              40
                          Reprisal related                                                                                     3,736
   Procurement/Contract Administration                                                                                      3,569
                       Personnel Matters                     428
  Personal Misconduct/Ethical Violations                                                                                           4,081
                         Pay and Beneﬁts              115
                                     Other                       514
                                   Medical           41
        Improper Mental Health Referral                   224
                  Government Resources                                 1,004
         Government Programs/Projects                      223
                      Criminal allegations                172
                            Civil Liberties          11
                  American Recovery act              1

  58 SEMIANNUAL REPORT TO THE CONGRESS
The passage of the Whistleblower Protection             tor mistreated patients while collecting
Enhancement Act of 2012 requires inspectors
general to designate a whistleblower protec-
                                                        federal funding to care for them.
                                                     •	 A case settled for $30 million by
                                                                                                        Whistleblowing &
tion ombudsman whose role is to (1) educate
agency employees about prohibitions on retal-
                                                        Blackstone Medical, Inc., a subsidiary of
                                                        Orthofix International, in lieu of pros-
                                                                                                           Transparency
iation for protected disclosures and (2) edu-           ecution, to resolve allegations brought,
cate agency employees who have made, or are             in part, by two whistleblowers under the
contemplating making, a protected disclosure            False Claims Act, that kickbacks were
about the rights and remedies against retalia-          made to doctors to induce them to use of
tion for protected disclosures. The director for        products .
whistleblowing and transparency was desig-
nated as the Department’s whistleblower pro-       DoD IG provides protection for defense in-
tection ombudsman in January 2013. Working         telligence and counterintelligence employees
through DoD Hotline outreach and training,         and military members using existing author-
the whistleblower protection ombudsman de-         ity granted under the Inspector General Act of
termined that the lead priority is standardized    1978, as amended. In addition to the author-
agency, component and field office-level train-    ity provided in the Act, the president signed
ing for the Department’s more than 700,000         Presidential Policy Directive 19 on Oct. 10,
civilian employees.                                2012, ordering the director of national intel-
                                                   ligence to confirm the existence of policies
Qui tam whistleblowers continue to provide         and procedures providing whistleblower pro-
the DCIS with actionable information leading       tection for members of the intelligence com-
to the prosecution of fraud cases. Prominent       munity by July 8, 2012. Presidential Policy
on the DCIS docket during this reporting pe-       Directive 19 requires agency heads and intelli-
riod were the following qui tam cases:             gence community heads to make the certifica-
  •	 A JPoJ prosecution and conviction of          tions to the director of national intelligence. In
     Navy officials accepting bribes from an       response to this important initiative, DoD IG
     E2/C2 aircraft program facility at Naval      designated the director of whistleblowing and
     Air Station North Island, Coronado in         transparency, as chair of an informal working
     San Diego County, Calif., in which de-        group supporting the Department and intel-
     fense contractors paid more than $1 mil-      ligence community inspectors general prepa-
     lion in bribes, in exchange for nearly $4     rations to meet the pending deadline. From
     million in orders                             2012 to 2013, relevant stakeholders within
  •	 A case settled by Golden Living Nursing       the Department met to educate themselves on
     Homes in lieu of prosecution, to resolve      whistleblower protection in general and the
     allegations brought forward, in part, by      unique aspects of that protection within the
     a whistleblower under the False Claims        intelligence operational and analysis context.
     Act, namely that the TRICARE contrac-




                                                                                                         OCTOBER 1, 2012 TO MARCH 31, 2013 59
Enabling Mission Areas



                                                  Subpoena Program                                               cial, and state and local government records.
Programs                                          The DoD IG authority to issue subpoenas is
                                                  based on the Inspector General Act of 1978, as
                                                                                                                 Records obtained by DoD IG subpoenas may
                                                                                                                 also be used to locate witnesses, confirm state-
                                                  amended. The Act authorizes the IGs to issue                   ments made by witnesses or subjects and pro-
                                                  subpoenas in matters that involve fraud and                    vide other relevant information. DoD IG issued
                                                  abuse in Department programs and operations.                   more than 500 subpoenas each year during the
                                                  Historically, most DoD IG subpoenas were is-                   past three years in support of DoD criminal in-
                                                  sued on fraud-related matters. During 2005,                    vestigations, audits and evaluations. During this
                                                  DoD IG recognized the need to expand the DoD                   reporting period, 309 subpoenas were issued.
                                                  IG Subpoena Program into nonfraud related
                                                  crimes such as violent crime, cyber crime, child               Contractor Disclosure Program
                                                  pornography and theft of government property.                  All contractor disclosures made pursuant to the
                                                  During 2008, after a trial period, DoD IG made                 Federal Acquisition Regulation shall be report-
                                                  the issuance of subpoenas for certain specifically             ed to DoD IG in accordance with the Defense
                                                  enumerated general crimes permanent.                           Acquisition Regulation. A contractor disclosure
                                                                                                                 is a written disclosure by a DoD contractor or
                                                  A DoD IG subpoena request must meet three                      subcontractor to DoD IG an the existence of
                                                  criteria (1) the subpoena can only be issued for               credible evidence that the contractor or subcon-
                                                  investigations within the statutory authority of               tractor has committed a violation of Title 18,
                                                  the IG, (2) the information sought must be rea-                or Title 31, U. S. Code, in connection with the
                                                  sonably relevant to the IG investigation, audit,               award, performance or closeout of a contract or
                                                  investigation or evaluation and (3) the subpoena               any subcontract. During this reporting period,
                                                  cannot be unreasonably broad or burdensome.                    86 contractor disclosures were received.

                                                  Using DoD IG subpoenas is a useful procedure
                                                  for legally obtaining business, personnel, finan-


Figure 3.6 Subpoenas Issued by Type of Investigation - FY 2013                                            Open Contractor Disclosures
                                                                                    Figure 3.7 Open Contractor Disclosures



                                                                                                               21 (3%)             23 (3%)
                                                                                                         Non Conforming Parts    Signiﬁcant
                                                           64 (21%)
                     56 (18%)                                                                                                   Overpayments
                                                        Pay, Allowance                                          15 (2%)
                      Crimes
                                                      & Entitlement Fraud                   19 (3%)       False Certiﬁcations
                  Against Persons
                                                                                        Counterfeit Parts
                                                                                                 29 (4%)
                                                                                               False Claims
                                                                                               32 (5%)
                                                                                          Anti-Kickback Act
   26 (9%)
 Computer
Related Crime


    10 (3%)
     Other


        35 (11%)                                                         89 (29%)                                                                          548 (80%)
    Theft/Larceny of                                                Procurement Fraud                                                                  Labor Mischarging
  Government Property
        or Funds
                                29 (9%)
                           Public Corruption                     Total: 309                                                                     Total: 687
                                                         TOTAL: 309
  60 SEMIANNUAL REPORT TO THE CONGRESS
Asset Forfeiture Program
The DCIS asset forfeiture program provides
                                                     Figure 3.8 Results - Asset Forfeiture Program
support to DCIS investigations involving fraud,
waste and abuse by including forfeiture counts
in all indictments, criminal informations and
consent agreements when warranted by the evi-
                                                                                                                 Seizures        Forfeitures         Judgments
dence. The program’s goal is to deter criminal
                                                                 $300.00
activity by depriving criminals of property used
or acquired through illegal activity both in the
United States and Southwest Asia. Since the pro-                 $250.00

gram began in May 2007, DCIS has participated
in the seizure of assets totaling $814.2 million.                $200.00
During the reporting period, DCIS participated
                                                      Millions




in investigations that led to seizures of $8.42                  $150.00
million. Additionally, DCIS participated in in-
vestigations with court orders of final forfeiture               $100.00
of $7.38 million and judgments of $4.78 million.
Assets that have been seized or forfeited include                $50.00
cash, financial instruments, real property, vehi-
cles and vessels.
                                                                  $0.00
                                                                             FY 09               FY 10          FY 11             FY 12             FY 13
Asset forfeiture highlights for this reporting                                                             Fiscal Year
period include a final order of forfeiture filed
in November 2012, for two properties in San
Antonio, Texas, and one in Canyon Lake, Texas,
                                                     Figure 3.9 Seized Assets by Type
                                                                                                 Seized Assets by Type
with a total value of $566,730. The forfeited
properties will be applied to satisfy an order of
                                                                                        $161.8 thousand (2%)
restitution for $860,863 to the Defense Logistics                                         Cash/ Currency
Agency Disposition Services. The investiga-                                     $366.8 thousand (4%)
                                                                                                               $69.3 thousand (1%)
tion involved an Army master sergeant, his wife                                                                      Vessels
                                                                                      Vehicle
and an Air Force Reserve technician. They en-
gaged in larceny of government property from
the Defense Reutilization and Marketing Office,
Fort Sam Houston, Texas, to sell the goods for          $2.1 million (26%)
personal gain. The stolen items consisted of mili-    Financial Instrument
tary uniforms and clothing, computers and ac-
cessories, as well as other equipment.

On March 3, 2013, a final order of forfeiture was
filed containing a forfeiture money judgment
of $3.7 million and $1.1 million in real prop-
erty, vehicles and motorcycles. The investiga-
tion involved three former U.S. Army Corps of
Engineers employees and two foreign contrac-                                                                                                   $5.6 million (67%)
tors who were responsible for a multi-million                                                                                                    Real Property
dollar bribery scheme relating to more than $60
million in DoD construction contracts in Iraq.




                                                                                                                        OCTOBER 1, 2012 TO MARCH 31, 2013 61
Enabling Mission Areas



                                   Interagency Initiatives                             oversight community within the Department
Outreach                                                                               of Defense. Key areas of focus during the re-
                                                                                       porting period included exploring audit pri-
Activities
                                   Southwest Asia Joint Planning Group
                                   The Southwest Asia Joint Planning Group is the      orities among Defense Council on Integrity and
                                   coordinating body for U.S. government organi-       Efficiency members and ensuring compliance
                                   zations conducting oversight of U.S. military and   with the Reducing Over-Classification Act and
                                   civilian activities in Southwest Asia. The group    the Federal Voting Assistance Program and
                                   meets quarterly to coordinate and de-conflict       Military Overseas Voter Empowerment Act.
                                   oversight activities. The group last met in
                                   January 2013. In November 2012, the Southwest       Intelligence Community Inspectors General
                                   Asia Joint Planning Group chairman established      Forum
                                   an office at New Kabul Compound, Kabul,             DoD IG participates in the Intelligence
                                   Afghanistan. This allows the chairman and the       Community IG Forum, which promotes and
                                   Southwest Asia Joint Planning Group to address      furthers collaboration, cooperation and coordi-
                                   oversight issues closer to where operations are     nation among the inspectors general of the intel-
                                   being conducted. The last two Southwest Asia        ligence community. The forum meets quarterly
                                   Joint Planning Group meetings were conducted        to discuss issues of common concern and to plan
                                   from Kabul with attendees based in the conti-       how to address them collaboratively.
                                   nental United States during a video teleconfer-
                                   ence at the Mark Center in Alexandria, Va.          Joint Intelligence Oversight Coordination Group
                                                                                       The deputy inspector general for intelligence
                                   Council of the Inspectors General on Integrity      and special program assessments chairs the Joint
                                   and Efficiency                                      Intelligence Oversight Coordination Group,
                                   The Council of the Inspectors General on            which meets quarterly. The group promotes
                                   Integrity and Efficiency was statutorily estab-     and furthers collaboration, cooperation, coor-
                                   lished as an independent entity within the ex-      dination and information sharing among the
                                   ecutive branch by the Inspector General Reform      inspectors general and auditors general of the
                                   Act of 2008. Its purpose is to address integrity,   Department of Defense. The group’s objectives
                                   economy and effectiveness issues that tran-         are to support the DoD inspectors general and
                                   scend individual government agencies; and           auditors general in the performance of audits, in-
                                   increase the professionalism and effectiveness      spections and evaluations within their respective
                                   of personnel by developing policies, standards      departments and agencies as well as strengthen
                                   and approaches to aid in the establishment of a     their collective role and effectiveness to en-
                                   well-trained and highly-skilled workforce in the    hance their support of the National Intelligence
                                   offices of inspectors general. DoD IG is an ac-     Strategy. Finally, the group seeks to optimize the
                                   tive participant in the Council of the Inspectors   use of resources, increase efficiency and avoid
                                   General on Integrity and Efficiency and serves as   duplication of effort among DoD inspectors and
                                   editor-in-chief of the Journal of Public Inquiry.   auditors general. The group can also explore op-
                                   Key areas of focus during the reporting period      portunities for joint and interagency training
                                   included improving availability of relevant ex-     and education, as well as examine defense pro-
                                   ecutive branch records to the National Instant      grams and operations and identify those requir-
                                   Criminal Background Check System and com-           ing coverage from more than one member of the
                                   pliance with the Improper Payments Elimination      group.
                                   and Recovery Act.
                                                                                       Public Law 111-258, Reducing Over-
                                   Defense Council on Integrity and Efficiency         Classification Act Work Group
                                   The Defense Council on Integrity and Efficiency     DoD IG was asked by the Council of the
                                   is chaired by DoD IG and meets on a quarterly       Inspectors General on Integrity and Efficiency
                                   basis to discuss issues of common interest, share   to lead a work group across the federal govern-
                                   information and best practices, and build closer    ment in responding to requirements of Public
                                   working relationships among members of the          Law 111-258, Section 6(b), which requires the

62 SEMIANNUAL REPORT TO THE CONGRESS
inspector general of each department or agency       and School initiative is supportive of the DoD
of the government with an officer or employee        IG vision to lead change, speaking truth, pro-
authorized to make original classifications, to      mote excellence in fiscal accountability through-
carry out no less than two evaluations of that       out the Department. Guest speakers included
department or agency not later than Sept. 30,        Shay Assad, director of Defense Pricing, and
2016. The objective of the evaluation is to assess   Tom Steffens, director, Policy, Integration, and
whether applicable classification policies, proce-   Control, Accountability, and Audit Readiness
dures, rules and regulations have been adopted,      Directorate, Office of the Assistant Secretary
followed and effectively administered within         of the Army for Financial Management and
each department, agency or component; and to         Comptroller.
identify policies, procedures, rules, regulations
or management practices that may be contrib-         Joint IG Program
uting to persistent misclassification of material.   DoD IG manages a Joint Activities Division
Section 6(b)(3)(C), requires that inspectors gen-    to interface with DoD agencies, other federal
eral required to carry out the evaluations under     agencies, and joint IGs worldwide; develop and
the Act shall coordinate with each other and         sustain joint IG publications; develop and de-
with the Information Security Oversight Office       ploy joint IG training; conduct mobile training
to ensure that evaluations follow a consistent       teams and staff assistance visits; and develop
methodology and, as appropriate, allows for          and deploy an integrated knowledge manage-
cross-agency comparisons. To this end, DoD IG,       ment system and structure. DoD IG conducted             DoD IG manages the Joint Inspector
in conjunction with 17 offices of inspectors gen-    one resident DoD joint IG course and provided           General Course.
eral from across the federal government, have        three mobile training teams during the reporting
developed a CIGIE-approved evaluation guide.         period.

Whistleblower Reprisal IG Roundtable
DoD IG hosted a meeting with representatives         Awards
from each of the service whistleblower reprisal
and senior official IG offices, the Joint Staff IG   DCIS Special Agent Receives Award from
and National Guard Bureau IG and provided            International Association of Chiefs of Police
updates to the attendees on policies and ongo-       A DCIS special agent’s work with the FBI Joint
ing programs within whistleblower reprisal           Terrorism Task Force led to the International
investigations.                                      Association of Chiefs of Police Outstanding
                                                     Achievement in the Prevention of Terrorism
                                                     Award. The special agent of the Raleigh Resident
Courses                                              Agency and other members of the FBI Joint
                                                     Terrorism Task Force; the Durham, N.C. Police           A DCIS special agent received an award
Seventh Annual Comptroller’s Accreditation           Department, the Raleigh, N.C., Police Depart-           from IACP.
and Fiscal Law Course                                ment; and the Department of Justice were rec-
DoD IG and the Contract and Fiscal Law               ognized for their outstanding collaboration in
Department, the Judge Advocate General’s Legal       a complex six-year investigation that resulted
Center and School, held its seventh annual           in the conviction and sentencing of members
jointly sponsored, Comptroller’s Accreditation       of a North Carolina-based extremist group. The
and Fiscal Law Course, in the National Capital       Islamic extremist group, led by Daniel Boyd,
Region from March 26 to 29, 2013. The course,        was heavily armed and organized and had
held at the Defense Acquisition University,          made plans to attack targets both overseas and
Fort Belvoir, Va., promotes the accountabil-         in the United States, to include military targets
ity of DoD funds by reinforcing and increasing       and others they deemed enemies of Islam. In
the attendees’ understanding of the principles       the course of two years, seven defendants, two
critical to safeguarding DoD funds from fraud,       of whom were Boyd’s sons, were convicted of
waste and abuse, as well as what constitutes an      terrorism-related charges to include conspir-
Antideficiency Act violation. This joint DoD         ing to provide material support to terrorists and
IG and Judge Advocate General’s Legal Center

                                                                                                         OCTOBER 1, 2012 TO MARCH 31, 2013 63
Enabling Mission Areas



“DoD IG received                         conspiring to murder, kidnap, maim and injure       DoD IG Receives Eight Awards From CIGIE
                                         persons abroad.                                     DoD IG received eight awards at the 15th Annual
eight awards at the
                                                                                             Awards Ceremony hosted by the Council of the
15th Annual Awards                       National Intelligence Professional Awards           Inspectors General on Integrity and Efficiency
Ceremony hosted by                       In October 2012, the intelligence community IG      Oct. 16, 2012, held in the Baird Auditorium
the Council of the                       approved for presentation, National Intelligence    of the Smithsonian National Museum of
Inspectors General                       Professional Awards to two DoD IG, Office of        Natural History in Washington, D.C. J.T.
                                         Intelligence and Special Program Assessment         “Mickey” McDermott received the Individual
on Integrity and
                                         evaluation teams. The actual awards ceremony        Achievement Award and Qarmat Ali Team re-
Efficiency...”                           was cancelled due to Hurricane Sandy. Principal     ceived the Glenn/Roth Award for Exemplary
                                         Deputy Inspector General Lynne Halbrooks            Service. Six other awards included the Award for
                                         presented the National Intelligence Professional    Excellence–Interagency Afghan National Police
                                         Awards on March 28, 2013. The Inspections           Training Program Audit and Management
                                         Award was presented for assessment of security      Analyst Team; Award for Excellence–Sexual
                                         within the DoD, in recognition of the team’s role   Assault of Lance Corporal Maria Lauterbach
                                         in the creation of a departmental security enter-   Review Team; Award for Excellence–False
                                         prise capability where none previously existed.     Claims Act Investigation of ATK; Award for
                                         The Collaboration Award was received for the        Excellence–Southwest Asia Task Force; Award
                                         team’s concurrent continuity of operations and      for Excellence–FMU-143 Fuze Investigation
                                         intelligence readiness evaluations. The National    Team; and Award for Excellence–Afghan
                                         Intelligence Professional Award recognizes in-      National Security Forces Medical Logistics
                                         dividuals, teams and projects in the intelligence   Team.
CIGIE presented DoD IG with the Glenn/
Roth Award for Exemplary Service.        community that have advanced the status and
                                         standing of the inspector general’s function and
                                         discipline as a profession.




 64 SEMIANNUAL REPORT TO THE CONGRESS
           4


Services
Services




Army                                Army Audit Agency                                         ect management related to the Millennium
                                                                                              Redesign and Stream Restoration projects.
                                    To accomplish its mission, the U.S. Army Audit       Findings: USAAA reported Norfolk District
                                    Agency relies on a workforce of highly trained       program and project managers had a process
                                    professional auditors, many with advanced de-        in place to account for Millennium Redesign
                                    grees and professional certifications. USAAA’s       and Stream Restoration project funds and ex-
                                    staff consists of approximately 600 employees        penses using the Corps of Engineers Financial
                                    and is organized into 20 functional audit teams      Management System and the Primavera
                                    that provide audit support to all aspects of Army    Management System database. USAAA found
                                    operations.                                          that Norfolk District personnel could monitor,
                                                                                         track and support expenditures associated with
                                    USAAA also maintains a significant presence          the funded Millennium Redesign and Stream
                                    in the U.S. Central Command area of responsi-        Restoration projects (valued at $479,000). In ad-
                                    bility assisting Army commanders. At the end         dition, Norfolk District project managers draft-
                                    of March 2013, 26 auditors were deployed in          ed two project management plans that not only
                                    Kuwait and Afghanistan. Overall, USAAA has           document the parameters for implementing the
                                    deployed more than 200 auditors since 2002           Millennium Redesign and Stream Restoration
                                    and issued more than 200 reports on Operations       projects, but also established sufficient controls
                                    Enduring Iraqi Freedom.                              to monitor progress towards project completion.
                                                                                         Result: Norfolk District’s policies and proce-
                                    USAAA’s goal is to be a highly sought after and      dures should provide its customer, Arlington
                                    integral part of the Army by providing timely        National Cemetery, with reasonable assurance
                                    and valued services that focus on the evolving       that the Millennium projects will be completed
                                    needs of Army leadership. To ensure its audits       on time and within budget and quality expecta-
                                    are relevant to the needs of the Army, USAAA         tions. However, the projects cannot move for-
                                    aligned their audit coverage with the Army’s         ward until the acquisition strategy is finalized
                                    highest priorities and high-risks areas as deter-    and the National Park Service provides the re-
                                    mined by its enterprise-level risk assessment and    quired permits for the stream restoration project.
                                    from input from Army senior leaders.                 Report No. A-2013-0009-ALC

                                    During the first half of FY 2013, USAAA pub-         Accession of Military Personnel into Contracting
“USAAA determined                   lished 75 reports, made more than 225 recom-         Overview: USAAA audited the accession of
military personnel                  mendations and identified about $1.4 billion of      military personnel into contracting positions.
should transition into              potential monetary benefits. A few of USAAA’s        The audit focused on the contracting career field
contracting positions               significant reports are described in the following   to identify the most appropriate time to transi-
                                    paragraphs:                                          tion military personnel into contracting to bet-
no later than the
                                                                                         ter staff contingency contracting offices.
three-year mark in                  Arlington National Cemetery Millennium               Findings: USAAA determined military person-
their careers.”                     Project, U.S. Army Corps of Engineers, Norfolk       nel should transition into contracting positions
                                    District                                             no later than the three-year mark in their ca-
                                    Overview: At the request of the executive di-        reers. The initial three-year period would allow
                                    rector, Army National Cemeteries Program,            officers and enlisted personnel to experience
                                    USAAA verified that controls were in place           the many facets of Army operations and gain
                                    at the U.S. Army Corps of Engineers Norfolk          leadership experience, while not overly delay-
                                    District to:                                         ing their first contracting assignment. It would
                                      •	 Fully account for Millennium Redesign           also prevent personnel from entering contract-
                                         and Stream Restoration project funds and        ing positions at levels too senior for their ex-
                                         expenses.                                       perience began gaining and building technical
                                      •	 Promptly and effectively address potential      experience from entry-level positions. Earlier
                                         schedule delays and cost increases for proj-    entry would demonstrate to soldiers the extent
                                                                                         to which Army leaders now recognize contract-

 66 SEMIANNUAL REPORT TO THE CONGRESS
ing as a core warfighting capability, thereby at-     Findings: USAAA reported that maintenance
tracting more high-quality personnel into the         activities completed repair work to bring left be-
contracting field. Recognizing the need for mili-     hind equipment to the required technical manual
tary contracting professionals to gain hands-on       standard and that the units receiving the equip-
contracting experience and training earlier in        ment were generally satisfied with it. However,
their careers, Army policy reduced the goal of        maintenance activities frequently exceeded the
accession from eight years to between six and         technical manual standard and did not perform
seven years for officers and before 10 years for      maintenance effectively. Specifically, mainte-
enlisted personnel. However, military person-         nance activities:
nel did not actually start their first contracting       •	 Replaced serviceable parts on equipment.
assignment until 10 to 11 years into their ca-           •	 Projected repair times exceeding mainte-
reers. Additionally, the Army needed to signifi-            nance allocation chart times.
cantly improve the readiness levels of military          •	 Exceeded the inflated-repair projections on
personnel in contracting. More than four years              work orders.
after the U.S. Army Expeditionary Contracting         In addition, USAAA identified that units were
Command was stood-up, almost half of the              not inducting equipment into the left behind
military personnel assigned to those units were       equipment program at the required technical
designated as unready for service in expedition-      manual standard due to competing priorities
ary environments. The longer the Army waits for       and time constraints immediately before de-
military personnel to transition into contracting,    ployment. Also, U.S. Army, Europe, 21st Theater
the greater the risk military personnel will not      Sustainment Command, and Theater Logistic
have the technical skills and experience needed       Supply Center–Europe did not identify and cor-
to effectively execute complex contracting oper-      rect inefficiencies in the left behind equipment
ations or technically supervise others. The risk is   maintenance program because of insufficient
greatest in high-operational tempo expedition-        oversight.
ary environments, where speed and effectiveness       Result: USAAA estimated that by increasing the                        “ ... the Army
in support of military operations are critical.       oversight to ensure maintenance activities ad-
                                                                                                                        could reduce the
Result: USAAA recommended the under secre-            hered to projected repair hours, the Army could
tary of the Army commission and oversee analy-        reduce the required staffing of the maintenance                   required staffing
sis, led by both assistant secretary of the Army      activities and save about $12 million in the next              of the maintenance
for acquisition, logistics, and technology and        six years. Additional savings could be achieved                  activities and save
Army Materiel Command in coordination with            as efficiencies increased and maintenance ac-                 about $12 million in
the deputy chiefs of staff, on how best to stand      tivities adhered to maintenance allocation chart
                                                                                                                     the next six years. ”
up a contracting or acquisition branch. Or they       times. Also, USAAA identified savings to the
should determine other feasible, alternative new      Army with the full European theater implemen-
approaches for military personnel transitioning       tation of the unit maintained equipment pro-
into contracting that would provide reasonable        gram which would allow rear detachments to
assurance their contracting knowledge, skills         retain equipment instead of inducting it into the
and work experiences would sufficiently prepare       left behind equipment program. Implementation
military personnel to fulfill future expeditionary    of this recommendation could save the Army
contracting requirements.                             about $100 million in the next six years.
Report No. A-2013-0047-ALC                            Report No. A-2013-0041-ALE

Maintenance of Left Behind Equipment in               Audit of Army Prepositioned Stock, Medical
Europe                                                Materiel
Overview: USAAA reviewed the maintenance              Overview: At the request of the Office of the
of left behind equipment in Europe to identify        Deputy Chief of Staff, G-4, USAAA audited
the condition of the equipment when inducted          the requirements for Army prepositioned stock
into the program and the maintenance per-             medical materials. USAAA audited the devel-
formed on the equipment while in the program.         opment process to verify planned procurement
                                                      quantities were based on modified tables of or-

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 67
Services



                                      ganizational equipment, and unit sets were rea-      Foreign Language Proficiency Bonus Pilot
                                      sonably estimated over the FYs 2013 to 2017          Program
                                      program objective memorandum.                        Overview: At the request of the deputy chief
                                      Findings: USAAA reported that planned pro-           of staff, G-2, USAAA audited the foreign lan-
                                      curement quantities for medical materiel were        guage proficiency bonus pilot program to verify
                                      supported by the Army prepositioned stock            that the program successfully incentivized spe-
                                      modified tables of organizational equipment.         cial operations forces’ soldiers to maintain or
                                      The U.S. Army Medical Materiel Agency en-            increase their language skills and to verify that
                                      sured that the appropriate amount of sets would      the Army had proper management controls in
USAAA reviewed the foreign language   be available if needed to support contingency        place to manage the foreign language proficiency
proficiency bonus pilot program.
                                      operations. Ninety-four percent of the inven-        bonus pilot program. The pilot program allows
                                      tory items reviewed was properly accounted for       SOF’s soldiers with language proficiency at or
                                      at the Army Strategic Logistics Activity storage     above one but below two to receive payments.
                                      site. Controlled substances were properly se-        Findings: USAAA concluded that the pilot pro-
“USAAA concluded                      cured and had sufficient inventory procedures in     gram successfully incentivized SOF’s soldiers to
that the pilot                        place and operating. USAMMA fully used po-           maintain or improve their language proficiency.
program successfully                  tency and dated cost avoidance initiatives, such     USAAA found that the Army had some pro-
                                      as the pharmaceutical goods return contract,         cedures and controls in place to manage and
incentivized SOF’s                    to minimize losses associated with expired ma-       monitor the program, but some additional con-
soldiers to maintain                  teriel. As a result, the Army had assurance that     trols were needed. The Army Special Operations
or improve their                      class VIII materiel was on hand and accounted        Command G-1 office had a centralized process
language proficiency.”                for if needed to support potential contingencies.    in place to manage active SOF’s soldiers’ par-
                                      However, the 50 percent potency and dated ma-        ticipation in the pilot program that requested
                                      teriel replenishment rate used in calculating pro-   payment for them; however, it did not keep sup-
                                      gram objective memorandum requirements was           porting documentation. This occurred because
                                      not supported by historical data or generic item     the command did not have any guidance on
                                      shelf-life codes. USAMMA used the 50-percent         the documentation needed to make a payment
                                      replenishment rate because the Army’s logistics      request and did not have any requirements to
                                      requirements submission instructions required        maintain documentation that supported foreign
                                      its usage in developing budget projections. Also,    language proficiency bonus payment requests.
                                      USAMMA did not have automated or historical          The U.S. Army National Guard’s SOF units had
                                      data to estimate expected annual percentage of       some controls but did not prepare and maintain
                                      potency and dated losses. As a result, the FYs       documentation in accordance with pilot pro-
                                      2013 to 2017 program objective memorandum            gram requirements. This was because the guard
                                      requirements may be overstated by as much as         headquarters had not enforced pilot program re-
                                      $34.2 million.                                       quirements and had not issued guidance speci-
                                      Result: U.S. Army Medical Command and                fying reporting procedures to subordinate units.
                                      USAMMA took action towards implementing the          USAAA also found that the Army did not have
                                      recommendations during the audit. Specifically,      direct oversight of the funds expended for the
                                      USAMMA used actual potency and dated expira-         pilot program because the funds were combined
                                      tion rates associated with items already on hand     with the Army’s regular foreign language profi-
                                      to determine the optimal replenishment rates for     ciency bonus funds.
                                      developing the FYs 2014–2018 program objec-          Result: USAAA reported that the deputy chief
                                      tive memorandum funding requirements. U.S.           of staff, G-2 could improve the processes by:
                                      Army Medical Command began accumulating                 •	 Tracking changes in language proficiency
                                      historical data to calculate future program objec-         for SOF’s soldiers receiving payments from
                                      tive memorandum requirements and planned to                the pilot program.
                                      revise future replenishment rates based on the          •	 Establishing specific responsibilities for
                                      historical data. Both actions will assist the Army         managing the funds provided for the pilot
                                      in estimating requirements more accurately.                program and have the Army budget office
                                      Report No. A-2013-0031-ALM                                 provide the status of the funds executed at

 68 SEMIANNUAL REPORT TO THE CONGRESS
     quarterly in-process reviews based on the       of the Army data-center footprint. Although the
     Defense Finance and Accounting Services         Army had processes in place for identifying data
     execution reports for the pilot program.        center efficiencies, the processes were not pro-
In addition, USAAA recommended that the              viding enough accurate information to assist the
Army Special Operations Command and ARNG             Army in resource recovery. The Army’s strategy
issue a formal policy on the process and proce-      for identifying data center consolidation efficien-
dures to manage the pilot program. This policy       cies relied heavily on commands to provide and
should include specifics on documentation            update a series of reports to determine an ac-
required for payment eligibility and methods         curate “as-is” baseline and to report efficiencies
for retaining this supporting documentation.         gained through the closures. While this strategy
Also, USAAA recommended that Army Special            was generally sound, commands were not con-
Operations Command and ARNG identify a               sistently reporting the required information.
method for tracking the amount expended for          Result: At the request of CIO/G-6, USAAA re-
the foreign language proficiency bonus pilot pro-    viewed FY 2012 closure reports to determine
gram and report this amount to the Department        whether progress was made in comparison to
of the Army headquarters at quarterly in-process     FY 2011 closures. USAAA found that as FY 2012
reviews. By tracking the status of language profi-   progressed, commands began to report more of
ciencies of SOF’s soldiers and managing the ex-      the required information and efficiencies. As of
ecution of funds provided for the pilot program,     July 30, 2012, 23 non-base realignment and clo-
USAAA helped the Army determine language             sure data centers were closed and the Army Data
proficiencies available to meet the missions and     Center Consolidation Plan identified more than
manage the funds received for the pilot program.     $10.9 million in efficiencies. (One closure result-
Report No. A-2013-0072-FMI                           ed in $9.1 million of the $10.9 million; a majority
                                                     of the closures in FY 2012 did not achieve the ex-
Audit of Army Data Center Consolidation              pected efficiencies.) In addition, the Army Data
Overview: USAAA evaluated the progress of            Center Consolidation Plan developed a process
the Army’s data center consolidation and fo-         to work with commands to capture the pertinent
cused on data center closures in FY 2011 and         information within the closure reports. USAAA
the strategy for recovering efficiencies. This is    provided three suggested actions that address
the second audit in support of the Army Data         some of the challenges the Army needs to over-
Center Consolidation Plan. USAAA published           come to effectively consolidate data centers
results of the previous effort in audit report       and realize efficiencies. The Army Data Center
A-2011-0143-IET (application migration), dated       Consolidation Plan team, including their part-
July 6, 2011. That report focused on data centers    ner organizations, will incorporate these actions
affected by base realignment and closure and the     into future operations.
chief information officer/G-6’s oversight of the     Report No. A-2013-0023-FMT
program.
Findings: USAAA concluded that the Army did          Audit of Army Workers’ Compensation                           “The Army has spent
not achieve expected efficiencies in FY 2011.        Program: U.S. National Guard                                nearly $2 billion in the
The Army closed six non-Base Realignment and         Overview: The Army has spent nearly $2 billion
                                                                                                                last 11 years to provide
Closure data centers in FY 2011, none of which       in the last 11 years to provide wage replacement
reported cost savings in their closure reports.      and medical benefits to federal civilian employ-                 wage replacement
CIO/G-6 expected commands to achieve at least        ees for on-the-job injuries and illnesses. USAAA              and medical benefits
$2.5 million in cost savings as a result of these    conducted this audit to verify that the Army                     to federal civilian
closures. Commands did not achieve the expect-       National Guard’s process ensured that workers’                       employees... ”
ed cost savings because they did not reduce the      compensation claims were associated with inju-
number of applications they maintained through       ries that occurred during employees’ official ci-
rationalization as expected, nor did they transfer   vilian capacity/duty. This audit is one in a series
applications to the Defense Information Systems      addressing the Army’s Workers’ Compensation
Agency or a commercial provider for hosting.         Program.
This resulted in little overall change to the size

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 69
Services



“USAAA’s review of                     Findings: USAAA found that the Army                    Programs has this responsibility. USAAA fo-
56 of 303 workers’                     National Guard’s process ensured that workers’         cused on claimants who would have been 55
                                       compensation claims were associated with in-           years or older at the end of charge-back year
compensation claims                    juries that occurred during employees’ official        2010, as of June 30, 2010, had they lived. Using
for two states showed                  civilian capacity/duty. USAAA’s review of 56 of        Accurint and information from Department
that all 56 claims met                 303 workers’ compensation claims for two states        of Labor’s Agency Query System, USAAA re-
the performance-                       showed that all 56 claims met the performance-         viewed 357 of 358 (99.7 percent) death benefit
of-duty claim.”                        of-duty claim. Additionally, USAAA identified          cases and found they were properly managed.
                                       102 of 3,829 claims guard-wide, valued at about        USAAA was unable to review one case because
                                       $209,000 and $9.8 million, respectively, with dates    the Army could not locate the claimant’s Social
                                       of injuries that coincided with dates technicians      Security number in the Department of Labor’s
                                       received military pay; therefore, USAAA was un-        system. USAAA’s review of the 357 showed
                                       sure if these claims met the performance-of-duty       that 321 cases were active and 36 cases were
                                       element of a valid claim. USAAA reviewed nine of       closed. However, the review showed that the
                                       these 102 claims that were associated with the two     Department of Labor had officially closed 25 of
                                       states to verify whether the injuries occurred while   the 36 cases. Additionally, 15 of 357 beneficia-
                                       in the performance of duty (technician status) or      ries were not surviving spouses so USAAA could
                                       in the line of duty (military status). USAAA’s re-     not determine if the beneficiaries (son, daughter,
                                       view showed that one of the nine claims did not        guardian or case payee) were still eligible to re-
                                       meet the performance-of-duty element of a valid        ceive death benefits.
                                       claim. The claim was not challenged because the        Result: To provide assurance that the Army is
                                       supervisor who certified the worker’s compensa-        paying death benefits to eligible beneficiaries,
                                       tion claim for the technician was not the tech-        USAAA recommended that the Army (1) re-
                                       nician’s assigned first-line supervisor. Key state     search the one claim that could not be located
                                       personnel took corrective action and submitted         in the Department of Labor’s system, (2) request
                                       a letter to the Department of Labor’s Office of        that the Department of Labor officially close the
                                       Workers’ Compensation Program requesting that          25 cases in its system and (3) coordinate with
                                       the approved claim be rescinded.                       the Department of Labor’s Office of Workers’
                                       Result: To provide assurance that claims sub-          Compensation to determine the continued eli-
                                       mitted to the Department of Labor were and are         gibility of the 15 beneficiaries who were catego-
                                       associated with performance-of-duty injuries,          rized as case payee, claimant, son/daughter or
                                       USAAA recommended that the National Guard              guardian.
                                       review the remaining 93 claims and implement a         Report No. A-2013-0026-IEE
                                       new control that requires either the technician’s
                                       supervisor or the Injury Compensation Program          Actions Taken by USACE at Lake Cumberland,
                                       administrator to verify that the technician did        Kentucky
                                       not receive military pay for the date and time of      Overview: At the request of the secretary of
                                       the injury.                                            the Army, USAAA conducted a comprehensive
                                       Report No. A-2013-0006-IEE                             audit of the actions taken by the U.S. Army Corps
                                                                                              of Engineers at Lake Cumberland, Ky., concern-
                                       Audit of Army Workers’ Compensation                    ing marina owners, following a drawdown of
                                       Program: Death Benefit Cases                           the lake in January 2007. USAAA determined
                                       Overview: USAAA conducted this audit to ver-           whether USACE complied with applicable laws,
USAAA reviewed the U.S. Army Corps
of Engineers at Lake Cumberland, Ky.   ify that the Army had sufficient data to manage        regulations and guidance for actions related to
                                       the Army’s Workers’ Compensation Program’s             marina owners and in developing its 2011 Lake
                                       death benefit cases.                                   Cumberland Master Plan.
                                       Findings: USAAA found that the Army did not            Findings: USAAA reported that USACE gener-
                                       have a process or procedures in place to verify        ally complied with applicable laws, regulations
                                       that beneficiaries of deceased Army employees          and guidance for actions related to marina con-
                                       were still alive, primarily because Department         cessionaires at Lake Cumberland and in its de-
                                       of Labor’s Office of Workers’ Compensation             velopment of the Lake Cumberland Master Plan.

 70 SEMIANNUAL REPORT TO THE CONGRESS
Specifically, USAAA found that the USACE               managers established some internal controls,
appropriately:                                         and purchase orders generally had required
   •	 Exercised its permissive authority to grant      approvals, the date and quantity of goods and
      rent abatement to nine marina concession-        services received, and supporting invoices and
      aires due to the short notice of the draw-       payments with matching information. However,
      down and to offset anticipated one-time          some controls, such as separation of duties,
      reconfiguration costs. Under the abatement,      timely approval of purchase orders and audit
      nine USACE-leased marinas collectively           trails, either were not established or were not op-
      paid $9 for the period July 1, 2007, to June     erating as intended. These weaknesses occurred
      30, 2008, instead of about $800,000. The         because the partnerships’ legal agreements did
      district also expended about $1.7 million        not have specific requirements for establish-
      on other actions to mitigate the drawdown’s      ing, maintaining or reviewing internal con-
      effect. In accordance with its authority, the    trols. Therefore, property managers established
      Nashville District also appropriately denied     controls they believed necessary to accomplish
      the concessionaires’ requests for an exten-      their mission. In addition, the Army’s Portfolio
      sion of rent abatement.                          Asset Management Handbook did not specifi-
   •	 Coordinated and involved the public in the       cally require Residential Communities Initiative
      master planning process to ensure the plan       program managers and asset management teams
      sufficiently addressed regional and ecosys-      to review internal controls. These weaknesses in-
      tem needs, project resource capabilities and     creased the risk for fraud, waste and abuse. As
      suitability, and public interests and desires.   a result, the Army’s interests in the Residential
      The plan also aligned with applicable na-        Communities Initiative program were not fully
      tional and local initiatives.                    protected.
Result: USAAA identified that improvements             Result: This audit provided the Army with a
were needed for the USACE’s out-grant man-             sound means of protecting its interests, not only
agement process; however, the improvements             from ensuring the operations that provide hous-
did not affect the validity of the district’s deci-    ing to its soldiers are adequate, but also ensur-
sion to deny requests for extended abatement.          ing that the Army remains, in the public’s view, a
Additionally, USAAA found that USACE needed            good steward of resources.
to make sure actions are taken USACE-wide to           Report No. A-2013-0024-IEI
address systemic issues with the master planning
process identified in a 2007 Engineers Inspector       Deployment Health Assessments                                        “USAAA found
General report. USAAA provided assurance that          Overview: USAAA audited the Army’s pro-                          that at least 4,000
the actions of USACE were appropriate and in           cesses to provide soldiers with the deployment
compliance with laws, regulations and guidance.        health assessments required by DoD policy to
                                                                                                                       assessments did not
Report No. A-2013-0033-IEE                             mitigate deployment-related health threats and                 result in referrals...”
                                                       to ensure soldiers had an opportunity to receive
Residential Communities Initiative—Controls            treatment if needed.
Over Purchase Order Expenditures, Fort Rucker          Findings: Of the 29,448 soldiers who deployed
and Fort Drum                                          in selected units between 2009 and 2011,
Overview: At the request of the Office of              USAAA determined that almost 99 percent re-
the Deputy Assistant Secretary of the Army             ceived pre-deployment assessments, 97 percent
(Installations, Housing and Partnerships),             received post-deployment assessments and 85
USAAA audited selected aspects of the                  percent received post-deployment reassess-
Residential Communities Initiative projects            ments. About 82 percent of the assessments
at Fort Rucker, Ala., and Fort Drum, N.Y. The          met DoD timeliness standards. In addition, the
objective was to verify that purchase order ex-        Army made further treatment available to sol-
penditures controls were in place and operating        diers when health care providers determined
effectively to ensure payments were valid.             it was needed. However, USAAA found that at
Findings: USAAA determined that controls               least 4,000 assessments did not result in refer-
were partially in place and operating. Property        rals even though they indicated that soldiers had

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 71
Services



                                    behavioral health concerns. At least 43 percent       Additionally, USAAA made recommendations
                                    of these assessments did not explain why further      about how to refine the method used by the pro-
                                    treatment was not needed.                             gram to collect complaint data that is provided
                                    Result: To improve oversight and ensure sol-          to the medical command and the program’s
                                    diers receive appropriate referrals and care,         stakeholders to present a better overview of the
                                    USAAA recommended that U.S. Army Medical              problems associated with its medical activities
                                    Command make deployment and redeploy-                 and operations.
                                    ment dates available for tracking in the Medical      Report No. A-2013-0012-IEM
                                    Protection System, so commanders could ensure
                                    that more soldiers received timely assessments.       U.S. Army Fisher House Program Management,
                                    In addition, USAAA recommended that the               U.S. Army Medical Command
                                    Medical Command require health care provid-           Overview: The Fisher House Foundation,
                                    ers to document the actions they take when sol-       founded by Zachary and Elizabeth Fisher, is a
                                    diers’ responses to assessment questions indicate     private-public partnership that provides “com-
                                    health-related concerns and, if applicable, why       fort homes” to military families so they can be
                                    referral was not needed. This will ensure that        close to military loved ones who are hospital-
                                    soldiers’ medical history details are available if    ized. The program builds the Fisher Houses
USAAA reviewed Fisher House         future deployment-related health problems arise.      on the grounds of major military medical cen-
management.                         Report No. A-2013-0010-IEM                            ters across all services and the Department of
                                                                                          Veterans Affairs, and then donates them to the
                                    Audit of U.S. Army Medical Command                    respective military service to manage. The Army
                                    Ombudsman Program                                     has 15 Fisher Houses at 10 different Army instal-
                                    Overview: The Army established the                    lations that provide 146 guest suites. U.S. Army
                                    Ombudsman Program to assist soldiers and              Medical Command requested USAAA audit
                                    their families with concerns about their medical      controls of the Army Fisher House program.
                                    care, as well as to provide general assistance with   USAAA visited three sites to include Joint Base
                                    the Army’s disability evaluation system. The          San Antonio, Joint Base Lewis-McChord and
                                    Office of the Surgeon General asked USAAA to          Fort Bliss.
                                    verify that ombudsmen provided the intended           Findings: USAAA determined that program
                                    support in accordance with program guid-              controls were generally in place and operat-
                                    ance and that the program provided U.S. Army          ing, but improvements can be made in several
                                    Medical Command with information to improve           areas. USAAA reviewed the program financial
                                    its business operations. In May 2012, subsequent      controls along with personally identifiable in-
                                    to the surgeon general’s request, the secretary of    formation controls. Additionally, USAAA re-
                                    the Army ordered a comprehensive review of            viewed the Fisher Houses for compliance with
                                    how the Army conducts behavioral health diag-         the Americans with Disabilities Act.
                                    noses and disability evaluations. To coordinate       Result: USAAA recommended that the Army
                                    this effort, the secretary established the Army       (1) place nonmonetary gifts on the property re-
                                    Task Force on Behavioral Health and directed          cords, (2) obtain required higher-level approv-
                                    USAAA to submit the results of the audit to the       als for large dollar value gifts, (3) safeguard cash
                                    task force.                                           receipts and deposits including making timely
“USAAA conducted the                Findings: USAAA conducted the audit at seven          deposits, (4) obtain preapproval for credit card
                                    military treatment facilities and concluded that      purchases, (5) standardize the guest registration
audit at seven military
                                    ombudsmen generally provided the intended             process, including not collecting unnecessary
treatment facilities                support as required.                                  personally identifiable information and (6) en-
and concluded that                  Result: USAAA made recommendations to im-             sure facilities comply with the Americans with
ombudsmen generally                 prove management of the program by imple-             Disabilities Act. Making these improvements
provided the intended               menting standing operating procedures that            will increase program oversight, accountability
                                    included performance metrics and developing a         and transparency; ensure consistency of opera-
support as required.”
                                    training program that fully prepared personnel        tions; better safeguard personally identifiable
                                    to perform their ombudsman responsibilities.

 72 SEMIANNUAL REPORT TO THE CONGRESS
information; and ensure people with disabilities      mission resources and capabilities of financial
can access Army Fisher Houses.                        management soldiers performing resource man-
Report No. A-2013-0059-IEM                            agement and financial operations functions.
                                                      Finding: USAAA reported that the financial
Initial Outfitting of Equipment at Military           management community was struggling to de-
Treatment Facility Construction Projects,             fine themselves as the Army shifts its focus away
MEDCOM                                                from Southwest Asia. Lessons learned from
Overview: In response to an unprecedented             overseas contingency operations and recent
amount of funding for medical facility construc-      changes in the defense strategy indicate that the
tion projects in the FYs 2013 to 2017 Program         community will need to make significant chang-
Objective Memorandum, the U.S. Army Medical           es to how it conducts its operations to support
Command asked USAAA to verify the Health              emerging requirements. The national defense
Planning Facility Agency’s process for develop-       strategy, coupled with the Army strategic plan-            USAAA reviewed the Health Planning
ing and managing equipment requirements. In           ning guidance, outlines 10 strategic objectives            Facility Agency’s processes.
addition, MEDCOM asked USAAA to validate              that minimize long-term stability operations,
whether an available, automated DoD system            such as contingency operations in Southwest
provided project specific detailed equipment          Asia. These objectives, along with the require-
requirements the Army could use to develop            ment for auditable financial statements, will ne-
equipment requirements.                               cessitate that the Army undergo a dramatic cul-
Findings: USAAA determined that the Army’s            ture change that hinges on resource-informed
process for developing $1.4 billion in initial out-   decision-making and building-partnership ca-
fitting equipment requirements was not trans-         pacity. USAAA found the Army had challenges
parent enough to fully support those require-         incorporating a cost culture. Commanders must
ments. USAAA recommended that MEDCOM                  make more resource-informed decisions in con-
establish guidance for developing and managing        sideration of budget constraints and competing
the execution of the initial outfitting program       requirements. However, brigade combat teams
to ensure effective oversight of funds obligated      do not have resource management capability (S-
and executed. USAAA also tested the reliability       8), and echelons above the brigade do not have
of DoD’s Space and Equipment Planning System          cost analysts’ capabilities to assist with decision-
and concluded it was a highly reliable model for      making. USAAA also found the Army may not
estimating equipment requirements. Using the          be using financial management soldiers to their
Space and Equipment Planning System, USAAA            full potential in such areas as banking, economic
estimated that MEDCOM could reduce require-           assessments and building-partnership capacity.
ments by about $572 million.                          Result: Recent shifts in the Army’s defense strat-
Result: By implementing USAAA recommen-               egy and lessons learned from publicized fraud
dations, the U.S. Army Medical Command will           in Southwest Asia may require commanders to
improve its processes for developing and manag-       reevaluate how they use their resources to assess
ing equipment requirements, and the Army can          operational risk. There are many variables based
reallocate $572 million to other unfunded criti-      on outside factors such as pending decisions
cal medical requirements. MEDCOM immedi-              about troop reduction and budget constraints
ately took corrective action and adjusted the FYs     that continue to make it difficult to envision the
2014-2018 Program Objective Memorandum by             future force. However, USAAA audit results sup-
about $285 million of the reported $572 million       port the need for the emerging requirements of
in monetary savings.                                  cost management and building-partnership ca-
Report No. A-2013-0061-IEM                            pacity. Due to budget constraints and personnel
                                                      reductions, the Army should prioritize, redefine
Resource Capabilities of Financial Management         and adjust its workforce to minimize financial
Enablers                                              risk in an evolving Army while remaining rel-
Overview: At the request of the Office of             evant to the warfighter.
the Deputy Assistant Secretary of the Army            Report No. A-2013-0045-MTS
(Financial Operations), USAAA audited the

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 73
Services



                                   Audit of Financial Management—Force                  Doctrine Command, USAAA evaluated the
                                   Structure                                            Army’s management and scheduling of re-
                                   Overview: At the request of the Office of            sources to implement new or adjusted training
                                   the Deputy Assistant Secretary of the Army           requirements for institutional training. In ad-
                                   (Financial Operations), USAAA audited the            dition, USAAA evaluated key efforts taken by
                                   mission command and organizational alignment         TRADOC to automate manual processes, to
                                   of financial management units to verify that they    include the acquisition of an enterprise schedul-
                                   allowed financial management soldiers to meet        ing system and implementation of the Training
                                   mission requirements and support financial re-       Development Capability system.
                                   porting effectively.                                 Findings: USAAA reported that the Army had
                                   Findings: USAAA reported that financial man-         a process in place that allowed it to accomplish
                                   agement soldiers faced significant challenges in     its mission by executing approved training.
                                   performing their assigned missions and ensur-        However, the process used was not efficient be-
                                   ing properly trained soldiers. Specifically, units   cause it relied on labor-intensive procedures
                                   faced challenges conducting and enforcing in-        requiring personnel to manually link and ana-
                                   ternal controls, implementing theater policy and     lyze data from various systems to validate re-
                                   aligning to meet mission requirements. USAAA         source needs and schedule training. Despite
                                   found this occurred in part because the doctrine     this shortcoming, the Army used this process
                                   and organization of financial management units       because it did not have an automated tool capa-
                                   was not properly aligned to create a strong en-      ble of quantifying training resources as a result
                                   forcement mechanism. For example, units did          of increases and decreases in training require-
                                   not have the authority, through a mission com-       ments. Although TRADOC had implemented
                                   mand relationship, to carry out some of their        the Training Development Capability system in
                                   assigned duties. USAAA also found the follow-        December 2011 to standardize course Programs
                                   ing contributing factors that impacted financial     of Instruction and the use of training resourc-
                                   management units:                                    es Armywide, efforts to acquire an enterprise
                                      •	 Sustainment commanders had a limited un-       scheduling system were not successful. For ex-
                                         derstanding of financial management tech-      ample, crucial capability requirements of an en-
                                         nical operations.                              terprise scheduling system were not properly ad-
                                      •	 Financial management units had varying         dressed in the draft performance work statement,
                                         success in marketing the importance of         dated March 2011. Also, headquarters TRADOC
                                         their mission.                                 and the schools USAAA visited were not suc-
                                      •	 Financial management support operations        cessful in their attempts to acquire an automated
                                         officer was not working as intended.           system that provided these capabilities. As a re-
                                   As a result, financial management units had to       sult, headquarters, TRADOC personnel gener-
                                   rely on personality-driven relationships and out-    ally could not efficiently or sufficiently validate
                                   side support to meet mission needs.                  training resource needs across the command or
                                   Result: By helping the Army identify the chal-       Armywide. Instead, they generally relied on the
                                   lenges in both conflicting doctrine and organi-      individual schools’ assessments because they did
                                   zational alignment, the financial management         not have visibility of resource availability. Also,
                                   and broader sustainment community have taken         TRADOC schools that USAAA visited expended
                                   steps to correct many of the weaknesses. The         about $13.3 million during FYs 2008 to 2012 to
                                   improvements will allow financial management         acquire, modify and sustain scheduling systems
                                   units to meet mission requirements and support       with minimal to no return on investment.
                                   financial reporting effectively.                     Result: USAAA recommended that TRADOC
                                   Report No. A-2013-0046-MTS                           implement an automated scheduling system
                                                                                        that at a minimum has proven automated capa-
                                   Managing Resource Requirements for TRADOC            bilities, compatibility to interface with required
                                   Institutional Training                               existing Army systems and “what-if ” analytical
                                   Overview: At the request of the deputy com-          functions for planning purposes. USAAA also
                                   manding general, U.S. Army Training and              recommended that TRADOC direct schools

74 SEMIANNUAL REPORT TO THE CONGRESS
currently using scheduling systems to stop in-      of TSS funds and develop future TSS programs.            “USAAA estimated that
vesting additional Army funds to modify and         As a result, key TSS stakeholders could not suf-             about $6.9 million
sustain these systems once an enterprise sched-     ficiently monitor IMCOM’s execution of the
uling system is fielded. Finally, USAAA rec-        Army’s training resourcing. Additionally, TSS
                                                                                                                  in funds could be
ommended that the Combined Army Support             stakeholders could not readily determine how                 put to better use in
Command discontinue the use of its scheduling       programmed resources were applied during the                the FYs 2013-2018
system at Fort Lee schools. USAAA estimated         year of execution to achieve approved objectives             Program Objective
that about $6.9 million in funds could be put to    and gain feedback for adjusting future resource               Memorandum...”
better use in the FYs 2013 to 2018 program ob-      requirements.
jective memorandum as a result of discontinu-       Result: USAAA recommended the Army pro-
ing the scheduling system.                          vide access to funding-execution data to TSS
Report No. A-2013-0022-MTT                          stakeholders to allow more visibility and adjust
                                                    its manning models to reflect estimates that are
Training Support System Manning Models              more accurate. This will ensure that limited TSS
Overview: At the request of the director of         funds are allocated and used more accurately to
training, Office of the Deputy Chief of Staff,      prevent unnecessary funding shortages.
G-3/5/7, USAAA evaluated the Army’s manning         Report No. A-2013-0028-MTT
models used to determine required staffing lev-
els and make resourcing decisions for the active    Operating Tempo Fund Use
component, continental United States, Training      Overview: At the request of the Army vice chief
Support System. TSS includes products, services     of staff, USAAA reviewed the use of operat-
and facilities that support Army training mis-      ing tempo funds in the Army. The purpose of            USAAA evaluated the Army’s manning
sions. USAAA focused its review on four TSS         OPTEMPO funds is to support home station               models used to determine staffing levels.
common levels of support and their associated       training. The Army vice chief of staff was con-
management decision packages.                       cerned about the amount of OPTEMPO funds
Findings: USAAA reported that the Army              being migrated for non-OPTEMPO require-
proactively implemented a process to deter-         ments, particularly for base operations and in-
mine TSS manning requirements. The Training         formation technology equipment and services.
Simulations Division within the Office of the       USAAA reviewed FY 2011 OPTEMPO funds
Deputy Chief of Staff, G-3/5/7 worked close-        for U.S. Army Forces Command, U.S. Army
ly with the Army Installation Management            European Command and U.S. Army Pacific
Command to quantify and standardize staff-          Command activities to verify whether these ac-
ing requirements for training support at in-        tivities used OPTEMPO funds for OPTEMPO
stallations. The models provided the Training       requirements.
Simulations Division a consistent and reasonable    Findings: USAAA determined that the Army
methodology to estimate manpower require-           commands generally used OPTEMPO funds
ments, prepare and justify budget requests, and     for OPTEMPO requirements during FY 2011.
program funding to meet installations’ TSS mis-     However, USAAA identified various Army
sions. However, because of anticipated budget       command activities migrated about $29.7 mil-
reductions in FY 2012 affecting Army civilian       lion (about 11 percent) of $258.9 million of
authorizations and service contracts, IMCOM         OPTEMPO funds for non-OPTEMPO require-
created FY 2013 provisional tables of distribu-     ments, which were primarily for base opera-
tion and allowances, making implementation          tions support and information technology re-
of the TSS models optional. As a result, not all    quirements. This occurred because activities
TSS funding received by IMCOM was used in           only received OPTEMPO funding for their
the areas as originally programmed. The method      home station training mission, and did not
IMCOM used to execute TSS funds potentially         have the appropriate source of funds for U.S.
increased the Army’s risk for meeting training      Army Installation Management Command and
support requirements. Also, TSS stakeholders        U.S. Army Network Enterprise Technology
did not have real-time access to resourcing ex-     Command services above the baseline, or for
ecution data to effectively monitor the execution   other non-OPTEMPO requirements associated

                                                                                                       OCTOBER 1, 2012 TO MARCH 31, 2013 75
Services



                                         with home station training. In addition, activities   the contract to determine whether U.S. Central
                                         believed the FY 2011 Office of the Deputy Chief       Command reduced transportation risk and im-
                                         of Staff, G-3/5/7, OPTEMPO management in-             proved contractor performance. In addition,
                                         structions did not clearly define the term migra-     USAAA assessed price risk and, as appropriate,
                                         tion, information technology equipment or ser-        compared to the prior transportation contract,
                                         vices and allowable and unallowable OPTEMPO           Host Nation Trucking, to verify command’s po-
                                         requirements. Also, while the Army commands           tential to reduce transportation costs.
                                         provided some oversight of its subordinate ac-        Findings: USAAA reported the criteria and con-
                                         tivities’ use of OPTEMPO funds, there were ad-        cepts of the contract were not fully implemented
                                         ditional opportunities for increased monitoring.      as intended, which weakened the effectiveness
                                         Result: As a result, the Army did not have full       of the process during the initial six months of
                                         visibility of how OPTEMPO funds were used, or         the contract. Further, the lack of transportation-
                                         the full amount of funds required for U.S. Army       performance information limited the ability
                                         Network Enterprise Technology Command and             to sufficiently assess the contract’s progress to
                                         U.S. Army Installation Management Command             achieve performance and cost goals. USAAA
                                         services, which potentially hindered the Army’s       also reported that while the contract generally
                                         ability to make informed budget decisions.            fulfilled mission requirements, process weak-
                                         USAAA recommended the Army update the                 nesses prevented the contract from achieving
                                         OPTEMPO management instructions to (1)                its intended contractor-performance improve-
                                         define the term migration, (2) define allow-          ments and cost savings. Inaccurate contractor
                                         able and unallowable OPTEMPO and (3) direct           performance assessments resulted in erroneous
                                         Army commands/Army service component                  contractor ranking used to allocate missions,
                                         Commands to issue policies and procedures for         which caused an unintentional deviation from
                                         monitoring OPTEMPO fund use by subordinate            fair opportunity for consideration requirements.
                                         activities. These actions should strengthen over-     In addition, USAAA identified opportunities to
                                         sight of OPTEMPO migrations and provide a             realize the contract’s efficiencies and implement
                                         more accurate reflection of OPTEMPO fund use          corrective actions to improve contractor perfor-
                                         for budgetary decisions.                              mance and recoup transportation overpayments
                                         Report No. A-2013-0029-MTT                            totaling more than $2 million.
                                                                                               Result: USAAA made several recommendations
                                         Performance Metrics for National Afghan               to improve contract performance and over-
                                         Trucking Contract, Bagram Airfield, Afghanistan       sight and reduce costs to achieve transportation
                                         Overview: The United States Central Command-          goals. USAAA recommended the U.S. Forces-
                                         Joint Theater Support Contracting Command             Afghanistan commander issue a fragmentary
                                         requested the audit to verify the National            order to reinforce transportation delivery valida-
                                         Afghan Trucking contract performance metric           tion and receiving report processing within three
                                         process improved contractor performance and           days for transportation oversight. USAAA also
                                         reduced cost. The National Afghan Trucking            recommended that the U.S. Central Command-
USAAA reviewed performance metrics for   contract provided a framework to mitigate risk        Joint Theater Support Contracting Command
National Afghan Trucking contract.       and established a performance measurement             commander provide training to its contract
                                         process to improve contractor performance and         staff, improve asset visibility, perform delivery
                                         achieve U.S. Central Command’s transporta-            spot checks, use contractors’ available asset re-
                                         tion goals. This audit focused on the contract’s      ports, modify the contract’s performance mea-
                                         performance metrics and information from the          surement process and metrics, and reevaluate
                                         contract’s order of merit list and performance        contractors’ performance assessments to correct
                                         requirements summary to verify that the con-          payment deductions and recoup transportation
                                         tract established a systematic method to evaluate     overpayments. The U.S. Forces-Afghanistan and
                                         contractor performance, quantify performance          U.S. Central Command-Joint Theater Support
                                         ratings, allocate mission assignments and apply       Contracting Command commanders agreed
                                         appropriate payment deductions. USAAA ana-            with USAAA’s contract performance and over-
                                         lyzed information from the initial six months of      sight recommendations and took actions to im-

 76 SEMIANNUAL REPORT TO THE CONGRESS
plement improvements. The commands’ actions            operated installations because those sites used
will help mitigate risk associated with the armed      contracted security guards who were limited by
force’s transportation mission in Afghanistan.         inherently governmental guidelines and legal
Report No. A-2013-0054-MTE                             jurisdictions. Local commanders also had lim-
                                                       ited control of contracted guards, and contractor
Army Protection Program at Depots, Arsenals            responsibilities and authorities sometimes were
and Plants                                             not clearly defined.
Overview: At the request of the executive dep-         Result: USAAA concluded there was a higher
uty to the commanding general of U.S. Army             risk of vulnerabilities to personnel, property and
Materiel Command, USAAA verified the imple-            mission accomplishment at these five contrac-
mentation of four key protection program ele-          tor-operated facilities. This occurred, primar-
ments including continuity of operations, emer-        ily, because protection requirements were not
gency management, fire and emergency services;         always included or clearly defined in contract
and law enforcement.                                   solicitation documents. Additionally, there was
Findings: USAAA found that, in general,                an inconsistent understanding and application
AMC’s government-operated installations                of onsite command and control, jurisdictional
met protection program requirements, but               requirements and authorities related to contract-
AMC’s contractor-operated facilities had               ed security guards. Therefore, USAAA recom-
challenges;,particularly related to effective onsite   mended the Army clarify responsibilities and au-
law enforcement. USAAA visited five sites and          thorities for contracted security guards, and that
found that all five sites met continuity of opera-     AMC include protection program requirements
tions requirements and had fire and emergency          in contract solicitation documents and perfor-
capabilities. USAAA also found that AMC had            mance work statements or develop a strategy to
effective law enforcement programs in place at         mitigate protection elements that contractors do
three of the five installations, which were gov-       not implement at contractor-operated facilities.
ernment-operated. However, AMC had limited             Report No. A-2013-0063-MTP
onsite law enforcement protection at its contrac-
tor-operated facilities. Army law enforcement          Attestation Review of Data on Child, Youth and
and physical security policies require command-        School Services Personnel Suitability
ers to direct law enforcement and security activi-     Overview: Department of Defense and Army
ties to maintain law and order and protect instal-     policy both require criminal background checks
lation personnel and property against trespass,        are conducted on individuals working in child
terrorism, sabotage, theft, arson and other illegal    care services. For the safety and well-being of the
acts. USAAA reviewed law enforcement pro-              military-connected youth, it is imperative that
grams at 11 AMC installations including three          background checks are accurate and proper doc-
government-operated and eight contractor-op-           umentation is maintained verifying the check.             USAAA verified more than 17,000
erated. USAAA visited five (three government-          As part of a multifaceted oversight approach,             personnel involved in child care services.

operated, and two contractor-operated) installa-       the secretary of the Army directed USAAA to
tions and reviewed programs at six other AMC           conduct a review on the use of criminal back-
contractor-operated facilities. USAAA found            ground checks, examining the verifications
that the three government-operated installations       made by the assistant chief of staff for installa-
visited had effective law enforcement programs         tion management.
in place, but five of the eight contractor-operated    Findings: The USAAA review verified more
installations had limited onsite law enforcement       than 17,000 personnel involved in child care ser-
protection. AMC had effective law enforcement          vices on 76 Army installations. USAAA project-
programs at its three government-operated in-          ed about 86 percent of the child care personnel
stallations because it employed Army police and        population had at least a portion of completed
security forces that were extensively trained and      criminal background checks. However, only
under the direct command and control of the            about 33 percent had all portions of the criminal
local commanders. However, onsite law enforce-         background checks completed.
ment protection was limited at the contractor-

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 77
Services



                                    Result: USAAA results will be used to assist the    of Army guidance did not explicitly direct termi-
                                    Army in improving the process at Army instal-       nating Servicemembers’ Group Life Insurance
                                    lations for providing and maintaining criminal      coverage for soldiers designated to have premi-
                                    background checks for the safety and security of    ums withheld from their pay. USAAA estimated
                                    children.                                           U.S. Army Reserve Command could realize po-
                                    Report No. A-2013-0065-IEO                          tential monetary benefits of $40.5 million during
                                                                                        the FYs 2013 to 2018 program objective memo-
“Overall, USAAA                     Out-of-Service Debt, U.S. Army Reserve              randum by revising its methodology to calculate
                                    Command                                             bonus recoupment amounts.
estimated U.S. Army
                                    Overview: USAAA audited the out-of-service          Result: USAAA’s review disclosed DFAS took
Reserve Command                     debts for soldiers discharged from the Army         appropriate action to collect the debts of all 48
understated bonus                   Reserve. The audit objectives were to verify that   soldiers in the statistical sample. DFAS sent de-
debts of $20.3 million              the U.S. Army Reserve Command forwarded             mand letters to the 27 soldiers whose debts were
for this period by a                appropriate and supportable data to the Defense     economical to collect. Ten of those soldiers ei-
                                    Finance and Accounting Service to ensure ac-        ther paid their debts or worked out payment
net of $9.9 million.”
                                    curate recording of debts for discharged soldiers   plans. The remaining soldiers’ unsatisfied debts
                                    and that DFAS took appropriate action to collect    were reported to credit bureaus, the Treasury
                                    those debts owed to the government.                 Offset Program or commercial collection firms
                                    Findings: USAAA determined that the U.S.            in efforts to collect the debts. DFAS appropriately
                                    Army Reserve Command forwarded appropriate          wrote off debts that were uneconomical to collect.
                                    and supportable data to establish original bonus    USAAA’s efforts led to Department of the Army
                                    entitlement and payment amounts. However,           Headquarters revising its regulation to be con-
                                    U.S. Army Reserve Command forwarded incor-          sistent with the DoD Instruction to ensure that
                                    rect bonus debt data, which understated debt        all bonus recoupment amounts are calculated by
                                    amounts for discharged soldiers. Primarily,         only giving discharged soldiers credit for earning
                                    this happened because U.S. Army Reserve             bonuses when they satisfactorily participated in
                                    Command followed Army Regulation 601-210            unit training assemblies. Also, U.S. Army Reserve
                                    (Active and Reserve Components Enlistment           Command established new policies and proce-
                                    Program) that was not consistent with DoD           dures to be in concert with the Department of the
                                    Instruction 1205.21 (Reserve Component              Army Headquarters and DoD guidance.
                                    Incentive Programs Procedures). U.S. Army           Report No. A-2013-0075-MTH
                                    Reserve Command’s methodology for calculat-

                                                                                        U.S. Army Criminal
                                    ing bonus recoupment amounts was only par-
                                    tially consistent with Army Regulation 601-210.

                                                                                        Investigation
                                    U.S. Army Reserve Command’s methodology
                                    gave soldiers credit for earning bonuses even

                                                                                        Command
                                    though they had continual unexcused absences
                                    from unit training assemblies. Overall, USAAA
                                    estimated U.S. Army Reserve Command under-
                                    stated bonus debts of $20.3 million for this pe-    Significant Activities
                                    riod by a net of $9.9 million. U.S. Army Reserve
                                    Command unnecessarily paid $1.3 million of          The U.S. Army Criminial Investigation
                                    $3.9 million of Servicemembers’ Group Life          Command is a combat ready organization dedi-
                                    Insurance premiums for the 12 months ending         cated to providing the Army critical investiga-
                                    March 31, 2011, because the Army did not have       tive support, actionable criminal intelligence,
                                    a uniform policy to terminate premium pay-          logistics security and protective services to
                                    ments for soldiers when they had unexcused          senior DoD personnel around the globe.
                                    absences from unit training assemblies. U.S.        USACIDC has 469 agents and other personnel
                                    Army Reserve Command did not terminate              forward-deployed in support of ongoing con-
                                    Servicemembers’ Group Life Insurance coverage       tingency operations in Kuwait and Afghanistan.
                                    for these soldiers because DoD and Department       This support extended beyond normal criminal

 78 SEMIANNUAL REPORT TO THE CONGRESS
investigations and included logistics security op-   Since Oct. 2012, the Protective Service Branch
erations; training host nation law enforcement       conducted more than 300 protective services
personnel; detainee investigations; and the use      missions in the continental United States,
of forensic sciences and criminal investigative      OCONUS and in deployed environments. This
techniques which aid combat commanders in            included three visiting foreign counterpart
identifying, targeting, capturing, deterring and     missions for ministers and chiefs of defense
prosecuting insurgents and criminal elements         within the national capital region and throughout            The USACIDC Protective Services
that pose a threat to U.S. forces.                   the continental United States. The Protective                Battalion on an official visit.
                                                     Service Branch continued to provide protective
Since Oct. 1, 2012, USACIDC generated more           support for two former secretaries of defense
than 4,949 new reports of investigation and          and a former chairman of the joint chiefs of staff.
more than 3,789 non-report of interest investi-      The battalion’s protective intelligence section
gative sequence actions. In spite of the demand-     conducted full spectrum threat assessments for
ing caseload, USACIDC maintained a solve rate        every low, medium or high risk travel mission,
of 99.6 percent for drug crimes, 95 percent for      and for each personal security vulnerability
persons crimes, 98 percent for economic fraud        assessment, incorporating terrorist and criminal
crimes, 100 percent for violent death crimes,        threat data into a comprehensive risk analysis
89 percent for violent sex crimes, 64 percent        program. The Protective Service Branch
for property crimes and 84 percent for miscel-       continued to deploy special agents to the U.S.
laneous crimes, with an overall solve rate of 96.8   Central Command to lead protective services
percent. The solve rate for general crimes was 64    details for senior U.S. combat commanders.
percent in comparison to the national average of
18.6 percent. USACIDC generated $20,733,143          Computer Crime Investigative Unit
in recoveries during the reporting period.           The Computer Crime Investigative Unit sup-
                                                     ported the new DoD strategy for operating in cy-
USACIDC continues to place significant empha-        berspace and the recently established U.S. Cyber
sis on the conduct of sexual assault and death       Command and Army Cyber Command by ag-
investigations to help meet the intent of DoD        gressively investigating intrusions and related
and Army leadership in reducing the number of        malicious activities targeting Army computer
sexual assaults and suicides that affect the Army    networks. The Computer Crime Investigative
community. USACIDC hired additional dedi-            Unit’s increased emphasis on insider threats
cated sexual assault investigators, formed special   came to the forefront with its lead role in DoD’s
units to improve the quality of sexual assault in-   cyber espionage investigation of the largest dis-
vestigations and increased efforts to hold offend-   closure of classified material in U.S. history, alleg-
ers accountable for their actions.                   edly perpetrated by an Army intelligence analyst
                                                     in Iraq. The Computer Crime Investigative Unit’s
Specialized Unit Operations                          ongoing partnership with the Army chief infor-
                                                     mation officer to conduct proactive vulnerability
                                                     assessments of the LandWarNet produced note-
Protective Services Battalion                        worthy successes. This proactive crime preven-
The Protective Services Battalion conducted          tion effort, part of Computer Crime Investigative
continuous worldwide executive protection            Unit’s multi-faceted virtual community policing
from assassination, kidnapping, injury and           campaign, identified and remediated vulnerabil-
embarrassment for designated senior high-risk        ities before cyber criminals or other adversaries
personnel of the DoD, the Joint Chiefs of Staff      could access and damage Army systems, steal or
and Army, and for their foreign counterparts         alter sensitive information, or disrupt network
during official visits to the United States. The     operations and other critical military actions.
Protective Service Branch also provided oversight    During this reporting period, Computer Crime
of training and operational effectiveness for        Investigative Unit’s vulnerability assessment pro-
Combatant Commander protective services in           gram identified $7.4 million in cost avoidance to
U.S. Southern Command and U.S. Forces Korea.         the Army. Following the mandatory remediation

                                                                                                              OCTOBER 1, 2012 TO MARCH 31, 2013 79
Services



                                      of these vulnerabilities, no computer network           extensive training of CODIS staff and
                                      compromises occurred at assessed installations          all new equipment. The next generation
                                      for this reporting period.                              CODIS software provides enhanced search
                                                                                              capabilities and will increase the ability of
“Since October 2012,                  Major Procurement Fraud Unit                            the USACIL to leverage DNA data to pro-
the Major Procurement                 The Major Procurement Fraud Unit continues              vide investigative leads and information to
                                      to combat fraud and corruption related to con-          investigative agencies throughout DoD.
Fraud Unit has initiated              tingency operations. Its global mission is to con-   •	 The Latent Print Branch has been instru-
93 investigations,                    duct criminal investigations into allegations of        mental with technological advances to
with more than $78                    fraud associated with major Army system acqui-          super glue fuming and incorporating all
million in actual,                    sition programs to recover Army funds, ensure           other latent print processing techniques into
total recoveries...”                  the integrity of the Army procurement process,          one single system. The Adroit 300, a low-
                                      and deter future crimes in order to preserve sol-       pressure sublimation processing system,
                                      dier safety and Army readiness. In support of           was initially researched at USACIL, work-
                                      the Major Procurement Fraud Unit’s focus on             ing closely with LINDE Gas Corporation
                                      allegations of fraud affecting contracting opera-       of Germany (Canadian Division) and came
                                      tions in contingency environments throughout            on line at USACIL during February 2013.
                                      the world, it has four forward operating investi-       This system delivers “like” quality prints on
                                      gative offices in Afghanistan and Kuwait. Since         every processing technique used in a single
                                      October 2012, the Major Procurement Fraud               chamber unit. It reduces chemical usage
                                      Unit has initiated 93 investigations, with more         and chemical cost on many latent print pro-
                                      than $78 million in actual, total recoveries and        cesses, is eco-friendly and computer-driven,
                                      more than $11 million returned to the Army.             eliminates human error in timing and for-
                                      Specific to overseas contingency operations, the        mulation, is standardized for all users and
                                      Major Procurement Fraud Unit initiated 13 in-           is capable of developing prints. Operating
                                      vestigations and realized more than $3 million          cost is reduced, as little to no chemicals are
                                      in fines and restitutions.                              required, development times are shortened
                                                                                              and examiner time is minimized.
                                      U.S. Army Criminal Investigation Laboratory          •	 The USACIL Logistics Branch occupied
                                      The U.S. Army Criminal Investigation Labo-              its newly renovated Logistics Operations
                                      ratory, located in the Gillem Enclave, Ga., is          Center at Gillem Enclave, Ga. The renovat-
                                      the only full service forensic laboratory in DoD        ed facility provides comprehensive state-of-
                                      and provides forensic laboratory services to            the-art logistics support to the continental
                                      Department of Defense investigative agencies            United States and OCONUS operations.
                                      and other federal law enforcement agencies.             The USACIL Logistics Branch has complet-
                                      USACIL examiners and analysts testify in fed-           ed the acquisition of one deployable foren-
                                      eral, military and state courts as well as multi-       sic laboratory that will allow deployment to
The USACIL is the only full service
forensic laboratory in DoD.           national courts. USACIL is on the forefront of          a theater in as little as 10 days.
                                      battlefield forensics and has a robust Science and   •	 The Expeditionary Forensic Division
                                      Technology Program collaborating with other             and its subordinate organizations, the
                                      laboratories and researchers, customers, law en-        Expeditionary Forensic Laboratories and
                                      forcement, academia and industry to develop             Reach Back Operations Center, recently
                                      state-of-the-art protocols in scientific investi-       changed their respective names to the
                                      gation. During the reporting period, USACIL             Forensic Exploitation Directorate, Forensic
                                      made several technological improvements:                Exploitation Teams, and Global Forensic
                                         •	 The Combined DNA Index System Branch              Exploitation Center, respectively. These
                                            completed the conversion to the next gen-         name changes better reflect the organiza-
                                            eration of CODIS software, CODIS 7.0. The         tional structure that will be used to ser-
                                            conversion process took approximately six         vice the global customer base post-Oper-
                                            months and involved preparation of exist-         ation Enduring Freedom. The mission of
                                            ing data to conform to new requirements,          the organization has not changed as the

 80 SEMIANNUAL REPORT TO THE CONGRESS
     Expeditionary Forensic Division will con-        Forensic Exploitation Team 3 has maintained a
     tinue to provide full service forensic exploi-   robust capability to conduct forensic examina-
     tation to the DoD customer base across the       tions in the following disciplines such as explo-
     full range of military operations.               sive triage, latent prints, DNA, chemistry (explo-
  •	 The Global Forensic Exploitation Center re-      sives and drug analyses), electronic engineering,
     ceived 302 new exploitation requests from        firearms and tool marks and forensic/biometric
     the Afghanistan theatre of operations and        enabled intelligence analysis. Its forensic analy-
     completed 335, including 33 received dur-        sis provides timely intelligence used for forensi-
     ing the previous reporting period. Of the        cally linking known insurgents to capture enemy
     total received and completed, the latent         materiel, such as improvised explosive devices,
     print section completed analysis on 107          weapons, documents and other materials that
     submissions, 393 DNA submissions, 42             are used for targeting and prosecution in Afghan
     electronic engineering submissions, and          courts.
     four explosive chemistry submissions. The                                                                      “The analysis of the
     analysis of the received materials resulted in   Between June 2010 and November 2012,
     632 searchable DNA profiles, yielding 588        Afghan court statistics from the Justice Center
                                                                                                                      received materials
     biometric matches. There were more than          in Parham, disclosed out of 195 cases processed,                   resulted in 632
     512 latent fingerprints found and 10 data-       evidence matched forensically using DNA and                       searchable DNA
     base matches.                                    fingerprints to the insurgent had a 97 percent               profiles, yielding 588
  •	 The Global Forensic Exploitation Center          conviction rate and 99 percent affirmation on                 biometric matches.”
     also received an additional 61 lab requests      appeal. The average prison sentence for a convic-
     from the Armed Forces DNA Identification         tion was 6.2 years. The maximum sentence was
     Laboratory containing 1,700 reference sam-       16 years, and 46 percent of the sentences were
     ples (buccal swabs) for processing in order      between eight and 16 years.
     to develop the DNA profile which can sub-
     sequently be searched in the appropriate da-     The case load for forensic analysis in Afghanistan
     tabase. The Expeditionary Forensic Division      has continued to remain steady even during
     has reached an agreement with the Armed          the mostly non-fighting season. The Forensic
     Forces DNA Identification Laboratory to          Exploitation Team 3 examiners conducted fo-
     provide the same processing services for the     rensic examinations on more than 316,000
     DNA reference swabs. The DNA branch has          pieces of material completing more than 5,180
     also created a database called Expeditionary     laboratory requests.
     Forensic DNA Index System. So far, more
     than 5,000 profiles have been entered into       More than 700 insurgents were uniquely identi-
     the database.                                    fied using latent prints and DNA processed from
                                                      captured enemy materiel and matching to known
The Forensic Exploitation Team 3 deployed             profiles in DoD databases, of which 634 of those
to Afghanistan Nov. 10, 2012, and continued           identifications came from latent prints submitted
the mission of providing forensic support to          to the Biometrics Identity Management Agency
Regional Commands East, North, Capital, South         and searched for in the Automated Biometric
and Southwest from three main laboratories at         Identification System database and 124 identifi-
Kandahar Air Base, Bagram Air Base and Camp           cations came from DNA submitted to the Armed
Leatherneck. The Forensic Exploitation Team 3         Forces DNA Identification Laboratory and
along with Combined Joint Task Force Theater          searched for in their database. Once insurgents
Explosive Exploitation Paladin has operational        were identified by DNA and/or fingerprints, 275
control and support of four smaller satellite labs    be-on-the-look-out notices were disseminated
located at Camp Stone Herat, Camp Marmal              and 308 criminal activity analysis reports were
Mazar-e-Sharif, the Multi-National Lab at Camp        developed.
Warehouse Kabul and the Australian Lab in
Tarin Kowt Uruzgan that provide support on a
regional basis.

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 81
Services



                                            Criminal Investigation Task Force                    Law Enforcement Professionals
                                            USACIDC continued to serve as the execu-             The Law Enforcement Professionals Program
                                            tive agency for the DoD Criminal Investigation       is an ongoing USACIDC-managed program
                                            Task Force. CITF helps remove terrorists and         which supports both the Army and the Marine
                                            insurgents from the battlefield by conducting        Corps during contingency operations. The LEP
                                            criminal investigations of suspected terrorists in   Program embeds experienced former law en-
                                            Guantanamo Bay, Cuba, and suspected terrorists       forcement personnel at all echelons from corps
                                            and insurgents in Afghanistan.                       to battalion and some select companies.
CTIF agents collected evidence to support
potential prosecution of terrorists.        Teams of USACIDC special agents, attorneys           During the reporting period, LEP personnel
                                            and analysts were located at CITF’s headquar-        were instrumental in the arrest or capture of
                                            ters, Fort Belvoir, Va.; several other locations     29 insurgents, and spent 287 hours training 96
“... LEP personnel were                     in Virginia; several locations in Afghanistan;       Afghan National Security Forces. The following
instrumental in the                         and the U.S. Naval Station at Guantanamo Bay.        summaries provide a snapshot of the contribu-
                                            In Guantanamo and from CITF’s headquarters,          tions that LEP personnel provided to the combat
arrest or capture of 29                     CITF teams continued to conduct criminal in-         mission in Afghanistan.
insurgents, and spent                       vestigations of Guantanamo detainees and to             •	 On Sept. 30, 2012, two LEPs attached
287 hours training                          pursue justice for the victims of the 9/11 attack          to Investigative Surveillance Unit Team
96 Afghan National                          on the United States and the Oct. 12, 2000 at-             Paktika were involved in an investigation
Security Forces.”                           tack on the USS Cole. In the afghanistan theater           that led to a joint operation with Afghan
                                            of operation, CITF deploys agents to conduct               National Security Forces. Through the use
                                            criminal investigations and criminal intelligence          of a cooperating individual, ANSF obtained
                                            operations in support of various coalition task            information that an abandoned house was
                                            forces. They are responsible for suppressing in-           being used to make improvised explosive
                                            surgent activity, assisting the anticorruption ef-         devices. After obtaining a search warrant
                                            forts by the Afghan government and preventing              from an Afghan prosecutor, ANSF conduct-
                                            stolen U.S. government property from falling               ed a search that resulted in the seizure of 50
                                            into the hands of insurgent groups or being used           kilograms of aluminum powder, 1,000 feet
                                            to fund insurgent activities.                              of detonating cord, 220 kilograms of chlo-
                                              •	 At the Task Force Shafafiyat’s Major Crimes           rate-based HME, 10 remote receivers; two
                                                 Task Force, CITF agents mentored Afghan               remote triggers, 1,000 electric elasting caps,
                                                 law enforcement officers working on high-             150 kilograms of potassium chlorate; eight
                                                 profile corruption cases of Afghan officials          pressure plates, 1,000 kilograms of ammo-
                                                 and networks and provided training on in-             nia nitrate, 1,000 kilograms processed am-
                                                 vestigating organized crime, weapons traf-            monia nitrate HME; mortar rounds and
                                                 ficking and other crimes.                             other assorted munitions.
                                              •	 Afghan investigators working with CITF             •	 Two Investigative Surveillance Unit LEPs
                                                 agents assigned to the Major Crimes Task              provided support and guidance to ANSF
                                                 Force recovered an estimated $1.5 million of          who received information from a confi-
                                                 stolen U.S. military equipment. Recovered             dential informant who stated that a suicide
                                                 items included two large prime power in-              bomber was going to attack the Provincial
                                                 dustrial grade generators and a varied as-            police headquarters or governor’s com-
                                                 sortment of new high mobility multipur-               pound in Paktika Province. The Investigative
                                                 pose wheeled vehicle parts and tires.                 Surveillance Unit LEPs assisted in the inter-
                                              •	 At the Criminal Prosecution Exploitation              view of a confidential informant to gather
                                                 SSE Refinement Team, CITF agents collect-             details about the alleged attack. The result-
                                                 ed and preserved evidence as close to the             ing interview revealed the suicide bomber
                                                 point of capture as possible. The evidence            and his handler were going to conduct a
                                                 is used to support potential prosecution or           reconnaissance of the targets prior to the at-
                                                 continued detention of the most dangerous             tack. The ANSF, with the assistance of the
                                                 detainees.                                            LEPs, initiated a surveillance operation of

 82 SEMIANNUAL REPORT TO THE CONGRESS
     the target areas and apprehended both indi-        Assessments completed in support of major
     viduals without incident, thereby thwarting        conferences and events sponsored by the
     the attack.                                        Army or subordinate units. These Criminal
  •	 On Nov. 7, 2012, two LEPs attached to 3rd          Activity Threat Assessments reports are
     Battalion, 8th Marine Regiment mentored            used by the requesting unit or organization
     and advised ANSF units who had detained            to identify the possible criminal and ter-
     three suspected insurgents in possession of        rorist threats to planned events such as the
     medium sized weapons and IED compo-                annual Army Birthday Ball and the annual
     nents. The two LEPs assisted the ANSF with         Army-Navy football game, and assist them
     the interviews of the suspected insurgents.        with preparing an appropriate security plan
     Two of the suspects admitted to being in-          for the event to mitigate any threats to the
     surgents and emplacing IEDs. The third sus-        event or the senior civilian and military
     pect, a Pakistani national, admitted to being      personnel who may be attending the event.
     an insurgent fighter. One of the suspects          In December 2012, at the special request of
     was linked biometrically to an IED incident        the Anti-Terrorism Branch, Office of the
     from 2010.                                         Provost Marshal General, personnel from
                                                        the CIOC traveled to the Army-Navy game
Command Intelligence Operations Center                  in Philadelphia and were on-site during                       “Within the past
The CIOC continues to expand its analytical             the event to provide real-time intelligence               two years, USACIDC
support to investigative elements worldwide by          and threat information and assist with se-                 has increased Army
collecting, assessing and disseminating criminal        curity issues as needed. Members of CIOC
intelligence to USACIDC field elements con-             assigned to support the Criminal Activity
                                                                                                                e-Guardian reporting
ducting criminal investigations or employed in          Threat Assessments mission work in con-                 by more than 47 from
crime prevention efforts. The CIOC also con-            junction with representatives from the FBI,              193 reports in 2011
tinues to grow the Army’s e-Guardian Program,           Secret Service, Department of Homeland                       to 284 in 2012.”
which allows Army law enforcement to share              Security, National JTTF, CID field offices,
and disseminate potential terrorist threat infor-       and other local and state law enforcement
mation with the FBI, other DoD law enforce-             and intelligence agencies in order to ensure
ment agencies, state and local civilian law en-         the safety and security of Army sponsored
forcement authorities, nationwide. Within the           events and the individuals attending these
past two years, USACIDC has increased Army              events.
e-Guardian reporting by more than 47 from 193        •	 Since October 2011, the CIOC has had an
reports in 2011 to 284 in 2012; and increased the       analyst dedicated to solely monitoring the
amount of e-Guardian users Army-wide from               gang and domestic extremist threat to the
222 users in 2011 to 461 in 2012. Since 2011,           Army. The analyst works with the National
there have been six incidents that resulted in          Gang Intelligence Center to cultivate work-
identifying a terrorist nexis. CIOC also acts as a      ing relationships with federal and state agen-
liaison to the FBI National Joint Terrorism Task        cies and to share operational information.
Force. CIOC personnel detailed to NJTTF and             Gang activity continues to be a contributing
regional Joint Terrorism Task Force have assist-        factor in only a very low number of crimi-
ed the FBI in several investigations concerning         nal investigations conducted by USACIDC.
former Iraqi insurgents who entered the United          However, the threat of gang and domestic
States under various U.S. immigration programs.         extremist groups conducting criminal ac-
Additionally, CIOC members have been leading            tivity on Army installations, the threat of
an initiative at the NJTTF to identify potential        extremist infiltration of the Army to pursue
insider threats posed by DoD contractors work-          training in weapons and explosives, and the
ing in support of U.S. military operations in the       potential loss in public confidence by the
United States and overseas.                             appearance of the Army allowing extremists
   •	 CIOC acts as the lead agency responsible for      in its ranks requires constant monitoring.
      the assignment, conduct and supervision
      of all USACIDC Criminal Activity Threat

                                                                                                         OCTOBER 1, 2012 TO MARCH 31, 2013 83
Services



                                    Significant Investigative Cases                       privately owned vehicle. USACIDC went to
                                                                                          Jackson’s barracks room and found him bleed-
                                    Costs Charged to Government for Company’s             ing and unresponsive after an apparent suicide
                                    Reorganization                                        attempt. A knife with red stains on both the
                                    Overview: A joint investigation between               handle and the blade was found on the floor
                                    USACIDC and DCIS revealed Aerojet, a sub-             near Jackson. Forensic examinations of the evi-
                                    sidiary company of GenCorp Inc., knowingly            dence collected revealed Jackson’s DNA was at
                                    passed unallowable proxy costs onto contracts         three different locations within the specialist’s
                                    awarded to the Tank Automotive and Armament           room. Fibers found on Jackson’s sweatshirt were
                                    Command and Aviation and Missile Command.             matched to fibers from the specialist’s blanket,
                                    Aerojet principally serves the missile and space      pillowcase and shirt. Handwriting analysis of a
                                    propulsion, defense and armaments markets.            note found at the scene of the suicide attempt
                                    Ninety-two percent of Aerojet’s sales are attrib-     was determined to be written by Jackson. In the
                                    utable to government customers. Aerojet fraud-        note, Jackson expressed remorse for what he had
                                    ulently included costs associated with resisting a    done and provided instructions regarding what
                                    2004 takeover bid in calculating its indirect over-   to do with his personal belongings. The note was
                                    head rate proposals submitted to the govern-          dated and signed by Jackson. USACIDC was un-
                                    ment for various national defense-related con-        able to identify a specific motive for the murder.
                                    tracts. Aerojet’s inclusion of these costs inflated   Result: On Dec. 13, 2012, Jackson was convicted
                                    the subject rate and resulted in overpayments by      by a jury for the unpremeditated murder of the
                                    the United States to the company. Aerojet also        specialist and was sentenced to reduction to the
                                    included unallowable costs associated with a          grade of E-1, forfeiture of all pay and allowances,
                                    2006 proxy contest by another company in cal-         life in prison with the eligibility for parole and a
                                    culating such overhead rates. Applicable Federal      dishonorable discharge.
                                    Acquisition Regulations expressly disallow reim-
“With the assistance                bursement for costs associated with “resisting or     Stolen Military Equipment Recovered
of ATF, USACIDC and                 planning to resist the reorganization of the cor-     Overview: This investigation was initiated
                                    porate structure of a business or a change in the     after the Joint-Base Lewis-McChord, Wash.,
ATF recovered 118                                                                         USACIDC was notified of stolen military equip-
                                    controlling interest in the ownership of a busi-
stolen items valued                 ness.” GenCorp Inc. was aware the costs associ-       ment to include thermal sites, night vision opti-
at approximately                    ated with the proxy contest were not allowable        cal devices and other weapon accessories from
$600,000.”                          and subsequently billed the Army approximately        a storage unit on base. The total value of the
                                    $1.1 million in unallowable proxy costs in addi-      stolen property was approximately $628,805.
                                    tion to fraudulent charges billed to the National     Confidential sources identified an Army private,
                                    Aeronautics and Space Administration.                 Nicholas Solt, as being responsible for the larce-
                                    Result: GenCorp Inc. entered into a civil settle-     ny of the equipment. USACIDC discovered that
                                    ment agreement in the Northern District Court         Solt gave or sold the stolen equipment to several
                                    of California and agreed to pay the government        non-DoD civilians. With the assistance of ATF,
                                    $3.3 million.                                         USACIDC and ATF recovered 118 stolen items
                                                                                          valued at approximately $600,000. USACIDC
                                    Murder of U.S. Army Specialist                        uncovered several other unrelated thefts of mili-
                                    Overview: This investigation was initiated after      tary equipment and efforts to obstruct justice.
                                    USACIDC was informed by base emergency of-            The investigation revealed an Army staff ser-
                                    ficials of the death of an Army specialist in her     geant and a specialist, David Greene, who stole
                                    barracks room. USACIDC established probable           approximately $7,000 of assorted military prop-
                                    cause that an Army sergeant, Vincinte Jackson,        erty from a supply room on base and sold it to
                                    murdered the specialist after he entered her bar-     a specialist, Joshua Chandler. Forensic examina-
                                    racks room and stabbed her approximately 70           tion of the Army staff sergeant’s cell phone re-
                                    times. During a search of the parking lot outside     vealed text messages instructing Chandler to get
                                    of the barracks where the specialist was found,       rid of the stolen property he purchased from the
                                    USACIDC found a drop of blood on Jackson’s            Army staff sergeant. Solt and Chandler threat-

 84 SEMIANNUAL REPORT TO THE CONGRESS
ened to kill the other suspects if they disclosed     construction projects identified more than $400                              “NAVAUDSVC audits of
information to USACIDC. Additionally, the             million in potential monetary benefits for DON                                 military construction
investigation revealed a specialist, Troy Harris,     through the elimination or reduction of various
stole multiple M249 machinegun barrels and            projects. To date, NAVAUDSVC’s FY 2013 assist
                                                                                                                                   projects identified more
gave them to Chandler. The barrels were subse-        reports for NCIS have identified approximately                                  than $400 million in
quently sold to non-DoD civilians. USACIDC            $1.3 million in potential fraud. NAVAUDSVC                                        potential monetary
recovered 10 M294 machinegun barrels, 659 M4          will continue to work with senior DON officials                                  benefits for DON...”
magazines, a thermal camera, five rifle Aimpoint      to provide them with an expert and impartial as-
rifle scopes and 10 boxes of meals ready to eat,      sessment of critical issues and, if necessary, make
which were all reported as stolen.                    recommendations that address identified condi-
Result: Solt was tried and convicted of larceny       tions and help DON achieve greater efficiency
and destruction of government property by             and effectiveness in its operations.
general court-martial and sentenced to 10 years
confinement, reduction in rank to E-1, forfei-        During this period, NAVAUDSVC issued 19
ture of all pay and allowances and received a         final reports, which identified $443.9 million of
dishonorable discharge. Chandler was tried and        potential funds to be put to other use. To date,
convicted of larceny, conspiracy, perjury, and        management has agreed to $424.3 million.
destruction of government property by general         NAVAUDSVC provided performance and finan-
court-martial and sentenced to 10 years confine-      cial audit coverage in areas with significant im-
ment, reduction to E-1; and forfeiture of all pay     pact. The sources of work for reports published
and allowances, and received a dishonorable dis-      in this period are shown in Figure 4.1.
charge. Greene was tried and convicted of larce-
ny and conspiracy by general court-martial and         Figure 4.1 Workload by Source Published Reports October 1,
                                                       2012 – March 31, 2013
sentenced to 30 days confinement, 90 days hard
labor without confinement, reduction in rank to                              Source                             Reports
E-1, forfeiture of $500 per month for five months      Congressional Requests and Statutory                          0
and a bad conduct discharge. Harris was tried          Management Requests                                          13
and convicted of conspiracy and destruction of         Risk Benefit Assessments                                      6
government property by general court martial
                                                        Total                                                      19
and sentenced to three months confinement and
reduction in rank to E-1. There was no action
taken against the Army sergeant.                      Figure 4.2 shows the funds identified for potential
                                                      other use through audit reports issued by

Naval Audit Service
                                                      NAVAUDSVC in the past three years.

The Naval Audit Service’s mission is to pro-           Figure 4.2 Funds Identified for Potential Other Use ($ in thousands)                           Navy
vide independent and objective audit services                   Program               Past 3 Years       Past 6 Months
to assist Department of the Navy leadership in
                                                       Acquisition Programs               $399,827                  $0
assessing risk to improve efficiency, account-
ability and program effectiveness. Each year,          Construction Programs               914,342            443,924

NAVAUDSVC works with senior Navy and                   Logistics Programs                          0                  0
Marine Corps officials to develop a risk-based         Other Programs                         4,375                   0
audit plan addressing critical areas officials feel     Total                          $1,318,544           $443,924
merit additional oversight. NAVAUDSVC also
responds to requests from senior DON officials
to provide audit work on emergent issues, such
as the DON Financial Improvement Program
initiative. In the past six months, NAVAUDSVC
audits have addressed such issues as aviation
safety, acquisition controls, contract administra-
tion and more. NAVAUDSVC audits of military

                                                                                                                              OCTOBER 1, 2012 TO MARCH 31, 2013 85
Services



                                    Figure 4.3 shows the authorized and actual civilian                    they are responsible, and if they are not, ensure
                                    year-end strengths for FYs 2010-2013.                                  that they are properly trained on the technical
                                        Figure 4.3 Civilian Year-End Strength
                                                                                                           aspects of the specific contracts, (2) establish
                                        (Includes audit, other professional, administrative, and support   internal controls to maintain auditable contract
                                        personnel)                                                         records as they relate to verifying work billed in
                                           Fiscal Year           Authorized                 Actual         comparison to work performed, (3) specifically,
                                        2010                         398                      391          maintain more detailed records that relate prog-
                                        2011                         398                      370          ress reports of the technical work completed to
                                        2012                         398                      373
                                                                                                           the invoices received from the contractor and
                                                                                                           (4) establish internal controls to ensure proper
                                        2013                         383                      366
                                                                                                           separation of duties exist over the contract ad-
                                                                                                           ministration process.
                                                                                                           Report No. N2013-0003
                                    Acquisition Processes and
                                                                                                           Department of the Navy Communications
                                    Contract Management                                                    Security Account Reconciliation Under
                                                                                                           Common Tier 1 Accounting System
“NAVAUDSVC                          Naval Sea Systems Command, Logistics,                                  Overview: The audit objective was to verify that
                                    Maintenance, and Industrial Operations                                 (1) all DON communication security accounts
determined that the
                                    Contract N00024-01-D-7025, DO 0001                                     have been reconciled, for the first time, under
prior contracting                   Overview: NAVAUDSVC’s objective was to                                 Common Tier 1 accounting system, (2) inven-
officer representative              verify that payments made for contract N00024-                         tory data is reliable and (3) supporting evidence
had improper oversight              01-D-7025, DO 0001 were valid and accurate,                            is sufficient and appropriate to support final rec-
of the contract.”                   matched progress reports and had a proper con-                         onciliation determination by the respective cen-
                                    tracting officer representative review.                                tral office of record.
                                    Findings: NAVAUDSVC determined that the                                Findings: NAVAUDSVC found that the DON’s
                                    prior contracting officer representative had im-                       Central Office of Record needs to improve their
                                    proper oversight of the contract. Specifically,                        administrative procedures for reconciling and
                                    the prior contracting officer representative (1)                       documenting DON Communications Security
                                    did not have the proper experience or technical                        accounts. Specifically, NAVAUDSVC found
                                    knowledge to monitor the work being performed                          managers were not maintaining sufficient evi-
                                    by the contractor, (2) was unable to match the                         dence of inventory reconciliations and not al-
                                    work performed and reported on the progress                            ways performing timely account reconciliations.
                                    reports to the proper invoices that were submit-                       Result: NAVAUDSVC recommended that the
                                    ted and (3) was not involved in monitoring the                         DON develop formal policy addressing the
                                    contractor’s performance due to the prior pro-                         management and oversight of communication
                                    gram manager independently monitoring all as-                          security accounts and identify alternatives to
                                    pects of the contract. CORs not adhering to their                      reduce the overall reconciliation cycle and in-
                                    contracting responsibilities, as required by guid-                     crease productivity.
                                    ance, could prevent the government from hav-                           Report No. N2013-0006
                                    ing assurance that it was receiving the goods and
                                    services for which it was paying. Additionally, a                      Joint Mission Planning System
                                    lack of adherence to contract oversight respon-                        Overview: The objective of the NAVAUDSVC
                                    sibilities could lead to fraud, waste and abuse of                     audit was to verify that the oversight and pro-
                                    government funds.                                                      gram management planning and execution for
                                    Result: NAVAUDSVC recommended that                                     the Joint Mission Planning System were effec-
                                    Naval Sea Systems Command, Maintenance,                                tively implemented to achieve its desired results.
                                    Modernization, Environment and Safety (1) es-                          Findings: NAVAUDSVC found that, prior to
                                    tablish internal controls to ensure that individu-                     FY 2010, the Joint Mission Planning System
                                    als appointed as CORs are technically compe-                           Program Management Office did not sufficiently
                                    tent in regard to the specific contract for which                      plan, manage or execute the program in accor-

 86 SEMIANNUAL REPORT TO THE CONGRESS
dance with DON acquisition policy and guid-            allowed contracting officers to maintain con-
ance. For instance, NAVAUDSVC found the Joint          tract files that did not contain documentation
Mission Planning System Program Management             required by the command’s instruction, which
Office was developing two follow-on capability         could result in the command being vulnerable to
improvements, Framework Version 1.3.5 and              potential fraud, waste and misuse.
1.4, for the program, without:                         Result: NAVAUDSVC recommended that Navy
  •	 Recommending to the assistant secretary           Region Mid-Atlantic, Fleet and Family Readiness
      of the Navy (research, development and ac-       (1) establish oversight and procedures in the ac-
      quisition) that the oversight of the program     counts payable department that ensure invoices
      needs to be raised to the level of an acquisi-   paid against blanket purchase agreements con-
      tion category I or II program.                   tain all the elements required by command in-
  •	 Establishing program goals for cost, sched-       struction, (2) establish oversight and procedures
      ule and performance supporting each              for purchasers to ensure that blanket purchase
      increment.                                       agreement call logs are maintained in accor-
  •	 Updating program documentation needed             dance with command instruction, (3) estab-
      for program execution and decision making.       lish a standard operating procedure for blanket
Result: NAVAUDSVC recommended that                     purchase agreements, clarifying that purchases
Program Executive Office for Unmanned                  may not exceed the target amount nor exceed
Aviation and Strike Weapons (1) request that           the maximum amount allowed by command in-
the assistant secretary of the Navy (research, de-     struction, (4) review all blanket purchase agree-
velopment, and acquisition) designate the Joint        ments currently in place to ensure that the target
Mission Planning System as an acquisition cat-         amounts have not been reached, ensure that only
egory II program and (2) require the program           current blanket purchase agreements are being
manager for the Joint Mission Planning System          used and the blanket purchase agreement and
to update the Acquisition Program Baseline             contract files have all required documentation,
Agreement and the Acquisition Strategy to in-          and (5) establish oversight and procedures for
corporate the two follow-on capability improve-        contracting officers to ensure that the required
ments, Framework Version 1.3.5 and 1.4, for the        documentation is included in all contract files.
Joint Mission Planning System.                         Report No. N2013-0012
Report No. N2013-0007
                                                       Financial Management
Internal Controls Over Selected Contracts and
Blanket Purchase Agreements at Navy Region             Independent Attestation — Agreed-Upon
Mid-Atlantic, Fleet and Family Readiness               Procedures Attestation Engagement of Assessing
Overview: NAVAUDSVC analyzed whether se-               Internal Controls over Financial Reporting
lected acquisition instruments at Navy Region          in the Department of the Navy, Phase 3
Mid-Atlantic, Fleet and Family Readiness were          Overview: On July 28, 2011, an Office of the
in compliance with applicable criteria, focusing       Under Secretary of Defense (Comptroller)
on blanket purchase agreements and contracts           memorandum          requested    that    military
related to prior assist work performed for NCIS.       department audit agencies apply their knowledge
Findings: Internal control weaknesses existed          and experience in support of management’s
at Navy Region Mid-Atlantic, Fleet and Family          efforts to evaluate and strengthen their internal
Readiness which (1) allowed for more than              control environment, policies and procedures.
$715,000 to be spent above the $50,000 autho-          On Aug. 19, 2011, the assistant secretary of the
rized target value of a blanket purchase agree-        Navy (financial management and comptroller)
ment, (2) did not ensure purchases were tracked/       issued a memo to DON organizations to comply
reconciled to the agreement call logs, (3) allowed     with the comptroller’s request. At the request
use of one blanket purchase agreement after            of the assistant secretary of the navy (financial
cancellation and (4) allowed invoices that were        management and comptroller) and based on
missing required information to be processed           procedures agreed upon by NAVAUDSVC,
and paid. In addition, internal control weakness       the assistant secretary of the Navy (financial

                                                                                                            OCTOBER 1, 2012 TO MARCH 31, 2013 87
Services



“Information                        management and comptroller), and the director,        (9 percent), which statistically equates to an
technology and audio-               Office of Financial Operations, NAVAUDSVC             estimated 2,031 missing assets, worth $2.4 mil-
                                    completed an attestation engagement. The              lion. These items included laptops, desktops,
visual assets were not
                                    objective of the attestation engagement was to        personal digital assistants and monitors. Also,
sufficiently controlled             verify that source documentation exists and           102 of the 227 sampled property records (45
and accounted for and               is maintained for selected transactions, and to       percent) contained key field documentation er-
were vulnerable to                  verify that targeted and limited internal controls    rors, and 631 assets valued at $735,246 were not
waste and misuse.”                  are in place and functioning.                         properly investigated. Furthermore, one hospi-
                                    Result: Phase 3 reviewed 11 Navy Working              tal augmented its appropriations by $95,265 by
                                    Capital Fund activities and eight re-visits           improperly disposing of information technology
                                    of general fund activities from Phase 1 of            assets to a private contractor in lieu of disposing
                                    NAVAUDSVC’s review. NAVAUDSVC found                   the assets through the Defense Logistics Agency
                                    that of the 11 Navy Working Capital Fund sites        Disposition Service.
                                    completed, transactions were readily document-        Result: The audit recommended that Navy
                                    ed approximately 86 percent of the time and           Medicine West develop and implement an over-
                                    internal controls were in place and function-         sight process to ensure compliance with record-
                                    ing reasonably approximately 71 percent of the        keeping policies and that hospitals track infor-
                                    time. In addition, NAVAUDSVC found that of            mation technology and audio-visual assets to the
                                    the eight general fund sites revisited, transac-      end users or department custodians. The Navy
                                    tions were readily documented approximately 88        needs to set up a record-custody control pro-
                                    percent of the time and internal controls were in     cess of all source documents, improve physical
                                    place and functioning reasonably approximately        security controls of hospital warehouse storage,
                                    66 percent of the time. The previous results for      obtain documented authorizations to dispose of
                                    those same eight general fund sites completed         assets, maintain verifiable audit trails and use
                                    during Phase 1 were 93 percent and 40 percent,        Defense Logistics Agency Disposition Services
                                    respectively. NAVAUDSVC provided this report          for disposal. Navy Medicine West needs to es-
                                    to assist the DON in evaluating audit readiness       tablish an oversight process to ensure hospitals
                                    related to transaction source documentation and       sufficiently investigate missing property. In ad-
                                    selected testing of internal controls applicable to   dition, the Navy needs to remit proceeds im-
                                    the documentation. Since this was an indepen-         properly received for disposing of information
                                    dent attestation, no recommendations were made.       technology assets.
                                    Report No. N2013-0002                                 Report No. N2013-0010

                                    Information Technology and Audio-Visual Asset         Information Assurance,
                                    Accountability at Selected Hospitals within Navy
                                    Medicine West                                         Security and Privacy
                                    Overview: NAVAUDSVC analyzed whether the
                                    controls over property records were in place to       Business Process Reengineering Efforts for
                                    ensure information technology and audio-visual        Selected Department of the Navy Business
                                    assets were sufficiently accounted for at selected    System Modernizations
                                    hospitals within Navy Medicine West.                  Overview: NAVAUDSVC conducted the audit
                                    Findings: Information technology and audio-           to verify whether supporting documentation for
                                    visual assets were not sufficiently controlled        selected DON programs was accurate and met
                                    and accounted for and were vulnerable to waste        the business process reengineering requirements
                                    and misuse. Significant control weaknesses were       defined in DoD policy and guidance.
NAVAUDSVC reviewed documentation    found in processes including receipt and accep-       Findings: NAVAUDSVC’s review of support-
for selected DON programs.          tance documentation; asset tracking and prop-         ing documentation for five selected commands’
                                    erty recordkeeping; source document filing and        business process reengineering systems deter-
                                    maintenance; asset storage; asset disposal; and       mined that there were opportunities to improve
                                    missing asset investigations. Hospitals could not     the business process reengineering assessment
                                    locate 21 of the 227 statistically sampled items      submission process. Two of the five commands

 88 SEMIANNUAL REPORT TO THE CONGRESS
selected for review did not provide full docu-        authorized by a secretarial process for unusual
mentation to completely support assertions            circumstances, emergency circumstances, con-
made about the business process reengineering         tingency operations or exigencies of the service
submissions. One of the commands relied on de-        concerned. According to DON officials, they
cisions made more than a decade ago. Therefore,       did not use a secretarial process because they
the supporting information provided was not a         were unaware of the JTFR requirement to do so.
timely representation. Another command did            According to U.S. Fleet Forces Command (Fleet
not provide sufficient documentation to support       Personnel, Resources, and Programs) data, there
the assessment submitted.                             were 616 CONUS mobilization requirements as
Result: NAVAUDSVC recommended that the                of July 1, 2012. If the formal secretarial process is
deputy under secretary of the Navy/deputy chief       not followed, the Navy will continue to be non-
management officer establish policy to strength-      compliant with the JFTR and may lack sufficient
en management internal controls of business           controls for the authorization of per diem for
process reengineering documentation.                  reservists.
Report No. N2013-0013                                 Result: NAVAUDSVC recommended deputy as-
                                                      sistant secretary of the Navy (reserve affairs and
Other                                                 total force integration) institute a secretarial pro-
                                                      cess to determine that the call to active duty for
Navy Reserve Use of Per Diem                          reservists for other than training for more than
Overview: The audit objective was to verify that      180 days at one location, with or without an ex-
the Navy Reserve’s use of per diem (1) complied       tension, is required by unusual circumstances,
with applicable laws and DoD and DON regu-            emergency circumstances, contingency opera-
lations and (2) when used in lieu of permanent        tions or exigencies of the service concerned. The
change of station orders, was used appropriately.     secretarial process should also address current
Specifically, NAVAUDSVC focused on the au-            reservist activations that exceed, or are expected
thorization of per diem for Navy reservists on        to exceed, 180 days.
mobilization, active duty training, and active        Report No. N2013-0011
duty for special work orders.
Findings: NAVAUDSVC found that authoriza-             Department of the Navy’s Military Construction
tion of Navy reservists’ per diem for active duty     Projects Proposed for Fiscal Year 2014                          “NAVAUDSVC made
training orders and active duty for special work      Overview: NAVAUDSVC’s objective was to                            recommendations
orders generally complied with joint federal          verify that the project scope requirements were
                                                      sufficiently supported for selected DON military
                                                                                                                         to cancel the two
travel regulations and other pertinent guidance.                                                                    unneeded projects and
Also, NAVAUDSVC did not find internal con-            construction projects.
trol weaknesses that they considered material.        Findings: NAVAUDSVC reviewed 15 (five                        reduce the scope of the
However, the audit did find an opportunity for        Marine Corps and 10 Navy) projects valued at                  projects for a potential
improvement in compliance with JTFR policy            $844.98 million. Thirteen of the 15 military con-               monetary benefit of
for mobilization orders. NAVAUDSVC reviewed           struction projects selected were deemed needed;
                                                      however, the remaining two projects, valued at
                                                                                                                          $443.9 million.”
102,645 Navy Reserve active duty for training,
continental U.S. orders from FYs 2006 to 2010         $412.73 million, were not needed. Ten projects
and found at least 99.8 percent of the $160.9 mil-    were not sized in accordance with criteria and/or
lion of per diem authorized complied with JTFR        included items that were not required or autho-
order writing requirements for authorization of       rized. The proposed military construction proj-
per diem. NAVAUDSVC tested 102 active duty            ects were over-scoped by $31.194 million.
for special work orders statistically selected from   Result: NAVAUDSVC made recommendations
1,716 CONUS orders from FYs 2007 to 2010 and          to cancel the two unneeded projects and reduce
found they all fully complied with the JTFR guid-     the scope of the projects for a potential mone-
ance regarding the authorization of per diem in       tary benefit of $443.9 million.
excess of 180 days. For mobilization orders, the      Report No. N2013-0004
JTFR generally limits temporary duty and re-
lated per diem to no more than 180 days unless

                                                                                                              OCTOBER 1, 2012 TO MARCH 31, 2013 89
Services



                                   Prioritization and Selection Process of                nationals (“indirect hires”) and resulting per-
                                   Department of the Navy Aviation and                    sonnel actions are executed in accordance with
                                   Operational Safety Concerns                            established policies and procedures and (3) the
                                   Overview: NAVAUDSVC’s objective was to                 appropriate authority has been granted to the
                                   verify whether DON had an effective process in         individuals responsible for processing personnel
                                   place to fund, implement and track required avi-       actions.
                                   onic safety capabilities on DON aircraft as out-       Findings: NAVAUDSVC determined that
                                   lined in Office of the Chief of Naval Operations       opportunities existed for the Naval Station
                                   Instruction 13210.1A.                                  Guantanamo Bay Human Resources, the
                                   Findings: NAVAUDSVC reviewed 27 type/                  Navy Exchange and the Morale, Welfare and
                                   model/series aircraft. Controls and oversight          Recreation Office to improve internal controls,
                                   were not adequate to ensure that DON fully             policies and procedures over personnel adminis-
                                   funded, implemented and tracked the four avi-          tration of non-U.S. citizens. This occurred due to
                                   onic safety capabilities required by Office of the     insufficient application of internal controls over
                                   Chief of Naval Operations Instruction 13210.1A.        compensation; personnel action processing and
                                   Six mishaps, with an estimated cost of $315 mil-       overtime; employee recruitment and relations;
                                   lion, were identified (from FYs 2007-2011) that        and Foreign National Program oversight. As a
                                   had a direct reference to one of the four re-          result, Naval Station Guantanamo Bay Human
                                   quired safety capabilities. In the auditors’ profes-   Resources, the Navy Exchange and the Morale,
                                   sional opinion, if the four safety capabilities are    Welfare and Recreation office could not provide
                                   not fully funded, as a first priority, preventable     reasonable assurance that personnel administra-
                                   mishaps and hazards that adversely affect asset        tion of non-U.S. citizens was conducted in ac-
                                   availability may continue to occur. Inaccurate         cordance with applicable guidance.
                                   and inconsistent tracking of these capabilities        Result: NAVAUDSVC recommended that the
                                   may also hinder DON’s ability to establish bud-        Navy Region Southeast commander establish
                                   get priorities and monitor at-risk aircraft.           and implement controls to ensure that reviews of
                                   Result: NAVAUDSVC recommended that Office              various aspects of the foreign national employ-
                                   of the Chief of Naval Operations’ Air Warfare          ee program at the Naval Station Guantanamo
                                   (N98) strengthen controls and oversight to en-         Bay Human Resources Office and the Naval
                                   sure that the safety capabilities are considered       Station Guantanamo Bay Morale, Welfare and
                                   for funding as a first priority for all DON air-       Recreation Human Resources Office are con-
                                   craft; the status of compliance with the safety        ducted on a regular, consistent basis and cor-
                                   capabilities are sufficiently and accurately moni-     rective actions from prior reviews are taken.
                                   tored and maintained; and the safety compli-           NAVAUDSVC recommended that Naval Station
                                   ance matrix is published on a quarterly basis. In      Guantanamo Bay commanding officer update
                                   addition, program manager Air 265 agreed to            Naval Station Guantanamo Bay instruction
                                   strengthen controls and oversight to ensure that       12000.7 to include (1) documentation require-
                                   documentation in support of the implementa-            ments for each activity to support supervisor con-
                                   tion and installation of required safety capabili-     firmation of acceptable employee performance
                                   ties is properly maintained.                           when granting within-grade increases, (2) clear,
                                   Report No. N2013-0001                                  specific instructions for calculating separation
                                                                                          pay, (3) documentation requirements for each
                                   Naval Station Guantanamo Bay Human                     activity to support separation pay calculations
                                   Resources Office and Local National Employee           and payments, (4) procedures for maintaining
                                   Program                                                documentation of prior authorization for over-
                                   Overview: NAVAUDSVC’s objective was to                 time, (5) procedures for recruiting employees
                                   verify that (1) legal and regulatory requirements      from Jamaica and other countries, (6) documen-
                                   concerning labor affairs between Naval Station         tation requirements for vacancy announcements
                                   Guantanamo Bay and respective countries are            and (7) procedures for the disestablishment
                                   properly executed, (2) internal controls are in        and subsequent re-establishment of the Cuban
                                   place to ensure that hiring practices for local        Community Committee, including documenta-

90 SEMIANNUAL REPORT TO THE CONGRESS
tion requirements. In addition, establish specific    Combating Insider Threat                                    “In the past six months,
written authority to process and approve per-         NCIS’s operations tempo for national security                   12 individuals were
sonnel actions for appropriate personnel in ac-       operations and investigations continued to in-
cordance with Office of Personnel Management          crease. An aggressive Department-wide insider
                                                                                                                    arrested and indicted
guidance. Also, establish and implement proce-        threat briefing program and NCIS’s continued                        for espionage...”
dures to ensure that employees’ personnel files       cooperation with partners throughout the U.S.
include all required personnel action documen-        government led to an increase in investigations
tation. NAVAUDSVC recommended that Navy               of suspected espionage and foreign collection
Exchange Command Southeast District esta              targeting Navy and Marine Corps personnel and
blish and implement controls to ensure that re-       technologies. During a typical year, NCIS makes
views of various aspects of the foreign national      one or two arrests for suspected espionage and re-
employee program are conducted on a regular,          lated crimes. In the past six months, 12 individu-
consistent basis. In addition, NAVAUDSVC rec-         als were arrested and indicted for espionage and
ommended that Navy Exchange general man-              related crimes after a joint investigation involving
ager establish and implement procedures to            FBI, Commerce Department and NCIS. Eleven
ensure that within-grade increases are granted        of the arrests were attributable to a multi-year,
and processed in accordance with applicable cri-      multi-agency investigation that successfully lever-
teria. Also, establish and implement procedures       aged the strengths and capabilities of each agency.
to ensure that all personnel actions are reviewed
and approved by appropriate personnel; and es-        NCIS is currently working with defense con-
tablish and implement procedures to ensure that       tractors to identify and mitigate specific threats
employees’ personnel files include all required       to the Navy that were exposed during an FBI,
personnel action documentation. NAVAUDSVC             Commerce Department and NCIS joint inves-
also recommended that the Morale, Welfare and         tigation into illicit procurement activities. In
Recreation Office director establish and imple-       October 2012, 11 people connected to a Russian
ment procedures to ensure that all personnel          military procurement network were indicted for
actions are reviewed and approved by appro-           illegally obtaining and exporting high-tech mi-
priate personnel, and establish and implement         croelectronics used for weapons guidance and
procedures for ensuring that employees’ person-       radar and surveillance systems. The network ob-
nel files include all required personnel action       tained high-tech goods from a variety of manu-
documentation.                                        facturers and suppliers through a front company
Report No. N2013-0005                                 in Texas and then used intermediaries to export
                                                      the goods to end-users in Russia, including the

Naval Criminal
                                                      military. Additionally, 165 foreign persons and
                                                      companies that facilitated the defendants’ ex-

Investigative Service
                                                      port of controlled commodities were added to
                                                      the Commerce Department’s Entity List, a des-
                                                      ignation, which effectively prevents them from
Significant Activities                                receiving goods exported from the United States.
The Naval Criminal Investigative Service has
primary responsibility for law enforcement and        In late October 2012, a joint FBI and NCIS in-
counterintelligence within the Department of          vestigation led to the arrest and indictment of a
the Navy and actively supports interagency ef-        contract linguist working in Bahrain. James F.
forts to identify and interdict terrorist activity.   Hitselberger was charged with two counts of un-
NCIS’s focus on information dominance and in-         lawful retention of national defense information.
vestigative and operational excellence provides       According to the criminal complaint, the investi-
Navy and Marine Corps commanders with de-             gation revealed probable cause that Hitselberger,
cision-making advantage over our adversaries.         who had received extensive training in the prop-
                                                      er handling of classified materials, unlawfully re-
                                                      tained classified reports that contained current
                                                      and sensitive information about the activities of

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 91
Services



                                     U.S. armed forces in the region. NCIS leveraged       In addition, NCIS developed a comprehensive,
                                     relationships with diplomatic and law enforce-        three-course training program to ensure inves-
                                     ment partners to track Hitselberger around the        tigators know the most current information and
                                     world and serve the arrest warrant. Hitselberger      procedures for responding to sexual and fam-
                                     was arrested in Kuwait, a testament to the strong     ily violence. The three-course training included
                                     diplomatic relationships and the trust and confi-     the Advanced Adult Sexual Violence Training
                                     dence foreign governments have in NCIS.               Program, the trial Component Training
                                                                                           Program and the U.S. Navy Trial Counsel
                                     In December 2012, a joint FBI and NCIS inves-         Assistance Program. The Advanced Adult Sexual
                                     tigation led to the arrest of a former sailor who     Violence Training Program was developed with
                                     was willing to give information to a presumed         USACIDC, and the Trial Component Training
                                     foreign entity about U.S. submarine capabili-         Program was developed in conjunction with the
                                     ties. Robert Patrick Hoffman II, a 20-year Navy       Navy Trial Counsel Assistance Program.
                                     veteran was indicted by a federal grand jury for
                                     attempting to provide classified information to       Focused Collaboration and Partnerships
                                     individuals whom he believed to be representa-        NCIS targets the transnational organized net-
                                     tives of the Russian Federation. Hoffman, how-        works (such as pirates in the 5th Fleet area of
                                     ever, delivered the information to the FBI during     responsibility and drug traffickers in the 4th
                                     the undercover operation. Again, collaboration        Fleet area of responsibility) that criminal en-
                                     with strategic partners was critical to identify-     terprises employ to transport weapons, cash,
                                     ing Hoffman as a suspect and building a case for      narcotics and other contraband. The disruption
                                     prosecution.                                          and interdiction of criminals leads to actionable
NCIS assisted partners in stopping                                                         intelligence and decision advantage in times of
transnational criminal networks.     Investigating and Reducing Family & Sexual            conflict. In addition, proactive law enforcement
                                     Violence                                              support provided Navy Commanders a non-ki-
                                     In an effort to resolve cases faster and minimize     netic response option on the high seas, allowing
                                     the effects of family and sexual violence in the      them to maintain mission focus.
                                     Navy and Marine Corps, NCIS began imple-
                                     menting the Adult Sexual Assault Program, an          NCIS special agents assigned to Intelligence
                                     effort centered on dedicated, multidisciplinary       Exploitation Teams leveraged law enforcement
                                     teams that respond to all allegations of adult sex-   and security relationships in U.S. Southern
                                     ual assault. The teams are led by a dedicated fam-    Command to support U.S. Naval Forces
                                     ily and sexual violence supervisory special agent     Southern Command and 4th Fleet to interdict,
                                     and consist of NCIS special agents and investiga-     arrest and interrogate suspected drug traffickers.
                                     tors, as well as representatives from the base and
                                     local police. The approach also enhances NCIS’s       NCIS provided information that led to the inter-
                                     interaction with the legal community and other        diction of a high-performance speedboat used by
                                     members of the sexual assault prevention and          smugglers and targeted by the Joint Interagency
                                     response multidisciplinary teams forming at all       Task Force South. More than 780 kilograms of
                                     military installations.                               cocaine, with a street value of $23.4 million, was
                                                                                           seized, and four people were detained.
                                     In 2012, dedicated Adult Sexual Assault Program
                                     teams were created at Camp Lejeune, N.C.,             In December 2012, NCIS provided intelligence
                                     Camp Pendleton, Calif., Norfolk, Va., San Diego,      that enabled partners to locate a suspected nar-
                                     Calif. and Okinawa, Japan. Implementation is          cotics trafficker in the eastern Pacific Ocean and
                                     underway in Hawaii; Yokosuka, Japan; and the          destroy 300 kilograms of cocaine. In January
                                     National Capital Region. The goal is for teams        2013, NCIS provided guidance that enabled a
                                     to complete the majority of investigative actions     boarding team to seize two cellphones, a GPS
                                     for each case within 14 days. The Norfolk Adult       and numerous phone numbers after the inter-
                                     Sexual Assault Program team averages two days.        diction of a high-performance speedboat. The


 92 SEMIANNUAL REPORT TO THE CONGRESS
intelligence was passed to DEA Cartagena and         organizations. Collaboration and information
other Navy assets for further action.                sharing helps agencies identify and minimize
                                                     duplicative effort and provides a higher level of
Because of NCIS’s partnership with Europol,          intelligence support to DoD entities investigat-
British and French forces positively identified      ing national security and terrorism cases.
the No. 1 most wanted pirate by European Union
Naval Forces. When he was arrested recently,         Information shared among the NCIS, FBI, the
along with 11 other suspected pirates, his finger-   Commerce Department and other partners
prints matched those of a pirate NCIS had bio-       within the Export Enforcement Coordination
metrically enrolled in 2010. NCIS’s partnerships     Center helped advance investigations of targets
with Europol and INTERPOL provide a broad            being investigated by more than one partner
coalition engaged in counter piracy efforts with     agency. E2C2 allows agencies to de-conflict and
access to thousands of piracy-related biometrics     coordinate investigations to determine whether
enrollments.                                         a target or source is already being used by an-
                                                     other agency. In the first year, 79 of the 1,300
In November 2012, 13 adult Somali pirates were       E2C2 de-confliction requests to NCIS revealed
sentenced to 18 years in prison and two juveniles    crossover with an existing investigation or              NCIS agents assisted in the capture and
each received four years for hijacking a fishing     source. Through its participation in E2C2, NCIS          interrogation of suspected pirates.

vessel and holding the crew hostage for 40 days.     discovered new information relating to six tar-
NCIS assisted in the capture and arrest, and ob-     gets of ongoing investigations, and NCIS shared
tained full confessions during interrogation. In     information pertaining to 43 subjects under in-
addition, NCIS played a large role with the State    vestigation by a partner agency.
Department, various coalition authorities and
the Seychelles government in building the case       NCIS obtained 19,000 foreign biometrics cards
and securing the prosecution venue.                  from partner nations and enrolled them into
                                                     the FBI’s Integrated Automated Fingerprint
Mohamad Saaili Shibin, a land-based Somali           Identification System. During the reporting pe-
pirate negotiator, received 12 life terms plus 30    riod, biometrics queries supporting NCIS opera-
years and was ordered to pay $5.4 million for his    tions and investigations led to the extradition of
role in two hijackings. The joint FBI and NCIS       a known terrorist and to the denial of a criminal
investigation required collaboration with Naval      seeking refugee status in the United States.
Special Warfare assets, the State Department and
various foreign counterparts to identify, locate     Leveraging Technical Capabilities Across
and extract Shibin from Somalia. NCIS analysts       Mission Areas                                            NCIS collected biometrics in support of
provided the investigative and trial teams with      NCIS formed a centralized unit to oversee and            international law enforcement.
information linking Shibin to known pirate fi-       manage technical operations and capabilities
nanciers, facilitators and action teams.             across the enterprise. The Electronic Surveillance
                                                     Operations Center leverages technology to iden-
NCIS spearheaded the development of the Joint        tify efficiencies and encourage innovation in
Counterterrorism Coordination Cell enabling          supporting criminal, counterintelligence and
military departments investigating terror-           terrorism operations and investigations. During
ism to leverage the strategic terrorism analysis     the reporting period, new analytic tools were
of the Defense Intelligence Agency. The Joint        developed that allow investigators to review sur-
Counterterrorism Coordination Cell, located at       veillance video quickly and use GPS software to
Marine Corps Base Quantico, Va., will facilitate     calculate stops and deviations based on a target’s
coordination, de-confliction and analytic func-      movements.
tions in support of investigations by the NCIS,
DIA, Air Force Office of Special Investigations,     NCIS improved the quality of digitally collected
USACIDC and Army Military Intelligence,              evidence and decreased the time to collect it by
military department counterintelligence orga-        automating digital evidence collection. The Law
nizations and the military criminal investigative    Enforcement Telephone System centrally re-

                                                                                                          OCTOBER 1, 2012 TO MARCH 31, 2013 93
Services



                                    cords calls and text messages, establishes cover           they engaged in consensual sex. He admit-
                                    voicemail accounts for undercover operations               ted to NCIS polygraph examiners, however,
                                    and changes caller identification numbers for              that the victim was unresponsive during the
                                    NCIS field agents collecting evidence through              assault.
                                    approved, digital means.
                                                                                           Supporting Forward-Deployed Forces
                                    Polygraph examinations continued to be an im-          During the first half of FY 2013, 46 NCIS per-
                                    portant investigative tool across all aspects of       sonnel deployed to Afghanistan and the Horn
                                    the NCIS mission. During the reporting period,         of Africa supporting overseas contingency
                                    NCIS conducted 4,500 polygraph examinat-               operations.
                                    ions, including 600 issue-specific examinations;
                                    3,900 counterintelligence scope polygraph ex-          In August 2012, an Afghan man wearing an
                                    aminations, of which 44 were referred for inves-       Afghan Uniformed Police uniform opened fire
                                    tigation; and obtained admissions in 213 coun-         with an assault rifle aboard Village Stability
                                    terintelligence scope polygraph examinations.          Platform Puzeh in the Helmand Province of
                                    The following exemplify NCIS’s use of polygraph        Afghanistan. The gunman killed three and in-
                                    examinations to support investigations of sexual       jured one before escaping the area. Using facial-
                                    assault and crimes against persons (of the four        recognition software, NCIS identified the sus-
                                    cases below, the three sexual cases are pending        pect as Abdul Razaq by matching the picture on
                                    prosecution).                                          his Afghan uniformed police identification card
                                       •	 NCIS obtained a confession in the case of a      to that of a man in a Taliban propaganda video.
                                          toddler found unresponsive by her parents,       Razaq is believed to have been killed during
                                          both Marines stationed at Twenty-Nine            fighting with coalition forces.
                                          Palms, Calif. During an NCIS-administered
                                          polygraph, a friend of the parents con-          In summer 2012, NCIS discovered a significant
                                          fessed to striking and killing the infant. The   threat to DoD forces traveling along Highway 1
                                          Marine lance corporal was convicted of           in Afghanistan. Metal grates that prevent plac-
                                          second-degree murder and sentenced to 25         ing IEDs in the culverts underneath the highway
                                          years to life in October 2012.                   were not installed in all 625 culverts, as the con-
                                       •	 NCIS obtained a confession from a sailor         tracting companies fraudulently claimed. The
                                          accused of raping and sexually abusing his       Afghan companies hired to install the Culvert
                                          younger sister during the eight years prior      Denial Systems submitted photographs as evi-
                                          to his enlistment. Although no physical          dence the work was complete, which the U.S.
                                          evidence was recovered, the petty officer        forces contracting officer representatives accept-
                                          third class fully confessed during an NCIS-      ed. However, two Army service members were
                                          administered polygraph examination in            killed and four soldiers were injured in separate
                                          January 2013.                                    IED explosions as they traveled over culverts
                                       •	 NCIS resolved a sexual assault investiga-        on Highway 1. NCIS’s investigation determined
                                          tion after a Navy petty officer second class     that not all of the culvert denial systems had
                                          confessed that he provided a false statement     been installed. A trial counsel has been assigned
                                          when he told investigators that the victim       to pursue prosecution under the Uniform Code
                                          was a coherent, willing sexual partner. Her      of Military Justice. Meanwhile, all of the culvert
“NCIS provided more                       memory of the assault was vague due to the       denial systems have since been installed.
than 250 finished                         effects of alcohol, but he admitted during
intelligence assessments                  the polygraph examination that she had not       NCIS provided more than 250 finished intel-
and analytical reports                    given consent.                                   ligence assessments and analytical reports to
                                       •	 NCIS obtained a confession from Navy sea-        Navy and Marine Corps elements worldwide.
to Navy and Marine                        man accused of sexually assaulting a Navy        Of those, 238 were prepared specifically for
Corps elements                            seaman apprentice who had no recollection        warships, forward-deployed forces and other
worldwide.”                               of events due to intoxication. In an oral/       transiting units. By leveraging intelligence from
                                          wire intercept, the sailor told the victim       partners, NCIS fused local information on cur-

 94 SEMIANNUAL REPORT TO THE CONGRESS
rent criminal, terrorist, espionage and civil dis-    services that were provided and misrepresented
turbance risks with the latest intelligence report-   the number of hours services were provided.
ing and assessments of current and emerging           Additionally, the complaint alleged Worldwide
asymmetric threats.                                   Language Resources falsified compliance with
                                                      contractual minimum proficiency testing
Significant Investigative Cases                       requirements.
                                                      Result: In December 2012, Worldwide Language
False, Fictitious and Fraudulent Claims               Resources and its president reached an agree-
Overview: An investigation was initiated              ment to pay the U.S. government $5,000,000 to
after the commanding officer of Camp Mujuk,           settle these fraud allegations with the former
Pohang, Korea, expressed concerns with dis-           employees who reported the allegation to share
crepancies in cost estimates for pending projects     $925,000 from the settlement in accordance with
inside camp. A joint NCIS and DCIS investiga-         the whistleblower provision of the False Claims
tion revealed evidence of unbalanced and defec-       Act.
tive pricing by LIG Engineering & Construction
and identified an elaborate conspiracy to commit      Contractor Substitutes Multi-Terrain Loaders                 “Experts, engineers
offenses to defraud the United States, the making     Supporting the Marines
                                                                                                                         and inspection
of a false bid to defraud the United States and       Overview: This case was initiated in October
                                                      2010 after NCIS was notified that the engines in            personnel at the base
false statements between multiple Korean con-
                                                      24 multi-terrain loaders provided by Caterpillar          confirmed the rust and
struction companies.
Result: In January 2013, LIG Engineering &            had been delivered to Marine Corps Logistics                   related damage...”
Construction was debarred from contracting            Base Albany, Ga., with rust damage. Experts,
with U.S. Forces Korea and the U.S. government        engineers and inspection personnel at the base
for three years. The Seoul Central Prosecutor’s       confirmed the rust and related damage, as well
Office sentenced four co-subjects to a total of       as identified other possibly compromised load-
12 years of imprisonment in sentences ranging         ers. A review of 25,000 subpoenaed documents
from two years and six-months to three years          revealed that although Caterpillar employees
and six-months. One co-subject was sentenced          tried to repair and hide the extent of the damage,
to five years of probation for their involvement      they knowingly provided rusted engines to the
in fraudulent activities with U.S. government-        Marine Corps.
administered contracts in Korea. U.S. Forces          Result: In September 2012, the U.S. Attorney’s
Korea issued (1) debarments to LIG Engineering        Office, Eastern District of Virginia, and
& Construction from contracting with U.S.             Caterpillar reached a settlement in which the
Forces Korea and the U.S. government for a total      company agreed to replace 15 new multi-
of 43 years, (2) U.S. Force Korea-wide installa-      terrain loaders, including standard warranty
tion debarments for a total of 24 years and (3)       and required modifications, and 10 sets of tools
the commander of Fleet Activities Chinhae is-         to the Marine Corps Logistics Base. Caterpillar
sued installation debarments totaling 20 years.       also agreed to pay the Department of Justice
The U.S. embassy also revoked two nonim-              $275,000.
migrant visas. Two major contracts worth $46
million were identified as being awarded under        Attempted Murder for Hire
fraudulent conditions and canceled.                   Overview: This case was initiated in May 2012
                                                      after NCIS received information that Matthew
Fraudulent Claims by Linguists in Afghanistan         Wilson, a lance corporal, 10th Marine Regiment,
Overview: This case was initiated in 2005 after       Second Marine Division at Camp Lejeune, N.C.,
NCIS received a qui tam complaint alleging that       was planning to hire someone to murder his
Worldwide Language Resources fraudulently             wife so he could claim her $100,000 life insur-
invoiced the Department of Defense for inter-         ance policy. Wilson had solicited assistance from
preter services in Afghanistan. The complaint         his girlfriend to help execute his plan. The girl-
alleged the contractor billed for translation ser-    friend informed NCIS of the plan and agreed to
vices that were not provided, double-billed for       assist NCIS by telling Wilson she had an uncle,

                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 95
Services



                                an undercover NCIS special agent, in the Italian     Sexual Assault in Dubai
                                mafia who could provide assistance. On May 10,       Overview: In January 2012, NCIS received an
                                2012, the undercover agent and Wilson met and        allegation from the Maritime Expeditionary
                                discussed the murder of his wife. Wilson made        Security Squadron 8 that a hospital corpsman,
                                a down payment to the undercover agent in the        Donald McAllister, sexually assaulted a subordi-
                                amount of $700.                                      nate male petty officer in Dubai. The petty officer
                                Result: In December 2012, Wilson was tried           alleged he had been sexually harassed, assaulted
                                and convicted of attempted murder by general         and threatened by McAllister regularly for a time
                                court-martial and sentenced to 23 years of con-      span of two to three years. The petty officer al-
                                finement, forfeiture of all pay and allowances,      leged McAllister had drugged the petty officer
                                reduction to E-1 and a dishonorable discharge.       with prescription sedatives to render the petty
                                                                                     officer incapable of fending off an attack. During
“In April 2012, NCIS            Kidnapping and Rape Aboard the USS Vella Gulf        the investigation, NCIS discovered another sub-
responded to an                 Overview: In April 2012, NCIS responded to an        ordinate petty officer who had been assaulted in
                                allegation of kidnap, assault and rape aboard the    a similar manner by McAllister. In an interview
allegation of kidnap,           USS Vella Gulf, a missile cruiser deployed in the    with NCIS, McAllister confessed to the assaults
assault and rape aboard         Mediterranean Sea. A female petty officer third      of the two subordinate petty officers.
the USS Vella Gulf...”          class claimed that after her shift the previous      Result: On Oct. 25, 2012, McAllister was tried
                                night, a coworker kidnapped and brutally raped       and convicted by a general court-martial of sex-
                                her. She reported that the petty officer, Daniel     ual harassment, cruelty and maltreatment, ag-
                                Wilt, forced her by knifepoint to a “kill room,”     gravated sexual contact, abusive sexual contact,
                                described as a forward hold lined with duct tape     and wrongful sexual contact. McAllister was
                                and plastic garbage bags. Wilt restrained her        sentenced to 14 years of confinement, reduction
                                with zip ties and duct tape and assaulted her        to E-1, forfeiture of all pay and allowances, and
                                for more than two hours. After the assault, Wilt     a dishonorable discharge. McAllister will be re-
                                brandished a dagger, a hacksaw and a face shield,    quired to register and maintain registration as a
                                and he explained in detail how he was going to       sexual offender.
                                dismember her and throw her overboard in
                                weighted bags. She talked Wilt into letting her      Sexual Offender Convicted
                                go by promising not to report him. Wilt released     Overview: This case was initiated in May 2012
                                her, saying she was “lucky” he forgot his hatchet,   after NCIS received an allegation that a Marine’s
                                and instructed her to meet him again in 20 min-      wife had been sodomized by a Marine Corps
                                utes. The victim returned to her berthing and        sergeant, Frances Captain. At the time of the
                                reported the assault. NCIS deployed agents from      incident, the wife was home alone with Captain
                                Greece and Italy by helicopter in response to the    and under the influence of alcohol. Due to the
                                allegation. During an interview, Wilt claimed he     side effects of the alcohol, the wife could not
                                was role playing with the victim during consen-      positively identify Captain as the offender.
                                sual sex.                                            While NCIS was unable to obtain a confession
                                Result: In December 2012, Wilt entered a plea of     from Captain, they were able to link him to the
                                not guilty. Under a general court-martial ruling,    crime after processing the crime scene and DNA
                                Wilt was found guilty of rape, forcible sodomy,      evidence. Additionally, NCIS received a tip that
                                assault, and willfully and wrongfully holding        Captain had bragged about sexually assaulting
                                another service member, and sentenced to life        other Marines and civilians. The tip provided the
                                in prison, reduction to E-1, forfeiture of all pay   names of three potential victims. NCIS discov-
                                and allowances be paid to the dependents, and        ered one victim had reported the assault in 2010,
                                a dishonorable discharge. Wilt will be required      but Captain was acquitted. The other reported
                                to register and maintain registration as a sexual    victim relayed that no assault had occurred. The
                                offender.                                            third victim alleged she was raped by Captain
                                                                                     in 2009 while being intoxicated at her barracks
                                                                                     room in Camp Pendleton, Calif. While inves-
                                                                                     tigating the 2009 incident, NCIS examined the

 96 SEMIANNUAL REPORT TO THE CONGRESS
third victim’s room at the time of the incident
and identified a witness who saw Captain and        Air Force Audit Agency                                             Air Force
the third victim together at the barracks on the
night of the assault. The witness account of the    Air Force Audit Agency
incident in 2009 led to Captain’s conviction.
Result: In January 2013, Captain was tried and      The Air Force Audit Agency mission is to pro-                 “To support Air Force
convicted by a general court-martial of abusive     vide all levels of Air Force management timely,
                                                                                                                 decision makers, AFAA
sexual contact. He was sentenced to five and a      relevant and quality audit services by reviewing
half years of confinement, reduction to E-1,        and promoting the economy, effectiveness and                     has approximately
fined $50,000 and given a dishonorable dis-         efficiency of operations; assessing and improving                     650 personnel
charge. Captain will be required to register and    Air Force fiduciary stewardship and the accu-                       at more than 50
maintain registration as a sexual offender.         racy of financial reporting; and evaluating pro-              worldwide locations.”
                                                    grams and activities and assisting management
Sexual Assault of a Lance Corporal                  in achieving intended results. AFAA is commit-
Overview: This case was initiated in March          ted to reaching out to Air Force customers at all
2012 after NCIS received an allegation of a rape    levels. To support Air Force decision-makers,
at Marine Corps Air Station Futenma, Okinawa,       AFAA has approximately 650 personnel at more
Japan. A female lance corporal awoke after pass-    than 50 worldwide locations. AFAA conducts
ing out from intoxication to find the barracks      centrally directed, Air Force wide audits in nu-
duty officer, Sergeant Christopher Olcott, as-      merous functional areas to support Air Force
signed to the 1st Marine Aircraft Wing, sexually    senior leaders. Installation-level audit teams
assaulting her. Witness interviews disclosed on     provide additional audit services to installation
the night of the incident that Olcott was check-    commanders.
ing for unlocked rooms supporting the lance
corporal’s account. Despite the limited recollec-   To provide Air Force officials timely, responsive,
tion of events from the lance corporal, physical    balanced and value-added audit services, AFAA
evidence, DNA analysis and a cell phone con-        audit planning methods include frequent con-
taining nude photographs of the unconscious         tact with Air Force senior leaders and Joint Audit
lance corporal linked Olcott to the allegation.     Planning Groups. The FY 2013 Audit Plan was
Result: In January 2013, Olcott was tried and       prepared in partnership with Air Force decision-
convicted by general court-martial of indecent      makers to address the most significant areas of
acts, burglary and aggravated sexual assault.       management concern. As such, AFAA ongo-
Olcott was sentenced to eight years of confine-     ing and planned audits address many of the Air
ment, forfeiture of all pay and allowances, re-     Force’s most critical programs and initiatives,
duction to E-1 and a bad conduct discharge.         including topics such as personnel training, in-
Olcott will be required to register and maintain    formation assurance, environmental manage-
registration as a sexual offender.                  ment, systems acquisition, health initiatives and
                                                    Afghanistan base closure planning.

                                                    Further, the secretary of defense called for the
                                                    Department to achieve audit readiness of the
                                                    Statement of Budgetary Resources by the end of
                                                    calendar year 2014 and of all Department finan-
                                                    cial statements by 2017. The secretary also called
                                                    for personnel to increase emphasis on asset ac-
                                                    countability and execute a full review of financial
                                                    controls. Accordingly, during the first half of FY
                                                    2013, AFAA completed seven system accounting
                                                    conformance audits and five system application
                                                    control audits in direct support of Air Force fi-
                                                    nancial improvement and audit readiness.

                                                                                                          APRIL 1, 2012 TO SEPTEMBER 30, 2012 97
Services



                                         During the first half of FY 2013, the AFAA pub-     figuration data for weapon system equipment
                                         lished 52 centrally directed audit reports, made    allowances.
                                         86 recommendations to Air Force senior officials    Result: As a result of inaccurate allowance data,
                                         and identified $365.6 million in potential mon-     the weapon system equipment budget was over-
                                         etary benefits. The following paragraphs provide    stated by $111 million. Air Force personnel can
                                         and synopsize a few examples of AFAA audit          reduce authorizations and redistribute excess
                                         coverage related to specific DoD management         equipment to fill other valid equipment require-
                                         challenge areas.                                    ments. In addition, accurate configuration data
                                                                                             helps ensure equipment is available when and
                                         Joint Warfighting and                               where needed. AFAA made two recommenda-
                                                                                             tions to improve the management of weapon
                                         Readiness                                           system equipment allowances.
                                                                                             Report No. F2013-0003-L40000
                                         United States Air Forces Central Area
                                         of     Responsibility    Base-Level     Inventory   Training and Equipping Expeditionary Airmen
“Sixty-three percent
                                         Management                                          Overview: AFAA determined whether deployed
of redeployed and                        Overview: AFAA determined if area of respon-        airmen completed required training and re-
deployed airmen at                       sibility personnel properly managed and ac-         ceived necessary equipment.
16 locations did not                     counted for base-level inventory.                   Findings: Sixty-three percent of redeployed and
accomplish required                      Findings: Area of responsibility personnel did      deployed airmen at 16 locations did not accom-
                                         not properly manage adjusted stock levels or ac-    plish required expeditionary training. In ad-
expeditionary training”
                                         count for or store base-level inventory.            dition, 27 percent of deploying airmen did not
                                         Result: Canceling invalid adjusted stock levels     receive necessary equipment items.
                                         allows the Air Force to reduce FY 2013 to 2017      Result: Providing deploying members the nec-
                                         budget requirements by $102,727. In addition,       essary skills improves warfighting capability and
                                         proper accounting for inventory improves asset      helps support current and future contingency
                                         visibility in inventory systems and prevents        operations. For the 16 locations reviewed, audit
                                         shortages and unnecessary purchases, while          projected that in FY 2011, at least 2,041 airmen
                                         reducing the risk of undetected theft or loss.      deployed without completing more than 7,100
                                         Finally, proper storage reduces the risk of secu-   required expeditionary skills courses. In addi-
                                         rity incidents, losses due to damage and ensures    tion, providing airmen with the necessary equip-
                                         assets can be located in a timely manner. AFAA      ment items improves warfighting capabilities,
                                         made four recommendations to improve base-          while limiting equipment issues to only needed
                                         level inventory management.                         items effectively maximizes resources. AFAA
                                         Report No. F2013-0002-L20000                        made three recommendations to improve man-
                                                                                             agement of training and equipping expedition-
                                         Weapon System Equipment Allowance                   ary airmen.
                                         Standards                                           Report No. F2013-0003-O40000
                                         Overview: AFAA determined if Air Force lo-
                                         gistics personnel established and maintained
                                         accurate allowances for weapon system equip-        Information Assurance,
                                         ment and validated the accuracy of Air Force        Security and Privacy
                                         Equipment Management System configuration
                                         data for weapon system equipment allowances.        Information Technology Efficiencies Initiative
                                         Findings: Base-level equipment custodians pro-      Commercial Satellite Communications
                                         vided inaccurate allowance data to allowance        Overview: AFAA determined whether the com-
                                         managers for both mobility-use and base-use         mercial satellite communications information
                                         weapon system equipment allowance standards.        technology baseline was complete and expen-
AFAA reviewed Air Force allowances for
weapon system equipment.                 Additionally, equipment custodians at 14 of 16      ditures were supported and recorded in the Air
                                         organizations did not adequately validate the       Force General Accounting and Finance System.
                                         Air Force Equipment Management System con-

 98 SEMIANNUAL REPORT TO THE CONGRESS
Findings: Air Force personnel did not develop       Follow-up Audit, Freedom of Information Act
a valid FY 2009 baseline of commercial satel-       Overview: AFAA evaluated management actions
lite communications information technology          implemented in response to Recommendations
expenditures. To illustrate, $165 million (59       A.1 through D.1 in Report of Audit F2009-0004-
percent) of the $281 million of baseline expen-     FB4000, Freedom of Information Act, June 3,
ditures were not identifiable to commercial sat-    2009. Specifically, audit determined if Freedom
ellite communications management, and there-        of Information Act managers properly recorded,
fore, not auditable. Further, analyses of $65.5     tracked and efficiently processed FOIA requests;
million of the $116 million in auditable expen-     provided the public electronic access to fre-              AFAA reviewed expenditures for
ditures revealed Air Force personnel could not      quently requested records; identified, assessed            commercial satellite communications.
match baseline expenditures with supporting         and recouped costs and fees for processing FOIA
documents and Air Force General Accounting          requests; and minimized FOIA request backlogs.
and Finance System-recorded expenditures.           Findings: Although Air Force officials imple-
Result: Without a valid expense baseline, the       mented a new FOIA system and updated guid-
Air Force cannot effectively track or demon-        ance, FOIA managers did not properly maintain
strate the commercial satellite communica-          106 (35 percent) of 299 electronic case files or ef-
tions efficiency-initiative savings contribution    ficiently process 109 (36 percent) of 299 FOIA re-
toward the Air Force’s $33.3 billion goal. AFAA     quests reviewed for 2011; provide the public elec-
made two recommendations to improve com-            tronic access to 113 (87 percent) of 130 frequently
mercial satellite communications information        requested records; properly identify costs, or ac-
technology baseline data and Air Force General      curately support fees assessed for processing 255
Accounting and Finance System-recorded              (93 percent) of 275 requests; and effectively mini-
expenditures.                                       mize FOIA request backlogs for three (75 per-
Report No. F2013-0001-O10000                        cent) of four requester service centers.
                                                    Result: Maintaining complete case files electron-
Enterprise Information Protection Capability        ically and efficiently processing requests are nec-
Overview: AFAA determined whether major             essary to meet statutory requirements and avoid
commands, direct reporting units and installa-      litigation costs associated with potential appeals
tion officials properly established information     and lawsuits. In addition, providing access to
protection offices or effectively managed core      frequently requested records helps reduce the
information protection programs.                    number of requests received, which saves money,
Findings: Air Force organizations did not prop-     time and resources. Also, properly identifying
erly establish information protection offices or    processing costs and fees enables the Air Force
effectively manage core information protection      to report accurate program amounts. Finally,
programs.                                           minimizing request backlogs will help resolve re-
Result: Properly established information pro-       quester dissatisfaction with untimely responses.
tection offices reduce the risk of unauthorized     AFAA made six recommendations to improve
disclosure, compromise or loss of Air Force         the management of the Air Force FOIA program.
operational and other critical information. In      Report No. F2013-0003-O20000
addition, effective information protection man-
agement ensures priority over national security     Acquisition Processes and
concerns is maintained and the risk of unau-
thorized collection and exploitation of Air Force   Contract Management
information is mitigated. AFAA made two rec-
ommendations to improve information protec-         Eastern Range Technical Services Contract
tion office implementation and controls of in-      Management and Oversight
formation protection programs.                      Overview: AFAA determined whether Air Force
Report No. F2013-0005-O10000                        personnel effectively performed acquisition
                                                    planning, contract administration and financial
                                                    management.



                                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 99
Services



                                      Findings: Air Force officials did not accomplish    construction requirements. AFAA made one
                                      and document required contract performance          recommendation to improve management of
                                      and metric evaluations or perform effective fi-     MILCON requirements.
                                      nancial management on the current and prior         Report No. F2013-0008-O20000
                                      eastern launch and test range contracts.
                                      Result: Performance and metric evaluations
                                      provide the Air Force assurance the Eastern         Financial Management
                                      Range Technical Services contractor satisfacto-
                                      rily performed range technical support services.    United States Property and Fiscal Officer
                                      In addition, de-obligating and de-commiting ex-     Program
                                      cess contract funds made $1,231,256 available in    Overview: AFAA evaluated effectiveness of the
                                      FY 2012 and could make as much as $4 million        United States Property and Fiscal Officer pro-
                                      available in FY 2013 for other valid mission re-    gram to including accountability of Air Force
                                      quirements. AFAA made one recommendation            funds and effectiveness of current United States
                                      to improve Eastern Range Technical Services         Property and Fiscal Officer Program policies
                                      contract management.                                and procedures.
                                      Report No. F2013-0008-L30000                        Findings: Air National Guard personnel did
                                                                                          not identify and de-obligate invalid obligations
                                      Miscellaneous Equipment Allowance Standards         or research questionable obligations in a timely
                                      Overview: AFAA assessed whether logistics           manner. In addition, draft United States Property
                                      personnel accurately used and timely reviewed       and Fiscal Officer Program policy (currently in
                                      miscellaneous allowance standards.                  coordination) lacked definitive guidance regard-
                                      Findings: Logistics personnel at all levels did     ing funds distribution and delegation of finan-
                                      not effectively use or timely review miscella-      cial management responsibility.
                                      neous allowances.                                   Result: De-obligating funds no longer required
                                      Result: Proper use and timely review of items au-   will make $8,580,196 available for other prior
                                      thorized using miscellaneous allowance source       year (FY 2006 to 2010) requirements. In addi-
                                      codes would allow Air Force personnel to reduce     tion, effective control procedures over funding
                                      overstated authorizations and redistribute excess   improve accountability of federal funds en-
                                      equipment items to fill other valid equipment       trusted to the United States Property and Fiscal
                                      requirements. This would result in a potential      Officers. AFAA made three recommendations
                                      monetary benefit of $65,421,570. AFAA made          to strengthen internal controls over Air Force
                                      one recommendation to improve miscellaneous         funding and improve guidance.
                                      equipment allowance standards management.           Report No. F2013-0001-L10000
                                      Report No. F2013-0004-L40000
                                                                                          Air Force Global Logistics Support Center
                                      Military Construction Requirements                  Unliquidated Obligations
                                      Overview: AFAA determined whether Air Force         Overview: AFAA determined whether Air Force
                                      personnel properly prioritized projects and rea-    Global Logistics Support Center recorded unliq-
                                      sonably estimated and supported programmed          uidated obligations were needed, supported and
                                      amounts.                                            correctly reported.
                                      Findings: Air Force programmers did not rea-        Findings: Auditors identified 841 (72 percent)
                                      sonably estimate and support programmed             of 1,175 unliquidated obligations were no longer
                                      amounts for 15 of 26 military construction          needed, not supported or incorrectly reported.
                                      projects.                                           Result: De-obligating unneeded unliquidated
AFAA reviewed military construction
requirements.                         Result: By eliminating overstated costs, the Air    obligations balances would achieve $44.1 mil-
                                      Force could use more than $6.4 million for other    lion for other mission requirements. Projecting
                                      valid military construction projects. Further,      these results, based on a 95 percent confidence
                                      properly supported and documented estimates         estimate, could provide a potential monetary
                                      allow Air Force leadership to make fully in-        benefit of at least $104,893,009. AFAA made
                                      formed decisions and effectively use funds for

100 SEMIANNUAL REPORT TO THE CONGRESS
three recommendations to improve unliquidat-       of $253,781 annually, or $1,522,688 over six
ed obligations validation efforts.                 years (execution year and Future Years Defense
Report No. F2013-0015-O10000                       Program). Completing medical/dental assess-
                                                   ments prior to deployments helps ensure con-
Unemployment Compensation Program                  tract employees will not require additional re-
Overview: AFAA evaluated whether Air Force         sources or negatively affect the mission. AFAA
Personnel Center administrators accurately de-     made two recommendations to improve controls
termined unemployment eligibility and reim-        over medical aspects of contractor deployments.
bursed states for former employees’ unemploy-      Report No. F2013-0002-O40000
ment compensation.
Findings: Air Force Personnel Center admin-        Contract Medical Service Personnel                          “... medical personnel
istrators inaccurately determined unemploy-        Overview: AFAA evaluated whether medical                       did not convert 291
ment eligibility for 9 percent of 1,079 military   personnel accurately determined contract medi-
and civilian claimants paid $352,656 during        cal service personnel requirements and effective-
                                                                                                                  of 1,771 contractor
the review period. In addition, they reimbursed    ly managed contractor to civilian conversions.              positions even though
states for unemployment compensation on 3          Findings: Although medical personnel at three                  these positions were
percent of former military and civilian em-        locations maintained 17 contract medical ser-               eligible for conversion
ployees reviewed. Misstatements totaled almost     vice positions in excess of approved mission                        and could yield
$57,000: $43,300 in overpayments and $13,300       requirements, the condition was not systemic
in underpayments.                                  and was addressed in installation-level reports.
                                                                                                                         cost savings.”
Result: Establishing a more effective quality      However, medical personnel did not convert 291
control program would allow the Air Force to       of 1,771 contractor positions even though these
avoid at least $20,749,336 million in erroneous    positions were eligible for conversion and could
unemployment compensation payments over            yield cost savings.
six years (execution year and the Future Years     Result: Converting 291 medical service contrac-
Defense Program). In addition, unemployment        tor positions at the locations reviewed would
payment controls are necessary to validate accu-   allow the Air Force Medical Service to put to
rate compensation for employees and helps en-      better use approximately $70 million over the
sure proper stewardship of public funds. AFAA      next five years, which is the standard time frame
made three recommendations to improve the          the Air Force Manpower Agency uses when
unemployment compensation program.                 measuring contractor to civilian cost effec-
Report No. F2013-0001-O40000                       tiveness. Statistically projecting the results Air
                                                   Force-wide, the Air Force Medical Service could
Health Care                                        convert an estimated 767 eligible contractor po-
                                                   sitions, achieving a potential monetary benefit
Medical Aspects of Contractor Deployments          of approximately $170,018,062 over the next five
Overview: AFAA determined whether Air Force        years. AFAA made one recommendation to im-
Medical Service officials provided only emer-      prove medical service contractor management.
gency medical support to contract employees        Report No. F2013-0005-O40000
and whether U.S. contract employees completed
required medical/dental assessments prior to       Follow-up Audit, Mental Health Provider
deployment.                                        Productivity
Findings: Medical officials provided nonemer-      Overview: AFAA evaluated the effectiveness of
gency medical support to 2,895 (48 percent) of     management corrective actions in response to
6,070 deployed U.S. contract employees. In ad-     recommendations A.1 and A.2, report F2010-
dition, 98 percent of U.S. contract employees      0004-FD2000, titled, “Mental Health Provider
deployed without completing medical/dental         Productivity,” dated March 9, 2010. Specifically,
assessments.                                       AFAA determined whether opportunities ex-
Result: Limiting routine medical support to        isted for Air Force mental health providers
services authorized per employees’ contracts       to increase the number of patients treated.
can produce cost avoidance for the Air Force       Additionally, AFAA determined whether the

                                                                                                        OCTOBER 1, 2012 TO MARCH 31, 2013 101
Services



“... 58 percent of                  Air Force achieved the $14.4 million in potential     dations to improve management of the NWRM
providers did not meet              monetary benefits identified in the prior audit.      inventory process.
                                    Findings: Although Air Force officials took ac-       Report No. F2013-0001-L40000
productivity standards              tion in response to the prior audit, 58 percent of
established by the Air
                                                                                          Air Force Office of
                                    providers did not meet productivity standards
Force surgeon general.”             established by the Air Force surgeon general.

                                                                                          Special Investigations
                                    Result: As a result, the Air Force did not fully
                                    achieve the $14.4 million in potential monetary
                                    benefits identified in the prior audit. Increasing
                                    mental health provider productivity at the 10         Significant Investigative Cases
                                    locations reviewed would allow medical facili-
                                    ties to provide more in-house care and avoid          Desertion and Armed Robbery
                                    purchasing private-sector medical care cost-          Overview: On Dec. 21, 2012, members of
                                    ing approximately $6,514,437 over the next six        AFOSI at Joint Base Lewis-McChord, Wash., ap-
                                    years (execution year and Future Years Defense        prehended an Air Force staff sergeant, Thomas
                                    Program). AFAA made three recommenda-                 Schwartz, who had deserted the Air Force in June
                                    tions to more effectively use unfilled appoint-       1972. Prior to deserting, Schwartz had received
                                    ments, increase patient capacity and use within       orders to Thailand and had incurred a debt of
                                    the mental health clinic, and improve provider        $3,000 to his fiancé. Schwartz moved to Calgary,
                                    productivity.                                         Canada, in July or August of 1972 and legally
                                    Report No. F2013-0006-O40000                          changed his name to become a resident alien and
                                                                                          start a business. Schwartz attributed his return to
                                    Nuclear Enterprise                                    the United States as an attempt to escape debt he
                                                                                          had incurred while beginning his business and
                                    Follow-up Audit, Nuclear Weapons Related              to deal with the charges related to his desertion.
                                    Materiel Inventory                                    After AFOSI coordinated with the Vancouver
                                    Overview: AFAA determined if Air Force logis-         Police Department Violent Crimes Division
                                    tics management implemented effective proce-          and the Royal Canadian Mounted Police, it was
                                    dures in response to report F2011-0002-FC4000,        determined that Schwartz was being sought by
                                    titled, “Nuclear Weapons Related Materiel             local law enforcement in connection with eight
                                    Inventories,” dated Nov. 3, 2010. In addition,        armed robberies totaling $20,000. Canadian Law
                                    audit determined if personnel accurately record-      Enforcement secured a provincial warrant and
AFAA determined whether the AF      ed and properly identified all nuclear weapons        Schwartz was subsequently returned to Canada
accurately accounted for NWRM.      related materiel assets in Air Force records.         to face trial and incarceration.
                                    Findings: Logistics personnel effectively nego-       Result: On Jan. 31, 20 13, Schwartz waived his
                                    tiated a memorandum of agreement with the             right to an administrative discharge board and
                                    Department of Energy to include roles and re-         was subsequently separated from military ser-
                                    sponsibilities for nuclear weapons related ma-        vice for misconduct with an other than hon-
                                    teriel inventories. However, logistics personnel      orable conditions service characterization.
                                    did not accurately record all NWRM assets on          Prosecution for armed robbery will be pursued
                                    accountability records or properly identify all       by the Royal Canadian Mounted Police.
                                    items as NWRM assets at contractor locations.
                                    Result: As a result of inaccurate recording, 40       False, Fictitious and Fraudulent Claims against
                                    NWRM assets were not properly accounted for           the Air Force
                                    in Air Force records. Accurate NWRM invento-          Overview: This investigation was initiated from
                                    ries help ensure the integrity and safety of the      a U.S. Transportation Command allegation of
                                    nuclear mission aiding national security. In ad-      a violation of the False Claims Act. On Oct. 1,
                                    dition, complete accountability of NWRM assets        2007, Hummingbird Aviation LLC entered into
                                    at contractor facilities is important for ensuring    a contract with USTRANSCOM to provide heli-
                                    the security of assets outside the physical control   copter service in Afghanistan. USTRANSCOM
                                    of the Air Force. AFAA made three recommen-           noted that the services had not been provided as

102 SEMIANNUAL REPORT TO THE CONGRESS
of Feb. 14, 2008. Hummingbird Aviation LLC sub-         Rosales-Lopez during which he provided a par-
mitted a cost proposal for termination for conve-       tial confession before invoking his rights and
nience to USTRANSCOM, which complied with               asking for an attorney.
the request and terminated the contract for con-        Result: On Nov. 27, 2012, Rosales-Lopez was
venience April 8, 2008. Hummingbird Aviation            convicted by a general court-martial and re-
LLC requested USTRANSCOM pay them more                  ceived a reprimand, reduction to E-1, con-
than $1.9 million to allow the small business to        finement for eight months and a bad conduct
continue operating. Hummingbird Aviation LLC            discharge. Additionally, Rosales-Lopez was re-
failed to provide receipts to USTRANSCOM for            quired to register as a sex offender.
costs to lease a helicopter totaling $300,000 for the
period of Oct. 1 to Dec. 1, 2007. On Sept. 29, 2007,    Narcotics and Counterfeit Checks                                 “Lompoc Police
USTRANSCOM became aware of a lawsuit from               Overview: This investigation was initiated                  Department arrested
Helimed Limited against Hummingbird Aviation            after AFOSI at Vandenberg Air Force Base,
                                                                                                                       Cheatham after a
LLC. In the lawsuit, Helimed Limited claimed            Calif., received notification from Lompoc
Hummingbird Aviation LLC did not pay for their          Police Department, Calif., of Senior Airman                 search of his vehicle
lease with Helimed Limited for their helicopter         John Cheatham who had attempted to cash a                  where they discovered
services. On Dec. 11, 2007, U.S. Transportation         forged check. Lompoc Police Department ar-                          0.2 grams of
Command discovered Hummingbird Aviation                 rested Cheatham after a search of his vehicle               methamphetamines.”
LLC sent an email to Executive Helicopters,             where they discovered 0.2 grams of metham-
Galway, Ireland, requesting they back date their        phetamines. Additionally, Cheatham’s presump-
lease with Hummingbird Aviation LLC from Nov.           tive urine test registered positive for marijuana.
29, 2007 to Aug. 31, 2007. AFOSI confirmed the          AFOSI conducted an interview with Cheatham
lease had been backdated to Aug. 31, 2007. By           resulting in a confession of intending to dis-
backdating the lease, USTRANSCOM paid for               tribute methamphetamine, smoking marijuana
two full months of rent from October through            at least five times since August 2011 while sta-
November 2007 totaling $300,000.                        tioned at Vandenberg Air Force Base and lying
Result: On Oct. 20, 2010, a grand jury returned         to Lompoc Police Department of his attempt to
one indictment on Hummingbird Aviation                  cash a forged check in the amount of $300.
LLC for false claims against the government.            Results: On Jan. 23, 2013, Cheatham was con-
On Jan. 23, 2012, after several continuances,           victed by a general court-martial of use and pos-
Hummingbird Aviation LLC was convicted of               session of marijuana and possession with intent
submitting false and fraudulent claims in the U.S.      to distribute methamphetamine, reduced to E-1,
District Court of Southern District of Illinois.        ordered to surrender total forfeiture of all pay
Hummingbird Aviation LLC was ordered to pay             and allowances, sentenced to 12 months of con-
$300,000 in restitution and an additional $4,100        finement and received a bad conduct discharge.
in fines, placed on probation for five years and
debarred from U.S. government contracting for           Sexual Assault of Multiple Active Duty Members
six years.                                              Overview: This investigation was initiated after
                                                        AFOSI at Barksdale Air Force Base, La., received
Aggravated Sexual Abuse of a Child                      notification from Bossier City Louisiana Police
Overview: This investigation was initiated after        Department of a sexual assault of a female air-
an allegation was received that Senior Airman           man first class committed by a male airman first
Brayan Rosales-Lopez sexually abused a 12-year-         class, James Lewis. After assuming jurisdiction of
old male at an on-base residence at Vandenberg          the investigation, AFOSI discovered Lewis had
Air Force Base, Calif., on or about Dec. 24, 2011.      been investigated for a sexual assault in 2011 of
Rosales-Lopez put his hands down the child’s            another female airman first class. Additionally,
pants and sexually assaulted him while they             Lewis had two other open sexual assault cases
were wrestling. The child pushed Rosales-Lopez          that were reported the previous week, bringing
away. Rosales-Lopez instructed the child not to         the total number of sexual assault allegations
say anything or he would lose his job with the          against Lewis to four. All were investigated by
Air Force. AFOSI conducted an interview of              AFOSI. Despite the number of allegations, local

                                                                                                             OCTOBER 1, 2012 TO MARCH 31, 2013 103
Services



“... FMC Technologies               police advised they would not charge Lewis due          Product Substitution against the Air Force
intentionally                       to lack of evidence. AFOSI assigned a sexual as-        Overview: This investigation was initiated Feb.
                                    sault investigator who compiled all of the police       22, 2010, based upon information from a con-
substituted components              reports, transferred recovered physical evidence        tracting officer at Robins Air Force Base, Ga.,
on Diesel Air                       to AFOSI and reviewed the 2011 investigation.           that FMC Technologies intentionally substituted
Conditioner-110 units               During an interview of Lewis, AFOSI obtained            components on Diesel Air Conditioner-110 units
without the approval                a confession for all four of the alleged sexual         without the approval of the Air Force. Under
of the Air Force.”                  assaults.                                               the contract, FMC Technologies was obligated
                                    Result: On Dec. 13, 2012, Lewis was convicted           to manufacture Diesel Air Conditioner-110
                                    by a general court-martial of sexual assault and        air conditioners used to cool aircraft avion-
                                    sentenced to nine years of incarceration, reduc-        ics during the course of ground maintenance.
                                    tion to the grade of E-1, forfeiture of all pay and     The contract was in the process of termination
                                    allowances and a dishonorable discharge.                by default due to FMC Technologies’ inability
                                                                                            to manufacture units that met contract speci-
                                    Negligent Homicide of an Air Force Member               fications. The substitutions were violations of
                                    Overview: This investigation was initiated April        the contract and resulted in a severe reduction
                                    22, 2012, after an airman first class was killed in a   in unit functionality and mission capability.
                                    vehicle accident. Airman 1st Class Jose Aguilar,        Additionally, FMC Technologies contracted to
                                    stationed at Incirlik Air Base, Turkey, was driv-       manufacture the trailer-mounted air conditioner
                                    ing a high mobility multipurpose wheeled ve-            which resulted in the same issues as the Diesel
                                    hicle and purposefully drove onto an unpaved            Air Conditioner-110. The principle engineer for
                                    road against orders. After driving approxi-             the trailer-mounted air conditioner examined
                                    mately 134 feet, Aguilar made a hard right turn         components and determined five components
                                    and the vehicle rolled over, pinning the pas-           were substituted or removed, all of which re-
                                    senger under the vehicle’s turret wall. First re-       sulted in a loss of unit configuration control. The
                                    sponders attempted life-saving efforts, but the         product substitutions were violations of contract
                                    passenger was unresponsive and died. During             specifications. FMC Technologies counterargued
                                    AFOSI’s investigation, they discovered Aguilar          and alleged that because the diesel air condition-
                                    had a documented history of reckless driving. A         ers were purchased as commercial items, FMC
                                    search by AFOSI of Aguilar’s residence disclosed        Technologies was permitted to substitute parts as
                                    a bloodied video camera. Pursuant to a search           it wished. According to the contract, any chang-
                                    authorization, the camera was searched and a            es to the units must be routed through and ap-
                                    video of the accident taken from the perspec-           proved by the Air Force before any modifications
                                    tive of the deceased airman was recovered. The          are authorized. FMC Technologies did not no-
                                    final frames of the video showed Aguilar utter an       tify the Air Force of any changes to the procured
                                    expletive as he picked up the camera and turned         units during the acquisition process.
                                    it off. An analysis of the blood found on the cam-      Result: On Sept. 11, 2012, the Department of
                                    era was performed by the U.S. Army Criminal             Justice obtained a settlement agreement between
                                    Investigation Laboratory. The analysis showed           the government and FMC Technologies who
                                    the DNA of the blood taken from the camera              agreed to pay $14,431,500 to the government for
                                    was Aguilar’s.                                          the trailer-mounted air conditioner units and
                                    Result: On Nov. 28, 2012, Aguilar was convicted         $4,827,000 for the Diesel Air Conditioner-110
                                    at a general court-martial of dereliction of duty,      units. The agreement required FMC Technologies
                                    reckless driving and conduct prejudicial of good        to upgrade the accepted trailer-mounted air con-
                                    order and discipline. Under a pretrial agreement,       ditioner units at no additional cost to the govern-
                                    Aguilar agreed to a reduction to the grade of E-1,      ment. FMC Technologies was required to provide
                                    forfeiture of all pay and allowance, ordered to         an extended warranty covering trailer-mounted
                                    three years and nine months of confinement and          air conditioner units manufacturing defects spe-
                                    a bad conduct discharge.                                cific to cooling, which would be effective one
                                                                                            month after receiving the upgraded parts. The
                                                                                            amount recovered was $19,258,500.

104 SEMIANNUAL REPORT TO THE CONGRESS
             5


Appendices
Appendix A




Audit, Inspection, and Evaluation
Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

	              DoD IG	                                                                Army Audit Agency
	              (703) 604-8937	                                                        (703) 693-5679
	              www.dodig.mil/PUBS	                                                    www.hqda.army.mil/aaaweb

	 Naval Audit Service	                                                                Air Force Audit Agency
	 (202) 433-5757	                                                                     (703) 696-7904
		                                                                                    www.afaa.af.mil

                                                                                               DoD IG                   Military Depts.            Total
     Acquisition Processes and Contract Management                                               19                                30                   49
     Financial Management                                                                        25                                49                   74
     Joint Warfighting and Readiness                                                               6                               35                   41
     Information Assurance, Security and Privacy                                                   4                               16                   20
     Health Care                                                                                   1                                6                    7
     Equipping and Training Iraqi and Afghan Security Forces                                       4                                0                    4
     Investigative Oversight                                                                       2                                0                    2
     Nuclear Enterprise                                                                            0                                2                    2
     Other                                                                                         3                                8                   11
       Total                                                                                     64                           146                   210


Acquisition Processes and Contract Management
    Agency         Report Number            Report Title                                                                                   Date
    DoD IG         DODIG-2012-030R          Contractor Compliance Varied With Classification of Lobbying Costs and Reporting of Lobbying   01/18/2013
                                            Activities (FOUO)
    DoD IG         DODIG-2013-002           Improvement Needed With DoD Single-Bid Program to Increase Effective Competition for           10/04/2012
                                            Contracts
    DoD IG         DODIG-2013-003           Army Contracting Command – Aberdeen Proving Ground Contracting Center’s Management of          10/19/2012
                                            Noncompetitive Awards Was Generally Justified
    DoD IG         DODIG-2013-006           Defense Logistics Agency Could Improve Its Oversight of the Maintenance, Repair, and           10/19/2012
                                            Operations Prime Vendor Contract for Korea (FOUO)
    DoD IG         DODIG-2013-007           Award and Administration of Multiple Award Contracts at Naval Facilities Engineering Command   10/26/2012
                                            Specialty Centers Need Improvement
    DoD IG         DODIG-2013-015           Actions to Align Defense Contract Management Agency and Defense Contract Audit Agency          11/13/2012
                                            Functions
    DoD IG         DODIG-2013-024           U.S. Army Corps of Engineers Needs to Improve Contract Oversight of Military Construction      11/26/2012
                                            Projects at Bagram Airfield, Afghanistan




    106 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                      Date
DoD IG      DODIG-2013-025       Accountability Was Missing for Government Property Procured on the Army’s Services Contract       11/30/3012
                                 for Logistics Support of Stryker Vehicles
DoD IG      DODIG-2013-028       Contracting Improvements Still Needed in DoD’s FY 2011 Purchases Made Through the                  12/07/2012
                                 Department of Veterans Affairs
DoD IG      DODIG-2013-031       Audit of the F-35 Lightning II Autonomic Logistics Information System (Classified)                12/10/2012
DoD IG      DODIG-2013-034       Better Processes Needed to Appropriately Justify and Document NAVSUP WSS, Philadelphia Site       12/21/2012
                                 Sole-Source Awards
DoD IG      DODIG-2013-037       Quality Controls for the Rotary Wing Transport Contracts Performed in Afghanistan Need            01/15/2013
                                 Improvement
DoD IG      DODIG-2013-044       Monitoring of the Quality of the Defense Contract Audit Agency FY 2010 Audits                     03/07/2013
DoD IG      DODIG-2013-046       DoD Does Not Have Visibility Over the Use of Funds Provided to the Department of Energy           02/15/2013
DoD IG      DODIG-2013-048       Quality Control Review of the PricewaterhouseCoopers, LLP and the Defense Contract Audit          02/20/2013
                                 Agency FY 2010 Single Audit of the Institute for Defense Analyses
DoD IG      DODIG-2013-049       Improvements Needed in Managing Maintenance Contracts in Korea for Air Force Aircraft (FOUO)      02/22/2013
DoD IG      DODIG-2013-050       Recovering Organizational Clothing and Individual Equipment From Civilians and Contractor         02/22/2013
                                 Employees Remains a Challenge
DoD IG      DODIG-2013-052       Inadequate Contract Oversight of Military Construction Projects in Afghanistan Resulted in        03/08/2013
                                 Increased Hazards to Life and Safety of Coalition Forces
DoD IG      DODIG-2013-059       Air Force Needs Better Processes to Appropriately Justify and Manage Cost-Reimbursable            03/21/2013
                                 Contracts
USAAA       A-2013-0009-ALC      Arlington National Cemetery Millennium Project, U.S. Army Corps of Engineers Norfolk District     11/07/2012
USAAA       A-2013-0013-ALE      Wide Area Workflow in Europe, 409th Contracting Support Brigade, Expeditionary Contracting        11/29/2012
                                 Command, Europe
USAAA       A-2013-0015-MTE      Audit of Contract Management-Atmospherics Program-Afghanistan                                     11/28/2012
USAAA       A-2013-0016-MTE      Audit of Area Support Group-Kuwait S6 Information Technology Contracts (FOUO)                     12/07/2012
USAAA       A-2013-0020-ALA      Time Sensitive Issue—Audit of Aviation Requirements-Small Unmanned Aircraft Systems (FOUO)        12/07/2012
USAAA       A-2013-0034-ALA      Audit of Mission Command and Communications Capabilities                                          01/10/2013
USAAA       A-2013-0035-ALC      Arlington National Cemetery Columbarium Court 9 Design Management                                 01/22/2013
USAAA       A-2013-0038-FMF      Yuma Proving Ground Financial Transaction Analysis, Award Fee Procedures (FOUO)                   01/18/2013
USAAA       A-2013-0047-ALC      Accession of Military Personnel into Contracting                                                  01/31/2013
USAAA       A-2013-0051-MTE      Audit of Contract Administration of the National Afghan Trucking Contract (FOUO)                  02/07/2013
USAAA       A-2013-0054-MTE      Performance Metrics—National Afghan Trucking Contract, Bagram Airfield, Afghanistan (FOUO)        02/13/2013
USAAA       A-2013-0076-IEF      Agreed-Upon Procedure Attestation, Contracts at U.S. Army Corps of Engineers - Sacramento         03/25/2013
                                 District and Sierra Army Depot (FOUO)
NAVAUDSVC   N2013-0003           Naval Sea Systems Command, Logistics, Maintenance, and Industrial Operations Contract             11/15/2012
                                 N00024-01-D-7025, DO 0001
NAVAUDSVC   N2013-0006           Department of the Navy Communications Security Account Reconciliation Under Common Tier 1         12/27/2012
                                 Accounting System
NAVAUDSVC   N2013-0007           Joint Mission Planning System                                                                     01/11/2013
NAVAUDSVC   N2013-0012           Internal Controls Over Selected Contracts and Blanket Purchase Agreements at Navy Region Mid-     01/16/2013
                                 Atlantic, Fleet and Family Readiness
AFAA        F-2013-0002-L10000   Arnold Engineering Development Center Operations, Maintenance, Information Management,            10/23/2012
                                 and Support Contract Management
AFAA        F-2013-0001-L30000   Contract Closeout Management                                                                      11/26/2012
AFAA        F-2013-0003-L30000   Firm-Fixed-Price Contracts                                                                        01/25/2013
AFAA        F-2013-0004-L30000   Small Diameter Bomb II                                                                            01/25/2013
AFAA        F-2013-0005-L30000   Services Category II and III Acquisitions                                                         02/08/2013
AFAA        F-2013-0006-L30000   C-17 Global Reach Improvement Program Management                                                  02/22/2013
AFAA        F-2013-0007-L30000   Acquisition Management of Fifth-Generation Fighter Aircraft Simulators                            02/26/2013
AFAA        F-2013-0008-L30000   Eastern Range Technical Services Contract Management and Oversight                                03/08/2013



                                                                                                                 OCTOBER 1, 2012 TO MARCH 31, 2013 107
Appendix A
Agency        Report Number             Report Title                                                                                          Date
AFAA          F-2013-0004-L40000        Miscellaneous Equipment Allowance Standards                                                           02/19/2013
AFAA          F-2013-0005-L40000        Heritage Program                                                                                      02/21/2013
AFAA          F-2013-0004-O20000        Independent Agreed-Upon Procedures Report, Plug-In Electric Vehicles Business Case Analysis           10/22/2012
AFAA          F-2013-0006-O20000        Construction and Demolition Debris Diversion                                                          02/07/2013
AFAA          F-2013-0007-O20000        Sustainment, Restoration and Modernization Project Management                                         02/11/2013
AFAA          F-2013-0008-O20000        Military Construction Requirements                                                                    02/20/2013



Financial Management
Agency        Report Number             Report Title                                                                                          Date
DoD IG        DODIG-2013-004            Audit of Hotline Allegations Involving Defense Intelligence Mission Area (FOUO)                       10/17/2012
DoD IG        DODIG-2013-008            Independent Auditor’s Report on the DoD Military Retirement Fund, FY 2012 and FY 2011 Basic           11/06/2012
                                        Financial Statements
DoD IG        DODIG-2013-009            Independent Auditor’s Report on the Air Force General Fund FY 2012 and FY 2011 Financial              11/08/2012
                                        Statements
DoD IG        DODIG-2013-010            Independent Auditor’s Report on the Air Force Working Capital Fund FY 2012 and FY 2011                11/08/2012
                                        Financial Statements
DoD IG        DODIG-2013-011            Independent Auditor’s Report on the Army Working Capital Fund FY 2012 and FY 2011 Annual              11/08/2012
                                        Financial Statements
DoD IG        DODIG-2013-012            Independent Auditor’s Report on the Department of the Navy General Fund FY 2012 and FY 2011           11/09/2012
                                        Financial Statements
DoD IG        DODIG-2013-013            Independent Auditor’s Report on the Army General Fund FY 2012 and FY 2011 Financial                   11/08/2012
                                        Statements
DoD IG        DODIG-2013-014            Independent Auditor’s Report on the Department of the Navy Working Capital Fund FY 2012 and           11/09/2012
                                        FY 2011 Financial Statements
DoD IG        DODIG-2013-016            Independent Auditor’s Report on the DoD Medicare-Eligible Retiree Health Care Fund FY 2012            11/07/2012
                                        Basic Financial Statements
DODIG         DODIG-2013-017            Independent Auditor’s Report on the DoD Contract Resource Management FY 2012 Basic                    11/07/2012
                                        Financial Statements
DoD IG        DODIG-2013-018            Deliveries and Payments for the Defense Advanced GPS Receivers Met Contract Terms, But                11/08/2012
                                        Property Accountability Needed Improvements
DoD IG        DODIG-2013-020            Independent Auditor’s Report of FY 2011 Department of State Funds Transferred to DoD for              11/09/2012
                                        Human Immunodeficiency Virus /Acquired Immune Deficiency Syndrome Prevention
DoD IG        DODIG-2013-021            Independent Auditor’s Report on the Department of Defense FY 2012 and FY 2011 Financial               11/15/2012
                                        Statements
DoD IG        DODIG-2013-022            Independent Auditor’s Report on the Department of Defense FY 2012 and 2011 Special Purpose            11/15/2012
                                        Financial Statements
DoD IG        DODIG-2013-023            Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil Works, FY 2012 and FY         11/15/2012
                                        2011 Basic Financial Statements
DODIG         DODIG-2013-027            DoD Generally Effective at Correcting Causes of Antideficiency Act Violations in Military Personnel   11/30/2012
                                        Accounts, But Vulnerabilities Remain
DoD IG        DODIG-2013-038            Independent Auditor’s Report on the Examination of the Existence, Completeness, and Rights of         01/14/2013
                                        the Department of the Air Force’s Uninstalled Missile Motors and Spare Engines
DoD IG        DODIG-2013-042            Independent Auditor’s Report on the DoD FY 2012 Detailed Accounting Report of the Funds               01/31/2013
                                        Obligated for National Drug Control Program Activities
DoD IG        DODIG-2013-045            Army Business Systems Information Technology Strategy Needs Improvement                               02/07/2013
DODIG         DODIG-2013-047            Quality Control Review of the Defense Finance and Accounting Service Audit Organization               02/28/2013
DoD IG        DODIG-2013-051            Improvements to Controls Over Cash Are Needed at the Army Disbursing Office at Soto Cano Air          03/04/2013
                                        Base, Honduras
DoD IG        DODIG-2013-054            DoD Efforts to Meet the Requirements of the Improper Payments Elimination and Recovery Act in         03/13/2013
                                        FY 2012



108 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                      Date
DoD IG      DODIG-2013-056       Defense Hotline Allegations Concerning Contractor-Invoiced Travel for U.S. Army Corps of          03/15/2013
                                 Engineers’ Contracts W912DY-10-D-0014 and W912DY-10-D0024
DoD IG      DODIG-2013-057       Enterprise Business System Was Not Configured to Implement the U.S. Government Standard           03/20/2013
                                 General Ledger at the Transaction Level
DoD IG      DODIG-2013-061       Improvements Needed to the Purchase Card On-Line System                                           03/27/2013
USAAA       A-2013-0001-IEF      Audit of Recruiting Assistance Programs—Active Component (FOUO)                                   10/03/2012
USAAA       A-2013-0006-IEE      Audit of Army Workers' Compensation Program: U.S. Army National Guard                             11/05/2012
USAAA       A-2013-0007-FMF      Independent Auditor's Report for FY 12 American Red Cross Financial Statements                    11/05/2012
USAAA       A-2013-0011-IEI      Audit of Army Emergency Relief Operations—U.S. Army Fort Benning (FOUO)                           11/05/2012
USAAA       A-2013-0014-FMR      Update on Attestation Examination, Global Combat Support System-Army Release 1.1 Federal          11/16/2012
                                 Financial Management Improvement Act of 1996 Requirements—Compliance Validation (FOUO)
USAAA       A-2013-0017-FMR      General Fund Enterprise Business System—Vendor Pay                                                11/19/2012
USAAA       A-2013-0021-FMF      Yuma Proving Ground Financial Transaction Analysis (FOUO)                                         12/07/2012
USAAA       A-2013-0024-IEI      Residential Communities Initiative—Controls Over Purchase Order Expenditures, Fort Rucker and     12/17/2012
                                 Fort Drum
USAAA       A-2013-0026-IEE      Audit of Army Workers' Compensation Program—Death Benefit Cases                                   12/31/2012
USAAA       A-2013-0027-FMR      The Army Managers' Internal Control Program for FY 12, Office of the Deputy Chief of Staff, G-1   12/21/2012
USAAA       A-2013-0029-MTT      Audit of Operating Tempo Funds Use                                                                01/09/2013
USAAA       A-2013-0030-FMF      Audit of Reimbursable Operations of the Program Manager—Defense Communications and                01/07/2013
                                 Transmission Systems
USAAA       A-2013-0033-IEE      Actions Taken by the U.S. Army Corps of Engineers at Lake Cumberland, Kentucky                    01/24/2013
USAAA       A-2013-0036-IEF      Miscellaneous Adjustments to Military Pay, Army National Guard                                    01/29/2013
USAAA       A-2013-0039-FMR      Audit of General Fund Enterprise Business System—Vendor Pay Processing Issues                     01/22/2013
USAAA       A-2013-0040-IEO      Support to Operation Homefront                                                                    01/28/2013
USAAA       A-2013-0042-ALC      Defense Acquisition Workforce Development Fund Tax Payment                                        01/31/2013
USAAA       A-2013-0049-ALA      Examination of Army Suggestion Program Number NEPA08021M, Picatinny Arsenal, New Jersey           02/04/2013
USAAA       A-2013-0059-IEM      U.S. Army Fisher House Program Management, U.S. Army Medical Command                              03/08/2013
USAAA       A-2013-0060-FMF      National Science Center's Special Fund Financial Statement, Fort Belvoir, Virginia (FOUO)         03/01/2013
USAAA       A-2013-0062-FMF      Issues for Management Consideration, Audit of National Science Center's Special Fund Financial    03/05/2013
                                 Statement (FOUO)
USAAA       A-2013-0064-IEF      Audit of Referral Bonus Programs (FOUO)                                                           03/28/2013
USAAA       A-2013-0070-IEM      Attestation Examination of Army Suggestion Number SWSM09003C                                      03/18/2013
USAAA       A-2013-0078-IEO      Nonappropriated Fund Instrumentalities Risk Assessment (FOUO)                                     03/29/2013
USAAA       A-2013-0079-FMR      Audit of Metrics and Milestones of Army Audit Readiness                                           03/29/2013
NAVAUDSVC   N2013-0002           Independent Attestation - Agreed-Upon Procedures Attestation Engagement of Assessing              11/07/2012
                                 Internal Controls over Financial Reporting in the Department of the Navy, Phase 3
NAVAUDSVC   N2013-0010           Information Technology and Audio-Visual Asset Accountability at Selected Hospitals within Navy    01/15/2013
                                 Medicine West
NAVAUDSVC   N2013-0014           Bureau of Medicine and Surgery Government Commercial Purchase Card Program                        02/12/2013
AFAA        F-2013-0001-L10000   United States Property and Fiscal Officer Program                                                 10/16/2012
AFAA        F-2013-0003-L10000   Debt Remission, Phase II                                                                          10/26/2012
AFAA        F-2013-0004-L10000   Civilian Pay Process - Job Order Cost Accounting System                                           12/14/2012
AFAA        F-2013-0001-L20000   Memorandum Report of Audit, Automated Business Services System Accounting Conformance             11/27/2012
AFAA        F-2013-0002-O10000   Memorandum Report of Audit, Air Force - Integrated Personnel and Pay System Accounting            10/22/2012
                                 Conformance
AFAA        F-2013-0003-O10000   Memorandum Report of Audit, Reliability and Maintainability Information System Application        10/22/2012
                                 Controls
AFAA        F-2013-0004-O10000   Memorandum Report of Audit, Financial Inventory Accounting and Billing System Accounting          10/22/2012
                                 Conformance



                                                                                                                 OCTOBER 1, 2012 TO MARCH 31, 2013 109
Appendix A
Agency        Report Number             Report Title                                                                                        Date
AFAA          F-2013-0006-O10000        Memorandum Report of Audit, Comprehensive Engine Management System Controls                         11/20/2012
AFAA          F-2013-0007-O10000        Memorandum Report of Audit, Financial Inventory Accounting and Billing System Application           11/20/2012
                                        Controls
AFAA          F-2013-0008-O10000        Memorandum Report of Audit, Defense Enterprise Accounting and Management System                     12/11/2012
                                        Accounting Conformance
AFAA          F-2013-0009-O10000        Memorandum Report of Audit, Reliability, Availability, Maintainability Support System for           01/03/2013
                                        Electronic Combat Pods - Application Controls
AFAA          F-2013-0011-O10000        Memorandum Report of Audit, Integrated Missile Database System Application Controls                 01/15/2013
AFAA          F-2013-0012-O10000        Memorandum Report of Audit, Automated Civil Engineer System - Real Property Accounting              01/23/2013
                                        Conformance
AFAA          F-2013-0013-O10000        Memorandum Report of Audit, NexGen Information Technology Accounting Conformance                    02/13/2013
AFAA          F-2013-0014-O10000        Memorandum Report of Audit, Cargo Movement Operation System Accounting Conformance                  02/13/2013
AFAA          F-2013-0015-O10000        Air Force Global Logistics Support Center Unliquidated Obligations                                  03/08/2013
AFAA          F-2013-0001-O20000        Interim Report of Audit, Creech Air Force Base, Nevada, Electric Utilities Privatization Economic   10/01/2012
                                        Analysis
AFAA          F-2013-0002-O20000        Interim Report of Audit, Columbus Air Force Base, Mississippi, Electric Utilities Privatization     10/01/2012
                                        Economic Analysis
AFAA          F-2013-0005-O20000        Fiscal Year 2012 Utilities Privatization Economic Analyses                                          10/24/2012
AFAA          F-2013-0001-O40000        Unemployment Compensation Program                                                                   10/19/2012
AFAA          F-2013-0004-O40000        Civilian Classification Process                                                                     11/27/2012



Health Care
Agency        Report Number             Report Title                                                                                        Date
DoD IG        DODIG-2013-029            TRICARE Managed Care Support Contractors Program Integrity Units Met Contract Requirements          12/05/2012
USAAA         A-2013-0010-IEM           Deployment Health Assessments                                                                       11/05/2012
USAAA         A-2013-0012-IEM           U.S. Army Medical Command Ombudsman Program                                                         11/20/2012
USAAA         A-2013-0061-IEM           Initial Outfitting of Equipment at Military Treatment Facility Construction Projects, U.S. Army     03/01/2013
                                        Medical Command
AFAA          F-2013-0002-O40000        Medical Aspects of Contractor Deployments                                                           11/07/2012
AFAA          F-2013-0005-O40000        Contract Medical Service Personnel                                                                  11/28/2012
AFAA          F-2013-0006-O40000        Follow-up Audit, Mental Health Provider Productivity                                                02/20/2013



Information Assurance, Security and Privacy
Agency        Report Number             Report Title                                                                                        Date
DoD IG        DODIG-2013-035            Better Reporting and Certification Processes Can Improve Red Teams’ Effectiveness (Classified)      12/21/2012
DoD IG        DODIG-2013-036            Improvements are Needed to Strengthen the Security Posture of USACE, Civil Works, Critical          01/14/2013
                                        Infrastructure and Industrial Control Systems in the Northwestern Division (FOUO)
DoD IG        DODIG-2013-055            Improvements Needed With Wireless Intrusion Detection Systems at the Defense Logistics              03/13/2013
                                        Agency (FOUO)
DoD IG        DODIG-2013-060            Improvements Needed With Tracking and Configuring Army Commercial Mobile Devices                    03/26/2013
USAAA         A-2013-0003-MTP           Audit of Actions Taken to Implement Fort Hood Recommendations (FOUO)                                10/17/2012
USAAA         A-2013-0004-MTP           Audit of Army Actions Taken to Implement Fort Hood Recommendations (FOUO)                           11/01/2012
USAAA         A-2013-0018-FMI           Phoenix Eye (FOUO)                                                                                  11/30/2012
USAAA         A-2013-0023-FMT           Audit of Army Data Center Consolidation                                                             12/12/2012
USAAA         A-2013-0025-MTP           Army Headquarters-Level Actions to Implement Fort Hood Recommendations (FOUO)                       12/18/2012
USAAA         A-2013-0057-FMT           Storage and Servicing of Army Records                                                               03/06/2013



110 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                        Date
USAAA       A-2013-0063-MTP      Army Protection Program at Arsenals, Depots, and Plants, U.S. Army Materiel Command (FOUO)          03/06/2013
USAAA       A-2013-0065-IEO      Attestation Review of Data on Child, Youth, and School Services Personnel Suitability (FOUO)        03/08/2013
USAAA       A-2013-0072-FMI      Foreign Language Proficiency Bonus Pilot Program                                                    03/18/2013
NAVAUDSVC   N2013-0008           United States Marine Corps Intelligence-Related Emergency and Extraordinary Expense Funds           01/11/2013
NAVAUDSVC   N2013-0013           Business Process Reengineering Efforts for Selected Department of the Navy Business System          01/25/2013
                                 Modernizations
NAVAUDSVC   N2013-0016           Oversight of the Legacy Systems Replacement Process                                                 02/26/2013
AFAA        F-2013-0001-O10000   Information Technology Efficiencies Initiative Commercial Satellite Communications                  10/18/2012
AFAA        F-2013-0005-O10000   Enterprise Information Protection Capability                                                        10/26/2012
AFAA        F-2013-0010-O10000   Printer and Multifunction Device Management                                                         01/10/2013
AFAA        F-2013-0003-O20000   Follow-up Audit, Freedom of Information Act                                                         10/19/2012



Joint Warfighting and Readiness
Agency      Report Number        Report Title                                                                                        Date
DoD IG      DODIG-2012-034.4     Assessment of Afghan National Security Forces Metrics, Afghan National Army (ANA) March             02/20/2012
                                 2012-August 2012 (Classified)
DoD IG      DODIG-2013-019       Defense Institution Reform Initiative Program Elements Need to Be Defined                           11/09/2012
DoD IG      DODIG-2013-026       Supply Support Activities in Afghanistan Could Be Managed More Effectively to Improve               11/30/2012
                                 Inventory Accountability (FOUO)
DoD IG      DODIG-2013-030       Counterintelligence Screening Needed to Reduce Security Threat That Unscreened Local National       12/07/2012
                                 Linguists Pose to U.S. Forces (FOUO)
DoD IG      DODIG-2013-041       Assessment of the USAF Aircraft Accident Investigation Board (AIB) Report on the F‑22A Mishap       02/06/2013
                                 of November 16, 2010
DoD IG      DODIG-2013-058       Assessment of U.S. Efforts to Develop the Afghan National Security Forces Command, Control,         03/22/2013
                                 and Coordination System
USAAA       A-2013-0002-IEI      Audit of Real Property Planning and Analysis System, Fort Benning                                   10/12/2012
USAAA       A-2013-0005-MTE      Army Prepositioned Stocks, Southwest Asia (FOUO)                                                    11/07/2012
USAAA       A-2013-0008-ALM      Depot-Level Maintenance Workload Reporting—FY 11                                                    10/31/2012
USAAA       A-2013-0022-MTT      Audit of Managing Resource Requirements for TRADOC Institutional Training                           12/07/2012
USAAA       A-2013-0028-MTT      Training Support System Manning Models, Office of the Deputy Chief of Staff, G-3/5/7                12/20/2012
USAAA       A-2013-0031-ALM      Audit of Prepositioned Stock, Medical Materiel                                                      01/15/2013
USAAA       A-2013-0037-MTS      Force Structure for the Adjutant General Workforce                                                  01/15/2013
USAAA       A-2013-0041-ALE      Maintenance of Left Behind Equipment in Europe                                                      01/24/2013
USAAA       A-2013-0045-MTS      Resource Capabilities of Financial Management Enablers                                              02/08/2013
USAAA       A-2013-0046-MTS      Audit of Financial Management—Force Structure                                                       02/08/2013
USAAA       A-2013-0048-MTE      Materiel Management - Retrograde From Southwest Asia, U.S. Army Forces Command                      02/01/2013
USAAA       A-2013-0050-IEO      Audit of Service Cost Execution Process, U.S. Army Garrison Fort Lee, Notification of Potential     02/13/2013
                                 Antideficiency Act Violation (FOUO)
USAAA       A-2013-0052-MTE      Foreign Excess Property Programs (FOUO)                                                             03/04/2013
USAAA       A-2013-0053-FMP      Managing the Korean Service Corps Program, Eighth Army (FOUO)                                       02/14/2013
USAAA       A-2013-0055-IEI      Followup Audit of Base Realignment and Closure 2005 Construction Requirements, Armed Forces         02/25/2013
                                 Reserve Center, Camp Bullis, Texas
USAAA       A-2013-0056-MTE      Retrograde Sort Processes, Afghanistan (FOUO)                                                       02/26/2013
USAAA       A-2013-0058-ALS      Followup of Procurement Lead Times, U.S. Army Aviation and Missile Life Cycle Management            02/27/2013
                                 Command
USAAA       A-2013-0066-FMP      Manning the Missile Defense Site—Fort Greely (FOUO)                                                 03/11/2013
USAAA       A-2013-0067-MTE      Audit of Asset Visibility and Accountability During Retrograde (FOUO)                               03/14/2013



                                                                                                                   OCTOBER 1, 2012 TO MARCH 31, 2013 111
Appendix A

Agency        Report Number             Report Title                                                                                       Date
USAAA         A-2013-0069-ALS           Excess Spare Part Turn-In—Property Accountability Recovery Team Program                            03/25/2013
USAAA         A-2013-0071-ALA           Army Blast Standards—Program Executive Office Ground Combat Systems and Program                    03/14/2013
                                        Executive Office Combat Support and Combat Service Support (FOUO)
USAAA         A-2013-0073-IEO           Followup Audit of the Army Traffic Safety Training Program                                         03/20/2013
USAAA         A-2013-0074-IEO           Audit of Overseas Contingency Operations Resource Reporting—Notification of Purpose Statute        03/25/2013
                                        Violation
USAAA         A-2013-0075-MTH           Out of Service Debt—U.S. Army Reserve Command                                                      03/22/2013
USAAA         A-2013-0077-ALS           Followup Audit of Project Manager Assets, Bradley Fighting Vehicles                                03/26/2013
NAVAUDSVC     N2013-0017                Followup on Security Manning Requirements Implementation Plan                                      03/12/2013
AFAA          F-2013-0002-L20000        United States Air Forces Central Area of Responsibility Base-Level Inventory Management            02/26/2013
AFAA          F-2013-0002-L30000        United States Air Forces Central Area of Responsibility Purchasing                                 01/23/2013
AFAA          F-2013-0002-L40000        Mine Resistant Ambush Protected Vehicles                                                           01/29/2013
AFAA          F-2013-0003-L40000        Weapon System Equipment Allowance Standards                                                        02/07/2013
AFAA          F-2013-0006-L40000        Depot Due-In From Maintenance Asset Management                                                     03/15/2013
AFAA          F-2013-0001-O30000        International Aviation Partner Training                                                            10/24/2012
AFAA          F-2013-0002-O30000        Strategic Planning and Program Objective Memorandum Development (FOUO)                             12/14/2012
AFAA          F-2013-0003-O30000        Follow-up Audit, Pre-Positioned Mobility Bags                                                      02/08/2013
AFAA          F-2013-0003-O40000        Training and Equipping Expeditionary Airmen                                                        11/26/2012



Equipping and Training Iraq and Afghan Security Forces
Agency        Report Number             Report Title                                                                                       Date
DoD IG        DODIG-2013-005            Performance Framework and Better Management of Resources Needed for the Ministry of                10/23/2012
                                        Defense Advisors Program
DoD IG        DODIG-2013-040            Critical Information Needed to Determine the Cost and Availability of G222 Spare Parts (FOUO)      01/31/2013
DOD IG        DODIG-2013-053            Oversight of U.S. Military and Coalition Efforts to Improve Healthcare Conditions and to Develop   03/13/2013
                                        Sustainable Afghan National Security Forces Medical Logistics at the Dawood National Military
                                        Hospital
DoD IG        DODIG-2013-062            Policies and Procedures Needed to Reconcile Ministry of Defense Advisors Program                   03/28/2013
                                        Disbursements to Other DoD Agencies



Nuclear Enterprise
Agency        Report Number             Report Title                                                                                       Date
USAAA         A-2013-0043-MTP           Audit of the Army's Nuclear Reactor and Surety Programs (FOUO)                                     01/29/2013

AFAA          F-2013-0001-L40000        Follow-up Audit, Nuclear Weapons Related Materiel Inventory                                        12/14/2012



Investigative Oversight
Agency        Report Number             Report Title                                                                                       Date
DoD IG        DODIG-2013-033            Review of DoD Response to Noncompliant Crime Laboratory Analyses (Classified)                      12/21/2012

DoD IG        DODIG-2013-043            Evaluation of the Military Criminal Investigative Organizations’ Sexual Assault Investigation      02/28/2013
                                        Training




112 SEMIANNUAL REPORT TO THE CONGRESS
Other
 Agency         Report Number            Report Title                                                                                      Date
 DoD IG         DODIG-2013-001           Management Assessment of an Under Secretary of Defense for Intelligence Special Access            10/19/2012
                                         Program - Phase #2, (Classified)
 DoD IG         DODIG-2013-032           Audit of FY 2012 Intelligence Commercial Activities (Classified)                                  12/10/2012

 DoD IG         DODIG-2013-039           Defense Advanced Research Projects Agency’s Ethics Program Met Federal Government Standards       01/24/2013
 NAVAUDSVC      N2013-0001               Prioritization and Selection Process of Department of the Navy Aviation and Operational Safety    10/12/2012
                                         Concerns
 NAVAUDSVC      N2013-0004               Department of the Navy’s Military Construction Projects Proposed for Fiscal Year 2004             12/14/2012
 NAVAUDSVC      N2013-0005               Naval Station Guantanamo Bay Human Resources Office and Local National Employee Program           12/17/2012
 NAVAUDSVC      N2013-0009               Bachelor Housing Department at Naval Air Station Sigonella, Italy                                 01/11/2013
 NAVAUDSVC      N2013-0011               Navy Reserve Use of Per Diem                                                                      01/15/2013
 NAVAUDSVC      N2013-0015               Department of the Navy’s Proposed Fiscal Year 2013 Military Construction Projects Specific to     02/13/2013
                                         Romania
 NAVAUDSVC      N2013-0018               Recording and Tracking of Hotline Complaints in the Naval Inspector General Hotline Tracking      03/19/2013
                                         System
 NAVAUDSVC      N2013-0019               Gift Acceptance at Marine Corps University                                                        03/26/2013

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a) (6).




                                                                                                                         OCTOBER 1, 2012 TO MARCH 31, 2013 113
Appendix B




Reports Containing Potential
Monetary Benefits

                                                                                                                  Potential Monetary Benefits
                                                                                                                                 Funds Put to Better
                                  Reports Issued                                              Date           Questioned Costs
                                                                                                                                        Use

  DODIG-2013-006 Defense Logistics Agency Could Improve Its Oversight of the
                                                                                           10/17/2012             $200,224                     N/A
  Maintenance, Repair, and Operations Prime Vendor Contract for Korea (FOUO)

  DODIG-2013-007 Award and Administration of Multiple Award Contracts at
                                                                                           10/24/2012             $556,590                     N/A
  Naval Facilities Engineering Command Specialty Centers Need Improvement
  DODIG-2013-015 Actions to Align Defense Contract Management Agency and
                                                                                           11/13/2012                  N/A            $249,100,000
  Defense Contract Audit Agency Functions
  DODIG-2013-025 Accountability Was Missing for Government Property
  Procured on the Army's Services Contract for Logistics Support of Stryker                11/26/2012                  N/A               $1,100,000
  Vehicles

  DODIG-2013-028 Contracting Improvements Still Needed in DoD’s FY 2011
                                                                                           12/04/2012                  N/A                 $338,577
  Purchases Made Through the Department of Veterans Affairs

  DODIG-2012-030R Contractor Compliance Varied with Classification of
                                                                                           01/18/2013              $98,305                     N/A
  Lobbying Costs and Reporting of Lobbying Activities (FOUO)
  DODIG-2013-040 Critical Information Needed to Determine the Cost and
                                                                                           01/23/2012                  N/A          $1,030,000,000
  Availability of G222 Spare Parts (FOUO)
    Total                                                                                                        $855,119          $1,280,538,577


▶ Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(6) (See Appendix A).




114 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                         Appendix C




                                                                                                    Followup Activities
Decision status of DoD IG issued audit, inspection, and evaluation reports and dollar value of recommendations that funds be put to
better use

                                                                                                                             Funds Put
                                              Status                                            Number                    to Better Use 1
                                                                                                                         ($ in thousands)
      A.	       For which no management decision had been made by the beginning of the
                                                                                                    47                       $2,639,723
                reporting period.
      B.	       Which were issued during the reporting period.                                      64                       $1,281,394
               Subtotals (A+B)                                                                     111                       $3,921,117
      C.	       For which a management decision was made during the reporting period.                91                      $3,921,117
                  (i)	 dollar value of recommendations that were agreed to by management.
                  	 - based on proposed management action
                  	 - based on proposed legislative action
                  (ii)	 dollar value of recommendations that were not agreed to by                                           $3,921,1172
                  	management.

      D.	       For which no management decision has been made by the
                                                                                                     20                               $0
                end of the reporting period.

               Reports for which no management decision was made within 6 months of
                                                                                                      23                              $0
               issue (as of March 31, 2013)

1.	         DoD IG issued audit reports during the period involving $855,119 in “questioned costs.”
2.	         On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary benefits cannot be deter-
            mined until those actions are completed.
3.	         DODIG-2012-057, Guidance Needed to Prevent Military Construction Projects From Exceeding the Approved Scope of Work; and
            DODIG-2012-098, Controls Governing the Procurement Automated Contract Evaluation System Need Improvement had no decision as of March
            31, 2013, but action to achieve a decision is in process.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(8),(9), & (10).




                                                                                                                  OCTOBER 1, 2012 TO MARCH 31, 2013 115
Status of action on central internal audits period ending March 31, 2013

                                                                                                                                    Funds Put
                                               Status                                                    Number                  to Better Use1
                                                                                                                                ($ in thousands)

      DoD IG
          Action in Progress - Beginning of Period                                                            128                          $0
          Action Initiated - During Period                                                                     94   2
                                                                                                                                   $3,921,117
          Action Completed - During Period                                                                     68                   $932,800
          Action in Progress - End of Period                                                                  154                          $0 3
      Military Departments
          Action in Progress - Beginning of Period                                                            601                  $6,007,136
          Action Initiated - During Period                                                                    149                  $1,741,420
          Action Completed - During Period                                                                    162                   $100,271
          Action in Progress - End of Period                                                                  588                  $6,982,012

1.	     DoD IG opened audit reports during the period involving $855,119 in “questioned costs.”
2.	     Adjusted for three re-opened reports.
3.	     On certain reports (primarily from prior periods) with audit estimated monetary benefits of $3.4 billion, DoD IG agreed that the resulting mon-
        etary benefits can only be estimated after completion of management action, which is ongoing.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(b) (2) & (3).




116 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                          Appendix D




                                                                Contract Audit Reports Issued1
                                                                               Dollars               Questioned
                                                                             Examined                    Costs3              Funds Put to Better Use
                 Type of Audit2                     Reports Issued
                                                                           ($ in millions)          ($ in millions)              ($ in millions)
  Incurred Costs, Ops Audits, Special Audits               1,707               $18,473.4                $1,772.3                        $8.3 4
  Forward Pricing Proposals                                 595                $34,830.8                     $0                    $3,187.7 5
  Cost Accounting Standards                                 263                   $103.7                  $118.6                        $0
  Defective Pricing                                            8                 (Note 6)                   $4.1                        $0
    Totals                                                2,573               $53,407.9                $1,895.0                    $3,196.0

Note 1. This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months that ended March
        31, 2013. This schedule includes any audits that DCAA performed on a reimbursable basis for other government agencies and the
        associated statistics may also be reported in other OIGs’ Semiannual Reports to the Congress. Both “questioned costs” and “funds
        put to better use” represent potential cost savings. Because of limited time between availability of management information
        system data and legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of reported
        data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication. In prior semiannual reporting
        periods, DCAA reported the total number of assignments completed. The total number of assignments completed during the
        six months that ended March 31, 2013 was 5,579. Some completed assignments do not result in a report issued because they are
        part of a larger audit or because the scope of the work performed does not constitute an audit or attestation engagement under
        generally accepted government auditing standards, so the number of audit reports issued is less than the total number of assign-
        ments completed.
Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
         •	 Incurred Costs: Audits of direct and indirect costs charged to government contracts to determine that the costs are reason-
             able, allocable and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
             Supplement and provisions of the contract. Also included under incurred cost audits are operations audits, which evaluate
             a contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and
             special audits, which include audits of terminations and claims.
         •	 Forward Pricing Proposals: Audits of estimated future costs of proposed contract prices, proposed contract change orders,
             costs for re-determinable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
         •	 Cost Accounting Standards: A review of a contractor’s cost impact statement required due to changes to disclosed practices,
             failure to consistently follow a disclosed or established cost accounting practice or noncompliance with a cost accounting
             standards regulation.
         •	 Defective Pricing: A review to determine whether contracts are based on current, complete and accurate cost or pricing data
             (Truth in Negotiations Act).
Note 3. Costs questioned represent costs that DCAA has questioned because they do not comply with rules, regulations, laws and/or
        contractual terms.
Note 4. Represents recommendations associated with operations audits where DCAA has presented to a contractor that funds could be
        used more effectively if management took action to implement cost reduction recommendations.
Note 5. Represents potential cost reductions that may be realized during contract negotiations.
Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated with the
        original forward pricing proposals.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 8(f)(1).




                                                                                                                   OCTOBER 1, 2012 TO MARCH 31, 2013 117
Appendix E




Status of Action on Post-
Award Contracts1
                                                                                               Costs Questioned6                  Costs Sustained7
                                                               Number of Reports
                                                                                                 ($ in millions)                   ($ in millions)
      Open Reports
          Within Guidelines2                                            487                          $1,844.0                            N/A8
          Overage, greater than 6 months3                               689                          $2,084.1                            N/A
          Overage, greater than 12 months    4
                                                                        541                          $1,267.9                            N/A
          In Litigation   5
                                                                        142                          $2,202.0                            N/A
      Total Open Reports                                              1,859                          $7,398.0                            N/A
      Closed Reports                                                    459                            $815.2                    $508.2 (62.3 percent)9
      All Reports                                                     2,318                          $8,213.2                    $508.2 (6.2 percent)

1.	     This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjustments, account-
        ing and related internal control systems, and noncompliance with the cost accounting standards as reported by DoD components. The status of
        action on significant post-award contract audits is reported in accordance with DoD Instruction 7640.02, Policy for Follow-up on Contract Audit
        Reports. Because of limited time between availability of the data and reporting requirements, there is minimal opportunity to verify the accuracy
        of the reported data.
2.	     These reports are within the time frames established by Office of Management and Budget Circular A-50, Audit Follow-up, and DoD Instruction
        7640.02, as described in footnotes 3 and 4 below.
3.	     OMB Circular A-50 requires that audit reports be resolved within six months after report issuance. Generally, an audit is resolved when the con-
        tracting officer determines a course of action which is documented and approved in accordance with agency policy.
4.	     DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally, disposition
        is achieved when the contractor implements audit recommendations, the contracting officer negotiates a settlement with the contractor or the
        contracting officer issues a final decision pursuant to the disputes clause.
5.	     Of the 142 reports in litigation, 41 are under criminal investigation.
6.	     Cost questioned represents the amount of audit exception, potential cost avoidance or recommended price adjustment in the audit report.
7.	     Cost sustained represent the questioned costs, potential cost avoidance or recommended price adjustment sustained by the contracting officer.
8.	     Not applicable. Cost sustained occurs when an audit report has been closed during the reporting period and, as a result, would not be applicable
        when reporting data on open reports.
9.	     Contracting officers sustained $508.2 million (62.3 percent) of the $815.2 million questioned as a result of significant post-award contract audits
        during the period. The contracting officer sustention rate of 62.3 percent represents a decrease from the sustention rate of 66 percent for the prior
        reporting period.

▶ Fulfills requirement of DoD Instruction 7640.02, Policy for Follow-up on Contract Audit Reports, Enclosure 2, Section (1)(d).




 118 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                        Appendix F




                                                                                       Status of Reports with
                                                                                              Action Pending

Report: D-2006-077, DoD Security Clearance Process at Requesting Ac-         Reason Action Not Completed: The Army has coordinated the revi-
tivities, 4/19/2006                                                          sion of policy and guidance, which is expected to be published this
Description of Action: Update DoD Personnel Security Clearance Pro-          year. Requested systems changes to the Logistics Modernization Pro-
gram policies to include information on investigative responsibilities,      gram have not been funded.
security clearance systems, submission processes, levels of security         Principal Action Office: Army
clearances and training requirements.
Reason Action Not Completed: Current DoD guidance is dated Janu-             Report: D-2009-028, Organizational Structure and Managers Internal
ary 1987. Office of Management and Budget has delayed publication of         Control Program for the Assistant Secretary of Defense for Public Affairs
DoD Instruction 5200.2 as a final rule three times since DoD’s submis-       and American Forces Information Service, 12/10/2008
sion to OMB in September 2012. The most recent delay is to resolve           Description of Action: Investigate potential misuse of funds, improper
OMB’s categorization of the policy as a “significant rule” under Executive   contracting and statutory violations.
Order 12866, which requires further review, a ruling that DoD General        Reason Action Not Completed: The formal Antideficiency Act Viola-
Counsel is working to have reversed. Estimated completion date on            tion investigations are ongoing.
the related DoD Manual is 2014. Air Force guidance delayed due to in-        Principal Action Office: Assistant Secretary of Defense for Public Af-
creased workload supporting new personnel security efforts. Estimated        fairs
completion date is December 2013. Army Regulation 380-67 on hold
by Army Judge Advocate General pending publication of revised DoD            Report: D-2009-030, Marine Corps Implementation of the Urgent Uni-
guidance.                                                                    versal Needs Process for Mine Resistant Ambush Protected Vehicles,
Principal Action Office: Under Secretary of Defense for Intelligence,        12/5/2008
Army, Air Force                                                              Description of Action: Report is FOUO.
                                                                             Reason Action Not Completed: Marine Corps action was on hold
Report: D-2008-066, FY 2006 and FY 2007 DoD Purchases Made                   pending Joint Staff issuing revised guidance. Joint Staff issued revised
Through the Department of the Interior, 3/19/2008                            guidance in January 2012. Marine Corps has not yet updated their guid-
Description of Action: Publish guidance/manual to address deficien-          ance.
cies in interagency acquisitions on the proper use of non-DoD con-           Principal Action Office: Marine Corps
tracts.
Reason Action Not Completed: Delayed draft directive pending deci-           Report: D-2009-051, Controls Over Time and Attendance Reporting at
sion regarding future use of directives within the Department of Army;       the National Geospatial-Intelligence Agency, 2/9/2009
reformatted draft directive as a manual/appendix to the Army’s FAR           Description of Action: Revise guidance to improve internal controls
Supplement; revised guidance for issuance as a principal assistant re-       over time and attendance, especially the use of overtime and compen-
sponsible for contracting policy alert, which is in staffing.                satory time.
Principal Action Office: Army                                                Reason Action Not Completed: Awaiting the issuance of the final Na-
                                                                             tional Geospatial-Intelligence Agency instruction addressing time and
Report: D-2008-089, Planning Armor Requirements for the Family of            attendance.
Medium Tactical Vehicles, 5/9/2008                                           Principal Action Office: National Geospatial-Intelligence Agency
Description of Action: Update the capabilities documents for the
FMTV to include armor kit requirements. Once these requirements are          Report: D-2009-059, Air Force Management of the U.S. Government
approved, document plans for issuance of the armor kits.                     Aviation Into-Plane Reimbursement Card® Program, 3/6/2009
Reason Action Not Completed: Although action was initiated in late           Description of Action: Develop Air Force specific guidance and proce-
2008, Army has yet to establish validated armor kit requirements for         dures on the use of the Aviation Into-Plane Reimbursement Card. De-
the FMTV.                                                                    velop a training program to ensure training for all personnel involved in
Principal Action Office: Army                                                Aviation Into-Plane Reimbursement functions.
                                                                             Reason Action Not Completed: Coordination and approval pending
Report: D-2008-090, Controls Over Reconciling Army Working Capital           from required agencies.
Fund Inventory Records, 5/13/2008                                            Principal Action Office: Air Force
Description of Action: The Army is updating its regulations, policies
and procedures for performing the annual and end-of-day inventory
reconciliations.

                                                                                                                OCTOBER 1, 2012 TO MARCH 31, 2013 119
Appendix F

Report: D-2009-062, Internal Controls Over DoD Cash and Other Mon-       sion assignments, on the legal employment of surveillance by DoD as-
etary Assets, 3/25/2009                                                  sets providing assistance to civil authorities and on specific events for
Description of Action: Improve internal controls over cash and other     command and control handoff guidance.
monetary assets by establishing a special control account, developing    Reason Action Not Completed: Extensive time required to develop,
policies and procedures, and monitoring cash usage. Develop noncash      coordinate and implement the guidance.
methods of payment for contingency operations.                           Principal Action Office: Joint Chiefs of Staff, USD(C)
Reason Action Not Completed: Corrective actions cannot be imple-
mented until coordination with the OMB and/or the Department of the      Report: D-2010-024, Contracted Advisory and Assistance Services for
Treasury is complete. Extensive coordination needed between DoD and      the U.S. Army Future Combat Systems, 11/24/2009
its components, and with Treasury and OMB.                               Description of Action: Report is FOUO.
Principal Action Office: USD(C), DFAS                                    Reason Action Not Completed: Extensive time required to coordinate
                                                                         and issue guidance.
Report: D-2009-064, FY 2007 DoD Purchases Made Through the Na-           Principal Action Office: USD(AT&L)
tional Institutes of Health, 3/24/2009
Description of Action: Develop mandatory training to address how         Report: D-2010-026, Joint Civilian Orientation Conference Program,
the rules and regulations governing multiple-award contracts differ      12/9/2009
from those governing the General Services Administration’s Federal       Description of Action: Update DoD Instruction 5410.19 to clarify how
Supply Schedules, including the award and administration of task and     to administer and manage the Joint Civilian Orientation Conference
delivery orders.                                                         program. Initiate a preliminary Antideficiency Act review of the use of
Reason Action Not Completed: Updating policy and processing Fed-         Joint Civilian Orientation Conference fees received since the inception
eral Acquisition Regulation changes takes time. Developing training      of the Miscellaneous Receipts Statute.
materials to be consistent with the FAR changes also takes time.         Reason Action Not Completed: Washington Headquarters Service
Principal Action Office: Under Secretary of Defense for Acquisition,     is appointing an investigator to conduct a formal investigation of the
Technology, and Logistics                                                reportable violation. A complete rewrite of DoD Instruction 5410.19 is
                                                                         underway.
Report: D-2009-072, Monitoring Power Track Payments for DoD Freight      Principal Action Office: Assistant Secretary of Defense for Public Af-
Transportation, 4/9/2009                                                 fairs, Washington Headquarters Services
Description of Action: Use data mining to monitor problematic pay-
ments for duplicate payment indicators.                                  Report: D-2010-028, Rapid Acquisition and Fielding of Materiel Solu-
Reason Action Not Completed: Enterprise Data Warehousing and da-         tions by the Navy, 12/15/2009
ta-mining solutions to assist with the pre-payment and post-payment      Description of Action: Report is FOUO.
processes will be analyzed and implemented through an internal-con-      Reason Action Not Completed: Long-term corrective actions are on-
trols effort sponsored by the Deputy Assistant Secretary of Defense      going.
(Transportation Policy) and DFAS. The estimated completion date was      Principal Action Office: Navy
February 2013.
Principal Action Office: USD(AT&L)                                       Report: D-2010-035, Defense Logistics Agency Contracts for M2 Ma-
                                                                         chine Gun Spare Parts in Support of Operations in Southwest Asia,
Report: D-2009-098, Status of the Defense Emergency Response Fund        1/11/2010
in Support of the Global War on Terror, 7/30/2009                        Description of Action: Evaluate the metrics used to manage the prod-
Description of Action: Review the Fund for Global War on Terror obli-    uct quality deficiency reporting process and update the DLA Joint Prod-
gations and de-obligate all unliquidated obligations, withdraw all ex-   uct Quality Deficiency Report instruction.
cess funds provided to DoD components, and transfer the funds to the     Reason Action Not Completed: Extensive time required to develop,
Treasury.                                                                coordinate and implement the guidance.
Reason Action Not Completed: Extensive time needed to coordinate         Principal Action Office: DLA
de-obligation of unliquidated obligations, withdrawal of excess funds
and transference of funds to the Treasury.                               Report: D-2010-036, Controls Over Navy Military Payroll Disbursed in
Principal Action Office: USD(C)                                          Support of Operations in Southwest Asia at San Diego-Area Disbursing
                                                                         Centers, 1/22/2010
Report: D-2009-104, Sanitization and Disposal of Excess Information      Description of Action: Develop an electronic storage capability for
Technology Equipment, 9/21/2009                                          supporting documentation.
Description of Action: DoD CIO is updating DoD Instruction 8500.01       Reason Action Not Completed: Navy plans to commence the Training
and DoD Instruction 8510.01.                                             Requirements and Information Management System implementation
Reason Action Not Completed: Extended time is required for revision      within the U.S. was delayed until January 2013. The newest version of
of DoD guidance series.                                                  Training Requirements and Information Management System cannot
Principal Action Office: DoD CIO                                         interface with overseas activities, and there is currently no overseas
                                                                         implementation schedule.
Report: D-2010-015, DoD Civil Support During the 2007 and 2008 Cali-     Principal Action Office: Navy
fornia Wildland Fires, 11/13/2009
Description of Action: Update DoD and joint guidance to add clarity      Report: D-2010-043, Deferred Maintenance and Carryover on the Army
to the process of staffing Federal Emergency Management Agency mis-      Abrams Tank, 3/2/2010

120 SEMIANNUAL REPORT TO THE CONGRESS
Description of Action: Report is FOUO.                                      sistance. ACC-Aberdeen Proving Ground and White Sands Missile Range
Reason Action Not Completed: The proposed change has been incor-            will review contracts and task orders. DCAA will conduct incurred-cost
porated into the revised Financial Management Regulation, which is          audits on the contractor for FY 2006 and FY 2007. ACC will pursue a
expected this summer.                                                       refund from the contractor, if appropriate.
Principal Action Office: USD(C)                                             Reason Action Not Completed: Army Contracting Command and
                                                                            DCAA have not completed reviews of task orders and audits of incurred
Report: D-2010-048, DoD Methodology for the Valuation of Excess, Ob-        costs.
solete, and Unserviceable Inventory and Operating Materials and Sup-        Principal Action Office: Army
plies, 3/25/2010
Description of Action: Develop methodologies for estimating net real-       Report: D-2010-086, Utility Tax Relief Program in Germany, 9/29/2010
izable value of excess, obsolete, and unserviceable inventory, operating    Description of Action: Develop regulatory guidance requiring eligible
material and supplies, munitions, and missiles.                             civilian personnel to participate in the Utility Tax Avoidance Program in
Reason Action Not Completed: Reorganization within the office and           Germany and develop a standard form to prove participation or ineligi-
developing methodologies for different assets takes time to complete.       bility for the program.
Principal Action Office: USD(C)                                             Reason Action Not Completed: Long-term corrective actions are pro-
                                                                            gressing.
Report: D-2010-051, Defense Contract Management Agency Acquisi-             Principal Action Office: Under Secretary of Defense for Personnel and
tion Workforce for Southwest Asia, 4/8/2010                                 Readiness
Description of Action: Revise DoD Instruction 5000.66 to require mili-
tary departments and defense agencies to develop guidance to iden-          Report: D-2011-020, DoD Controls Over Information Placed on Publicly
tify acquisition, technology and logistics workforce requirements in ac-    Accessible Web Sites Require Better Execution, 11/29/2010
cordance with other DoD instructions and the Financial Management           Description of Action: Expand distribution of operations security and
Regulation.                                                                 threat assessment reports on DoD publicly accessible Web sites to the
Reason Action Not Completed: Extensive time required to revise and          DoD CIO and Office of the Under Secretary of Defense for Intelligence.
coordinate instructions/guidance.                                           Reason Action Not Completed: Extensive time required to revise and
Principal Action Office: USD(AT&L)                                          coordinate the Joint Web Risk Assessment Cell Report.
                                                                            Principal Action Office: Defense Information Systems Agency
Report: D-2010-065, Validity and Security of Selected DoD Civilian Em-
ployee Accounts (U), 5/25/2010                                              Report: D-2011-028, Contract Oversight for the Broad Area Maritime
Description of Action: Report is Classified                                 Surveillance Contract Needs Improvement, 12/23/2010
Reason Action Not Completed: Extensive time required to review and          Description of Action: Develop an agency improvement policy that
validate potentially invalid accounts and apply corrections.                will require all letters of delegation be modified to include necessary
Principal Action Office: DFAS                                               surveillance and inspection requirements.
                                                                            Reason Action Not Completed: Extensive time required to develop
Report: D-2010-069, Central Issue Facility at Fort Benning and Related      and coordinate guidance.
Army Policies, 6/21/2010                                                    Principal Action Office: DCMA
Description of Action: Improve the process for recovering organiza-
tional clothing and individual equipment items from civilians and con-      Report: D-2011-037, Marine Corps Response to Nonlethal Laser Dazzler
tractor employees on completion of their mission.                           Urgent Request, 2/9/2011
Reason Action Not Completed: Long-term corrective actions are on-           Description of Action: Perform a review of the circumstances that led
going.                                                                      to the purchase of the 28 Compact High Power Laser Dazzlers and initi-
Principal Action Office: USD(AT&L)                                          ate administrative action, if appropriate.
                                                                            Reason Action Not Completed: Competing management priorities.
Report: D-2010-078, Air Force Use of Time-and-Materials Contracts in        Principal Action Office: Navy
Southwest Asia, 8/16/2010
Description of Action: Air Force Center for Engineering and the Envi-       Report: D-2011-043, Improvements Needed on the Fleet Industrial
ronment will review invoices for time-and-materials task orders; will re-   Supply Center, Sigonella, Ship Maintenance Contracts in Southwest
quest DCAA audit assistance; and will obtain reimbursements for incor-      Asia, 2/22/2011
rect charges with attention to $24.3 million for labor charges invoiced     Description of Action: Develop a standard operating procedure that
by the contractors but not authorized by the task orders.                   will stipulate the surveyor/contracting officer’s representatives’ respon-
Reason Action Not Completed: The Air Force Center for Engineer-             sibilities to include organization and required documentation of sur-
ing and the Environment has not received funds they requested from          veyor files.
U.S. Forces- Iraq to conduct the review. Defense Contract Audit Agency      Reason Action Not Completed: Extensive time required to finalize
work is ongoing.                                                            guidance.
Principal Action Office: Air Force                                          Principal Action Office: Navy

Report: D-2010-081, Army Use of Time-and-Materials Contracts in
Southwest Asia, 8/27/2010
Description of Action: The Army Contracting Command will establish
a plan for reviewing invoices for 18 contracts and will request DCAA as-

                                                                                                                OCTOBER 1, 2012 TO MARCH 31, 2013 121
Appendix F

Report: D-2011-047, Improvements Needed in Contract Administration          Description of Action: Develop a training program to inform contract-
of the Subsistence Prime Vendor Contract for Afghanistan, 3/2/2011          ing personnel of the suspension and debarment program and the pro-
Description of Action: DLA will modify contracts to incorporate fair        cess for referring poorly performing contractors.
and reasonable prices, compute and recover overpayments, and cor-           Reason Action Not Completed: Long-term corrective actions are in
rect a fiscal year appropriations billing error.                            process.
Reason Action Not Completed: Corrective actions are on schedule.            Principal Action Office: USD(AT&L)
Principal Action Office: DLA
                                                                            Report: D-2011-089, Reducing Vulnerabilities at the Defense Informa-
Report: D-2011-060, Marine Corps Inventory of Small Arms Was Gener-         tion Systems Agency Defense Enterprise Computing Centers, 7/22/2011
ally Accurate but Improvements Are Needed for Related Guidance and          Description of Action: Report is FOUO.
Training, 4/22/2011                                                         Reason Action Not Completed: Extensive time required to coordinate
Description of Action: Update Marine Corps Order 8300.1C to include         and implement corrective actions.
additional guidance for small arms accountability.                          Principal Action Office: Defense Information Systems Agency
Reason Action Not Completed: Extensive time required to update, re-
view and issue guidance.                                                    Report: D-2011-090, Cost War Data for Marine Corps Contingency Op-
Principal Action Office: Navy                                               erations Were Not Reliable, 7/22/2011
                                                                            Description of Action: Update Marine Corps Order 7300.21A, Marine
Report: D-2011-061, Excess Inventory and Contract Pricing Problems          Corps Financial Management Standard Operating Procedure Manual,
Jeopardize the Army Contract with Boeing to Support the Corpus Chris-       Oct. 2, 2008.
ti Army Depot, 5/3/2011                                                     Reason Action Not Completed: Extensive time required to update, re-
Description of Action: Perform an annual review of a sample of high-        view, and issue guidance.
risk, high-dollar parts to validate the individual prices before exercis-   Principal Action Office: Navy
ing follow-on orders. Issue policy memorandum reminding contracting
officers to use fixed-price incentive contracts in accordance with FAR      Report: D-2011-096, Improvements Are Needed to the DoD Informa-
16.403(b).                                                                  tion Assurance Vulnerability Management Program, 8/12/2011
Reason Action Not Completed: Long-term corrective actions are still         Description of Action: Report is FOUO.
ongoing.                                                                    Reason Action Not Completed: Extensive time required to coordinate
Principal Action Office: USD(AT&L), Army                                    and issue final policy guidance.
                                                                            Principal Action Office: DoD CIO, Joint Chiefs of Staff, U.S. Strategic
Report: D-2011-071, U.S. Air Force Academy Could Have Significantly         Command
Improved Planning, Funding, and Initial Execution of the American Re-
covery and Reinvestment Act Solar Array Project, 6/16/2011                  Report: D-2011-099, Additional Actions Needed to Mitigate Risks of
Description of Action: Determine accountability for the categoriza-         Unsuitable life Insurance Sales to Junior Enlisted service Members,
tion of Recovery Act solar array project costs as a utility company con-    8/23/2011
nection charge.                                                             Description of Action: Military services to update financial training in
Reason Action Not Completed: An Air Force Antideficiency Act inves-         an effort to increase junior enlisted service members’ awareness regard-
tigation delayed referral of the case to the OUSD(C) for a decision on      ing the need for, and value of, filing complaints for deceptive or abusive
whether or not a reportable Antideficiency Act violation occurred.          life insurance marketing practices and unsuitable insurance products.
Principal Action Office: Air Force                                          Reason Action Not Completed: The services are strengthening train-
                                                                            ing to highlight filing complaints for deceptive or abusive life insurance
Report: D-2011-077, Improved Management Can Reduce Costs of the             marketing practices.
Maintenance, Repair, and Operations Prime Vendor Contract for the Re-       Principal Action Office: Under Secretary of Defense for Personnel and
public of Korea, 6/24/2011                                                  Readiness
Description of Action: Report is FOUO.
Reason Action Not Completed: Several amendments to the contract             Report: D-2011-101, Controls Over Army Deployable Disbursing Sys-
were required and additional processing time was needed.                    tem Payments Need Improvement, 8/19/2011
Principal Action Office: DLA                                                Description of Action: Publish guidance on how to properly docu-
                                                                            ment and control changes to DoD databases.
Report: D-2011-080, DoD and DoS Need Better Procedures to Moni-             Reason Action Not Completed: Additional time required to coordi-
tor and Expend DoD Funds for the Afghan National Police Training Pro-       nate and issue guidance.
gram, 7/7/2011                                                              Principal Action Office: USD(C)
Description of Action: DCAA will conduct audit work to verify that
DynCorp did not double-bill claimed costs under DoD and Department          Report: D-2011-104, Pricing and Escalation Issues Weaken the Effec-
of State contracts from Dec. 30, 2010, through July 15, 2011.               tiveness of the Army Contract With Sikorsky to Support the Corpus
Reason Action Not Completed: Corrective actions are on schedule.            Christi Army Depot, 9/8/2011
Principal Action Office: DCAA                                               Description of Action: Office of the Under Secretary of Defense for
                                                                            Acquisition, Technology, and Logistics will issue guidance emphasiz-
Report: D-2011-083, Additional Actions Can Further Improve the DoD          ing cost analysis. DCMA will identify the Sikorsky purchasing system as
Suspension and Debarment Process, 7/14/2011                                 high risk and perform a review to determine improvements that can be
                                                                            made. Army will improve contracting procedures for pricing and pro-

122 SEMIANNUAL REPORT TO THE CONGRESS
curement, and obtain refunds from Sikorsky for pricing and excessive        Report: DODIG-2012-006, Counter Narcoterrorism Technology Pro-
escalation.                                                                 gram Office Task Orders Had Excess Fees, and the Army Was Incorrectly
Reason Action Not Completed: Long-term corrective actions are on-           Billed, 11/1/2011
going.                                                                      Description of Action: Deputy Assistant Secretary of the Army for Pro-
Principal Action Office: USD(AT&L), DCMA, Army                              curement will conduct a review of the contracting officers who over-
                                                                            saw Counter Narcoterrorism Technology Program Office contracts and
Report: D-2011-106, The Department of the Navy Spent Recovery Act           allowed excess fees to the contractor. The U.S. Army Space and Missile
Funds on Photovoltaic Projects That Were Not Cost-Effective, 9/22/2011      Command contracting office will meet with the contractor who re-
Description of Action: Develop comprehensive policy for planning,           ceived excess fixed fees in the amount of $77,014 to negotiate a return
prioritizing, selecting, and executing cost-effective shore energy proj-    of the funds.
ects in accordance with DoD and federal requirements.                       Reason Action Not Completed: The Office of the Deputy Assistant
Reason Action Not Completed: The Navy and the Marine Corps are              Secretary of the Army for Procurement has not yet conducted a review
developing planning and implementation guidance.                            of the contracting officers who oversaw Counter Narcoterrorism Tech-
Principal Action Office: Navy, Marine Corps                                 nology Program Office contracts and allowed excess fixed fees to the
                                                                            contractor. The U.S. Army Space and Missile Command contracting of-
Report: D-2011-107, Improvements Needed in Procedures for Certify-          fice has not yet modified contracts to correct billing fees.
ing Medical Providers and Processing and Paying Medical Claims in the       Principal Action Office: Army
Philippines, 9/9/2011
Description of Action: Assistant Secretary of Defense (Health Affairs) is   Report: DODIG-2012-007, Acquisition of the Multi-Platform Radar
implementing recommendations to improve the certification of medi-          Technology Insertion Program Needs Transparency and Accountability,
cal providers and the claims payment process in the Philippines.            4/11/2012
Reason Action Not Completed: Policy manual needs to be updated.             Description of Action: Direct the Air Force to update the Acquisition
Principal Action Office: Assistant Secretary of Defense (Health Affairs)    Strategy before Milestone C, submit a capability production document
                                                                            in the acquisition decision memorandum, and update the Multi-Plat-
Report: D-2011-108, Geothermal Energy Development Project at Naval          form Radar Technology Insertion Program/Global Hawk Block 40 Test
Air Station Fallon, Nevada, Did Not Meet Recovery Act Requirements,         and Evaluation Master Plan.
9/19/2011                                                                   Reason Action Not Completed: Corrective actions are on schedule.
Description of Action: Establish a timeline for project completion and      Principal Action Office: USD(AT&L)
then determine if the project is still a valid use of Recovery Act funds.
Reason Action Not Completed: Corrective actions are on schedule.            Report: DODIG-2012-017, U.S. Naval Academy Officials Did Not Adhere
Principal Action Office: Navy                                               to Contracting and Gift Policies, 11/7/2011
                                                                            Description of Action: The U.S. Naval Academy will revise guidance,
Report: D-2011-111, Guidance for Petroleum War Reserve Stock Needs          improve controls, and implement computer software systems covering
Clarification (U), 9/27/2011                                                in-kind gifts and sponsorship funds
Description of Action: Report is Classified.                                Reason Action Not Completed: Corrective actions are being imple-
Reason Action Not Completed: Corrective actions are on schedule.            mented on schedule.
Principal Action Office: USD(AT&L), Joint Chiefs of Staff                   Principal Action Office: Navy

Report: D-2011-115, DoD Cannot Ensure Contractors Protected                 Report: DODIG-2012-023, Management Improvements Needed
Controlled Unclassified Information for Weapon Systems Contracts,           in Commander’s Emergency Response Program in Afghanistan,
9/30/2011                                                                   11/21/2011
Description of Action: Report is FOUO.                                      Description of Action: Develop guidance to ensure the local com-
Reason Action Not Completed: Extensive time needed to analyze               mands continue to pursue debt collection and conduct investigations
public comments and issue a final rule.                                     on contractor debt pertaining to Commander’s Emergency Response
Principal Action Office: USD(AT&L)                                          Program projects.
                                                                            Reason Action Not Completed: Additional time required to coordi-
Report: DODIG-2012-004, Changes Are Needed to the Army Contract             nate and issue revised guidance.
With Sikorsky to Use Existing DoD Inventory and Control Costs at the        Principal Action Office: U.S. Central Command
Corpus Christi Army Depot, 11/3/2011
Description of Action: Army will develop a plan to improve use of ex-       Report: DODIG-2012-026, Air Force Can Improve Controls Over Base
isting inventory and source of supply; will obtain refunds from Sikor-      Retail Inventory, 11/23/2011
sky for a materiel cost reduction incentive and for excessive profits on    Description of Action: Improve oversight on the completion of re-
purchases from Defense Logistics Agency; and contracting personnel          quired physical inventories, documentation supporting inventory ad-
will improve contracts related to materiel cost reduction incentives and    justments and storage practices.
purchases from DLA to prevent Sikorsky from making excessive profits.       Reason Action Not Completed: Long-term corrective actions are pro-
Reason Action Not Completed: Long-term corrective actions are on-           gressing.
going.                                                                      Principal Action Office: Air Force
Principal Action Office: Army




                                                                                                              OCTOBER 1, 2012 TO MARCH 31, 2013 123
Report: DODIG-2012-036, DoD Needs to Improve Accountability and              Description of Action: Report is FOUO.
Identify Costs and Requirements for Non-Standard Rotary Wing Air-            Reason Action Not Completed: Multiple systems and configuration
craft, 1/5/2012                                                              processes that are needed are ongoing.
Description of Action: Report is FOUO                                        Principal Action Office: U.S. Cyber Command, Defense Information
Reason Action Not Completed: Corrective actions are on schedule.             Systems Agency
Principal Action Office: USD(AT&L)
                                                                             Report: DODIG-2012-058, Distribution of Funds and Mentoring of
Report: DODIG-2012-039, Summary Report on DoD’s Management of                Finance Officers for the Afghanistan National Army Payroll Need Im-
Undefinitized Contractual Actions, 1/13/2012                                 provement, 2/29/2012
Description of Action: Develop a transparent means to document in-           Description of Action: Develop control procedures for the payroll pro-
curred costs and reduced cost risk related to substantial incurred costs     cess and for Afghan National Army payroll auditing and mentoring.
during undefinitized periods.                                                Reason Action Not Completed: Ongoing discussions with DFAS to re-
Reason Action Not Completed: The original Defense Federal Acqui-             view payroll controls and determine which controls are applicable and
sition Regulation Supplement case has been subsumed under a new              can be effectively adopted.
Defense Federal Acquisition Regulation Supplement case to address a          Principal Action Office: U.S. Central Command
broader effort to review and modify the Department’s profit guidelines.
Principal Action Office: USD(AT&L)                                           Report: DODIG-2012-064, Vulnerability and Risk Assessments Needed
                                                                             to Protect Defense Industrial Base Critical Assets, 3/13/2012
Report: DODIG-2012-049, Improvement Needed With Identifying                  Description of Action: Report is FOUO
Operating Costs Assessed to the Fleet Readiness Center Southwest,            Reason Action Not Completed: Corrective actions are on schedule.
2/2/2012                                                                     Principal Action Office: USD(P)
Description of Action: DLA Aviation San Diego and DLA Finance will
collaborate with Fleet Readiness Center Southwest to establish a sup-        Report: DODIG-2012-066, General Fund Enterprise Business System
port agreement to clearly define DLA Aviation San Diego roles and            Did Not Provide Required Financial Information, 3/26/2012
responsibilities: supply, storage, and distribution services to be per-      Description of Action: Implement corrective actions to address the
formed; as well as cost associated with the agreed-on services.              Standard Financial Information Structure gaps as reported in the Gen-
Reason Action Not Completed: Support agreement is being finalized            eral Fund Enterprise Business System.
and signature is expected by April 30, 2013.                                 Reason Action Not Completed: Corrective actions are on schedule.
Principal Action Office: DLA                                                 Principal Action Office: Army

Report: DODIG-2012-050, Improvements Needed With Host-Based In-
trusion Detection Systems, 2/3/2012
▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(b)(4).




124 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                   Appendix G




                                                                                        Contract Audits
                                                                               with Significant Findings

DoD IG
Audit Report No. DODIG-2013-025                                          Date: Nov. 30, 2012
Subject: Accountability Was Missing For Government Property Procured on the Army’s Services Contract for Logistics Support of Stryker Vehicles
Report: $1.1 Million in Funds Put to Better Use
DoD IG identified government property (Army-owned inventory), valued at about $892.3 million, that was not being valued or traced in Army
property accountability systems or on the financial statements. The Program Management Office for Stryker Brigade Combat Team inappro-
priately treated the inventory as contractor-acquired property instead of government property. As a result, Program Management Office for
Stryker Brigade Combat Team officials did not comply with DoD and Army regulations on fiduciary responsibility over government property
and statutory requirements for improving inventory management practices. Additionally, the review of 21 high-dollar parts, valued at $85.1
million, showed that 16 parts had excess Stryker inventory of $72.7 million that could be either disposed of ($58.0 million) or potentially used
on other contracts ($14.7 million). During the audit, DoD IG identified 170 empty engine containers, valued at $1.1 million, that the contractor
determined could be used to store a different engine, thereby reducing future requirements.


Audit Report No. DODIG-2013-040                                          Date: Jan. 31, 2013
Subject: Critical Information Needed to Determine the Cost and Availability of G222 Spare Parts
Report: $1.03 Billion in Funds Put to Better Use
DoD obligated about $486.1 million on G222 aircraft that support the Afghan Air Forces. The NATO Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan and G222 Program Management Office officials did not effectively manage the G222 program and
did not determine the cost or availability of spare parts to sustain the aircraft. As a result, NATO Training Mission-Afghanistan/Combined Secu-
rity Transition Command-Afghanistan and G222 Program Management officials may spend about $200 million in Afghanistan Security Forces
Funds on spare parts for an aircraft that may not be sustainable. Subsequently the Air Force decided that once the sustainment support contract
expired in March 2013, no action would be taken to issue a new delivery order, ending the G222 program. According to the G222 Program Man-
agement Office officials, the program would have required an additional $830 million if continued through March 2022, as originally planned,
to include a significant amount for spare parts.




DCAA
Audit Report No. 09731-2010F17100910                                     Date: Oct. 26, 2012
Subject: Independent Audit of Termination Proposal
Prepared For: Defense Contract Management Agency
Report: $36.7 Million Questioned Cost
The audit of the termination settlement proposal questioned $36.7 million due to (i) proposed costs incurred after the termination date that
were included in a separate pricing action; (ii) lack of supporting documentation; (iii) proposed expenses exceeding the actual costs incurred;
and (iv) proposed costs not in compliance with various FAR provisions.


Audit Report No. 03321-2004K10100002                                     Date: Oct. 31, 2012
Subject: Independent Audit of Contractor Fiscal Year 2004 Corporate Home Office and Intermediate Home Offices Certified Final Indirect Cost
Proposal
Prepared For: Defense Contract Management Agency
                                                                                                            OCTOBER 1, 2012 TO MARCH 31, 2013 125
Appendix G

Report: $59.2 Million Questioned Cost
The audit of the indirect cost proposal questioned $59.2 million, including the following significant items: $19.5 million of claimed residual ex-
penses that should have been separately allocated to segments; $17.8 million of consultant costs that were not adequately supported with work
products, agreement details, or vendor invoices; $14.8 million of employee benefit costs which were not adequately supported with actual cost
information or calculations; and $3.7 million due to the contractor’s failure to include a credit to rent expense in its submission.


Audit Report No. 03321-2004K10100001                                       Date: Nov. 5, 2012
Subject: Independent Audit of Contractor Fiscal Year 2004 Incurred Cost Submission
Prepared For: Defense Contract Management Agency
Report: $1.2 Billion Non-Compliant Cost
The audit of the incurred cost submission resulted in identification of $1.2 billion of non-compliant costs with FAR and Cost Accounting Stan-
dards, including the following significant items: $1 billion of subcontract costs and $100 million of other direct costs such as travel, freight, and
employee benefits.


Audit Report No. 03191-2007O10100002                                       Date: Nov. 14, 2012
Subject: Independent Audit of FY 2007 Incurred Costs
Prepared For: Defense Contract Management Agency
Report: $44.5 Million Questioned Cost
The audit of the incurred cost proposal questioned $44.5 million including $43.7 million of prior period time and material labor; and $.8 million
of misclassified or out of period material, direct manufacturing and professional costs, and unallowable indirect costs.


Audit Report No. 02191-2012G17100001                                       Date: Dec. 14, 2012
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: Defense Contract Management Agency
Report: $78.0 Million
The audit of the termination settlement proposal questioned $78.0 million, including the following significant items: $73 million of inadequately
supported “other costs” which appears to be calculated lost profit; $3.6 million of labor costs not allocable to the contract or overstated due to
overstated labor rates.


Audit Report No. 03701-2010B17100005                                       Date: Dec. 20, 2012
Subject: Independent Audit of Termination Settlement Proposal
Prepared For: DCMA Terminations Division
Report: $57.3 Million Questioned Costs
The audit of the termination settlement proposal questioned $57.3 million, including the following significant items: $17 million of unabsorbed
overhead not recoverable on the terminated contract; $7.8 million of severance costs allocable to other contracts, or not required by law or
agreement; $11.1 million due to an inadequate subcontract settlement proposal; and $4.1 million of consulting costs not directly allocable to
the terminated contract in accordance with the contractor’s disclosed cost accounting practices.


Audit Report No. 06501-2007C10100001                                        Date: Dec. 20, 2012
Subject: Independent Audit of 2007 Incurred Cost Proposal
Prepared For: Defense Contract Management Agency
Report: $17.3 Million Questioned Costs
The audit of the incurred cost proposal questioned $17.3 million, including the following significant items: $3.3 million of costs for which no or
inadequate supporting documentation was provided; $3.8 million of pre-paid software maintenance costs not allocable to the period under
audit; $2.0 million of legal fees not allocable to the period or contractor segments under audit, or unallowable fees relating to bid protest or anti-
trust actions; and $1.1 million of construction expenses that should have been capitalized instead of expensed when incurred.




126 SEMIANNUAL REPORT TO THE CONGRESS
Audit Report No. 01291-2005H10100007                                      Date: Jan. 15, 2013
Subject: Independent Audit of Fiscal Year 2005 Incurred Costs
Prepared For: Defense Contract Management Agency
Report: $25.4 Million Questioned Costs
The audit of the incurred cost proposal questioned $25.4 million, including the following significant items: $5.4 million of excessive lease costs
for equipment leased from a related company; $5.8 million of subcontract costs questioned in an assist audit; and $10.5 million of subcontract
costs due to inadequate cost/price analysis or sole source justification, lack of supporting documentation, costs not in compliance with subcon-
tract terms, or duplicated costs.


Audit Report No. 02191-2012C17100001                                      Date: Feb. 1, 2013
Subject: Independent Audit of Termination for Convenience Settlement Proposal
Prepared For: U.S. Army Corps of Engineers
Report: $11.4 Million Questioned Cost
The audit of the termination settlement proposal questioned $11.4 million, including the following significant items: $4.3 million of direct labor
and associated overhead without adequate support for the amounts actually paid to employees; $3.0 million of indirect costs based on indirect
rates that were improperly computed using contract values as allocation bases instead of actual costs and which were not computed on a fiscal
year basis; and $3.3 million of subcontract costs for which detailed invoices were not provided and for which the contractor did not provide sole
source justification or evidence that the subcontracts were awarded competitively.


Audit Report No. 06391-2008D10100001                                      Date: Feb. 1, 2013
Subject: Independent Audit of Corporate Final Indirect Cost Allocations, Segment Executive Compensation, and Central Office Payments for
Fiscal Year 2008
Prepared For: Defense Contract Management Agency
Report: $22.8 Million Questioned Cost
The audit of the corporate allocations questioned $22.8 million, including the following significant items: $15.1 million for costs related to a
divested commercial segment that are unrelated to government contracts; $4.1 million of compensation and associated costs for employees
who performed unallowable activities (such as lobbying or organization activities); and $1.2 million for costs that should be allocated directly to
segments or for which adequate supporting documentation was not provided.


Audit Report No. 06321-2011T17900001                                      Date: Feb. 4, 2013
Subject: Independent Audit of Subcontract Costs for Period of Jan. 1, 2009 through end of the Subcontract Jan. 20, 2011
Prepared For: U.S. Department of State
Report: $30 Million Questioned Cost
The audit of the billed subcontract costs questioned $30 million due to the difference between the amount billed for the subcontractor using
the prime contractor’s time and material labor rates and the amount of subcontract costs actually incurred by the prime.


Audit Report No. 03311-2011C17900003                                      Date: Feb. 11, 2013
Subject: Independent Audit of Direct Costs
Prepared For: Naval Air Systems Command
Report: $93.4 Million Questioned Cost
The audit of the claimed direct costs questioned $93.4 million, including the following significant items questioned because the contractor
failed to obtain written contracting officer approval prior to incurring the costs as required by the contract: $43.8 million of subcontract costs,
$44.1 million of material and other costs; and of $5.5 million of travel expenses.


Audit Report No. 06281-2005H10100001                                      Date: Feb. 28, 2013
Subject: Independent Audit of FY 2005 Incurred Cost Submission
Prepared For: Defense Contract Audit Agency
Report: $98.5 Million Questioned Cost


                                                                                                               OCTOBER 1, 2012 TO MARCH 31, 2013 127
 The audit of the incurred cost submission questioned $98.5 million, including the following significant items: $55.2 million of pension costs in-
 correctly claimed at the corporate level; $2.2 million of pension administrative expenses that were out of period, inadequately supported, or not
 allocable to government segments; $9.1 million of health insurance premiums for employee dependents due to lack of evidence of the eligibility
 of the dependents for coverage; $6.2 million of out of period business insurance costs; and $4.3 million of other charges because the contractor
 did not provide the basis for allocating the costs to segments.

▶ Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




128 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                        Appendix H




                                                                                   Results of Peer Reviews
Peer Review of Department of Defense IG by U.S. Department of Housing and Urban Development Office of the Inspector General
The Department of Housing and Urban Development Office of the Inspector General, conducted an external peer review of DoD IG
Office of Audit and issued a final report Nov. 13, 2012. DoD IG received a peer review rating of pass (with a scope limitation). There are no
outstanding recommendations. A copy of the external quality control review report can be viewed at www.dodig.mil/pubs/reviews.html

Quality Control Review of the Defense Finance and Accounting Service Audit Organization
DoD IG conducted a review of the Defense Finance and Accounting Service audit organization covering a one year period ending June
30, 2011, and issued a report Feb. 28, 2013. DoD IG identified significant deficiencies in the DFAS audit organization’s compliance with
its system of quality control, including the failure to exercise sufficient professional judgment. As such, DFAS was issued a fail opinion
on its audit organization’s system of quality control. Federal audit organizations can receive a rating of pass, pass with deficiencies, or
fail. DoD IG review concluded that the DFAS audit organization did not comply with generally accepted government auditing standards
and their system of quality control for audits for the review period ended June 30, 2011. DoD IG determined that the system of quality
control did not provide reasonable assurance that DFAS audit personnel were following established guidance, policies, procedures, and
applicable audit standards. Thirteen recommendations were made to correct the noted deficiencies. DFAS concurred with 12 of the 13
recommendations.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(14),(15),(16) and Section
  8(c)(10).




                                                                                                                OCTOBER 1, 2012 TO MARCH 31, 2013 129
Appendix I




Acronyms
ACC-APG	          Army Contracting Command–Aberdeen                DPAP	       Defense Procurement and Acquisition Policy
                  Proving Ground	                                  E2C2	       Export Enforcement Coordination Center
ADA	              Antideficiency Act                               E2/C2	      E-2 Hawkeye/C-2 Greyhound Program
AFAA	             Air Force Audit Agency                           EBS	        Enterprise Business System
AFCEE	            Air Force Center for Engineering and the         ERP	        enterprise resource planning
                  Environment                                      FAR	        Federal Acquisition Regulation
AFIS	             Armed Forces Information Services                FBI	        Federal Bureau of Investigation
AFOSI	            Air Force Office of Special Investigations       FDA	        Food and Drug Administration
AMC	              Army Materiel Command	                           FFP	        firm fixed price	
ANA	              Afghan National Army                             FIAR	       Financial Improvement and Audit Readiness	
ANSF	             Afghan National Security Forces	                 FMTV	       family of medium tactical vehicles
ARNG	             Army National Guard		                            FOIA	       Freedom of Information Act
ASA(FM&C)	        Office of Assistant Secretary of the Army        FOUO	       for official use only
                  (Financial Management And Comptroller)           GAGAS	      generally accepted government auditing
ATF	              Bureau of Alcohol, Tobacco, Firearms, and                    standards
                  Explosives                                       GAO	        General Accountability Office
C2	               command and control	                             GSA	        General Services Administration
CA ARNG	          California Army National Guard                   HHS	        Department of Health and Human Services	
CCMR	             Center for Civil-Military Relations              HUBZones	   historically underutilized business zones
CFO	              Chief Financial Officer                          HME	        homemade explosions
CIGIE	            Council of the Inspectors General on Integrity   ICE	        Immigration and Customs Enforcement
                  and Efficiency                                   IED	        improvised explosive device
CIO	              chief information officer                        IG	         Inspector General
CIOC	             Command Intelligence Operations Center           IMCOM	      U.S. Army Installation Management Command
CITF	             Criminal Investigation Task Force                INN	        International Nephrology Network (renamed
CODIS	            Combined DNA Index System                                    Integrated Nephrology Network)
CONUS	            continental United States                        INTERPOL	   International Criminal Police Organization
COR	              contracting officer representative               IRS-CI	     Internal Revenue Service-Criminal
DA	               Department of the Army                                       Investigation
DAGR	             Defense Advanced GPS Receiver                    ISAF	       International Security Assistance Force
DARPA	            Defense Advanced Research Projects Agency        IT	         information technology	
DASD PSO 	        Deputy Assistant Secretary of Defense for        JTFR	       joint federal travel regulations
                  Partnership Strategy and Stability Operations    LEP	        law enforcement professionals
DCAA	             Defense Contract Audit Agency                    MAC	        multiple-award contract
DCIS	             Defense Criminal Investigative Service           MCIO	       military criminal investigative organizations
DCMA	             Defense Contract Management Agency               MEDCOM	     U.S. Army Medical Command
DDO	              deputy disbursing officer                        MHE	        mental health evaluation
DEA	              Drug Enforcement Administration                  MILCON	     military construction	
DFAS	             Defense Finance and Accounting Service           MILPERS	    military personnel		
DIRI	             Defense Institution Reform Initiative            MOA	        memorandum of agreement
DIA	              Defense Intelligence Agency                      MoDA	       Ministry of Defense Advisors
DLA 	             Defense Logistics Agency                         NADCAP	     National Aerospace and Defense Contractors
DNA	              deoxyribonucleic acid                                        Accreditation Program
DoD	              Department of Defense                            NAF	        Nonappropriated Fund
DoD IG	           Department of Defense Inspector General          NAFI	       Nonappropriated Fund Instrumentality
DOE	              Department of Energy                             NASA	       National Aeronautics and Space Administration
DON	              Department of the Navy                           NASNI	      Naval Air Station North Island

130 SEMIANNUAL REPORT TO THE CONGRESS
NATO	        North Atlantic Treaty Organization                SBA	        Small Business Administration
NAVAUDSVC	   Naval Audit Service                               SES	        senior executive service
NAVFAC	      Navy Facilities Engineering Command               SFIS	       Standard Financial Information Structure
NAVSUP	      Naval Supply Systems Command                      SDVOSB	     Service-disabled veteran-owned small business
NAVSUP WSS	  Naval Supply Systems Command Weapons              SOF	        Special Operations Forces	
             System Support                                    SSA	        Supply Support Activities
NDAA	        National Defense Authorization Act                TMA	        TRICARE Management Activity
NCIS	        Naval Criminal Investigative Service              TRADOC	     U.S. Army Training and Doctrine Command	
NJTTF	       National Joint Terrorism Task Force               TSS	        Training Support System
NMH	         National Military Hospital	                       USAAA	      U.S. Army Audit Agency
NTM-A/CSTC-A	NATO Training Mission – Afghanistan/              USACE	      U.S. Army Corps of Engineers
             Combined Security Transition Command –            USACE TAN 	 U.S. Army Corps of Engineers Transatlantic
             Afghanistan                                                   District-North
NWRM	        nuclear weapons related material                  USACIDC	    U.S. Army Criminal Investigation Defense
OBT	         (Army) Office of Business Transformation                      Command
OSHA	        Occupational Safety and Health Administration     USACIL	     U.S. Army Criminal Investigation Laboratory
	Personnel                                                     USAMMA	     U.S. Army Medical Materiel Agency
OCONUS	      outside the continental United States             U.S.C.	     U.S. Code
OIG	         Office of Inspector General                       USD(AT&L)	  Under Secretary of Defense for Acquisition,
OMB	         Office of Management and Budget                               Technology, and Logistics
OPM	         Office of Personnel Management                    USD(C) 	    Under Secretary of Defense (Comptroller)	
OPTEMPO	     operating tempo                                   USMA	       U.S. Military Academy	
PARC	        principal assistant responsible for contracting   USTRANSCOM	 U.S. Transportation Command
PEO	         program executive officer	                        VA	         Veterans Affairs	
PMO	         Program Management Office                         WPO	        Whistleblower Protection Ombudsman
PMO Stryker	 Project Management Office for Stryker Brigade     WERS	       Worldwide Environmental Remediation
             Combat Team                                                   Services	
PV	          prime vendor                                      WRI	        whistleblower reprisal investigation
QA	          quality assurance	




                                                                                           OCTOBER 1, 2012 TO MARCH 31, 2013 131
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection Om-
budsman to educate agency employees about prohibitions on retali-
ation, and rights and remedies against retaliation for protected dis-
closures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
               www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
              Congressional@dodig.mil; 703.604.8324
                            DoD Hotline
                           800.424.9098
                           Media Contact
               Public.Affairs@dodig.mil; 703.604.8324
                          Monthly Update
                dodigconnect-request@listserve.com
                        Reports Mailing List
                dodig_report-request@listserve.com
                              Twitter
                        twitter.com/DoD_IG
DoD IG Semiannual Report to the Congress -October 1, 2012 - March 31, 2013

                                                                D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
